<html>
<title> - TEEN PREGNANCY PREVENTION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                       TEEN PREGNANCY PREVENTION
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2001
                               __________

                           Serial No. 107-48
                               __________

         Printed for the use of the Committee on Ways and Means








                        U.S. GOVERNMENT PRINTING OFFICE
77-054                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff
                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky











Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














                            C O N T E N T S

                              ----------                              
                                                                   Page
Advisory of November 8, 2001, announcing the hearing.............     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Bobby P. 
  Jindal, Assistant Secretary for Planning and Evaluation........     7

                                 ______

Best Friends Foundation, Elayne G. Bennett.......................    38
Greater New Britain Teen Pregnancy Prevention, Inc., RoseAnne 
  Bilodeau.......................................................    62
Maynard, Rebecca A., University of Pennsylvania..................    55
Medical Institute for Sexual Health, Joe S. McIlhaney, Jr., M.D..    65
National Campaign to Prevent Teen Pregnancy, Sarah S. Brown......    46
Virginia Department of Health, Abstinence Education Initiative, 
  Gale E. Grant..................................................    33

                       SUBMISSIONS FOR THE RECORD

Abstinence Educators' Network, Inc., Mason, OH, Melanie Howell, 
  statement......................................................    96
Alan Guttmacher Institute, New York, NY, Jacqueline E. Darroch, 
  letter.........................................................    98
Center for Law and Social Policy, Jodie Levin-Epstien, letter and 
  attachment.....................................................   100
Educational Guidance Institute, Front Royal, VA, Onalee McGraw, 
  statement......................................................   103
Friends First, Longmont, CO, Lisa A. Rue, letter and attachments.   107
Green, Bob and Peggy, Cape Canaveral, FL, statement..............   108
National Abstinence Clearinghouse, Sioux Falls, SD, Leslee J. 
  Unruh, statement...............................................   108
National Organization on Adolescent Pregnancy, Parenting and 
  Prevention, Inc., Mary Martha Wilson, letter and attachment....   112
New Mexico GRADS, Roswell, NM, Kathy Van Pelt, letter............   116
Pennsylvania Coalition to Prevent Teen Pregnancy, Harrisburg, PA, 
  statement......................................................   116
Project Reality, Glenview, IL:
    Kathleen M. Sullivan, statement..............................   120
    Statement....................................................   120
REACH (Responsibility Education for Abstinence, Character & 
  Health), Arcanum, OH, statement................................   121
Wood, William, Charlotte, NC, statement..........................   125














                       TEEN PREGNANCY PREVENTION

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
November 8, 2001
No. HR-9

                    Herger Announces Hearing on Teen

                          Pregnancy Prevention

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on national progress in reducing teen 
pregnancy and related issues as the Subcommittee prepares for 
reauthorization next year of key features of the 1996 welfare reform 
law. The hearing will take place on Thursday, November 15, 2001, in 
room B-318 Rayburn House Office Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives of the U.S. Department of Health 
and Human Services, program administrators, researchers, and other 
experts in pregnancy prevention strategies. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (P.L. 104-193), commonly referred to as the 1996 welfare reform 
law, made dramatic changes in the Federal-State welfare system designed 
to aid low-income American families. The law repealed the former Aid to 
Families with Dependent Children program, and with it the individual 
entitlement to cash welfare benefits. In its place, the 1996 
legislation created a new Temporary Assistance for Needy Families 
(TANF) block grant that provides fixed funding to States to operate 
programs designed to achieve several purposes: (1) provide assistance 
to needy families, (2) end the dependence of needy parents on 
government benefits by promoting job preparation, work, and marriage, 
(3) prevent and reduce the incidence of out-of-wedlock pregnancies, and 
(4) encourage the formation and maintenance of two-parent families.
      
    In addition to a basic program orientation toward preventing teen 
and other out-of-wedlock pregnancies as a key method of combating long-
term welfare dependence, the law includes several specific provisions 
designed to address this issue, including: (1) the provision of $250 
million in abstinence education funding, (2) permission for States to 
limit cash welfare for unmarried teen parents, and (3) the requirement 
that teens be in school and living at home or with an adult in order to 
receive assistance. States also are authorized to use block grant funds 
to provide, or assist in locating, adult-supervised living 
arrangements, such as second-chance homes, for teen mothers.
      
    In announcing the hearing, Chairman Herger stated: ``Teen pregnancy 
cuts short the teen parents' opportunities to build a promising future, 
and puts their child at a fundamental disadvantage in so many ways. It 
means years of dependence for many struggling young families, which is 
a cycle that has repeated itself too often in recent generations. It is 
easy to see why preventing and reducing the incidence of teen pregnancy 
is absolutely critical to progress on welfare reform. I look forward to 
hearing about the effects of the welfare law's provisions and what 
lessons we have learned that can help us as we move ahead next year.''
      

FOCUS OF THE HEARING:

      
    This hearing will focus on teen pregnancy prevention efforts since 
enactment of the welfare reform law in 1996, and recommendations for 
further improvements to prevent and reduce the incidence of teen 
pregnancy during the reauthorization of the TANF program in 2002.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
``<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3cbc6c2d1cacdc4c0cfc6d1c8d08dd4c2dad0c2cdc7cec6c2cdd0e3cec2cacf8dcbccd6d0c68dc4ccd5">[email&#160;protected]</a>'', along with a fax copy to 
202/225-2610, by the close of business, Thursday, November 29, 2001. 
Those filing written statements who wish to have their statements 
distributed to the press and interested public at the hearing should 
deliver 200 copies to the Subcommittee on Human Resources in room B-317 
Rayburn House Office Building, in an open and searchable package 48 
hours before the hearing. The U.S. Capitol Police will refuse sealed-
packaged deliveries to all House Office buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record, or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
``hearingclerks.waysandmeans
@mail.house.gov'', along with a fax copy to 202/225-2610, in 
WordPerfect or MS Word format and MUST NOT exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov/''.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>

    Chairman Herger. Good morning, and welcome to today's Human 
Resources Subcommittee hearing on Teen Pregnancy Prevention. 
This hearing is a continuation of our review of welfare issues 
in preparation for next year's reauthorization of the Temporary 
Assistance for Needy Families (TANF) program at the heart of 
the 1996 Welfare Reform Law. Three of TANF's four basic 
purposes relate to preventing out-of-wedlock birth, and the law 
included several provisions encouraging States to address the 
problem of teen pregnancy.
    The reasons are obvious. Recent decades of seeing teen 
childbearing in particular and out-of-wedlock childbearing in 
general become reliable predictors of welfare receipt. But 
there is more to this issue than just welfare. As Isabel 
Sawhill, President of the National Campaign to Prevent Teen 
Pregnancy puts it, ``Almost no one thinks that teen unwed 
pregnancy and parenting is a good idea.'' I fully agree. There 
are important health consequences for young people who are 
sexually active as we will hear today.
    As we head for reauthorization of TANF in 2002, a key issue 
will be what progress we have made in reducing out-of-wedlock 
births starting with births to teens, who as a group are the 
least equipped to support a baby. The good news is that the 
progress made to date has been impressive. In the 1999-2000 
annual report of the National Strategy to Prevent Teen 
Pregnancy, the U.S. Department of Health and Human Services 
(HHS) reported that: ``Teen pregnancy and birth rates in this 
country have declined to record low levels. Further, trends 
throughout the nineties have shown a steady reduction in teen 
birth rate that is now significant for all 50 States.''
    The bad news is that there is still a long way to go. The 
United States has one of the highest teen pregnancy rates in 
the industrialized world, but we are moving forward and are 
interested in building on the progress we have made to date. 
Thus, among other questions, today's hearing should help us 
focus on two specific questions. First, why are we making 
progress against teen pregnancy? And second, what further steps 
should we consider during next year's reauthorization of the 
1996 Welfare Reform Law.
    I look forward to exploring these issues with all of our 
witnesses today. Without objection, each Member will have the 
opportunity to submit a written statement and have it included 
in the record at this point.
    Mr. Cardin, would you like to make an opening statement?
    [The opening statement of Chairman Herger follows:]
    Opening Statement of the Hon. Wally Herger, a Representative in 
 Congress from the State of California, and Chairman, Subcommittee on 
                            Human Resources
    Good morning and welcome to today's Human Resources Subcommittee 
hearing on teen pregnancy prevention. This hearing is a continuation of 
our review of welfare issues in preparation for next year's 
reauthorization of the Temporary Assistance for Needy Families program 
at the heart of the 1996 welfare reform law.
    Three of TANF's four basic purposes relate to preventing out-of-
wedlock births, and the law included several provisions encouraging 
States to address the problem of teen pregnancy. The reasons are 
obvious--recent decades have seen teen childbearing in particular and 
out-of-wedlock childbearing in general become reliable predicators of 
welfare receipt.
    But there is more to this issue than just welfare. As Isabel 
Sawhill, President of the National Campaign to Prevent Teen Pregnancy, 
put it: ``Almost no one thinks that teen unwed pregnancy and parenting 
is a good idea.'' I fully agree. There are important health 
consequences as well for young people who are sexually active, as we 
will hear today.
    As we head for reauthorization of TANF in 2002, a key issue will be 
what progress we have made in reducing out-of-wedlock births, starting 
with births to teens, who as a group are the least equipped to support 
a baby.
    The good news is that the progress made to date has been 
impressive. In the 1999-2000 Annual Report of the National Strategy to 
Prevent Teen Pregnancy, HHS reported that, ``teen pregnancy and birth 
rates in this country have declined to record low levels.'' Further, 
``Trends throughout the 1990s have shown a steady reduction in teen 
birth rates that is now significant for all 50 States.''
    The bad news is there is still a long way to go. The United States 
has one of the highest teen pregnancy rates in the industrialized 
world. But we are moving forward, and are interested in building on the 
progress we have made to date.
    Thus, among other questions, today's hearing should help us focus 
on two specific questions: First, why are we making progress against 
teen pregnancy and second, what further steps should we consider during 
next year's reauthorization of the 1996 welfare reform law? I look 
forward to exploring these issues with all of our witnesses today.

                                <F-dash>


    Mr. Cardin. Well, thank you, Mr. Chairman.
    First let me welcome our witnesses that are with us today, 
and I thank you for holding this hearing on an extremely 
important subject.
    There is no question that reducing teenage pregnancy is a 
goal that enjoys broad bipartisan support here in Congress. 
Reducing teen pregnancy is not a panacea for every social 
program, but it will help promote better outcomes for family. 
In short, convincing young people to delay pregnancy will put 
them in a much better position to provide for and care for 
their children.
    Mr. Chairman, I think you stated it accurately in that we 
are very pleased that we have been able to reduce teenage 
pregnancy, but we still have the largest teenaged pregnancy of 
any of the industrial nations of the world, developed nations 
of the world.
    So the question is, what can we do to buildupon the success 
that we have had as we go to the next level of TANF and Welfare 
Reform? And to answer that I think we first need to try to 
understand why we have had the success that we have had in 
reducing teenage pregnancy, and I would suggest that there are 
multiple factors that have played a role in reducing the number 
of teenage pregnancies in our society. Clearly the rising fear 
of sexually transmitted diseases over the last decade decreased 
sexual activity and unprotected sex among teenagers. Second, 
increased access to contraception and more effective forms of 
long-term contraception reduced the number of unintended 
pregnancies. Third, local efforts to reduce teenage births 
through counseling and other methods have produced some 
positive results. While I have not seen any corroborative 
evidence for this presumption, I would guess that a decade of 
strong economic growth has had a positive impact on reducing 
teenage pregnancy because there is more hope out there, and 
that I think has led people to make more mature decisions about 
their family.
    I might point out though that I am not sure there is any 
real evidence as to the direct actions that we took in the 1996 
law, what impact that has had on our success in reducing 
teenage pregnancies. We need to take a look at that, Mr. 
Chairman. We need to take a look at what we should be doing on 
welfare reform.
    In terms of what this means for the future, I would say 
that we should continue our focus on personal responsibility. 
We should do a better job of not only funding local efforts to 
combat teen pregnancy, but also highlighting successful 
programs, which should increase access to youth development and 
after-school programs that give teenagers productive activities 
to pursue, and we should promote the value of abstinence 
without undercutting our commitment to providing access to and 
information about contraception.
    On this last issue, I think it is important to remember 
that discussing contraception has never been found to promote 
sexual activity among teenagers, but there is evidence that 
such discussion reduces unintended pregnancies. This means that 
we can tell teenagers that abstinence is always the best 
option, but if they do have sex, they should take precautions 
against pregnancy and sexually transmitted diseases.
    I look forward to learning today from the witnesses that we 
have on the panel, and I will look forward to working with all 
my colleagues in developing the right policy to promote the 
goal of reducing teenage births.
    [The opening statement of Mr. Cardin follows:]
  Opening Statement of the Hon. Benjamin Cardin, a Representative in 
                  Congress from the State of Maryland
    Mr. Chairman, I am pleased to be here today to discuss our Nation's 
effort to reduce teenage pregnancy--a goal for which there is broad 
bipartisan support.
    Reducing teen births is not a panacea for every social problem, but 
it will help promote better outcomes for families. In short, convincing 
young people to delay pregnancy will put them in a much better position 
to provide and care for their children.
    Fortunately, progress is being made on this important issue. Both 
teen pregnancy and teen birth rates have been falling since 1991--with 
the teen birth rate hitting a record low last year. However, even with 
this improvement, the United States still has the highest teenage birth 
rate among developed countries.
    The question before this panel is how do we maintain the current 
progress on reducing teen pregnancy. To answer that inquiry, we first 
need to develop a consensus on what policy and societal changes 
prompted the improvement in teen pregnancy rates that have occurred 
over the last ten years.
    As is so often the case, there is no single answer. Rather, there 
are mix of causes, some of which are linked to changes in public policy 
and some of which have nothing to do with any particular action taken 
by the government.
    First, a rising fear of sexually-transmitted diseases over the last 
decade decreased sexual activity and/or unprotected sex among 
teenagers.
    Second, increased access to contraception and more effective forms 
of long-term contraception, such as Depo-Provera, reduced the number of 
unintended pregnancies.
    Third, local efforts to reduce teenage births, through counseling 
or other methods, may have produced some positive results.
    Forth, while I have not seen any corroborative evidence for this 
presumption, I would guess that a decade of strong economic growth had 
a positive impact on reducing teenage pregnancies to the extent it 
reduced the sense of hopelessness and hardship that sometimes leads to 
unwise decisions.
    And finally, a more general change may have occurred in young 
people's attitude towards sex. Many factors may have contributed to 
this last change, including government policies that stress personal 
responsibility, such as the provisions on promoting work and on 
enforcing child support obligations in the 1996 welfare law.
    However, there is no evidence that any of the provisions in the 
1996 welfare law that specifically targeted reducing teen and non-
marital births have had any discernable impact.
    In terms of what this means for the future, I would say that we 
should continue our focus on personal responsibility; we should do a 
better job of not only funding local efforts to combat teen pregnancy, 
but also of highlighting successful programs; we should increase access 
to youth development and after-school programs that give teenagers 
productive activities to pursue; and we should promote the value of 
abstinence without undercutting our commitment to providing access to 
and information about contraception.
    On this last issue, I think it is important to remember that 
discussing contraception has never been found to promote sexual 
activity among teenagers, but there is evidence that such discussions 
reduce unintended pregnancies. This means that we can tell teens that 
abstinence is always the best option, but if they do have sex, they 
should take precautions against pregnancy and sexually-transmitted 
diseases.
    I look forward to hearing from our witnesses about their views on 
how best to continue our progress on reducing teen births. Thank you.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Cardin.
    Before we move on to our testimony this morning, I want to 
remind our witnesses to limit their oral statements to 5 
minutes. However, without objection, all the written testimony 
will be made a part of the permanent record.
    To welcome our first witness today, I will turn to Mr. 
McCrery.
    Mr. McCrery. Thank you, Mr. Chairman. Our first witness is 
Bobby Jindal from the U.S. Department of Health and Human 
Services. Bobby is from my home State of Louisiana, comes to 
HHS with a very distinguished resume. He started his career in 
my office as an intern, so a very distinguished record.
    [Laughter.]
    Mr. McCrery. He was an undergraduate at Brown. Went on to 
earn a Rhodes scholarship, furthered his studies overseas. Came 
back to the United States, became the Secretary of the 
Department of Health and Hospitals in Louisiana at a fairly 
young age of 24, I believe, something like that. And then 
became the executive director of the Medicare Reform Commission 
that was formed several years ago. When that work was 
completed, Bobby went back to Louisiana to become president of 
the Louisiana State Colleges and University system, and that is 
where we found him and brought him back to Washington to be the 
assistant secretary for planning and evaluation at HHS.
    And we are indeed fortunate, Mr. Chairman, to have people 
of the quality of Bobby Jindal serving the public in 
Washington, D.C., and so I am very pleased to introduce our 
first witness, Bobby Jindal.
    Chairman Herger. Thank you, Mr. McCrery. And with that, Mr. 
Jindal, your testimony, please.

STATEMENT OF THE HON. BOBBY P. JINDAL, ASSISTANT SECRETARY FOR 
 PLANNING AND EVALUATION, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Jindal. Thank you, Mr. Chairman.
    Thank you, Representative McCrery for that kind 
introduction. I have often referred to the internship as the 
highlight of my career and resume as well.
    [Laughter.]
    Mr. Jindal. Mr. Chairman, Members of the Subcommittee, I 
thank you for this opportunity. I thank you for inviting me to 
come discuss with you today the Department's teen pregnancy 
prevention activities, especially those since the passage of 
the Personal Responsibility and Work Opportunity Reconciliation 
Act of 1996.
    Like the Chairman and other Members have noted, I think 
this is a very important topic, and I do appreciate the 
opportunity to come and share some information with you this 
morning. The Welfare Reform Law highlighted the importance of 
addressing teen pregnancy prevention by recognizing the 
negative consequences of out-of-wedlock births particularly for 
teens. We know from the research that more than 80 percent of 
teens age 17 and younger who become parents ultimately require 
public assistance. Teen mothers face challenges when they 
become parents too early because they often drop out of school, 
have few skills to prepare them for work, have low rates of 
marriage, and are not adequately supported by the fathers of 
their children. The children born to unmarried teen mothers are 
at higher risk of having low-birth weights, have problems in 
their cognitive development and in school achievement, and are 
more vulnerable to child abuse. These children are also more 
likely to become teen parents themselves, to require public 
assistance as young adults, and are more likely to have trouble 
with the law.
    In response to these findings, the 1996 Welfare Reform Law 
required the Department to establish a national Strategy to 
Prevent Teen Pregnancy. The Department's three annual reports 
to the Congress provide descriptions of our programs, technical 
assistance, research, evaluation activities, and surveillance 
activities that we have conducted to address this issue. The 
law also required the Department to ensure that at least 25 
percent of communities have teen pregnancy prevention efforts. 
I am pleased to report that in 2001 the Department is 
supporting such efforts in at least 47 percent, almost half, of 
America's communities. This is likely a conservative estimate 
because it does not include activities funded under block grant 
programs to States for which data are not readily available. So 
this only includes direct grants to communities, not the many 
dollars expended to block grant programs.
    I will shortly highlight some of the major activities taken 
by the Department to prevent teen pregnancies and especially to 
encourage adolescents to remain abstinent.
    But first let me briefly describe the latest trends. We 
heard some references to these trends already. Let me briefly 
describe the latest trends in teen births and pregnancies.
    Teen birth rates have been steadily declining according to 
the latest data compiled from the Department's Center for 
National Health Statistics. The overall birth rate for 
teenagers declined by 22 percent from 1991 to 2000, and is 
currently at its lowest rate ever.
    However, we should be clear, as the Chairman and others 
have noted, that the U.S. teen birth rate is still too high, 
and of particular importance, it is still considerably higher 
than rates for other developed countries. The U.S. rate in 2000 
was 48.7 births per 1,000 teens. This compares to rates under 
30 births per 1,000 teens in nearly all the other developed 
countries reported by the Centers for Disease Control and 
Prevention (CDC), and rates fewer than 10 births per 1,000 
teens in nearly one half of those countries.
    The declines in U.S. teen birth rates cut across ages, 
States, races and ethnic groups. Specifically, the birth rate 
for younger teens, those aged 15 to 17 years of age, fell by 4 
percent between 1999 and 2000, and 29 percent between 1991 and 
2000. The 2000 rate is a record low for our country.
    The rate for older teens, those aged 18 and 19 years of 
age, fell by 1 percent between 1999 and 2000, and is down 16 
percent from its recent high in 1992.
    Between 1991 and 1999, teen birth rates fell by 25 percent 
or more in nine States and the District of Columbia and the 
Virgin Islands, with declines in five of these States exceeding 
30 percent. As the Chairman noted, the declines have happened 
in all 50 States.
    The overall birth rate for black teens fell 31 percent from 
1991 to 2000 to reach a record low, and for young black teens, 
those aged 15 to 17, it dropped by 40 percent. This drop is to 
a great extent the result of teen mothers delaying second 
births.
    Among Hispanic teens declines in birth rates have been more 
modest, falling by 13 percent between 1994 and 1999, and 
actually increasing by 1 percent in 2000.
    Rates among white non-Hispanic teens fell by 24 percent 
since 1991, and remain lower than rates among either black or 
Hispanic teens. Rates for Asian teens remain the lowest of all 
the different subgroups.
    Birth rates for teens who are not married also declined in 
1999, our most recent year of data. Since 1994 the rates for 
teens aged 15 to 17 years of age has fallen 20 percent, and the 
rates for teens aged 18 and 19 dropped 10 percent. However, 
despite these declines in birth rates, the proportion of teen 
births to unmarried teenagers continues to rise and remained 
very high in 1999. The majority of births to 15 to 19 years old 
were to unmarried teens. I think it was something over 75 
percent over three quarters. The increase in the percentage of 
unmarried teens having children reflects in part the fact that 
birth rates for married teens have fallen considerably in 
recent years, and also the fact that many fewer teens are 
getting married.
    The teen pregnancy rate has also fallen. This rate takes 
account of teen births, abortions and miscarriages. These data 
are less current and less detailed due to variability across 
States in collecting abortion data. We can measure U.S. teen 
pregnancy rates only since 1976 to 1997 due to that lack of 
consistent national data. In 1997 the rate was 94.3 pregnancies 
per 1,000 teen women.
    I notice that I am getting close to the end of my time, so 
with the Chairman's permission, I will just take a minute to 
skip forward and get to the program descriptions.
    My testimony does include much more detail on what we 
found. The quick summary is that teen pregnancy rates have also 
fallen, just as the birth rates have fallen.
    Let me quickly describe what we know from the research, and 
I will refer you again to research in the written testimony 
from the National Institute of Health, both through 
longitudinal study and a Youth Risk Behavior Surveillance 
Study.
    One of the things I want to stress in my testimony is that, 
as a Department, we think that the Congress's actions in 
instructing us and giving us the opportunity to do this 
research and evaluate programs is very important, and so we 
thank you for that opportunity, and we think that it will help 
inform the conversations we have going forward.
    The research shows you several important things in terms of 
the likelihood for teens to engage in risky behavior, including 
sexual activity, as well as drinking and taking other chances.
    What I do want to get to before I close, however, are what 
some of the evaluations are saying on programs and 
interventions. Studies show that those programs that include a 
youth development component are those that have demonstrated 
more success. For example, the way that it is commonly 
paraphrased, the more that we can allow students to say yes, 
not just say no, tends to improve our success rates. Specific 
findings also show that virginity pledges have been successful, 
in many instances, in convincing teens to delay their first 
sexual intercourse. It is most effective in schools where 30 
percent of the student body also pledges. However, it also 
shows that if teens do become sexually active, they are less 
likely to protect themselves.
    Let me close there just by saying in one sentence that the 
Department funds several programs, both abstinence-only and 
other programs, aimed at at-risk teens. The details are in your 
testimony. I will stop there since I am well over time, and I 
have submitted a more comprehensive set of written comments.
    And I do know that on the panel, you also have somebody 
that is working directly with the Department to do the 
evaluation on Title V Abstinence Education Program. Rebecca 
Maynard is here. She is the investigator that was chosen 
through a competitive process to evaluate the abstinence 
programs funded by this Congress.
    And I will just close where I started with saying this is 
obviously a very important issue. We are pleased that teen 
pregnancy and birth rates are declining. We have a lot more 
work to do, and we do think the evaluation components will be 
very important in informing the debate going forward.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jindal follows:]
Statement of the Hon. Bobby P. Jindal, Assistant Secretary for Planning 
      and Evaluation, U.S. Department of Health and Human Services
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to come today to discuss the Department's teen pregnancy 
prevention activities since the passage of the Personal Responsibility 
and Work Opportunity Reconciliation Act (PRWORA) of 1996. This welfare 
reform law highlighted the importance of addressing teen pregnancy 
prevention by recognizing the negative consequences of out-of-wedlock 
births, particularly for teens. We know from the research that more 
than 80 percent of teens age 17 and younger who become parents 
ultimately require public assistance. Teen mothers face challenges when 
they become parents too early because they often drop out of school, 
have few skills to prepare them for work, have low rates of marriage, 
and are not adequately supported by the fathers of their children. The 
children born to unmarried teen mothers are at higher risk of having 
low-birth weights, have problems in their cognitive development and in 
school achievement, and are more vulnerable to child abuse. These 
children are also more likely to become teen parents themselves and to 
require public assistance as young adults.
    In response to these findings, the 1996 welfare reform law required 
the Department to establish a National Strategy to Prevent Teen 
Pregnancy. The Department's three annual reports to the Congress 
provide descriptions of our programs, technical assistance, research, 
evaluation, and surveillance activities we conduct to address this 
issue. The law also required the Department to ensure that at least 25 
percent of communities have teen pregnancy prevention efforts. I am 
happy to report that in 2001, the Department is supporting such efforts 
in at least 47 percent of America's communities. This a conservative 
estimate because it does not include activities funded under block 
grant programs to States for which data are not readily available.
    I will shortly highlight some of the major activities taken by the 
Department to prevent teen pregnancies and especially to encourage 
adolescents to remain abstinent. But first, let me briefly describe the 
latest trends in teen births and pregnancies.
Trends in Teen Births and Pregnancies
    Teen birth rates have been steadily declining, according to the 
latest data compiled from the Department's National Center for Health 
Statistics. The overall birth rate for teenagers declined by 22 percent 
from 1991 to 2000, and is currently at its lowest level ever.
    However, we should be clear--the U.S. teen birth rate is still too 
high, and it is considerably higher than rates for other developed 
countries. The U.S. rate in 2000 was 48.7 births per 1,000 teens. This 
compares to rates under 30 births per 1,000 teens in nearly all the 
other developed countries reported by CDC, and rates fewer than 10 
births per 1000 teens in nearly one half of those countries.
    These declines in U.S. teen birth rates cut across ages, states, 
races, and ethnic groups. Specifically----

          <bullet> The birth rate for younger teens (ages 15-17 years) 
        fell by four percent between 1999 and 2000, and 29 percent 
        between 1991 and 2000. The 2000 rate is a record low for the 
        Nation.
          <bullet> The rate for older teens (ages 18-19 years) fell by 
        one percent between 1999 and 2000, and is down 16 percent from 
        its recent high in 1992.
          <bullet> Between 1991 and 1999, teen birth rates fell by 25 
        percent or more in 9 states and the District of Columbia and 
        the Virgin Islands, with declines in five of these states 
        exceeding 30 percent.
          <bullet> The overall birth rate for black teens fell 31 
        percent from 1991 to 2000 to reach a record low, and for young 
        black teens (age 15-17) it dropped 40 percent This drop is to a 
        great extent the result of teen mothers delaying second births.
          <bullet> Among Hispanic teens, declines in birth rates have 
        been more modest, falling by 13 percent between 1994 and 1999, 
        and actually increasing by one percent in 2000.
          <bullet> Rates among white non-Hispanic teens fell by 24 
        percent since 1991, and remain lower than rates among either 
        black or Hispanic teens. Rates for Asian teens remain the 
        lowest of all.

    Birth rates for teens who are not married also declined in 1999 
(our most recent year of data). Since 1994, the rate for teens ages 15-
17 years has fallen 20 percent, and the rate for teens ages 18-19 
dropped 10 percent. However, despite these declines in birth rates, the 
proportion of teen births to unmarried teenagers continues to rise and 
remained very high in 1999. The majority of births to 15 to 19 year 
olds were to unmarried teens. The increase in the percentage of 
unmarried teens having children reflects in part the fact that birth 
rates for married teens have fallen considerably in recent years, and 
fewer teens are getting married.
    The teen pregnancy rate has also fallen. This rate takes account of 
teen births, abortions, and miscarriages. These data are less current 
and less detailed due to variability across states in collecting 
abortion data. We can measure U.S. teen pregnancy rates from 1976 to 
1997. In 1997 the rate was 94.3 pregnancies per 1,000 teen women. This 
is 19 percent lower than its peak in 1991, and its lowest point in the 
20 plus years for which we have data. Declines in teen pregnancy rates 
reflect reductions in both teen births and teen abortions. The drop in 
teen pregnancy rates during this period occurred across age and ethnic 
groups----

          <bullet> Between 1990 and 1997 teen pregnancy rates for 
        younger teens fell by 21 percent and rates among older teens 
        fell by 13 percent.
          <bullet> Declines in pregnancy rates during this period were 
        steepest for non-Hispanic white and black teens, falling by 23 
        and 26 percent respectively. Among Hispanic teens, abortion 
        rates did not start falling until 1994, and have fallen by 11 
        percent between 1994 and 1997.
What We Know from the Research
    Recent research from nationally representative surveys (such as the 
National Longitudinal Study on Adolescent Health (Add Health) and the 
Youth Risk Behavior Surveillance Survey (YRBSS)) gives us a great deal 
of information about how our young people are faring and what factors 
influence avoiding risky behaviors such as the initiation of early 
sexual activity. Add Health is a Congressionally-mandated study which 
asks students questions about their lives including their health, 
friendships, self-esteem, and expectations for the future. Twenty 
thousand students are being followed longitudinally and have already 
completed three waves of questions. Since 1996 we have seen a number of 
published reports using the data collected from this study. The YRBSS 
is a CDC survey administered every two years that is used to measure 
the incidence of risk behaviors nationally, as well as at the state 
level.
    While the studies show that most teens are doing well, they do 
confirm that a significant proportion of teens put themselves at risk. 
Let me highlight some of the interesting findings. We have learned from 
the YRBSS that in 1999:

          <bullet> 27 percent of 9th graders and 51 percent of 12th 
        graders reported having had sexual intercourse in the previous 
        three months.
          <bullet> 50 percent of all students reported drinking alcohol 
        on one or more occasions in the last month.
          <bullet> 27 percent of students reported having smoked 
        marijuana in the last month.

    Findings from Add Health have taught us that the home environment 
plays a major role in teen decisionmaking. They have shown that 
students' feelings of connection to school appear to protect them from 
health risks. Findings also show that teens who have strong ties to 
family and school are more likely than their peers to delay sexual 
intercourse and engage in less drug use, violence, and suicide. 
Conversely, Add Health also has shown that negative peer influences 
combined with poor parental supervision are associated with adverse 
health outcomes.
    Specific findings from the Add Health study also included some 
related to virginity pledges Teens who have taken a public pledge to 
remain virgins until they are married are more likely to delay first 
sexual intercourse and to report that their parents disapproved of 
their having sex. Taking the pledge is most effective in schools where 
more than 30 percent of the student body also pledges. However, if 
there are no other pledgers, or if more than three-quarters of the 
students take the pledge, the pledge loses its power. In addition, if 
these teens become sexually active they are less likely to protect 
themselves from pregnancy or sexually transmitted diseases (STDs). 
Other studies are examining the best prevention methods for working 
with adolescents to help them protect themselves from risk.
    In further support of what we have learned through Add Health, a 
new National Academy of Sciences study confirms that youth development 
strategies are critically important to the prevention of youth risk 
behaviors. The most effective youth development programs incorporate 
opportunities for physical, cognitive, and social/emotional 
development; opportunities for community involvement and service; and 
opportunities to interact with caring adults and a diversity of peers. 
Young people need a variety of experiences to develop their full 
potential and these experiences need to take place in an environment in 
which the family, school and community work together.
The Department's Major Teen Pregnancy Prevention Activities
    Abstinence-only education programs are a major focus of the 
Department's activities to prevent teen pregnancies. The expansion of 
these programs was an important result of the 1996 welfare reform law. 
The law established the State Abstinence Education Block Grant Program 
(through Title V section 510 of the Social Security Act) and provided 
$50 million to be distributed annually to States to fund these 
activities. (Anecdotal evidence also suggests that some states are 
using Temporary Assistance to Needy Families (TANF) funds to support a 
broad range of teen pregnancy prevention activities, including 
abstinence-only education.) The authorization for this program, along 
with the other provisions of the law, is due to expire in FY 2002.
    Under the Title V program, approximately 700 programs nationwide 
have been funded. The most frequently funded local program activities 
are social skills instruction, character-based education and assets 
building, public awareness campaigns, curriculum development and 
implementation, school-based abstinence programs, peer mentoring and 
education, and parent education groups. The two age groups most 
frequently served are 13-14 year olds and 9-12 year olds.
    In addition, starting in FY 2001, a Community-Based Abstinence 
Education program was established. It follows the same legislative 
requirements as the Title V State program created under welfare reform. 
This program is funded at $20 million in FY 2001 and $30 million for FY 
2002. Forty-nine communities were recently awarded grants.
    The Adolescent Family Life Program awards approximately $10 million 
for abstinence education programs, also using the same legislative 
requirements as the Title V abstinence education program authorized 
under welfare reform.
    Let me now mention other important efforts to prevent teen 
pregnancies within the Department. First, the Centers for Disease 
Control and Prevention (CDC) support 13 demonstration and evaluation 
sites funded through the Community Coalition Partnership Programs for 
the Prevention of Teen Pregnancy. These programs are mobilizing and 
organizing community leaders to create an effective network of 
resources to demonstrate and evaluate the effectiveness of teen 
pregnancy prevention programs that are based on a youth development 
approach. These demonstrations do not fund individual programs to 
deliver services. Rather, they work with agencies in their communities 
to expand the scope and number of services that are provided to youth. 
Outcomes are being evaluated.
    Second, the Administration for Children and Families funds 13 
states to develop and support innovative youth development strategies. 
These state grants support efforts that focus on all youth, including 
vulnerable youth in at-risk situations. This grant program put into 
practice the new findings from the National Academy of Sciences report.
    We believe it is critical that teen pregnancy prevention efforts 
should also focus on the teen boys and emphasize the importance of 
fathers in the lives of children. Living with both a mother and a 
father helps to protect teen girls and boys against the risks 
associated with early initiation of sex and to slow the rate at which 
teenagers become sexually active. A number of our grant programs have 
especially targeted teen boys and work with young fathers to prevent 
subsequent unplanned pregnancies. Many projects that received 
abstinence education grants work with teen boys. Also, an HHS-funded 
male involvement initiative works with community-based organizations 
that provide health, education, and social services and integrates them 
with pregnancy prevention efforts directed to young men.
    When teens are provided with educational opportunities, supportive 
environments, skills, and motivation, they make healthy choices. The 
Administration has been clear that it believes that providing these 
opportunities combined with a consistent abstinence-only message is the 
surest approach to preventing pregnancies or STDs. The Department funds 
programs that provide other services in addition to abstinence-only 
education. Teens do have access to family planning programs through 
either the Title X Family Planning Program or Medicaid, which provide 
assistance for all ages. Title X guidelines require grantees to discuss 
abstinence with all teen clients. The Administration is committed to 
pursuing funding parity between abstinence-only education and 
contraception services that go to teens.
Evaluation Efforts
    Evaluating the impact of teen pregnancy prevention efforts is 
critically important to determining and documenting what works. Efforts 
to evaluate teen pregnancy prevention programs to date have shown mixed 
success, and the quality of many evaluations has been inconsistent. 
Sound rigorous evaluation is costly, time consuming, and requires high 
methodological standards such as random assignment. As a consequence, 
it is often avoided. In addition, depending upon the outcomes of 
interest, the results are often not available immediately.
    This Committee clearly understood the importance of rigorous 
evaluation. A year after the 1996 welfare reform law was enacted this 
Committee authorized funding to conduct a rigorous evaluation of a 
selected number of programs funded under the Title V State Abstinence 
Education Program, with the final report due in FY 2005. This is a 
large and complex evaluation of the effectiveness of certain approaches 
to abstinence education, which my office manages for the Department. 
The study will allow us to take an empirical look at the differential 
effectiveness of several types of abstinence programs, but will not be 
a comparison of abstinence programs with other pregnancy/STD prevention 
programs. A competitive contract was awarded to Mathematica Policy 
Research to conduct this study and Dr. Rebecca Maynard is the Principal 
Investigator for the study. The findings will not be available in time 
for welfare reauthorization next year.
    In addition to the Title V Abstinence Education Evaluation, 
Congressman Istook included an evaluation component when he added funds 
in FY 2001 Labor, Health and Human Services, Education appropriations 
bill to create community-based abstinence education programs. My office 
is also responsible for managing this evaluation effort, and we are now 
in the planning stages for developing evaluation design options. We are 
interested in making sure that these evaluation efforts are 
complementary to the State evaluation efforts. We also are committed to 
evaluating a range of teen pregnancy prevention approaches, including 
family planning. As we proceed with our feasibility study, we intend to 
consult with many key stakeholders, including researchers, advocates, 
program administrators, policy officials, and members of Congress.
    We in the Department believe that sound, rigorous evaluation is 
what is needed to advance our knowledge of what works to prevent teen 
pregnancies.
Conclusion
    I commend you, Mr. Chairman, for calling this hearing and 
recognizing the importance of looking at the risks our young people 
face and the impact they have on our welfare system. The Department 
looks forward to working with you as we reauthorize PRWORA.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Jindal, and your full 
testimony will be submitted for the record. With that, the 
gentleman from Louisiana, Mr. McCrery to inquire.
    Mr. McCrery. Thank you, Mr. Chairman.
    Mr. Jindal, based on what we know about trends involving 
teen pregnancy and the early effects of the 1996 Welfare Reform 
Law, are there any changes or new provisions that your 
Department is ready to recommend as we start the process of 
reauthorizing TANF next year?
    Mr. Jindal. Two things. First, we are certainly working 
very closely with Wade Horn at the administration for Children 
and Families (ACF) internally in the Department looking at 
reauthorization. I know that the administration is going to 
begin its series of consultations with Members of Congress and 
congressional leadership. Currently Wade is engaged in a series 
of national listening tours across the country to get input 
from representatives to find out more about what has worked and 
what might need tweaking as we go forward. Overall, certainly, 
I think the Secretary, it would be fair to say, views Welfare 
Reform both in Wisconsin and across the country as a success 
and would like to build on that success.
    It would be too early for me to comment at this time on the 
administration's perspectives on particular aspects of Welfare 
Reform in terms of changes or not making changes, but I do know 
that process has started. I know the national listening tours 
are taking place and I do know the administration is going to 
start coming up to the Hill literally over the next few days to 
start consulting with Members as it does these national 
listening tours.
    The second piece that I would emphasize is the importance 
of evaluation activities. Rebecca can talk more about this. 
Next year will be the final year that they will be collecting 
data. Some of those results will therefore be coming out in the 
next couple of years.
    There is also another evaluation component on the 
community-based programs that is only now just starting. We 
will soon release the competitive request for proposals, and so 
the only thing I would emphasize is that we do believe the 
evaluation is an important component of moving forward.
    Mr. McCrery. So it is safe to say that Welfare Reform 
reauthorization is on your radar screen, it is on the radar 
screen of the administration, and you are going to be working 
with us to fashion the reauthorization next year?
    Mr. Jindal. Yes, sir, and we do look forward to working 
with you to get that input.
    Mr. McCrery. Thank you, Mr. Jindal. Thank you, Mr. 
Chairman.
    Chairman Herger. Thank you, Mr. McCrery. The Ranking Member 
from Maryland, Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman.
    And thank you very much for your testimony. It is a very 
comprehensive report as to current status and a blueprint to 
move forward. In your written testimony, and you mentioned it 
very briefly, you highlighted the importance of developing 
constructive activities for young people so that they could 
avoid risky activities, such as after-school programs and other 
ways in which young people can work together, become more 
responsible rather than being at risk.
    We have certain funding that is available at the Federal 
government for abstinence programs, and I am just wondering 
what your position would be, considering that we want to give 
flexibility to local governments to be able to develop the best 
types of programs. It seems to me that if constructive 
activities are a good remedy for putting children at risk, 
shouldn't those types of programs be qualified for Federal 
abstinence dollars, even if there isn't a direct educational 
component to the use of those funds?
    Mr. Jindal. Let me start by setting the larger context, and 
then talk in particular about abstinence dollars. The 
Department is very interested in promoting rigorous 
comprehensive research on what works and doesn't work. The 
early trends certainly suggest, as you have said, that those 
interventions that include adolescent development components 
are going to be the more successful programs. I do want to put 
in a huge caveat, that we are still in the early stages of 
learning about what works and what doesn't work, and we do 
believe there needs to be more rigorous comprehensive work 
across the country. There have been isolated studies. I think 
you can find studies to say a wide range of things, looking at 
very, very particular local programs, but we want to make sure 
there is rigorous research with control groups that look across 
a variety of programs.
    To answer your particular question, the Department has many 
funding sources for teen pregnancy programs and adolescent 
programs in its Maternal and Child Health Bureau, in ACF, and 
certainly with the block grants to States. The administration 
is very committed to parity between the abstinence-only 
programs and the other programs, and is working toward reaching 
that parity. The administration believes that the abstinence 
programs are an important component of that overall range of 
programs that are available to communities. However, knowing 
that there are these other funding sources, I think it is 
important that there be dollars available for abstinence 
programs.
    Mr. Cardin. And that is a good point. But let me, one of 
the real changes for the 1996 law was to give flexibility to 
the States within broad Federal guidelines of goals that we 
wanted to achieve, and States have really developed some very 
innovative programs. I guess I am concerned that if you 
pigeonhole too tightly for abstinence by itself and don't allow 
States to be able to use those types of funding source to 
develop comprehensive solutions, we might lose an opportunity. 
So I would just urge you to carry out the real policy that was 
developed by the Congress on giving flexibility to the States 
to not to be so prescriptive that it becomes difficult for 
States to do innovative programs.
    You mentioned a balance, and that is a very good point. I 
would just caution again the virginity pledges, there is no--
one of my concerns is that it may very well just postpone 
activity and that when the adolescent becomes sexually active, 
that person may not have the education necessary to make the 
right decisions. So I would just also urge, as you look at 
balance, again not to pigeonhole so much. I think there is 
general agreement that abstinence is a value that we want to 
instill in our children but we also want them to understand the 
consequences of sex, and we want them to understand 
contraception. We want them to understand sexually transmitted 
diseases. And if you pigeonhole it too tightly, you end up 
maybe postponing but not avoiding some undesired consequences. 
And it is important, I think, to try to combine these rather 
than pigeonholing.
    Mr. Jindal. And I appreciate the suggestion to look into 
giving States more flexibility. Two quick comments. I know 
Congress set up some requirements in the law in terms of what 
requirements these abstinence programs would have to meet, and 
so we are very interested in making sure we are compliant with 
congressional intent. And in terms of giving States more 
flexibility, that is consistent with the Department's overall 
direction, and certainly, given the multiple funding sources, I 
think we would encourage States and communities to make those 
choices consistent with their own values and norms. But again, 
the point is well taken, and certainly we will consider ways we 
can give States and communities more flexibility.
    Mr. Cardin. I thank you. Thank you, Mr. Chairman.
    Chairman Herger. Thank you, Mr. Cardin. And now the 
gentlelady from Connecticut, Mrs. Johnson to inquire.
    Mrs. Johnson. Thank you. And thank you for your testimony, 
Mr. Jindal. It was very complete and very impressive that we 
are making progress in reducing teen pregnancy.
    You mentioned a couple things that were particularly 
important to me. One, you mentioned that you are finding if you 
connect students to other activities that that helps, very 
logical, very simple. I would hope that just because we do not 
have some of the evaluations done, that we do not miss this 
opportunity, when we reauthorize Welfare Reform, to deal with 
this issue of connectivity, because what we are finding in my 
hometown of New Britain, which is an old manufacturing center 
going through all the processes of losing its major employees 
and having intense pockets of poverty and isolation, which 
Welfare Reform now has impacted by bringing people into the 
workforce, you have a desperate need to connect kids into 
stable situations. And what we are finding with teen pregnancy 
prevention is, that it is not just about teen girls or teen 
boys--and I am glad you mentioned teen boys--it is about family 
systems. And we do have a program with 8\1/2\ years experience, 
and only two pregnancy events, one by a male--maybe both by a 
male, I do not know that, I am not up to date on that. But the 
fact is, this is essentially 100 percent over 8\1/2\ years. But 
it is through family systems. Yes, it is through children and 
connecting them into, and particularly with their mothers gone 
now for work. But what we are finding is, you have got to reach 
down. You can't wait till they are teenagers.
    So some of that money has to enable us to enlarge these 
programs that have had at least Robert Wood Johnson review, to 
reach down so that they can get the third and fourth grade 
sisters and brothers of the kids who in the program, and you 
can impact the whole family. We are seeing family change, and 
in the end, since these kids are mostly the product of teen 
pregnancies, if you don't get family change, you don't get 
system reform.
    Now, if we are going to bring women into the workforce with 
young children, we have to think about how do we make sure that 
those children don't become teen parents. And we do have models 
of teen pregnancy prevention. But I am as concerned, as is my 
colleague, Mr. Cardin, about the narrowness of the funding 
smokestacks or pipes, because if we judge a program by its 
outcome, did its outcome result in abstinence? Can you tell by 
its outcome that the teens were abstinent? Then we ought to 
honor that, and we ought not to look at whether they 
accomplished that by teaching kids about responsible 
contraception, because if they teach kids about responsible 
life living skills and one of those is contraception, right now 
we don't give them any money. But if their outcomes are close 
to 100 percent, far better than most pledge programs or lower-
level interventions, and we see family system change, isn't 
that what we want?
    Mr. Jindal. Thank you for the questions, Mrs. Johnson. And 
also I want to thank you, before I get to the question. I know 
that you were personally involved in some of the evaluation 
components of this, and I absolutely appreciate and support 
that. Again, if you look at the written testimony, I think it 
covered this. When you look at the programs most likely to be 
funded, because there is quite a bit of discretion in both the 
abstinence and the non-abstinence funding; a wide-range of 
approaches. They do involve teaching life skills, and they 
involve bringing in the parents and siblings as well. That is 
something we find very common among successful grant 
recipients.
    And, again, I agree. I think the administration agrees with 
the need for flexibility and for a multiple number of 
approaches. And the good news is, if you look at communities, 
you will see that they are in--and I am not familiar with this 
program in particular in Connecticut; I am happy to learn more 
about it and will do so--but you will see that the States are 
using a variety of funding sources from HHS. There is $90 
million in the abstinence programs. There is over $135 million 
in the other types of programs. You will see that communities 
have done a good job of using those multiple sources of funding 
to provide programs that are consistent with their local 
community values, the local norms and local desires.
    Mrs. Johnson. Right. And I think just as in Welfare Reform, 
we found that if we gave States flexibility, they were much 
more creative in getting people off welfare. In this next kind 
of welfare reform, as the author of last year's, co-author with 
Mr. Cardin of last year's Fatherhood Bill, in many ways it is 
outdated. We need to integrate the education of fathers of 
children on welfare into welfare reform, just as we need to 
integrate teen pregnancy prevention into Welfare Reform, 
because we have to make whole family change if Welfare Reform 
is to achieve its ultimate goal of economic viability of 
families. So I would hope that the Department, as we move into 
Welfare Reform, will think with us about systems change rather 
than about grants for fatherhood, grants for teen pregnancy, 
and how do we reach the real problem, which is as mothers go to 
work, family systems disintegrate because there is no parental 
oversight, and we are sort of dealing with that as a day care 
subsidy issue. It is not just a daycare subsidy issue.
    So I look forward to working with you, and I thank you for 
your good testimony.
    Mr. Jindal. Thank you. We look forward to working with you 
as well.
    Chairman Herger. Thank you, Mrs. Johnson. Now we turn to 
the gentleman from Washington, Mr. McDermott, to inquire.
    Mr. McDermott. Thank you, Mr. Chairman.
    It always gives me pause to be here as a sort of middle-
aged man with a bunch of other middle-aged people deciding how 
teens are not going to get pregnant.
    But one of the questions that I have, in looking at this, 
where you have 600,000 failures every year, I mean 750,000 kids 
get pregnant, 80 percent are unintended. So that is about 
600,000 young women get pregnant. I am very eager to hear how 
somebody can call that a successful program. And what I have 
trouble with in these two pots of money is how you look at a 
young woman and say, ``Well, you are one that abstinence is 
going to work in, so we are going to put you in this pot. And 
you, you abstinence won't work with you, so we are going to put 
you over here where we will also tell you about birth 
control.''
    I can't see why you have an abstinence-only program unless 
you have some magic marker on young women that they are going 
to somehow show up and you can spot them and say, ``Well, now 
there is one we have got to do this abstinence program on.'' 
How do you select these people? Because, obviously, if you had 
all 600,000 who got pregnant and put them in the abstinence 
program, it wouldn't do a bit of good. So what is the reason 
for having an abstinence program? Why don't you just have a sex 
education program, which is what the Kaiser Family Foundation 
says 73 percent of adults in this country say is the right 
thing to do?
    Mr. Jindal. Thank you for the question, Representative, and 
it is certainly good to see you again after the Commission.
    The very simple reason why these programs exist is they 
were set up and required in the Welfare Reform Act, so we are 
required to give those dollars for abstinence-only programs. 
But going beyond that, again, we are only now at the beginning 
of the research--and you will hear more from Rebecca Maynard on 
the research into abstinence-only programs, plus the 
Department's intent when it looks at the community-based 
programs. We are only now at the beginning of doing rigorous 
research to understand the impact of all these programs. The 
administration does believe that the abstinence-only programs 
do play an important role.
    To answer your particular question, though, in terms of who 
decides where these programs go, which individuals go into 
which particular program, that is a decision that is made at 
the local level, the States and the local communities getting 
these dollars, and again, there are multiple programs, multiple 
pots of money they can apply to within HHS. If States want to, 
they can certainly access these other dollars as well, and 
currently there are more dollars outside of the abstinence-only 
programs for preventing teen pregnancies.
    So the answer to your question in terms of who decides 
which interventions to direct at a particular teenager would be 
up to the State and the local communities. That is not a 
decision the Federal Government is making on their behalf, but 
I think Congress correctly decided to leave it to local 
communities and States to decide how best to intervene on 
behalf of their communities, on behalf of their teenagers in a 
way that is consistent with their norms, with their values, in 
a way that they judge will be most successful. And Welfare 
Reform gives them a tremendous amount of flexibility to decide 
how best to do that.
    Mr. McDermott. And so if they have a reduction in the area, 
do you get more money the next year, or how do you measure 
success, or are we just shoveling money out there? Well, first 
of all, let me ask a more important question: who gets this 
money? Who are the--I mean the programs? Are they all faith-
based?
    Mr. Jindal. Again, there are a large number of programs. 
The $50 million in Welfare Reform for abstinence goes in a 
block grant to the State. In terms of the dollars that were 
added by Congress, $20 million is now going to many 
organizations as part of a competitive grant process through 
Health Resources and Services Administration (HRSA). I don't 
know right now, and I can certainly get it to you, how many of 
those are faith-based organizations. I would imagine a good 
portion of them are. I don't know what portions of those are 
faith based.
    Mr. McDermott. Do you have such a listing so that somebody 
could find out who gets this money?
    Mr. Jindal. I can find out from HRSA and get back to you 
after today.
    [The information was subsequently received:]

                           HHS FISCAL 2001 ABSTINENCE EDUCATION IMPLEMENTATION GRANTS
----------------------------------------------------------------------------------------------------------------
              Organization                            City                        State                Amount
----------------------------------------------------------------------------------------------------------------
State of Alabama Department of Public     Montgomery.................  Ala........................      $661,902
 Health.
Mid-South Christian Ministries..........  West Memphis...............  Ark........................       277,179
Fayetteville Public Schools.............  Fayetteville...............  Ark........................       465,631
Arkansas Department of Health...........  Little Rock................  Ark........................       800,000
Westcare Arizona, Inc...................  Bullhead City..............  Ariz.......................       239,951
Teen Awareness, Inc.....................  Fullerton..................  Calif......................       239,645
The Await and Find Project..............  Union City.................  Calif......................       285,000
Bay County Health Department............  Panama City................  Fla........................       131,000
Empowering the Vision...................  Miami......................  Fla........................       156,297
United Students for Abstinence/Pinellas   Pinellas Park..............  Fla........................       223,642
 Crisis.
Economic Opportunity FHC................  Miami Springs..............  Fla........................       698,169
Choosing the Best, Inc..................  Marietta...................  Ga.........................       593,422
Family Centered Educational Agency......  Phoenix....................  Ill........................       279,807
St. Vincent Hospital and Health Services  Indianapolis...............  Ind........................       578,022
YMCA of Cumberland......................  Cumberland.................  Md.........................       251,338
Michigan Department of Community Health.  Lansing....................  Mich.......................       800,000
Freedom Foundation of New Jersey, Inc...  Newark.....................  NJ.........................       515,481
Catholic Charities Diocese of Syracuse/   Syracuse...................  NY.........................       442,086
 Neighborhood Centers.
Greenburgh-Graham Union Free School       Hastings on Hudson.........  NY.........................       800,000
 District.
Catholic Charities of Buffalo, New York.  Buffalo....................  NY.........................       800,000
Tri-County Right to Life Education        Springfield................  Ohio.......................       386,095
 Foundation.
Pregnancy Decision Health Centers.......  Columbus...................  Ohio.......................       500,000
Abstinence Educators, Inc...............  Mason......................  Ohio.......................       800,000
Women's Care Center of Erie County......  Erie.......................  Pa.........................       262,357
Heritage Community Services.............  North Charleston...........  SC.........................       800,000
AAA Women's Services, Inc./Why Know       Chattanooga................  Tenn.......................       254,530
 Abstinence Education Program.
Fort Bend Independent School District...  Sugarland..................  Texas......................       351,815
Worth the Wait..........................  Pampa......................  Texas......................       371,691
Scott and White Memorial Hospital.......  Temple.....................  Texas......................       625,970
McLennan County Collaborative...........  Waco.......................  Texas......................       800,000
Teen-Aid................................  Spokane....................  Wash.......................       751,352
Rosalie Manor Community and Family        Milwaukee..................  Wis........................       630,797
 Services.
Community Actions of South Eastern West   Bluefield..................  W.Va.......................       433,599
 Virginia.
                                                                                                   =============
    TOTAL...............................    .........................    .........................    16,206,778
----------------------------------------------------------------------------------------------------------------

                                ------                                


                            HHS FISCAL YEAR 2001 ABSTINENCE EDUCATION PLANNING GRANTS
----------------------------------------------------------------------------------------------------------------
              Organization                            City                        State                Amount
----------------------------------------------------------------------------------------------------------------
Boys and Girls Club of East Central       Anniston...................  Ala........................       $88,500
 Alabama.
The Crisis Pregnancy Centers of Greater   Phoenix....................  Ariz.......................        76,913
 Phoenix.
Roseland Christian Health Ministries....  Chicago....................  Ill........................        98,048
YWCA of Greater Baton Rouge.............  Baton Rouge................  La.........................        99,362
Lao Family Community of Minnesota.......  St. Paul...................  Minn.......................        74,920
New Jersey Family Policy Council........  Parsippany.................  NJ.........................        92,650
Several Sources Foundation..............  Ramsey.....................  NJ.........................        75,000
Action for a Better Community, Inc......  Rochester..................  NY.........................        99,903
Community Services of Stark County......  Canton.....................  Ohio.......................        75,000
Citizen Potawatomi Nation...............  Shawnee....................  Okla.......................        62,358
Municipality of Caguas..................  Caguas.....................  PR.........................        99,295
Christ Community Medical Clinic.........  Memphis....................  Tenn.......................        74,578
Centerstone Community Health Centers....  Nashville..................  Tenn.......................        74,067
S.A.G.E. Advice Council.................  Alvin......................  Texas......................        99,725
Catholic Charities of the Diocese of      Fort Worth.................  Texas......................        65,654
 Fort Worth.
Shannon Health System...................  San Angelo.................  Texas......................        75,000
Boys and Girls Club of Murray/Midvale     Murray.....................  Utah.......................        84,238
 and Coalition.
Spokane School District #81.............  Spokane....................  Wash.......................        74,500
Youth Health Services, Inc..............  Elkins.....................  W.Va.......................        85,000
AIDS Resource Center of Wisconsin.......  Milwaukee..................  Wisc.......................        91,690
                                                                                                   =============
    TOTAL...............................    .........................    .........................     1,666,401
----------------------------------------------------------------------------------------------------------------

                                <F-dash>

    Mr. McDermott. I would appreciate it. I think it would be 
useful for the Committee to understand who it is that applies 
for this abstinence-only money, because certainly people like 
Planned Parenthood would not, because they recognize that they 
have got a broader problem here. And the American Medical 
Association and the American Pediatric Association, the 
American Nursing Association, every responsible medical 
organization says you ought to teach people about both. There 
is no reason to say, ``We are just here going to tell you about 
contraception. We say the best thing is abstinence, but.'' And 
if you have got 600,000 young women last year who didn't want 
to get pregnant, got pregnant, it seems to me that there is 
falling through the cracks everywhere.
    Mr. Jindal. If I can make--I know we are running out of 
time, but I would like to offer two quick pieces of 
information. In terms of who does apply for this money, again, 
I don't know the particular organizations. I do know there are 
some organizations who participate in other programs within the 
Department. For example, some of the applicants do receive 
money for non-abstinence programs. There are successful 
applicants that also get money for other programs.
    Mr. McDermott. How do you keep the dollars separated in an 
organization?
    [The information was subsequently received:]

                       U.S. Department of Health and Human Services
                                               Washington, DC 20201
    When applying for SPRANS Community-Based Abstinence Education 
grants, applicants are required to provide an assurance that any 
discussion of other forms of sexual conduct or provision of services 
will be conducted in a setting different from where and when the 
abstinence-only education is being conducted.

                                <F-dash>

    Mr. Jindal. Again, we can give you the information. It will 
be important for that program that it is separate, but second, 
I would just close by saying we do think that the abstinence-
only programs play an important role, and it is not that 
communities have to do one or the other. There are multiple 
programs within the Department. We think, given the wide range 
of services, the abstinence-only programs do play a very 
important role as a part of that range of services that are 
available from the Department.
    Chairman Herger. Thank you very much for your testimony. 
The gentleman's time has expired.
    Mr. Jindal, I understand that HHS also reviewed programs in 
State and local areas that provide maternity group homes of 
second-chance homes. This was an important provision in the 
Welfare Reform Law aimed at ensuring that teen parents have a 
structured and supervised environment in which to raise their 
children. Can you please tell me how many such programs are 
operating and what the Department has learned from its review 
of these programs?
    Mr. Jindal. I think there are approximately 130 such homes 
operating in roughly 20 States, and I think in our current 
budget we have asked for $33 million for these second-chance or 
maternal group homes, depending on what you would like to call 
them. When I say there is $33 million, please understand there 
are other areas they can get funding from within our Department 
and Housing and Urban Development, so those would not be the 
only dollars that are available to them, and I will be happy to 
provide that information to the Committee or to you, Mr. 
Chairman. There are a couple of documents that the 
Administration for Strategic Planning and Evaluation has 
produced on these group homes and on sources of funding 
available to those providers in case they are interested in 
accessing the Department's various opportunities for 
partnership.
    [The information was subsequently received:]
                       U.S. Department of Health and Human Services
                                               Washington, DC 20201

                          Second Chance Homes

WHAT ARE THEY?
    Second Chance Homes are adult-supervised, supportive group homes or 
apartment clusters for teen mothers and their children who cannot live 
at home because of abuse, neglect or other extenuating circumstances. 
Second Chance Homes canalso offer support to help young families become 
self-sufficient and reduce the risk of repeat pregnancies. They provide 
a home where teen mothers can live, but they also offer program 
services to help put young mothers and their children on the path to a 
better future. Several federal resources are available to help state 
and local governments and community-based organizations create Second 
Chance Homes that provide safe, stable, nurturing environments for teen 
mothers and their children.
          ``I have to say Visions (a Second Chance Home in 
        Massachusetts) helped me quite a bit, I loved them. I wanted to 
        go somewhere [with my life], and the staff respected me for 
        that.''

                              TARA, AGE 18

          ``When I was younger I said, `I'm never going on welfare. I'm 
        going to college' (but) school was just too much. . . . I know 
        I need help for me and my son. I always wanted to be a lawyer 
        when I was a kid, but now with a kid and all, I just want to go 
        one step at a time--be a paralegal, and then college and law 
        school.''

                            SABRINA, AGE 19

          <bullet> Second Chance Homes programs vary across the 
        country, but generally include:
          <bullet> An adult-supervised, supportive living arrangement
          <bullet> Pregnancy prevention services or referrals
          <bullet> A requirement to finish high school or obtain a GED
          <bullet> Access to support services such as child care, 
        health care, transportation, and counseling
          <bullet> Parenting and life skills classes
          <bullet> Education, job training, and employment services
          <bullet> Community involvement
          <bullet> Individual case management and mentoring
          <bullet> Culturally sensitive services
          <bullet> Services to ensure a smooth transition to 
        independent living
WHY ARE THEY IMPORTANT?
    Second Chance Homes offer a nurturing home for society's most 
vulnerable families B teen mothers and their children with nowhere else 
to go. Almost half of all poor children under six are born to 
adolescent parents. Children of teen mothers are 50 percent more likely 
to have low birthweight, 33 percent more likely to become teen mothers 
themselves, and 2.7 times more likely to be incarcerated than the sons 
of mothers who delay childbearing. Teen mothers are half as likely to 
earn their high school diplomas or GEDs and are more likely to be on 
welfare than mothers who are older when they give birth.\1\ In 
addition, research shows that over 60 percent of teen parents have 
experienced sexual and/or physical abuse, often by a household 
Member.\2\ Limited early findings indicate that residents of Second 
Chance Homes have fewer repeat pregnancies, better high school/GED 
completion rates, stronger life skills, increased self-sufficiency, and 
healthier babies.\3\
---------------------------------------------------------------------------
    \1\ Rebecca Maynard, Kids Having Kids, Robinhood Foundation's 
Special Report on Cost of Adolescent Childbearing, 1996.
    \2\ Debra Boyer and David Fine, Victimization and Other Risk 
Factors for Child Maltreatment among School Age Parents: A Longitudinal 
Study, US Department of Health and Human Services, 1990.
    \3\ Evaluation of Programs for Teen Parents and Their Children, 
Boston University School of Social Work, June 1998.
---------------------------------------------------------------------------
    Second Chance Homes help teen mothers and their children comply 
with welfare reform requirements. Under the 1996 welfare law, an 
unmarried parent under 18 cannot receive welfare assistance unless she 
lives with a parent, guardian or adult relative. However, if such a 
living arrangement is inappropriate (for example, if her family's 
whereabouts are unknown or if she was abused), states may waive the 
rule and either determine her current living arrangement to be 
appropriate, or help her find an alternative adult-supervised 
supportive living arrangement such as a Second Chance Home. Also, in 
states where alternatives such as Second Chance Homes are currently not 
available, teen mothers could be forced to choose between inappropriate 
living arrangements and losing their cash assistance. Making Second 
Chance Homes available to teen mothers in need could provide these 
teens with stable housing, case management, and preparation for 
independent living.
    Second Chance Homes can support teen families who are homeless or 
in foster care. State foster care systems may not have the capacity to 
place the teens and their children together, and frequently, homeless 
shelters, battered women's shelters, and transitional living facilities 
cannot accept teen parents under age 17. Unfortunately, homelessness 
poses the threat of separation in young families. For vulnerable 
families with no safe, stable places to go, Second Chance Homes can 
help fill the gap.

WHO IS ELIGIBLE?
    Eligibility criteria for Second Chance Homes vary from program to 
program. Some programs are targeted for adolescent mothers (between the 
ages of 14 to 20, for example), mothers receiving welfare assistance, 
or homeless families. Other programs are open to any mother in need of 
a place to live--regardless of age, income or the assistance program 
for which she qualifies. Teen mothers can be referred to Second Chance 
Homes through welfare agencies, homeless shelters, or foster care 
programs, or by community organizations, schools, clinics, or 
hospitals. Mothers may also self-refer.

WHERE ARE THEY?
    Nationwide, at least 6 states have made a statewide commitment to 
Second Chance Home programs: Massachusetts, Nevada, New Mexico, Rhode 
Island, Texas and Georgia. In statewide networks, community-based 
organizations operate the homes under contract to the states and 
deliver the services. States share in the cost of the program, refer 
teens to homes, and set standards and guidelines for services to teen 
families. In addition, there are many local Second Chance Home programs 
operating in an estimated 25 additional states. For a directory of 
programs, please visit: http://www.span__online.org/
seeking__supervision.html.

WHAT FEDERAL RESOURCES ARE AVAILABLE?
    State legislatures may allocate Temporary Assistance to Needy 
Families (TANF) block grant funds for Second Chance Homes. Like TANF, 
state maintenance-of-effort (MOE) funds and the Social Services Block 
Grant (SSBG) are flexible, and largely under states' discretion in 
terms of how they are spent. States and communities may also explore 
other sources of funding from HHS and HUD (see the attached chart). 
Additional state and private sources of funding are available to fill 
in funding gaps, help providers acquire or rehabilitate Second Chance 
Homes, or develop specialized Second Chance Homes for foster care and 
homeless teens.

WHERE CAN I LEARN MORE?
    The attached chart contains detailed information on the major 
sources of Federal funding for Second Chance Homes that are available 
from HHS and HUD. In addition to the Federal sites that are included in 
the chart, more general information about the Administration for 
Children and Families (the agency that oversees most of the programs 
within the Department of Health and Human Services) and the Department 
of Housing and Urban Development can be found at http://
www.acf.dhhs.gov and http://www.hud.gov respectively. An HHS paper 
describing Second Chance Homes and some things that decisionmakers at 
the state and local levels may want to consider as they start or 
implement a Second Chance Home program can be accessed online at http:/
/www.aspe.hhs.gov/hsp/.
    There are a number of non-governmental organizations that have been 
actively assessing Second Chance Homes and providing technical 
assistance to states. The Social Policy Action Network (SPAN) has been 
a leader in documenting existing programs, identifying best practices 
and developing guides and a directory of homes. For more information 
about SPAN, call 202-434-4767 or online at http://www.span-online.org. 
Other organizations that can provide useful information about providing 
services to teen parents in need include The Child Welfare League of 
America, Florence Crittenton Division http://www.cwla.org, the Center 
for Law and Social Policy (CLASP) http://www.clasp. org and the Center 
for Assessment and Policy Development (CAPD) http://www.capd.org.
                                 ______
                                 

                                       WHAT MAJOR RESOURCES ARE AVAILABLE?
----------------------------------------------------------------------------------------------------------------
                                    What Aspects of
                                     SCH Can These      Restrictions on      Who Receives       Where can I get
                                    Funds Pay For?          Funding             Funds?         more information?
----------------------------------------------------------------------------------------------------------------
 
                                            HHS Sources of Assistance
 
Temporary Assistance for Needy    Planning &          Cannot be used for  States, in the      State contacts for
 Families (TANF) Block Grant and   operating costs;    facility            form of formula     this funding
 State Maintenance of Effort       cash assistance     construction or     block grants;       stream are
 Dollars (MOE).                    to teens;           medical care        states decide how   provided through
                                   parenting & life    except family       funds are spent     this site:
                                   skills classes;     planning;           within context of  www.acf.dhhs.gov/
                                   child care; job     ``assistance''      a TANF plan that   programs/ofa/
                                   training &          such as housing     must be reviewed
                                   placement;          and cash aid can    and certified by
                                   counseling; case    only go to needy    HHS. For MOE,
                                   management;         teens. For MOE,     state decides how
                                   follow-up           all funds must be   funds are spent.
                                   services. Also,     spent on needy
                                   anything else       families. States
                                   that reasonably     define who is
                                   meets the four      needy.
                                   broad purposes of
                                   TANF. For MOE all
                                   of the above.
 
Child Care Development Fund       Child care          CCDF cannot be      States,             State contacts for
 (CCDF).                           assistance for      used for            Territories, and    this funding
                                   low-income          construction or     Indian Tribes in    stream are
                                   families who are    major renovation    the form of         provided through
                                   working or          (except for         formula block       this site:
                                   attending           Indian Tribes).     grants.            www.acf.dhhs.gov/
                                   training/           Families                               programs/ccb/
                                   education;          receiving
                                   quality             subsidies must
                                   improvement         meet income
                                   efforts such as     eligibility
                                   grants or           requirements and
                                   training for        have children
                                   child care          under age 13 (or
                                   providers.          age 19 if not
                                                       capable of self
                                                       care).
 
Social Services Block Grant       Planning &          Cannot be used for  States, in the      State contacts for
 (SSBG).                           operating costs;    facility            form of formula     this funding
                                   parenting & life    purchase,           block grants;       stream are
                                   skills classes;     construction        states must         provided through
                                   child care; job     renovation;         report to HHS on    this site:
                                   training &          medical care        how funds are      www.acf.dhhs.gov/
                                   placement;          except family       spent and who is   programs/ocs/ssbg
                                   counseling; case    planning; cash      served.
                                   management;         aid; unlicensed
                                   follow-up           child care; drug
                                   services.           rehab; public
                                                       education; room
                                                       and board;
                                                       services in
                                                       hospitals,
                                                       nursing homes, or
                                                       prisons.
 
Child Welfare Services Title IV-  Child welfare       All children        States and Indian   www.acf.dhhs.gov/
 B Subpart 1 and 2 Funds.          services, family    receiving State     Tribes receive      programs/cb/
                                   preservation and    or Federal foster   Title IV-B         programs/index.htm
                                   reunification,      care funds must     subpart 1 and 2
                                   family support,     also receive        funds on a
                                   adoption            certain             formula basis.
                                   promotion and       protections under
                                   support.            Title IV-B.
----------------------------------------------------------------------------------------------------------------


                                 WHAT MAJOR RESOURCES ARE AVAILABLE?--Continued
----------------------------------------------------------------------------------------------------------------
                                    What Aspects of
                                     SCH Can These      Restrictions on      Who Receives       Where can I get
                                    Funds Pay For?          Funding             Funds?         more information?
----------------------------------------------------------------------------------------------------------------
 
                                            HHS Sources of Assistance
 
Independent Living Program......  Room and board      Funds must be       States, on a        www.acf.dhhs.gov/
                                   (for youth aged     spent on youth      formula basis.      programs/cb/
                                   18-21 only);        between the ages                       programs/index.htm
                                   education; life     of 18 and 21 to
                                   skills training;    assist them in
                                   counseling; case    making the
                                   management.         transition from
                                                       foster care to
                                                       independent
                                                       living.
Transitional Living Program for   Housing, life       Funds can only be   HHS awards 3-year   www.acf.dhhs.gov/
 Homeless Youth.                   skills training,    used to serve       competitive         programs/fysb/
                                   interpersonal       youth aged 16-21    grants to multi-    programs/
                                   skills building,    for up to 18        purpose youth       pgm__tlp.htm
                                   education, job      months who are:     service
                                   training, health    homeless,           organizations.
                                   care.               including those
                                                       for whom it is
                                                       not possible to
                                                       live in a safe
                                                       environment with
                                                       a relative; and
                                                       who do not have
                                                       an alternative
                                                       safe living
                                                       arrangement.
 
                                            HUD Sources of Assistance
 
Community Development Block       Facility purchase,  At least 70         States, major       Contact your local
 Grant (CDBG).                     construction,       percent of funds    cities, urban       HUD office. A
                                   renovation;         must benefit low    counties, in the    listing is
                                   planning            and moderate        form of formula     available at:
                                   operating costs;    income families;    block grants.       http://
                                   parenting & life    states and                              www.hud.gov /
                                   skills classes;     communities must                        local.html
                                   child care; job     prepare action
                                   training &          plan with
                                   placement;          community input.
                                   counseling; case
                                   management;
                                   follow-up
                                   services.
----------------------------------------------------------------------------------------------------------------


                                 WHAT MAJOR RESOURCES ARE AVAILABLE?--Continued
----------------------------------------------------------------------------------------------------------------
                                    What Aspects of
                                     SCH Can These      Restrictions on      Who Receives       Where can I get
                                    Funds Pay For?          Funding             Funds?         more information?
----------------------------------------------------------------------------------------------------------------
 
                                            HUD Sources of Assistance
 
HUD Supportive Housing Program..  Facility purchase,  Funds must be       HUD awards 3-year,  Contact your local
                                   construction,       spent on homeless   renewable           HUD office. A
                                   renovation; new     persons only; 25    competitive         listing is
                                   or increased        percent set aside   grants to states,   available at:
                                   services to the     for families with   tribes, cities,     http://
                                   homeless;           children; 25        counties, other     www.hud.gov/
                                   operating           percent set aside   governmental        local.html.
                                   expenses; some      for disabled; 10    entities, private
                                   admin costs.        percent set aside   non-profits,
                                                       for supportive      community mental
                                                       services not        health
                                                       provided with       associations.
                                                       housing. Homeless
                                                       minors may be
                                                       eligible to
                                                       receive services
                                                       under this
                                                       funding source
                                                       unless they are
                                                       considered wards
                                                       of the state
                                                       under applicable
                                                       state law.
 
HUD Emergency Shelter Grants....  Facility            Funds must be       States, major       Contact your local
                                   renovation;         spent on the        cities, urban       HUD office. A
                                   operating costs;    homeless or those   counties, in the    listing is
                                   homelessness        at risk of being    form of formula     available at:
                                   prevention;         homeless; only 5    grants.             http://
                                   employment,         percent of funds                        www.hud.gov/
                                   health, drug        can be used for                         local.html.
                                   abuse, education    admin costs, and
                                   services.           30 percent for
                                                       prevention and
                                                       services.
                                                       Homeless minors
                                                       may be eligible
                                                       to receive
                                                       services under
                                                       this funding
                                                       source unless
                                                       they are
                                                       considered wards
                                                       of the state
                                                       under applicable
                                                       state law.
----------------------------------------------------------------------------------------------------------------


                                 WHAT MAJOR RESOURCES ARE AVAILABLE?--Continued
----------------------------------------------------------------------------------------------------------------
                                    What Aspects of
                                     SCH Can These      Restrictions on      Who Receives       Where can I get
                                    Funds Pay For?          Funding             Funds?         more information?
----------------------------------------------------------------------------------------------------------------
 
                                            HUD Sources of Assistance
 
Rental Assistance Vouchers......  In general, the     Teenage mothers     In order to         Contact your local
                                   voucher pays the    may be eligible     receive a           Public Housing
                                   landlord the        for vouchers.       voucher, a renter   Authority.
                                   difference          However, the        must apply to his/
                                   between 30          voucher program     her local Public
                                   percent of a        requires that a     Housing Authority.
                                   renting family's    lease be signed
                                   gross income and    by the renter,
                                   the price of the    and in some
                                   rental unit, up     states minors may
                                   to a local          not sign a lease.
                                   maximum.            Individual PHAs
                                                       determine whether
                                                       a shared housing
                                                       facility is an
                                                       acceptable use
                                                       for the voucher.
                                                       The PHA must
                                                       approve the
                                                       renter and the
                                                       unit according to
                                                       various
                                                       eligibility
                                                       criteria.
 
HUD's Dollar Homes Program......  Property              ................  Local governments   http://www.hud.gov/
                                   acquisition.                            (cities and         dollarhomes
                                                                           counties) can      Also, the full
                                                                           purchase HUD        text of Housing
                                                                           owned homes for     Notice 00-7
                                                                           $1 each, plus       (``Implementation
                                                                           closing costs, to   of $1 Home Sales
                                                                           create housing      to Local
                                                                           for families and    Governments
                                                                           communities in      Program'') can be
                                                                           need. Local         downloaded at
                                                                           governments can     http://
                                                                           purchase these      www.hudclips.org
                                                                           homes and then      (Click on ``2000
                                                                           convey them to      Housing
                                                                           non-profit          Notices'')
                                                                           organizations for
                                                                           use.
----------------------------------------------------------------------------------------------------------------


                                 WHAT MAJOR RESOURCES ARE AVAILABLE?--Continued
----------------------------------------------------------------------------------------------------------------
                                    What Aspects of
                                     SCH Can These      Restrictions on      Who Receives       Where can I get
                                    Funds Pay For?          Funding             Funds?         more information?
----------------------------------------------------------------------------------------------------------------
 
                                            HUD Sources of Assistance
 
HUD's Non-Profit Sales Program..  Property            Direct sales of     Non-profit          www.hud.gov/
                                   acquisition.        properties          organizations can   goodneighbor/
                                                       foreclosed by the   purchase            nonprofitsales/
                                                       Federal Housing     properties at a     index.html
                                                       Authority.          discount through
                                                       Discounts of 30     this program.
                                                       percent off the
                                                       list price are
                                                       offered if the
                                                       property is not
                                                       eligible for FHA
                                                       insurance and is
                                                       located in a HUD-
                                                       designated
                                                       ``revitalization'
                                                       ' area. Other
                                                       properties are
                                                       offered at 10
                                                       percent discounts
                                                       off list price
                                                       (or 15 percent if
                                                       five or more
                                                       properties are
                                                       purchased and
                                                       closed in a
                                                       single
                                                       transaction).
                                                       These discounts
                                                       apply to sales in
                                                       both restricted
                                                       and general
                                                       property listings.
                                            HUD Sources of Assistance
 
McKinney Act Title V Program....  Property            Properties are      Surplus properties  Within HUD: at the
                                   acquisition.        leased without      can be made         Office of Special
                                                       charge for a        available to        Needs Assistance
                                                       period of 1 to 20   States, local       Programs (202)
                                                       years, but the      governments and     708-1234
                                                       entity providing    non-profit         From HHS: (301)
                                                       homeless services   organizations for   443-2265
                                                       must pay for        use to assist the
                                                       operating and       homeless.
                                                       repair costs..      Available
                                                                           properties are
                                                                           listed in the HUD
                                                                           Federal Register
                                                                           notice listing
                                                                           property
                                                                           availability HHS
                                                                           handles the
                                                                           application
                                                                           portion of the
                                                                           program.
 
Military Base Closures..........  Property              ................  When a military     Contact your Local
                                   acquisition.                            base is being       Redevelopment
                                                                           closed, a Local     Authority
                                                                           Redevelopment
                                                                           Authority is
                                                                           designated to
                                                                           redeploy the
                                                                           assets of the
                                                                           base.
----------------------------------------------------------------------------------------------------------------

    Early indications are that we do see some positive results 
in terms of not only outcomes for the mother, but also for the 
child. We do see some early positive trends in terms of the 
likelihood that the mother will get work force skills and 
education. Going back to the points made by previous questions, 
we do see early indications that the child is also more likely 
to have positive health care outcomes. I say ``early 
indicators'' because it is still early and there isn't 
comprehensive or rigorous research. Part of the challenge has 
been that these programs are fairly small, they serve a small 
number of people, there hasn't been a very good control group 
to compare the results with, but the early indicators are 
certainly very positive that in giving a structured environment 
for these women who may not otherwise have had structured 
environments, you can accomplish good things both for the 
mothers and for the children. Combined with Welfare Reform, as 
you know, which allows States to require teen mothers to live 
with adult supervision or in a structured environment, these 
group homes can play an important role. And that is why the 
administration has asked for $33 million in the 2002 budget.
    Chairman Herger. Thank you very much, Mr. Jindal, and I 
thank you for your outstanding fine testimony.
    Mr. Jindal. Well, thank you, Mr. Chairman. Thank you, 
Members of the Committee.
    [Questions submitted from Chairman Herger to Mr. Jindal, 
and his responses follow:]

    1. In your testimony, you mention that teen boys ought also to be 
the focus of teen pregnancy prevention efforts. Can you describe the 
types of programs that are effective in encouraging teen boys to remain 
abstinent?
    The Department recognizes that boys and girls have a shared 
responsibility in the prevention of teen pregnancy. Many abstinence 
programs target both girls and boys and recently, providers have begun 
developing curricula aimed specifically at addressing the concerns of 
boys. Unfortunately these programs are too new to have been fully 
evaluated. The national evaluation of abstinence education will provide 
gender specific outcome information for the mixed gender programs it is 
studying.
    2. Please compare Federal and State funding for family planning, 
including contraception, with funding for abstinence education for each 
year since 1996.

                            1. FAMILY PLANNING SERVICES TO ALL WOMEN OF ALL AGES \1\
                                          Funding (in millions dollars)
----------------------------------------------------------------------------------------------------------------
                      Progarm                          1996      1997      1998      1999      2000       2001
----------------------------------------------------------------------------------------------------------------
 
        Federal and State funding for family planning, including contraception, to women of all ages \2\
 
Title X \3\........................................     192.6     198.5     203.5       215     238.9      253.9
Medicaid:
  Federal Share....................................     454.7     394.3     393.4     483.8     535.5      925.4
  State Share......................................      45.5      39.4      39.3      48.4      53.6       92.5
    Total..........................................     692.8     632.2     636.2     747.2       828    1,271.8
 
                                       2. Abstinence Education Funding \1\
 
Adolescent Family Life Program.....................   \4\ 1.8  \4\ 10.2  \4\ 10.8  \4\ 10.4      10.5       10.4
Title V section 510:...............................
  Federal Share \5\................................  ........  ........        50        50        50         50
  State Match \6\..................................      37.5      37.5      37.5      37.5
SPRANS \7\.........................................  ........  ........  ........  ........  ........         20
    Total..........................................       1.8      10.2      98.3      97.9        98      107.5
----------------------------------------------------------------------------------------------------------------
\1\ This represents Federal programs that we know states use to fund these activities. States may be using other
  funds, but we do not have the reporting capability to know.
\2\ Several other Federal programs fund family planning services, including Title V MCH Block Grant, Title XX
  SSBG, TANF and TANF bonuses for reduction in illegitimacy rates.
\3\ An estimated 90 percent of the total expenditures goes for services.
\4\ Includes projects that also have a care component for pregnant and parenting teens.
\5\ This is the total amount of Federal funding available. Not all states and territories have applied for
  funding in each year. In 2001, the total amount awarded was $43.5 million.
\6\ The required state match is $3 for every $4 Federal dollars. The total amount will vary with the amount of
  Federal funds awarded.
\7\ This is the Special Projects of Regional and National Significance community-based abstinence education
  grant program. The FY 01 budget included an advance appropriation of $30 million for the SPRANS program for
  2002. The FY 02 Labor/HHS appropriation included an additional $10 million for a total of $40 million in FY
  2002.

    3. Do you feel the funding streams for abstinence, family planning, 
and adolescent life programs are sufficiently flexible to provide 
opportunities for a broad array of program approaches that address teen 
pregnancy prevention and teen sexuality?
    Through the abstinence, family planning and adolescent life 
programs, along with other programs at HHS, a range of teen pregnancy 
prevention activities are funded. While the uses of abstinence funding 
through the Title V state program, the SPRANS community-based program 
and the Adolescent Family Life program, have been Congressionally 
prescribed, the Department's health agencies have a variety of funding 
streams for the prevention of adolescent risk behaviors. States and 
communities can use these funds quite flexibly to improve overall 
adolescent outcomes. In addition states receive Federal block grant 
funding, such as TANF, that can be used to provide a range of pregnancy 
prevention services.

                                <F-dash>

    Chairman Herger. And at this time if the witnesses for our 
second panel would please have a seat at the table.
    On the second panel this morning, we will be hearing from 
Gale Grant, director of the Virginia Abstinence Education 
Initiative in Richmond, Virginia; Elayne Bennett, president of 
Best Friends Foundation, which is the subject of a recent 
``Washington Times'' article that I would like included in the 
hearing record.
    [The Washington Times article follows:]
                              D.C.'s Best
Cheryl Wetzstein
The Washington Times
Published 11/6/01
    Asriel-Janifer wants to go into the Air Force and fly jets. 
Derrenzo Hines wants to play football. Their friend Ryan Vaughn isn't 
quite sure where his destiny lies.
    For now though, these three 13-year-old D.C. boys are pursuing 
something else--good reputations.
    ``We don't want people to mess with the Best Men,'' said Derrenzo.
    The three boys, all eighth-graders at Jefferson Junior High School 
in Southwest Washington, are Members of the fledgling Best Men program, 
a companion to the highly praised Best Friends for girls.
    Like Best Friends, which was founded in 1987, Best Men uses an in-
class study program, physical exercise and mentoring to teach teens how 
to say no to smoking, drugs, alcohol and sex--and yes to self-respect 
and healthy lifestyles.
    Best Men also stresses an ideal of manhood: Its logo carries the 
image of an eagle as a symbol of vision, a lion as a symbol of 
strength, an anchor as a symbol of courage and strength, and a gavel as 
a symbol of truth and justice.
    Boys learn ``how to carry themselves as gentlemen, how to conduct 
themselves and have respect for themselves, women, young ladies and 
authority figures in general,'' said Alan Holt, dean of students at 
Southwest Washington's Amidon Elementary School, which has had all its 
sixth-grade boys in the program last year and this year.
    Best Men started in the 2000-2001 school year at Jefferson and 
Amidon, and in several Milwaukee public schools. This year, the program 
is in the same schools, plus others in Texas and New Jersey.
    It teaches boys ``how to choose good friends, how to make the right 
decisions, and why you stay away from dangerous activities, such as 
sex, drug use and alcohol use,'' said DeLeon Ware III, a math teacher 
who helps lead the program at Jefferson.
    Elayne Bennett, founder of Best Friends, said Best Men was created 
``because every time we would talk about what we're doing for the 
girls, someone would say, `But what about the boys?' ''
    Despite concerns that Best Men would siphon off resources from the 
rapidly growing Best Friends program--which now has 5,000 girls in 99 
public schools in 14 states, the District and the U.S. Virgin Islands--
Best Friends Foundation leaders decided ``we just have to try,'' Mrs. 
Bennett said.
    Evidence of the Best Men's positive impact could be seen after the 
first year in the District, said Mrs. Bennett, who is married to former 
Education Secretary William J. Bennett and is the mother of two sons.
    In a survey taken at the beginning of the Best Men program, 31 
percent of some 60 teen-age boys said they had had sexual intercourse 
in the past 3 months. By the end of the year, 20 percent of the boys 
said they had had sexual intercourse in the previous 3 months.
    It was especially heartening that eight of the previously sexually 
active boys said they would abstain from sex either until they 
graduated or got married, said Mrs. Bennett.
    Hundreds of abstinence-education programs are in place nationwide, 
but few target boys exclusively, according to the Abstinence 
Clearinghouse in Sioux Falls, S.D.
    A program introduced this year--the Game Plan Abstinence Program--
by Miami Heat basketball star A.C. Green and Project Reality of Golf, 
Ill., uses a sports motif, but can be used with both boys and girls.
    Abstinence researchers say single males face formidable obstacles 
in sexual self-control--the popular culture has exploded with 
permissive sexual imagery, while social messages to stay chaste and 
marry have weakened.
    As a result, many teen-pregnancy-prevention programs stress sexual 
abstinence with young teen males, but later, ``assuming that most older 
teen boys and young men will be sexually active,'' focus on 
contraception, the National Campaign to Prevent Teen Pregnancy said in 
a 1997 publication, ``Not Just For Girls: The Roles of Boys and Men in 
Teen Pregnancy Prevention.''
    Still, studies in the 1990s indicate that boys were hearing 
abstinence messages. According to the Federal Youth Risk Behavior 
Survey, in 1991, 57.4 percent of high school males had sexual 
intercourse. This figure dropped to 48.8 percent in 1997 and upticked 
to 52.2 percent in 1999.
    The number of sexually active high school girls fell also, but less 
dramatically: In 1991, 50.8 percent of girls had sexual intercourse. 
This figure was 47.7 percent in both 1997 and 1999.
    The District's Best Men program involves 30 boys at Amidon and 60 
boys at Jefferson, program leaders said. The boys have monthly 
meetings, where they study the Best Men curriculum and delve into such 
things as manhood, decision-making and relationship skills.
    The boys learn that girls have pickup lines--like ``Come on, prove 
you're a man''--and how to resist them, said Mrs. Bennett. ``We also 
teach boys that their role is to protect and take care of the girl,'' 
and realize, that for a teen-age girl, ``pregnancy would not be in her 
best interest,'' she said.
    Best Men Members meet weekly for martial arts, which builds fitness 
and mental discipline, and have frequent contact with male mentors at 
their school. There are also field trips, sports activities, tutoring 
and community-service projects. Adult females are welcomed and 
appreciated, but the goal is to connect young men to strong male role 
models, program leaders said.
    Derrenzo said that joining Best Men has helped him with self-
control. ``I had self-respect, but if an adult would say something to 
me that I didn't like, I would just say something back,'' said the 
youth, who lives with his parents and an older brother. ``Since I've 
been in the program, I've been able to catch myself before I say 
something.''
    ``When I was in elementary school, I had just a little, tiny 
attitude problem,'' said Ryan, who grinned as Mr. Holt, his former 
teacher, shot him a knowing look.
    ``When I heard about Best Men,'' continued Ryan, whose parents have 
recently reunited, ``I thought that this would help me to have some 
self-control and bring a brighter future for me.''
    ``I wanted to be in Best Men because I heard it was like Best 
Friends, and they're so disciplined and have a good reputation,'' said 
Asriel, who lives with his parents and two sisters. ``Best Men helped 
me learn about drug abuse,'' he added. ``There are messages `about just 
say no,' but really, you just can't say no. [Best Men] teaches you the 
real thing, what to do when somebody tells you to take some drugs.''
    In Best Friends, girls graduate into the Diamond Girls program in 
high school; many are eligible for college scholarships from the Best 
Friends Foundation. A companion program for high school boys, called 
the Iron Men, is being discussed, said Lori Anne Williams, the Best 
Friends cultural-arts director.

    Copyright<Copyright> News World Communications, Inc. All rights 
                               reserved.

                                <F-dash>


    Chairman Herger. Rebecca Maynard, university trustee 
professor of education and social policy at the University of 
Pennsylvania in Philadelphia.
    And, Mrs. Johnson, would you like to introduce the next 
witness?
    Mrs. Johnson. I certainly would, Mr. Chairman, and thank 
you very much for this opportunity.
    There is not very many of us that really change people's 
lives, and I am please to introduce RoseAnne Bilodeau, who 
really has changed the lives of so many kids in my hometown. 
She came into a neighborhood that was gang-ridden, one of the 
most dangerous, one of the poorest neighborhoods in a city with 
a lot of problems, and she has created opportunity for those 
kids. Over 8\1/2\ years only two instances in which one of 
those young people was involved in a pregnancy.
    You know, I have visited a lot of young parents' programs. 
And who is there? The girls with their babies. I visit this 
program, and who is there? The girls and the boys. They did a 
poetry book. Most of the poems were written by the boys.
    So we can do it. We can take this opportunity to help 
families in our society grow in such a way that they don't 
become at risk and into the Department of Children and Families 
and all the family agencies. But we have to be smarter. And I 
just am so thrilled to have RoseAnne Bilodeau here, who has 
done such a wonderful job of impacting the lives of young 
people and their parents. Thank you for being here.
    Chairman Herger. Thank you, Mrs. Johnson.
    We also have Dr. Joe McIlhaney, president of the Medical 
Institute for Sexual Health in Austin, Texas; and Sarah Brown 
from the National Campaign to Prevent Teen Pregnancy in 
Washington, D.C.
    Again, I would like to welcome each of you, and if we could 
begin with the testimony. Ms. Grant.

  STATEMENT OF GALE E. GRANT, DIRECTOR, ABSTINENCE EDUCATION 
 INITIATIVE, VIRGINIA DEPARTMENT OF HEALTH, RICHMOND, VIRGINIA

    Ms. Grant. Good morning, and thank you, Chairman Herger and 
other Members of the Committee for allowing me to be here 
today. I am Gale Grant, director of the Virginia Abstinence 
Education Initiative which operates through the Virginia 
Department of Health.
    Having been involved in teen pregnancy prevention for quite 
a number of years for personal reasons, primarily because I was 
born to a 15-year-old. And also when I went to graduate school 
I focused on human development, and have really studied the 
life span from infancy to older age to elderly. I focused in 
though on the adolescent period, preadolescence and 
adolescence, because I had particular interest in that, and 
particularly adolescent sexuality and the issues related to 
that.
    During my work in teen pregnancy prevention I saw grueling 
work, and I love the work, trying to work with girls and their 
families, and young men, to have some impact on what would 
happen to those young people as they were being parented, 
either as a girl emancipated herself or if she stayed in the 
home with other family Members. And I found that I just felt 
like I was spinning my wheels. So many times it was so 
difficult to prevent the second pregnancy. And I decided to 
take a step back and look at how did we get here? And that led 
me to much more emphasis in primary prevention and actually 
started hearing about abstinence education and looking into 
what that was all about. I realized that until we deal with 
teens engaging in sexual activity, we truly cannot have an 
impact on teen pregnancies. We must deal with the source and 
the sexual activity, young people engaging in sexual activity 
that leads to pregnancies and other consequences of that 
activity.
    Consequently, I felt very prepared, after spending pretty 
much most of the 1980s training people in abstinence education 
around the State for this job as Director of the Abstinence 
Education Initiative for Virginia. And in Virginia we took a 
different approach with our monies. We decided that we wanted 
to look at the impact of teaching abstinence until marriage 
education. So we designed a large quasi-experimental 
longitudinal study. We did receive some flack around the State 
for doing that because we just didn't take our dollars and 
throw them out there, let people apply and do good as people 
want to do a lot of times with monies like this. They want to 
help kids, which is of some merit, but we really wanted to take 
an empirical approach to this.
    So we had a request for proposal process, which was 
competitive, and funded six agencies to provide abstinence 
until marriage education. We provide a great deal of training 
to those agency staff. We provide technical assistance. And 
consequently, we have what we believe is the foundation for a 
very strong quasi-experimental evaluation, because we don't 
have random assignment to control and treatment groups, but we 
do have match comparisons.
    And what we are finding right now, we are looking at our 
preliminary data, first year, and annual follow-up, and we are 
finding that we have very strong linkages between our pre- and 
post-test, we are not losing kids from the time that they take 
our pre-test to the time they take our post-test. We have 
fairly good strong linkages from year one to year two, from 
when kids take that post-test that first year they are in our 
programs, and then when they take their annual follow-up, which 
we give them every year, along with a booster session after 
they have left that primary year, the first year they come in, 
we provide booster sessions for young people each subsequent 
year, and we are finding that we have good strong compatibility 
between our program and our comparison group, and that our 
scales on our survey are very reliable and strong.
    One of the major findings I wanted to share with you right 
now is that two of our four projects with our longitudinal data 
are showing significant pre-post movement on most or all of our 
short-term predictors, and I have those predictors listed in my 
written testimony, as compared to our comparison group which 
showed no change at all. The other two projects did not show 
short-term change on our short-term measures.
    It is interesting to us in Virginia, as we look at our data 
and start to analyze, because with respect to our prediction 
model and our evaluation model, we would expect that those 
programs would show change in the short-term predictors if they 
really, really are good predictors of behavioral intent, to 
show change in our short-term predictors. If they really are 
good predictors to also show change in the longer term in terms 
of our behavioral data. And I feel, I would like to say, that 
what we are finding with our model is that those factors that 
predict behavioral intent for young people leaning toward 
sexual activity were showing that our construct, our picking up 
those factors, and that right now from year one to year two--
and we have other years to follow with these kids--that we are 
showing some change in terms of kids not transitioning from a 
virgin to non-virgin status. And I hope that wasn't confusing, 
but that is our dependent variable in Virginia. We are trying 
to keep kids from moving from virginal to non-virginal status 
in terms of our design.
    Thank you.
    [The prepared statement of Ms. Grant follows:]
Statement of Gale E. Grant, Director, Abstinence Education Initiative, 
            Virginia Department of Health, Richmond Virginia
                              Introduction
    In general, evaluation research and its findings serve three 
primary functions:
    1. to judge merit or worth
    2. to improve programs and policies
    3. to generate knowledge.
    Research should never be undertaken to ``prove'' something--
research probes. A substantive finding or hypothesis is one that 
repeatedly survives such probing. A single piece of work should never 
be looked upon as either complete or conclusive. In order to make any 
kind of conclusive statements about the function, efficacy, and/or 
contributions of abstinence education, there must exist a body of 
literature.
    The literature on the effectiveness of abstinence education 
programs is meager at best. None of the small number of published 
studies have demonstrated reductions in sexual activity levels, but 
each study suffers design flaws that prevent conclusions about either 
positive or negative effects. Thus, we presently have no scientific 
basis for judging the merit or worth of such programs, for improving 
these programs, or for developing policies related to these programs.
Is Rigorous Evaluation of Abstinence Education Programs Possible?

    The strength or rigor of any program evaluation research is 
dependent in large part upon the following contributing factors:

          1) The strength and integrity of the program that is being 
        evaluated
          2) The strength of the research design/methodology
          3) The use of assessment instruments whose measures are both 
        reliable (consistent) and valid (accurate)
          4) The replicability of the research findings

    Each of these contributing factors are controllable, thus making 
rigorous evaluation of abstinence education programs theoretically 
possible.
What are the Challenges to the Rigorous Evaluation of Abstinence 
        Education Programs?

    By its very nature, human subjects research occurs outside of a 
controlled laboratory environment. Programs are rarely implemented 
exactly as they are intended, unanticipated outside influences often 
come into play, etc. The accuracy and completeness of documentation of 
the processes and events that took place during the period of the study 
are crucial for the interpretation of research data.
    The use of strong research designs is often hampered by lack of 
resources (evaluation is expensive), political pressures (rarely do 
people want to serve as the control/comparison group and not receive 
the intervention), structural limitations (class assignments and 
student schedules), and poor planning (in most cases, evaluation is an 
after-thought). There are four primary designs for measuring program 
outcomes and impacts. The first two are the only ones which allow for 
true assessments of program outcomes/impacts:

          1) Random Assignment/Experimental Design
                  --This is the strongest design available because it 
                eliminates all sources of bias.
                  --This design must be developed prior to program 
                implementation
          2) Comparison Group with Pre and Post Measures/Quasi-
        Experimental Design
                  --Next strongest design
                  --The primary limitation to this design is that it 
                does not control for pre-existing differences in 
                unmeasured attitudes/values/behaviors/risk factors
          3) Comparison Group with Post Measures Only
                  --Has serious limitations since it runs the risk of 
                peer group selection biases and does not control for 
                pre-existing differences in measured or unmeasured 
                attitudes/values/behaviors/risk factors
        4) Pre-post test with Program Participants Only
                  --Has serious limitations because it does not control 
                for maturation

    The definition of abstinence and abstinence education is often 
confusing/ambiguous. In addition, consensus regarding program goals and 
outcomes is not always easy to come by. For example, decreases in 
sexual activity or delays in the initiation of sexual activity are 
definitely seen as positive outcomes. However, the definition of sexual 
activity (intercourse versus other forms of sexual involvement) is 
frequently a subject of debate.
    Different types of knowledge are generated based on the type of 
evaluation research being conducted. For example, formative evaluation 
research assists programs with the documentation of program processes 
and their implementation. This leads to programs that are more 
effective. Summative evaluation research, on the other hand, assists 
sponsors with information about program success/effectiveness. This 
leads to greater accountability for resources and more effective policy 
decision-making.
    It has been said by opponents of abstinence education that the 
efficacy of it has not been demonstrated. In fact, opponents have 
attempted to say that it does not work. The truth is that the 
literature on the efficacy of abstinence education programs is meager 
at best, and that the jury is still out on whether or not it is 
effective. Where there is literature on the efficacy of abstinence 
education programs, that literature has historically been replete with 
methodological weaknesses. Many of these methodological problems were 
due to compromises of program integrity from weak or poor program 
design/implementation resulting from inadequate funding.

                                History

    The Virginia Abstinence Education Initiative is a five-year, multi-
component effort to implement new approaches that will help adolescents 
develop the attitudes and skills necessary to delay sexual involvement 
until marriage, and to evaluate systematically the effectiveness of 
those approaches. Unlike many of the evaluation of abstinence education 
efforts around the country both past and present, systematic evaluation 
of the program was built into the Virginia Abstinence Education 
Initiative (VAEI) from the very beginning. Due to the criticisms thrown 
at abstinence education programs, the VAEI sought two things as a 
priority: 1) adequate funding to support strong program design and 
integrity of program implementation and 2) adequate funding to support 
formative and summative program evaluation.
    Consequently, the Virginia Department of Health (VDH), which has 
the responsibility for VAEI program administration, built evaluation 
expectations into its Request for Proposals. In addition, VDH 
established an Evaluation Consortium comprised of faculty from five 
public universities in Virginia (University of Virginia, George Mason 
University, James Madison University, Virginia Commonwealth University, 
Christopher Newport University) with expertise in program evaluation 
and one national expert on the evaluation of abstinence education 
programs. The Evaluation Consortium provides technical assistance to 
local program sites, provides guidance around the design of data 
collection and evaluation methodology, and data analyses and 
interpretation. In addition, VDH has subcontracted with the Survey and 
Evaluation Research Laboratory (SERL) at Virginia Commonwealth 
University to design and implement a data reporting system to support 
evaluation and monitoring activities.

                                Overview

    The VAEI evaluation system is comprised of both formative and 
summative evaluation components. Data for the VAEI evaluation system is 
collected using the the following five tools:
    1. Quarterly Implementation Progress Reports (QIPRs): The QIPR 
serves as a qualitative report on each program's activities and 
barriers related to achieving the overall program goals. The QIPR is 
used to record the history of the program, including any events that 
occur in the school or community that may influence the participants in 
the program.
    2. Community Education Information Reports (CEIRs): The CEIR serves 
as a way to capture basic information on activities and audiences that 
are very diverse in nature. Community education is defined as a one-
time or short-term program where it is impractical or unfeasible to 
capture attendance data (or for short series of sessions where there is 
no expectation that the same participants will return for each 
session).
    3. Intervention Project Attendance Reports (IPARs): Intervention 
projects are defined as projects where there is an expectation that 
individuals will be ``enrolled'' into a planned approach or curriculum 
that includes multiple contacts where the information in each 
subsequent session builds upon information that has been covered 
previously.
    4. Survey of Youth Attitudes and Behaviors: The purpose of the 
survey is to capture the attitudes and behaviors of youth related to 
marriage, sex, and sexual abstinence. This questionnaire is 
administered to all participants at the first or second session (pre-) 
and at the final session (post-) to assess the level of impact of the 
program's activities. The questionnaire is also administered to program 
participants annually over the course of program funding (longitudinal 
design). This longitudinal design allows for the capturing of both long 
and short term changes. Additionally, in order to attribute any change 
to the program's activities, the same survey is also administered to a 
comparison group within two weeks of the participant administrations. 
This quasi-experimental design helps to insure that any changes noted 
pre-to-post program can be attributed to the intervention and not due 
to normal maturation or other events that may happen in the 
environment. Since this initiative is implemented over five years, the 
longitudinal and quasi-experimental nature of the design creates a 
rather complex but rich source of data. (see Table 1).
    5. Other Methods as needed as determined cooperatively between the 
program site, the evaluation consortium member assigned to that site, 
in consultation with all members of the Evaluation Consortium.

                          Preliminary Findings

    Six program sites were selected to receive VAEI funding during the 
first year of the initiative. By nature of human subjects research that 
is outside of a controlled laboratory environment, there will never be 
a perfect study. However, results from the first year of a five-year 
study show strong scale reliability and strong comparability between 
program and control groups in all but one of the six sites. Having 
accurate and complete recording of processes and events that take place 
during the period of the study, a strong design/methodology from the 
very beginning, and the use of reliable/valid assessment instruments 
establishes a good foundation for a strong study.
    In addition, during the first year, three of the six funded sites 
had enough participants and strength and integrity of program 
implementation to warrant some in-depth analyses about short-term 
program effects. Of the three sites, one had very strong statistically 
significant short term treatment effects in the desired direction, one 
had moderate statistically significant short term treatment effects in 
the desired direction, and one showed little significant short term 
treatment effects in the desired direction. These types of outcomes are 
generally not attainable in the first year of a pilot project since 
first year projects generally have weak program elements and 
problematic rates of participation. On the flip-side, three of the six 
sites did experience the expected problems related to weak program 
implementation or less than optimal participation rates. However, it is 
anticipated that with the feedback and lessons learned from the first 
year, these already positive findings will become increasingly so over 
the next three years.
    The strength of the VAEI design not only shows great promise in its 
ability to contribute to the body of knowledge about the efficacy of 
abstinence education programs, but has also attracted national 
attention and recognition. Due to the groundwork laid by the VAEI, one 
of the six VAEI program sites has been selected by Mathematica Policy 
Research (MPR) as a model program site for their federally funded 
national evaluation of abstinence education programs.
Data Summary for Years 1 and 2 of 5
          <bullet> Year 1 data showed very strong pre- and post-test 
        linkages in 3 of 6 programs. Year 2 data showed very strong 
        pre- and post-test linkages in all programs being evaluated.
          <bullet> Year 1 and Year 2 data show strong comparability 
        between program and control groups in more than half of the 
        programs being evaluated. Some work remains to be done to 
        increase group comparability in two of the sites.
          <bullet> Year 1 and Year 2 data show that there is very 
        strong scale reliability on all measures.
          <bullet> Year 1 data showed moderate to very strong program 
        effects in the majority of programs. Year 2 data showed 
        moderate program effects, but also showed similar movement in 
        the desired direction among comparison group youth.
          <bullet> Two of the four projects with longitudinal data 
        showed significant pre-post movement on most or all of the 
        short-term predictors as compared to the comparison groups, 
        which showed no change. The other two projects did not show 
        short-term change on the short-term measures. This is 
        interesting to us for several reasons. With respect to our 
        evaluation model, we would expect those programs which show 
        change in short term predictors, if they really are good 
        predictors, to also show change in short term predictors, if 
        they really are good predictors, to also show change in the 
        longer term--on the behavioral data.
Highlights
    Virginia has been selected to be one of only four states to present 
their evaluation study at the national abstinence evaluator's workshop 
in July 2000. Selection criteria included strength of design, positive 
progression of the study, and availability of data.
    The Association of Maternal and Child Health invited Virginia to 
participate as a panelist for a teleconference on abstinence program 
evaluation.
    Most recently, we presented at both the American Public Health 
Association and the National Organization of Adolescent Pregnancy 
Parenting and Prevention conferences.

                     TABLE 1: THE VIRGINIA ABSTINENCE EDUCATION INITIATIVE SURVEY ADMINISTRATION AND LONGITUDINAL TRACKING TIMETABLE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                Year                        Pre-test                Post-test                Annual                 Annual                 Annual
--------------------------------------------------------------------------------------------------------------------------------------------------------
1998-1999..........................  Post(Cohort 1--.......  Pre(Cohort 1--........
                                     Program and             Program and
                                      Comparison).            Comparison).
1999-2000..........................  Pre(Cohort 2--........  Post(Cohort 2--.......  Annual (Cohort 1--...
                                     Program and             Program and             Program and
                                      Comparison).            Comparison).            Comparison).
2000-2001..........................  Pre(Cohort 3--........  Post(Cohort 3--.......  2nd Annual (Cohort 1-- 1st Annual (Cohort 2--
                                     Program and             Program and              .                      .
                                      Comparison).            Comparison).           Program and            Program and
                                                                                      Comparison).           Comparison).
2001-2002..........................  Pre(Cohort 4--........  Post(Cohort 4--.......  3rd Annual (Cohort 1-- 2nd Annual (Cohort 2-- 1st Annual (Cohort 3--
                                     Program and             Program and              .                      .
                                      Comparison).            Comparison).           Program and            Program and            Program and
                                                                                      Comparison).           Comparison).           Comparison)
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 

     TABLE 2: KEY PREDICTORS OF BEHAVIOR INTENTIONS (1ST YEAR DATA)
------------------------------------------------------------------------
            First order                          Second order
------------------------------------------------------------------------
<bullet>Peer environment...........  <bullet>Future orientation
<bullet>Opportunity................  <bullet>Reasons to wait
<bullet>Sexual values..............  <bullet>Love justifies sex
<bullet>Personal efficacy..........  <bullet>Value of marriage
<bullet>Prior experience...........  <bullet>Religiousness
                                     <bullet>Parental respect and
                                      approachability
------------------------------------------------------------------------

                                <F-dash>


    Chairman Herger. Thank you very much for your testimony, 
Ms. Grant. Now Mrs. Bennett.

 STATEMENT OF ELAYNE G. BENNETT, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, BEST FRIENDS FOUNDATION

    Mrs. Bennett. Thank you so much for inviting me here.
    Chairman Herger and Congresswoman Johnson, my name is 
Elayne Bennett. I am the President, founder, chief executive 
officer, instructor, chief cook and bottle washer, I guess, of 
the Best Friends Foundation.
    I want to tell you how we at Best Friends have found a way 
to reduce sexual activity and pregnancies among teenage girls. 
We have accomplished through a long-term program that is 
presented during the school day. It is initiated, operated and 
financed at the local level, and it teaches abstinence. That is 
the message we believe young girls want to hear.
    When Marian Howard of Atlanta's Emory University asked 
1,000 teenage mothers what they wanted to learn in sex 
education, 82 percent of them said how to say no without 
hurting my boyfriend's feelings. Best Friends' girls learn how 
to say no, and we don't particularly care whether they hurt 
their boyfriends' feelings.
    A recent survey conducted--that is actually something you 
can laugh at I hope.
    [Laughter.]
    Mrs. Bennett. A recent survey conducted by the American 
Association of University Women--it is the foundation of AAUW--
survey conducted on 2000 11- to 17-year-old girls found that 
the vast majority said that sex and how to say no in 
emotionally-charged relationships was their number one concern. 
And the National Campaign to Prevent Teen Pregnancy found that 
93 percent of teens said that, ``It is important for teens, for 
us, to be given a strong message from society that we should 
abstain from sex until we are at least out of high school.''
    The abstinence message, as everyone knows, is hard to get 
across when much of the popular culture, movies, magazines, 
television, and in many cases sex ed. in public schools is 
giving the opposite view. Of the 58 television shows monitored 
by ``U.S. News & World Report'' almost half contain sexual acts 
or references to sex. A study by Robert Lichtner & Associates 
found a sexual act or reference occurred on average of every 4 
minutes on shows during prime time. Media Research Center found 
portrayals of premarital sex outnumbered sex within marriage by 
eight to one on television. So is it any wonder that between 
1960 and the early nineties there was a 450 percent rise in 
out-of-wedlock births, that among industrialized nations the 
U.S. has the highest teen birth rate and one of the highest 
child poverty rates, which is related to high poverty rates 
among single mothers, and particularly those who became mothers 
as teenagers. Teenage pregnancies are costing our economy more 
than 7 billion annually and 49 billion is going to families 
begun by unwed teenage mothers.
    Now I recently added a page here because I know the issue 
is funding for abstinence and abstinence-only education, so I 
am going to quickly just cite a few things. The press is 
obviously on an alarmist campaign regarding Federal 
expenditures on abstinence education. A case in point was an 
article in ``New York Times'' a few months ago. The article 
compared Federal funding for abstinence education with Federal 
funding for HIV prevention education. It notes that beginning 
in 1996 Congress set aside 250 million for 5 years to fund 
abstinence education programs. But what it doesn't make clear 
is that the 250 million is a cumulative 5-year figure, not an 
annual expenditure of 250 million. This was, I believe, 
intentionally confusing to the reader. It accuses this 
administration of allocating to abstinence education, ``A 
figure which dwarfs contraceptive education expenditures.'' 
This again is gratuitously misleading. In fact, the 50 million 
from Title V and the 17.1 million from Maternal and Child 
Health or SPRANS, Special Projects of Regional and National 
Significance, totals 67 million for abstinence education. This 
is dwarfed by the 274 million spent on Title X Family Planning 
Clinics. This 274 million, coupled with the 220 million a year 
spent on 1,000 school-based health clinics, which either 
dispense contraception or refers students to community clinics 
which do. This is 500 million on two relatively small programs 
and does not even count the millions allocated within the 
States. Twenty-three States require that sex ed. be taught; 47 
recommend or require--either recommend or require, and all 50 
require AIDS education programs.
    One of the things I would also just like to add, that----
    Chairman Herger. If you could sum up your testimony.
    Mrs. Bennett. I will. I will sum it up right now. Sorry.
    Chairman Herger. Thank you.
    Mrs. Bennett. I would just like to tell you quickly how we 
have been successful because we focus on a character-building 
in-school curriculum with an abstinence-only philosophy, an 
intensive peer support structure, and long-term adult 
involvement. We address the issue of sexual abuse, by 
emphasizing that sexual abuse is wrong and never the victim's 
fault. We do know that many young girls, their first sexual 
experience is by adult men 21 and older. But we foster self 
respect by promoting self control and telling girls they have a 
place to go, they have someone to talk to, and that they can 
stop if they have begun sexual activity. And most sexual 
activity among middle-schoolers, particularly in the inner 
city, is not by the young girl's choice.
    Chairman Herger. I thank you for your testimony.
    Mrs. Bennett. That is it.
    Chairman Herger. And your full testimony will be submitted 
for the record.
    Mrs. Bennett. We have copies of 10-page testimony showing 
our research, which is quite impressive. Thank you.
    [The prepared statement of Mrs. Bennett follows:]
Statement of Elayne G. Bennett, President and Chief Executive Officer, 
                        Best Friends Foundation
I. INTRODUCTION
    For the past 14 years, the Best Friends Foundation has been 
reaching out to adolescents throughout the United States with a very 
simple message: enjoy adolescence by abstaining from sexual activity, 
drugs and alcohol. While this message may not be new to young people, 
the method in which it is delivered is profoundly different, and its 
impact is unsurpassed by traditional youth development models. The 
model is unique. It combines the elements of intensity, duration, and 
saturation.
    The Foundation reaches over 5,500 girls each year through its Best 
Friends program and this year will reach about 500 boys through the new 
Best Men program. These programs operate in 26 cities and 14 states, 
plus the District of Columbia and the U.S. Virgin Islands. Sexual 
activity among youth in the program is almost nonexistent. In 1999, an 
independent evaluation of the Washington D.C. Best Friends program 
showed that 4.2 percent of 7th and 5.6 percent of 8th grade girls were 
sexually active. This is in comparison with the Youth Risk Behavior 
Survey data for Washington D.C. 7th and 8th grade girls, where 18.5 
percent of 7th grade and 34.7 percent 8th grade girls indicated that 
they were sexually active.
    The Best Friends and Best Men programs are successful through a 
very consistent message and approach.

          <bullet> Adolescents are not provided mixed messages. The 
        program teaches that abstinence is the best and most effective 
        way of preventing teen pregnancy and STDs. Many programs and 
        schools teach abstinence as an option along with contraception. 
        Best Friends/Best Men staff members do not support this dual 
        philosophy, and as a result, youth are not confused by 
        conflicting messages.
          <bullet> Saturation. Many programs are expensive to implement 
        and take place after school when children are involved in other 
        responsibilities. Best Friends/Best Men recognizes that the 
        school is the surest way to reach the maximum number of youth 
        and their peers. All curriculum sessions are provided at 
        school, and most sessions take place during the school day. 
        School principals view the Best Friends/Best Men curriculum as 
        important for young people as core academic courses. The Best 
        Friends/Best Men model is the most effective way to saturate an 
        entire region with the abstinence message.
          <bullet> Duration. Youth may join the Best Friends and Best 
        Men as early as 5th grade. The program leaves abstinence as the 
        only option. Curriculum and support are provided each and every 
        month of the school year and continues through middle and high 
        school. A trustworthy mentor is always there to help youth with 
        difficult decisions.
          <bullet> Intensity. Each youth receives more than 110 hours 
        of program services each year. (1) Youth participate in monthly 
        90-minute core curriculum and peer discussion sessions during 
        the school year. This is augmented by (2) weekly one-on-one 
        meetings with volunteer school mentors, (3) male and female 
        role model presentations from the community, (4) culturally 
        enriching field trips, (5) weekly fitness and nutrition 
        classes, (6) participation in community service projects, (7) 
        and a Family and School Recognition Ceremony to honor students 
        and parents for their commitment and accomplishments.
II. DOCUMENTATION OF NEED/STATEMENT OF THE PROBLEM
A. Teen Pregnancy
    The United States has the highest rates of teen pregnancy and 
births in the western industrialized world, more than double that of 
the United Kingdom, which has the second highest rate. Every state in 
the nation has a higher pregnancy rate than the UK. In 1998 in the 
U.S., there were 51.1 births for every 1,000 teen girls aged 15-19; in 
1998, there were 97 pregnancies per 1,000 girls in that age group. More 
than 4 of 10 young women become pregnant at least once before they 
reach the age of 20--nearly one million a year; 8 of 10 of these 
pregnancies are unintended and 90 percent are to unmarried teens. Over 
$7 billion is spent annually on more than 500,000 out-of-wedlock babies 
born to teenage mothers with an estimated cost to the economy in lost 
productivity of at least $29 billion a year.
    Each year the Federal government alone spends about $40 billion to 
assist families which began with a single, teenage mother, initiating 
or perpetuating the poverty cycle which underlies most major social 
problems in the United States. The median income for a single mother is 
less than $20,000 a year. Daughters of single parents.
    Research has consistently shown that children growing up with a 
single mother are more likely to drop out of school, to give birth out 
of wedlock, to divorce or separate, and to be dependent of welfare 
(Garfinkel, I. and McLanahan, S.S., 1986). Seventy-two percent (72 
percent) of America's adolescent murderers, 70 percent of long-term 
prison inmates and 60 percent of rapists come from fatherless homes. 
Numerous recent studies document the importance of fathers in the lives 
of their children. Even if a marriage fails, children born into a 
married couple family have advantages over those born to unmarried 
women (Popenor, David, 1996).
    Each year the Annie E. Casey Foundation tracks the well being of 
children in its Kids Count publication. The data shows that while 
programs in the 1990s have successfully addressed the reduction of teen 
pregnancy, there has not been a corresponding reduction in children 
born out of wedlock. In fact, there has been a disturbing increase. The 
nationwide percent of total births to unmarried women increased from 41 
percent in 1990 to 43 percent in 1998. In Washington D.C., the target 
area for this proposal, the percent of births to unmarried mothers was 
an alarming 63 percent in 1998. Moreover, the likelihood of a child 
receiving a child support award reflects the marital status of parents 
at the time of birth. Only 22 percent of never married single parents 
received child support payments in 1997, compared with 47 percent of 
divorced single parents. Further, only 10 percent of mothers ages 15 to 
17 received child support payments in 1997.
B. Teen Birthrates
    Child Trends reports that preliminary data for 1998 from the 
National Center for Health Statistics show that the teen birth rate has 
declined since the early 1990s. In 1998, there were 51.1 births per 
1,000 to teen girls age 15-19. However, the number of teen births since 
1991 represents a 7 percent decline compared with an 18 percent decline 
in the rate of teen births since 1991. Despite a decrease in the teen 
birthrate, the total number of births to teens increased slightly 
between 1997-99 due to an increase in the number of teen females in the 
1990s.
    Researchers have begun to acknowledge that the decline in teen 
birthrates is directly linked to fewer teens having had sex. KIDS COUNT 
reports that in 1999, 50 percent of the nation's high school students 
reported having had sex, compared with 54 percent in 1991. Public 
acceptance and support of teens abstaining from sex is credited for the 
recent success. Abstinence has gained credibility among foes; opponents 
no longer disparage abstinence as an unrealistic method of preventing 
teen pregnancy.
C. Birthrates by Marital Status
    Seventy-nine percent (79 percent) of all births to teenagers occur 
outside of marriage. Among mothers ages 15-17, the proportion that are 
unmarried more than doubled, from 43 percent in 1970 to 87 percent in 
1997. The proportion of unmarried mothers, ages 18-19, has more than 
tripled--from 22 percent in 1970 to 72 percent in 1997. Birthrates of 
married teens declined 23 percent between 1990-1997. Unmarried teen 
birthrates peaked in 1994. In 1998, 79 percent of teen births occurred 
outside of marriage (up from 71 percent of births in 1992). According 
to the Annie E. Casey KIDS COUNT Report, 97 percent or births to teens 
in Washington D.C. were to unmarried teens in 1996. The majority of 
teen mothers choose to keep their children rather than put them up for 
adoption.
    Today's teen parents face very different circumstances than that of 
their counterparts in the 1960s. In the 1960s, more than two-thirds of 
births to teens occurred within the context of marriage, even when 
conception occurred beforehand. Marriage was viewed as a goal to strive 
for, offering social and financial stability. Even though the stigma 
has lessened since the 60s, it is clear that children in single parent 
homes do not have the same economic resources as those growing up in 
two parent households.
    Sociologists Sara McLanahan and Gary Sandefur examined family 
structure and its impact on whether a child will succeed. They examined 
a decade worth of data and found, ``Compared with teenagers of similar 
background who grow up with both parents at home, adolescents who have 
lived apart from one of their parents during some period of childhood 
are twice as likely to drop out of high school, twice as likely to have 
a child before age twenty, and one and a half times as likely to be 
`idle'--out of school and out of work--in their teens and early 
twenties.''
    There is reason to be hopeful. According to KIDS COUNT, after 
peaking in 1996, the nationwide percentage of children living in single 
parent families fell to 27.8 percent in 2000. This can, in part, be 
credited to the Landmark Welfare Reform legislation of 1996, which 
began to encourage states with financial incentives to lower their 
proportion of single parent households. Programs like Best Friends and 
Best Men will contribute to a continued reduction.
D. Birthrates and Abortion
    While still perceived as an epidemic by public health officials and 
still at the highest rate of all industrialized nations, the teen 
pregnancy rate, birthrate and abortion rate have all declined slightly 
in the past several years. Thus, the decline in the birthrate is NOT 
due to an increase in abortion. However, it should be noted that the 
total number of births to teens increased slightly between 1998-1999.
    According to the Allan Guttmacher Institute, the teen pregnancy 
rate declined by 16 percent between 1991-96, while the abortion rate 
declined by 22 percent between 1991-96. The District of Columbia had 
the highest rate of abortion per 1,000 women (155) of any state, more 
than triple that of Nevada (44), the next highest state. The easy 
availability of abortions clearly has not had a significant effect on 
reducing the birthrate.
E. Contraceptive Use
    Data from the National Survey of Family Growth show different 
trends in contraceptive use at first and most recent sexual encounter 
among teens. There is an increase in the percentage of adolescent 
females who report using any contraceptive method at first sex from 48 
percent in 1982 to 76 percent in 1995. However, and more importantly, 
there has been a decline in contraceptive use at most recent sex among 
sexually active teen females (those who had sex in the last three 
months). The proportion of sexually active females who use 
contraception at most recent sex declined from 77 percent in 1988 to 69 
percent in 1995. This data does not support the argument that increased 
contraceptive use resulted in decreased teen birth rates because it is 
obvious there is a much higher risk of pregnancy with repeated sexual 
intercourse. Although advocates of contraceptive education may claim 
that increased contraceptive use is a major cause of the decrease in 
teen pregnancy and birth rates, these data demonstrate quite the 
opposite.
F. STDs
    Another devastating result of increased promiscuity by our teens is 
the increase in sexually transmitted diseases (STDs). There are 3 
million new cases of STDs diagnosed in teenagers in the United States 
each year, requiring more than $2 billion in direct treatment costs 
annually. Teenagers are far more susceptible to STDs than adults. For 
example, a 15-year-old girl has a one in eight chance of contracting a 
STD if she has sex, while a 21-year-old woman has a one in eighty 
chance under the same circumstances. Moreover, the AIDS virus is also 
on the rise among our youth. Nearly 20 percent of all AIDS patients are 
in their 20s, which means many of them were infected as adolescents. 
Today teenage sex is not only harmful; it is deadly. Surpassing even 
homicide, AIDS is the number one killer of African-American men ages 
24-45 in the U.S. It is the number two killer of African-American women 
of the same age. Condoms offer little or no protection for a number of 
STDs (including HPV--human papilloma virus which causes genital warts). 
In a single act of unprotected sex with an infected partner, a teenage 
girl has a 1 percent risk of contracting HIV, a 30 percent risk of 
infection with genital herpes (HPV) and a 50 percent chance of 
contracting gonorrhea (Allan Guttmacher Institute--Facts in Brief: Teen 
Sex and Pregnancy, 1998).
G. Oral Sex
    Oral sex is a gateway behavior to other sex, alcohol and drug use. 
Oral sex is highly dangerous because of the physical risk, STDs (HPV 
virus is easily transmitted through oral sex). In the last seven years, 
it appears that girls are having sex at an earlier age. The proportion 
of girls engaged in sex before age 15 rose from 11 percent to nearly 20 
percent. For most of these girls, oral sex was their first sexual 
experience. Recent news stories about the prevalence of oral sex among 
middle-schoolers points to the dire need for guidance and clear-cut 
standards of behavior.
H. Consequences for Young Mothers
    The Casey Foundation report also speaks to the consequences for 
young parents. A young woman who has a child before graduating from 
high school is less likely to complete school than a young woman who 
does not have a child. About 64 percent of teen mothers graduated from 
high school or earned a GED within 2 years of their scheduled 
graduation date, compared with 94 percent who did not give birth. Best 
Friends has a 100 percent graduation rate for girls who stick with the 
program in high school.
    Nearly 80 percent of teen mothers eventually go on welfare and end 
up in the child support system. According to Child Trends, more than 75 
percent of all unmarried teen moms went on welfare within 5 years of 
the birth of their first child. An alarming 55 percent of all mothers 
on welfare were teenagers at the time their first child was born.
I. Consequences for Young Fathers
    Consequences also exist for teen fathers. They are more likely to 
be in the criminal justice system, use alcohol, deal drugs, or quit 
school. Among married men, those who were teen fathers had the least 
schooling and earned lower wages than those who fathered children with 
mothers who were 20 or 21 (Casey Foundation, KIDS COUNT).
    Data from the March 2000 Current Population Survey show that only 
58 percent of males ages 16 to 19 have any earned income in 1999 and 
that the average annual income for those who worked was less than 
$6,000 annually. Teen fathers are unable to provide the required 
financial support for their children. This causes an added strain 
between the relationship of the teen mother and father.
III. STRATEGIES THAT WORK
    The Casey Foundation summarized in brief, without endorsing 
specific programs, strategies that work at preventing teen pregnancy. 
All of the essential elements they highlighted are contained within 
Best Friends/Best Men programs.
    A. Unwavering Commitment by Families--Best Friends/Best Men parents 
give permission for his/her child to participate in the program. Each 
school holds a parent information meeting at the beginning of the 
school year. The Best Friends/Best Men introduction video is shown and 
parents ask questions of the Best Friends/Best Men staff. In the 15 
years of program operation, only two parents did not allow their 
children to participate. Once enrolled, not a single parent has ever 
removed his/her child from the program. Families celebrate the 
commitment of their children at the Family and School Recognition 
Ceremony. 80-90 percent of parents attend this event. Each Best Friend/
Best Men participant acknowledges his/her parent with a symbol of 
gratitude at the Recognition Ceremony.
    B. Services must be holistic, comprehensive and flexible--Best 
Friends/Best Men is not sex education. The eight-step curriculum 
discussion sessions look at the ``whole'' person. The curriculum 
examines the life and social skills needed to resist the negative 
pressures that lead to teenage pregnancy. The support system is 
comprehensive--mentors, role models, teachers, parents, peers and the 
community at large learn how to support the youth's very important 
decision of abstaining from sex. The program is flexible to meet each 
child's needs. Best Friends/Best Men curriculum is taught during the 
school day. Children who have after-school responsibilities do not miss 
out on the program. Diamond Girls who are in high school meet at times 
convenient to their busy schedules. The needs of the youth dictate how 
the program is delivered.
    C. The information is revised and updated yearly-- Founder Elayne 
Bennett, her staff, lead research consultant, and medical experts have 
examined volumes of research. Through peer review, only the most 
credible findings have been used to develop the curriculum. All 
curriculum materials have gone through numerous peer reviews and are 
updated annually to ensure the most up-to-date information. The message 
to adolescents is accurate and consistent. The participants are the 
most knowledgeable spokespersons for the program. They present end of 
the year essays titled, ``What Best Friends Means to Me,'' and these 
essays are a testimonial to the accuracy and consistency of the 
message.
    D. Teens need to be provided with more targeted academic and job 
information--Graduation from high school and post secondary education 
is a major tenet of Best Friends and Best Men. Elayne Bennett felt so 
strongly about the importance of showing young girls that there is a 
very promising future ahead of them, that she created a generous 
scholarship program. Each program participant who stays with the 
program through high school is offered the opportunity for a college 
scholarship. Since 1993, more than 70 young women have attended college 
with Diamond Girl Scholarships, attending top universities. Girls who 
are not collegebound receive career counseling and choose careers such 
as the military.
    E. Teens need information about how their bodies work and how to 
keep them safe--Staying healthy and protecting one's body from physical 
harm are key ingredients to the Best Friends/Best Men programs. Girls 
and boys participate in weekly group fitness classes. Girls exercise, 
dance and discuss health and nutrition. Boys participate in martial 
arts and discuss health and nutrition. Through the curriculum, youth 
learn skills to avoid physical confrontations with peers and adults.
    F. Messages from adults must be clear--The coordinators and 
facilitators attend training conferences in the utilization of a 
carefully designed curriculum in which abstinence from sex, drugs and 
alcohol is clearly conveyed.
    G. Discussions must be frank to ``deglamorize'' the barrage of 
sexual images provided through the media--To counter the glamorization 
of sex, Best Friends has glamorized abstinence. Girls earn jewelry, t-
shirts, and other incentives that they wear to symbolize as a peer 
group that abstinence is attractive. Girls learn that one can be 
attractive without being sex symbols, something that many have thought 
as being one and the same. Boys learn that they can be cool when they 
do not drink, do drugs and have sex. Male role models reinforce that 
abstinence is cool. Videos, theme songs and dance performances 
reinforce that Best Friends/Best Men is cool.
    H. Students learn techniques in making good decisions, 
communication and work skills to prepare for the adult world--Best 
Friends/Best Men has an entire curriculum session dedicated to 
decision-making skills. Youth learn how to make good decisions and to 
take responsibility for their actions. Communication skills are 
addressed in every aspect of the program. Most participants have 
teacher/mentors who utilize their mentor guides with specified 
discussion activities. Role-plays are used to simulate difficult 
decisions. Peers give feedback on how they would handle difficult 
situations.
    Best Friends utilizes the social learning theory (Bandura,1977) 
that explains human behavior in terms of continuous reciprocal 
interaction between cognitive, behavioral and environmental influences. 
Best Friends/Best Men is structured to provide adolescents with 100-200 
hours of interaction with responsible adult leaders who serve as role 
models of behavior that we wish to develop in our youth. Our cognitive 
input is reflected through the messages presented in the curriculum 
units, which are repeated throughout the program year. Social and 
environmental influences are brought about through community service 
and culturally enriching field trips. The Family and School Recognition 
Ceremony is an opportunity for the participants to express their 
appreciation while showcasing their talent through essay reading, song 
and dance. As girls and boys mature with the program, they become role 
models for their younger classmates.
    Bill Mosher and Stephanie Ventura of the National Center for Health 
Statistics co-authored a study released in February 2000 by the Center 
for Disease Control. The study found that the number of births, 
abortions and miscarriages in the United States declined by half a 
million in just six years. Much of the drop can be attributed to a 
change in teenagers' behavior. Among other factors, they cite ``the 
message of abstaining from sexual intercourse has gotten across to a 
good number of teenagers.'' In fact, recent survey data show that 51 
percent (both boys and girls) are choosing to abstain from sexual 
activity (KIDS COUNT).
    The Adolescent Health Study (ADD Health), which surveyed over 
90,000 middle school students, clearly demonstrated that a protective 
factor in delaying the onset of first sexual behavior as well as the 
prevention of pregnancy was the perceived parental disapproval of 
adolescent contraception and adolescent sex. It is surprising to the 
Best Friends Foundation that the advocates of comprehensive sex 
education that involve condom distribution are not rethinking their 
position based on this significant research study.
IV. BEST FRIENDS/BEST MEN PROGRAM DESIGN/METHODOLOGY
    Elayne Bennett founded the Best Friends Program in 1987, when she 
was a faculty member of the Georgetown University Child Development 
Center. Elayne continues as the President of the Foundation, teaches 
curriculum in Washington D.C. schools, and has trained more than 1,000 
educators in 26 cities in 14 states, including the District of Columbia 
and the U.S. Virgin Islands. Nationally, the Best Friends program 
serves almost 5,500 girls as well as nearly 500 boys in the recently 
piloted Best Men program.
    Students may enter as early as the 5th grade and continue through 
middle school. Girls who continue in the program in high school enter 
the Diamond Girls program; boys enter Iron Men in high school.
Best Men Messages
    The primary goal of Best Men is to provide boys with the tools and 
the environment needed to help them develop into responsible young men. 
This goal is accomplished with the implementation of a multi-faceted 
program which:

          <bullet> Defines manhood.
          <bullet> Teaches boys that to abstain from sex in high school 
        is a good decision and to abstain from sex until marriage is 
        the best decision.
          <bullet> Provides boys with positive adult male mentors to 
        support and encourage them in their goal to become men worthy 
        of respect.
          <bullet> Develops positive peer support.
          <bullet> Encourages ongoing parental support, especially 
        fathers.
Best Friends Messages
    Best Friends is designed to reach girls in early adolescence when 
their attitudes toward life are forming, when they need to discuss 
their personal concerns and receive support from friends and respected 
adults. The following messages permeate the Best Friends program:

          <bullet> The best kind of friend is one who encourages you to 
        be a better person.
          <bullet> Friends help each other make good decisions.
          <bullet> Without self-respect, it is difficult to say ``no'' 
        to anyone or anything.
          <bullet> Boys and girls often have different agendas in their 
        romantic relationships.
          <bullet> Sex is never a test of love.
          <bullet> The decision not to have sex in high school is a 
        good one. The decision to wait until marriage is the best one.
          <bullet> Children deserve to begin life with married adult 
        parents.
          <bullet> The decision not to take drugs is a good one. It is 
        illegal to take drugs.
          <bullet> The decision not to drink alcohol in high school is 
        a good one. In most jurisdictions, it is illegal to drink 
        alcoholic beverages before the age of 21.
          <bullet> Tomorrow is the first day of the rest of your life. 
        Past mistakes do not mean that one must continue the same 
        pattern.
Operational Structure
    Best Friends/Best Men is a school year program. Girls and boys may 
enter as early as 5th grade and participate in an eight-step school 
year curriculum program, augmented by mentors, role models, fitness 
program, cultural activities/field trips and a Family and School 
Recognition Ceremony. Best Friends/Best Men succeeds because it is an 
ongoing education and support system. Each girl and boy is invited back 
to the program at the start of the school year. Those who graduate from 
high school may qualify for educational scholarships funded through the 
program.
Recruitment
    Best Friends/Best Men coordinators and grade level teachers recruit 
youth into the program. Special efforts are made by school staff to 
recruit students who demonstrate risk factors, such as poor school 
attendance, drinking, smoking, physical aggression, etc. Experience has 
shown that a blend of students consisting of high and average 
achievers, along with those who fall below the mark, provides a 
productive learning environment. Youth connect with both the positive 
and negative experiences of peers and draw from these experiences to 
make positive changes in their lives.
Curriculum/Discussion
    The most important component of the Best Friends curriculum are the 
group discussions conducted by a Best Friends/Best Men instructor at 
least once a month for 90 minutes. The group sessions provide 
opportunities for students to discuss topics important to adolescents--
(1) friendship, (2) love and dating, (3) self-respect, (4) decision-
making, (5) alcohol abuse, (6) drug abuse, (7) physical fitness and 
nutrition, (8) AIDS and sexually transmitted diseases. Participants 
record their thoughts in a Best Friends/Best Men Student Journal. The 
Best Friends instructor uses the Best Friends/Best Men Program Guide to 
lead discussions. The instructor uses a combination of lectures and 
discussion, videos, news clips and journal writing. Each session always 
concludes with the Best Friends Theme Song and the Best Men Chant.

          1. Friendship: participants learn that the best kind of 
        friend is one who encourages you to be a better person and that 
        friends help each other make good decisions. They learn skills 
        and techniques for saying ``no'' in response to peer pressure.
          2. Relationships/Love and Dating: This session addresses the 
        difference between love and infatuation and that sex is never a 
        test of love. It is reassuring to young people to realize that 
        the pressures that they are experiencing are shared by many 
        adolescents. They learn that the decision not to have sex in 
        high school is a good one and the best decision is to wait 
        until marriage.
          3. Self-Respect: Participants learn that respecting oneself 
        is very important. Without self-respect, it is difficult to say 
        ``no'' to anyone or anything. They learn to take responsibility 
        for their decisions and that these decisions have an impact on 
        their lives. Each student is encouraged to be in control of his 
        or her life, to set positive goals to look forward to the 
        future.
          4. Decision-Making: Best Friends/Best Men boys and girls 
        learn skills for making good decisions, taking responsibility 
        for their own behavior, and evaluating the messages in the 
        media. Best Friends safety rules are discussed.
          5. Alcohol Abuse: Participants learn why drinking alcoholic 
        beverages before the legal drinking age is dangerous. We teach 
        techniques for avoiding alcohol and riding in cars with drivers 
        who have been drinking. Youth learn that drinking alcohol makes 
        them more vulnerable to sexual advances. Videos, news articles 
        and role-plays are particularly useful in this session.
          6. Drug and Tobacco Abuse: The Best Friends Program conveys a 
        clear ``no use'' message. Boys and girls learn the dangers of 
        experimenting with drugs, how drugs can steal their goals and 
        dreams and hurt their family and friends. Youth learn that 
        drugs contribute to sexual activity.
          7. Physical Fitness and Nutrition: Good health helps 
        adolescents gain self-respect and have a more positive outlook 
        on life. Once a week, all Best Friends participants have a one-
        hour fitness class where they exercise, dance, discuss the 
        importance of health and nutrition and have fun with their 
        friends. Best Men participate in self-defense classes.
          8. AIDS and STDs: Participants learn that abstinence from 
        sexual activity and drug use is the only guaranteed protection 
        against sexually transmitted diseases and the HIV virus. Candid 
        information is shared about the most common STDs, the symptoms, 
        treatment and consequences.

    Fifteen years of experience in curriculum development and direct 
instruction in hundreds of schools with thousands of adolescent girls 
and most recently adolescent boys, has convinced me that our youth want 
to hear the abstinence message. Students will respond when it is 
presented in a developmentally sound approach that involves positive 
peer pressure and promotes a sense of connection to their school.
    We urge the committee here today to understand that by setting the 
expectations of abstinence until marriage we are at the very least 
promoting a standard that has been a part of our traditional moral 
values for centuries.
    It is especially important at this time of crisis in our country 
that we not compromise the values that have been time honored in our 
society. Our children deserve no less than our highest expectations.
    In summation, Best Friends believes that as adults ``If we give our 
children our best, they will surely respond with their best.''

                                <F-dash>


    Chairman Herger. Thank you very much, Mrs. Bennett. Now our 
next witness will be Sarah Brown, director of National Campaign 
to Prevent Teen Pregnancies. Ms. Brown.

  STATEMENT OF SARAH S. BROWN, DIRECTOR, NATIONAL CAMPAIGN TO 
                     PREVENT TEEN PREGNANCY

    Ms. Brown. Good morning, Chairman Herger, Ranking Member 
Cardin, and Members of the Subcommittee. Let me greet in 
particular Congresswoman Nancy Johnson, who is a wonderful 
leader of our congressional bipartisan House Advisory Panel, 
and we are very grateful to you for your interest in our work.
    My name is Sarah Brown. I am the director of the National 
Campaign to Prevent Teen Pregnancy, and on behalf of Isabel 
Sawhill, our president, and former governor Tom Kean of New 
Jersey, our chairman, I want to thank you for inviting me here 
today.
    We commend this Subcommittee for focusing on teen pregnancy 
prevention in the context of welfare reform. As many of you 
well know, reducing teen pregnancy is a highly effective way to 
make progress on a number of related social issues: child 
poverty, welfare dependency, out-of-wedlock childbearing and 
responsible fatherhood.
    Written testimony and many of the documents and citations 
referred to in the testimony back up these points I am going to 
cover, and I hope they will be entered into the record.
    The good news, as we have heard this morning already, is 
that teen pregnancy and birth rates have declined steadily over 
the past decade. They are now at record low levels. But as many 
people have pointed out, we still have a long, long way to go. 
Four in 10 girls in this country become pregnant before they 
turn 20. Two in 10 go on to become single mothers, therefore, 
obviously, contributing to our high levels of out-of-wedlock 
childbearing. So there is no reason for complacency.
    Why are the rates of teen pregnancy going down? Chairman 
Herger, you posed that question at the beginning of this 
hearing. Basically there are only two possible explanations: a 
smaller proportion of teens are having sex and/or contraceptive 
use among sexually active teens has increased. Unfortunately, 
the exact contribution of these two factors just can't be 
nailed down precisely, but a reasonable conclusion supported by 
all of us is that both less sex and more contraception are 
making an important contribution to the decline.
    Another important question: what community-level programs 
actually prevent teen pregnancy? Fortunately, we now have some 
answers here, and having been in this field for a long time, it 
is lovely to be able to sit in front of this Subcommittee and 
offer some good news. This past May, the National Campaign 
released a comprehensive research review entitled ``Emerging 
Answers: Research Findings on Programs to Reduce Teen 
Pregnancy.'' Let me give you a very few of the highlights.
    First, there are some programs that work. Interestingly, 
some focus on sex and some don't at all. There are three types 
found to be effective. One cluster includes a variety of sex 
and HIV education programs that have been shown to delay sex 
and/or increase contraceptive use for up to 30 months. These 
effective programs have some very definable, well-described 
characteristics, and as a number of people have already said, 
the evidence is clear that teaching young people about sex and 
sexuality does not increase sexual activity. It was a 
reasonable important question to ask, but the jury is now 
``in'' on this question: It does not.
    A second cluster includes two youth development programs 
(which we also talked about this morning), that offer 
opportunities for community service, adult mentoring and so 
forth. They are very impressive in their results. It is not 
exactly clear why they are so effective, but we can talk about 
that later if you would like.
    A third category of programs found effective combine good 
sexuality education, family planning services, and a vigorous 
youth development program. I think we are going to hear from 
one such model from New Britain, Connecticut, in just a minute.
    Having this array of effective programs gives us another 
piece of good news. Communities now have choices. When they 
want to reduce teen pregnancy, they can look at a rich array of 
options, and they can pick ones to suit their budgets, their 
local values and their situation.
    What do we know about abstinence education? Our review 
finds in this case that the jury is ``out'' on abstinence-only 
or abstinence-until-marriage education, and this is for two 
particular reasons: very little rigorous research of these 
programs have been completed, and the few studies that do show 
positive effects are really not capturing the rich array of 
programs that are currently offered. I know that Dr. Maynard, 
who is testifying next, is going to be talking about her 
important work in this area.
    I would like to add that I think it is critically important 
that our evaluations of abstinence programs answer two 
questions. First, do they delay first sexual intercourse? And 
for those program participants who do become sexually active, 
are they less likely to use contraception?
    Although some may find this second question beside the 
point, I would argue that it is no different than asking 
whether sex education programs might actually encourage young 
people to have sex. Our first goal must always be to do no 
harm. Now, having said this, remember, there is enormous public 
support for abstinence messages for school-age youth in 
particular. Remember too, the reality is that many teens in 
high school become sexually active, whether we like it or not. 
At present, about 65 percent of high school seniors have had 
sex, so we need to offer services for them and information, but 
all in a context of abstinence as their first and best choice.
    One final comment. What are the implications for Welfare 
Reform reauthorization in all of this? As a general matter, 
States and communities need adequate resources to prevent teen 
pregnancy. They need access to good information about what 
works. They need a clear signal from the Federal Government 
that teen pregnancy prevention is important and is directly 
linked to the other goals of Welfare Reform. And they need 
flexibility to design strategies that suit their local 
situations and cultures. This is consistent with the devolution 
philosophy underlying the rest of Welfare Reform, and it is 
consistent with the view that family and community values 
rather than Federal mandates should be the primary influence 
regarding what we should do about such sensitive issues as teen 
sexuality.
    Thank you for inviting me here today.
    [The prepared statement of Ms. Brown follows:]
  Statement of Sarah S. Brown, Director, National Campaign to Prevent 
                             Teen Pregnancy

                                SUMMARY

    Chairman Herger, Ranking Member Cardin, and Members of the 
Subcommittee:
    My name is Sarah Brown. I am the Director of the National Campaign 
to Prevent Teen Pregnancy, a nonpartisan, nonprofit organization 
dedicated to the goal of reducing the teen pregnancy rate by one-third 
over a ten-year period. I also want to recognize Congresswoman Nancy 
Johnson who we are so fortunate to have as one of the leaders of the 
Campaign's bipartisan House Advisory Panel. On behalf of Isabel 
Sawhill, our President, and former Governor Tom Kean of New Jersey, our 
Chairman, thank you for inviting me to testify today. We commend this 
subcommittee for focusing on teen pregnancy prevention. As many of you 
recognize, reducing teen pregnancy is a highly effective way to make 
progress on a number of related social issues: child poverty, welfare 
dependency, out-of-wedlock childbearing, and responsible fatherhood. 
Said another way, reducing teen pregnancy is one of the most effective 
single steps we can take to improve the life prospects of young women 
and men, and most important, their children. My full written testimony 
goes into the points I am about to make in more detail, and contains 
citations for additional information.
Good news but still more work to be done
    The good news is that teen pregnancy and birth rates have declined 
steadily over the past decade and are now at record-low levels. 
However, we still have a long way to go: four in ten girls become 
pregnant at least once before age 20, the U.S. still has the highest 
rates of teen pregnancy in the fully industrialized world, and every 
year teen childbearing costs U.S. taxpayers at least $7 billion. We 
must not let the good news lull us into complacency and must redouble 
our efforts to help more young people avoid becoming parents too soon.
What's behind the good news?
    A commonly asked, and hotly debated, questions is ``Why are the 
rates of teen pregnancy going down?'' Basically, there are only two 
possible explanations: a smaller proportion of teens are having sex, 
and/or contraceptive use among sexually active teens is improving. The 
exact contribution of each of these factors--less sex and more 
contraception--is difficult to determine precisely. A reasonable 
conclusion supported by all recent analyses is that both less sex and 
more contraception are making important contributions to the decline.
    Understanding what motivates young people to choose either of these 
paths is also critically important. That is, why are teens being more 
prudent? Most experts believe it is some combination of more cautious 
attitudes among young people about sex, fueled in part by fear of AIDS 
and other sexually transmitted diseases and by growing support for the 
value of abstaining from sex at least until teens have finished high 
school; greater public and private efforts to reduce teen pregnancy; 
the availability of more effective forms of contraception; the strong 
messages about work and personal responsibility (including child 
support) in welfare reform; and perhaps the strong economy in recent 
years. As this subcommittee knows, there are a number of provisions in 
the 1996 welfare reform law aimed at reducing teen pregnancy and out-
of-wedlock childbearing. While there is little evidence that any one of 
these provisions on its own has had an effect on teen pregnancy rates, 
we believe that they have, in the aggregate, sent a powerful message to 
both young women and men about the importance of waiting to become 
parents until they are grown up, preferably married.
What works to prevent teen pregnancy?
    Fortunately, I have good news here. I've been involved in this 
field for nearly 30 years, and, frankly, for most of that time it has 
been discouraging work--the rates of teen pregnancy and childbearing 
were high, often increasing, and we didn't know what to do about it.
    Finally, we have some answers. This past May, the National Campaign 
to Prevent Teen Pregnancy released a comprehensive research review 
called Emerging Answers: Research Findings on Programs to Reduce Teen 
Pregnancy. Let me briefly summarize what this review found. Most 
importantly, there are a variety of programs that are effective--some 
that focus on sex and some that do not. The review identified three 
particular types:

          <bullet> Several sex and HIV education programs have been 
        shown to delay sex or increase contraceptive use for up to 30 
        months. The effective programs share ten clearly definable 
        characteristics. It is also important to point out that the 
        overwhelming weight of research evidence clearly shows that sex 
        and HIV education programs such as these do not increase sexual 
        activity, as some people have reasonably feared.
          <bullet> Two youth development programs that give young 
        people opportunities to do community service and have mentoring 
        relationships with adults have the strongest evidence of any 
        intervention that they actually reduce teen pregnancy while the 
        youth are participating in the program. It is not clear exactly 
        why these programs are so successful, but keeping empty hours 
        filled with useful activities is certainly one plausible 
        explanation.
          <bullet> The third category of programs includes both 
        sexuality education and youth development. One such program 
        combines family life and sex education with tutoring, work and 
        sports-related activities, and comprehensive health care--and 
        it substantially reduced teen pregnancy and birth rates among 
        girls.

    These findings offer leaders around the country some encouraging 
news, but more importantly, communities now have a list of effective, 
credible programs to choose from to suit local needs, values and 
culture, which is particularly important when dealing with an issue as 
complex and sensitive as teen pregnancy. As we all know, one size 
doesn't fit all.
    What do we know about abstinence education? Our review finds that 
the jury is still out on abstinence-only or abstinence-until-marriage 
education. This is true for two reasons: (1) very little rigorous 
evaluation of abstinence-only programs has been completed and (2) the 
few studies that show no positive effect do not reflect the great 
diversity of abstinence-only programs currently offered. Fortunately, 
Dr. Maynard (who is also testifying today) is conducting a very 
rigorous study of several abstinence-only programs that I expect will 
shed more light on this important group of interventions.
    I would add that I think it is critically important that our 
evaluations of abstinence programs answer two questions: (1) do they 
delay first sexual intercourse? and (2) for those program participants 
who do become sexually active, are they less likely to use 
contraception? Although some may find this second question beside the 
point, I would argue that it is no different than asking whether sex 
education programs actually encourage young people to have sex. Our 
first goal should always be to do no harm. Having said this, let me be 
very clear that there is great value in, and public support for, a 
strong abstinence message, especially for young people. In fact, our 
polling data on this point are quite dramatic.
    But even if the number of teens who choose abstinence grows 
significantly--and even if some sexually active teens make a conscious 
decision to refrain from sexual intercourse--the reality is there will 
still be many teens who are sexually active (for example, 65 percent of 
all high school seniors have had sexual intercourse at least once). 
Therefore, preventing teen pregnancy requires that contraceptive 
services and information be available. The analogy here is that we urge 
young people not to drink, but if they do, not to drive. In this same 
spirit, we can give a strong ``abstinence-first'' message, especially 
for school-age teens, and also offer critically important information 
and health care.
    A final point about ``what works'': while we now know that 
effective programs to reduce teen pregnancy exist, it would be 
unrealistic to rely exclusively on such programs to address teen 
pregnancy. Most teens aren't in programs, and many programs are small, 
fragile, and poorly funded. Other forces, such as parents, the media, 
moral and religious values, and especially popular culture, play 
critical roles as well. The Campaign works actively on each of these 
fronts and so should we all.
Implications for Welfare Reform Reauthorization
    What are the implications of all this for welfare reform 
reauthorization? As a general matter, states and communities need: (1) 
adequate resources to prevent teen pregnancy; (2) access to good 
information about what works so they can make informed choices about 
the best way to invest their resources; (3) a clear signal from the 
federal government that teen pregnancy prevention is important and is 
directly linked to the other goals of welfare reform; and (4) 
flexibility to design strategies to reduce teen pregnancy that respect 
diverse local values and cultures. Consistent with the devolution 
philosophy underlying the rest of welfare reform, family and community 
values, rather than federal mandates, should prevail, especially on 
such sensitive issues as teen sexuality.
Conclusion
    In conclusion, all of us committed to reducing teen pregnancy need 
not get bogged down in strident arguments about abstinence versus 
contraception. Both approaches are important, both have contributed to 
the recent progress in reducing teen pregnancy, and we need more of 
both to make additional progress. Our survey data indicate that large 
majorities of adults and teens agree that policymakers should place 
greater emphasis on encouraging teens not to have sex and greater 
emphasis on contraception for those who do. Survey data also confirm 
that this common sense, combined approach is not seen by teens or 
adults as a ``mixed message.'' As outlined more fully in my written 
statement, welfare reform offers Congress and the nation an important 
opportunity to do even more to prevent teen pregnancy, and by doing so, 
achieve the goals that we all want: strong, stable, self-sufficient 
families.
                                 ______
                                 

                         FULL WRITTEN STATEMENT

Teen Pregnancy's Link to Other Critical Social Issues

    Teen pregnancy is closely linked to a host of other critical social 
issues--welfare dependency and overall child well-being, out-of-wedlock 
childbearing, child poverty, responsible fatherhood, and workforce 
development, in particular. There is compelling evidence that progress 
on all of these issues can be materially advanced by reducing teen 
pregnancy.\1\ Teen mothers and their children experience a number of 
adverse consequences in the areas of education, health, and income.\2\ 
For example, compared to similarly situated women who delay 
childbearing until age 20 or 21, teen mothers are less likely to 
complete high school and their children have more problems in school. 
This puts them at a disadvantage for obtaining the higher education 
necessary to qualify for a well-paying job and support their families. 
Teen childbearing also has important economic consequences for society: 
U.S. taxpayers shoulder at least $7 billion each year in direct costs 
and lost tax revenues associated with teen pregnancy and child-bearing. 
Helping young women avoid too-early pregnancy and childbearing--and 
young men avoid premature fatherhood--is easier and much more cost 
effective than dealing with all of the problems that occur after the 
babies are born. Simply put, if more children in this country were born 
to parents who are ready and able to care for them, we would see a 
significant reduction in a host of social problems afflicting children 
in the United States, from school failure and crime to child abuse and 
neglect. Therefore, we urge those interested in achieving one or more 
of these goals to give serious attention to teen pregnancy prevention.
---------------------------------------------------------------------------
    \1\ The National Campaign to Prevent Teen Pregnancy. (2001). Not 
Just Another Single Issue: Teen Pregnancy's Connection with Other 
Important Social Issues (forthcoming). Washington, DC: Author.
    \2\ The National Campaign to Prevent Teen Pregnancy. (2001). 
Halfway There: A Prescription for Continued Progress in Preventing Teen 
Pregnancy. Washington, DC: Author.
---------------------------------------------------------------------------

The Good News: Teen Pregnancy and Birth Rates Are Declining

    Fortunately, there is much good news to report about teen 
pregnancy. After years of high and often increasing levels, the teen 
pregnancy and birth rates have both steadily declined during the 1990s, 
in all states and among all ethnic groups.\3\ These encouraging 
declines show that we can make progress on what once seemed an 
intractable social problem. Nonetheless, the United States still has 
the highest rates of teen pregnancy and birth in the fully 
industrialized world. And, it remains the case that close to one 
million teenagers get pregnant annually and that 4 in 10 girls become 
pregnant at least once before turning 20. Almost all of these teen 
pregnancies are unintended and nearly eight of ten births to teenage 
mothers are now out-of-wedlock.
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------

Why Are the Rates Declining?

    One of the questions we are most frequently asked at the Campaign 
is, ``why have the rates been declining?'' There is a short answer and 
a long answer to this question. The short answer is that teen pregnancy 
rates are declining because of less sex and more contraception. That 
is, a smaller proportion of teens are having sex, and those that are 
sexually active are using contraception more consistently. Because of 
data limitations, however, it is difficult to determine what the 
precise contribution of each of these factors is to the good news of 
declining teen pregnancy. Our own analysis suggest that each of these 
two factors probably accounted for between 40 and 60 percent of the 
decreased teen pregnancy rates. A reasonable conclusion, supported by 
all recent analyses, is that both less sex and more contraception are 
making important contributions to the decline, and more of both should 
be encouraged.\4\ Interestingly, public opinion about how to reduce 
teen pregnancy supports such a two-part strategy. For example, several 
polls conducted by the National Campaign reveal a strong preference--
among both adults and teens--for school-aged teenagers especially to 
avoid sexual intercourse altogether, coupled with a practical view that 
those young people who are sexually active should have access to 
contraception.\5\
---------------------------------------------------------------------------
    \4\ Flanigan, C. (2001). What's Behind the Good News: The Decline 
in Teen Pregnancy Rates During the 1990s. Washington, DC: The National 
Campaign to Prevent Teen Pregnancy.
    \5\ The National Campaign to Prevent Teen Pregnancy. (2001). With 
One Voice: America's Adults and Teens Sound Off About Teen Pregnancy. 
Washington, DC: Author. http://www.teenpregnancy.org/april2001/
chrtbook.pdf
---------------------------------------------------------------------------
    Now, for the long answer. Given that teenagers are already being 
more careful (having less sex and using contraception more), the 
interesting question is: why are they doing so? Presumably, if we could 
pinpoint the reasons that have motivated teens to act more prudently, 
we could build on those insights to accelerate the decline. Most 
experts believe that teen pregnancy rates have declined over the past 
decade because some combination of the following:

          <bullet> Greater public and private efforts to prevent teen 
        pregnancy. States have dramatically increased their efforts to 
        reduce teen pregnancy--in 1990 only 16 states had an official 
        policy requiring or encouraging pregnancy prevention programs 
        in public schools; by 1999 this had increased to 28.\6\ 
        Similarly, at present there are some 41 teen pregnancy 
        coalitions at the state level, up from 32 in 1995.\7\
---------------------------------------------------------------------------
    \6\ Wetheimer, R., Jager, J., & Moore, K. (2001). State Policy 
Initiatives for Reducing Teen and Adult Nonmarital Childbearing. Policy 
brief. Washington, DC: Urban Institute.
    \7\ Flanigan, C. (2001). What's Behind the Good News: The Decline 
in Teen Pregnancy Rates During the 1990s. Washington, DC: The National 
Campaign to Prevent Teen Pregnancy.
---------------------------------------------------------------------------
          <bullet> Fear of AIDS and other sexually transmitted 
        diseases. In conversations with the Campaign, teens say time 
        and again that fear of STDs, and AIDS in particular, factors 
        heavily into their decisions about sex.
          <bullet> More conservative attitudes among the young. An 
        Urban Institute study shows that the proportion of adolescent 
        males approving of premarital sex decreased from 80 percent in 
        1988 to 71 percent in 1995.\8\ And, the proportion of college 
        freshmen who agree that ``it's all right to have sex if two 
        people have known each other for a short time'' declined from 
        52 percent in 1987 to a record low 40 percent in 1999, 
        according to an annual survey conducted by UCLA.\9\
---------------------------------------------------------------------------
    \8\ Ku, L., Sonenstein, F., et al. (1998). Understanding changes in 
sexual activity among youth metropolitan men: 1979-1999. Family 
Planning Perspectives 30(6): 256-262.
    \9\ UCLA. 27 Jan. 1999. College freshmen: Acceptance of abortion, 
casual sex at all-time low. Kaiser Daily reproductive health Report 
online. http://report.KFF.org/archive/repro/1999/01/kr990127.6/html
---------------------------------------------------------------------------
          <bullet> Better and more consistent contraceptive use as well 
        as more effective contraceptives. For example, contraceptive 
        use at first sex has improved dramatically in recent years 
        (although there has been a downward trend in contraceptive use 
        at most recent sex).\10\ Depo-Provera, a new long-acting and 
        highly effective contraceptive method, has also been quite 
        popular among some teens.
---------------------------------------------------------------------------
    \10\ Terry, E. & Manlove, J. (2000). Trends in Sexual Activity and 
Contraceptive Use Among Teens. Washington, DC: National Campaign to 
Prevent Teen Pregnancy.
---------------------------------------------------------------------------
          <bullet> New messages about work and child support embedded 
        in welfare reform. The 1996 welfare reform law contained 
        several important messages. To young women, it said, ``if you 
        become a mother, this will not relieve you of an obligation to 
        finish school and support yourself and your family through work 
        or marriage. And any special assistance you receive will be 
        time-limited.'' To young men, it said, ``if you father a child 
        out-of-wedlock, you will be responsible for supporting that 
        child.'' It may be the case that these messages may be far more 
        important than any specific provisions contained in the welfare 
        reform legislation.\11\
---------------------------------------------------------------------------
    \11\ Sawhill, I. (2001). What Can Be Done to Reduce Teen Pregnancy 
and Out-of-Wedlock Births? Policy Brief. Washington, DC: The Brookings 
Institution. http://www.brookings.edu/wrb/publications/pb/pb08. htm
---------------------------------------------------------------------------

What Works to Prevent Teen Pregnancy?

    What do we know about what works to prevent teen pregnancy? 
Fortunately, there is some good news here, too. For decades, those 
involved in the teen pregnancy field have been discouraged by the fact 
that the rates of teen pregnancy and childbearing remained high, were 
sometimes increasing, and we didn't know what to do about it. The 
research was just not there to tell us what programs worked to help 
teens avoid sex or to use contraception effectively.
    Finally, we have some answers. This past May, the National Campaign 
to Prevent Teen Pregnancy released Emerging Answers: Research Findings 
on Programs to Reduce Teen Pregnancy, a comprehensive research review 
by the well-respected researcher, Douglas Kirby, Ph.D.\12\ To summarize 
what this review found: (1) the overwhelming weight of research 
evidence clearly shows that sex and HIV education programs do not 
increase sexual activity, as some people had feared, and (2) there are 
a variety of programs that seem to work. Some focus on sex and some do 
not. Kirby identified three particular types:
---------------------------------------------------------------------------
    \12\ Kirby, D. (2001). Emerging Answers: Research Findings on 
Program to Reduce Teen Pregnancy. Washington, DC: National Campaign to 
Prevent Teen Pregnancy. http://www.teenpregnancy.org/053001/
emeranswsum.pdf

          <bullet> Several sex and HIV education programs have been 
        shown to delay sex or increase contraceptive use for up to 30 
        months. The effective programs share ten clearly definable 
        characteristics.
          <bullet> Two youth development programs that give young 
        people opportunities to do community service and have mentoring 
        relationships with adults may actually have the strongest 
        evidence of any intervention that they reduce actual teen 
        pregnancy rates while the youth are participating in the 
        programs. Among the programs with the best evidence of 
        effectiveness are the Teen Outreach Program and Reach For 
        Health service learning program. The research does not indicate 
        why these youth development programs are so successful, 
        although the review suggests several possible explanations: 
        participants develop relationships with caring adults, they 
        gain a sense of autonomy and feel more competent in their 
        relationships with peers and adults, and they feel empowered by 
        the knowledge that they can make a difference in the lives of 
        others. Taken together, all these factors may help increase 
        teenager's motivation to avoid pregnancy. In addition, of 
        course, participating in supervised activities reduces the 
        opportunities for teens to engage in risky behavior.
          <bullet> The third category of programs includes both 
        sexuality and youth development components. The Children's Aid 
        Society-Carrera Program combines family life and sex education 
        with such things as tutoring, work and sports-related 
        activities, and comprehensive health care. Research shows that 
        the program has substantially reduced teen pregnancy and birth 
        rates among girls. In fact, according to the research in 
        Emerging Answers, the Carerra Program and the Teen Outreach 
        Program reduced pregnancy rates among girls by as much as half.

    Together, this information offers leaders around the country 
encouraging news and the opportunity to choose an intervention that 
best fits the needs and values of their own communities. Having a 
variety of options is particularly important when dealing with an issue 
as complex and sensitive as teen pregnancy.
    What do we know about abstinence education? Our review finds that 
the jury is still out on abstinence-only or abstinence-until-marriage 
education. This is true for two reasons: (1) very little rigorous 
evaluation of abstinence-only programs has been completed, and (2) the 
few studies that show no positive effect do not reflect the great 
diversity of abstinence-only programs currently offered.\13\ 
Fortunately, Dr. Rebecca Maynard is now conducting a very rigorous 
study of abstinence-only programs that should shed more light on this 
important group of interventions.
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    I would add that I think it is critically important that our 
evaluations of abstinence programs answer two questions: (1) do they 
delay sexual intercourse? and (2) for those program participants who do 
end up having sex, are they less likely to protect themselves from 
disease and pregnancy? Although some may find this second question 
beside the point, I would argue that it is no different than asking 
whether sex education programs inadvertently encourage young people to 
have sex. Our first goal should always be to do no harm.

Programs Can't Do It All

    While it is true that effective programs to reduce teen pregnancy 
exist and should be expanded, it is unrealistic and unfair to assume 
that community programs alone will solve this problem entirely. Not all 
teens are enrolled in programs and many community-based programs are 
small, fragile, and often given too little money to do their important 
job as well as they would like.
    But there is another reason why community programs can't shoulder 
the burden alone: teen pregnancy is rooted in broad social phenomena, 
including the images portrayed in the entertainment media, the values 
articulated by parents and other adults, and popular teen culture most 
of all. Simply put, it's fine to work with states and communities to 
make their efforts better--more research-based, more media savvy, more 
tolerant of differing views, and offering a wide variety of ways to 
act. But doing so will be a hollow exercise if the entire culture, 
especially popular teen culture, is sending kids messages that getting 
pregnant at a young age is no big deal, that having sex ``early and 
often'' is just fine, that contraception is not all that important, 
that refraining from sex is square and unrealistic, and that parents 
can't do anything about their children's sexual attitudes and behavior.
    The research assessing the effectiveness of media campaigns to 
prevent teen pregnancy is not nearly as extensive as the research 
evaluating community-based teen pregnancy prevention programs. There 
is, however, some encouraging research that indicates media campaigns 
can be effective. One meta-analysis of 48 different health-related 
media campaigns--from smoking cessation to AIDS prevention--found that, 
on average, these types of campaigns caused seven to 10 percent of 
those exposed to the campaign to change their behavior (compared to 
those in a control group).\14\ Given how hard it is to actually change 
behavior, these findings are encouraging.
---------------------------------------------------------------------------
    \14\ Snyder, Leslie B. (2000). How Effective Are Mediated Health 
Campaigns In Public Communication Campaign, edited by Ronald E. Rice 
and Charles K. Atkin. Thousand Oaks, CA: Sage.
---------------------------------------------------------------------------
    From its inception, the National Campaign to Prevent Teen Pregnancy 
has recognized that reducing teen pregnancy requires, among other 
things, a change in social values and standards; that the entertainment 
media has a major influence on popular culture; and that conveying 
important messages through the entertainment media is both powerful and 
efficient. The Campaign works in two primary ways with the 
entertainment media: influencing the content of television shows and 
magazines and placing PSAs in both print and broadcast media. To 
encourage media leaders to weave prevention messages into the content 
of their work, we offer specially tailored face-to-face briefings to 
key editors, script writers, and producers about the problem of teen 
pregnancy and its solutions. We discuss with them selected messages 
well suited to their shows or magazines and talk about different ways 
that these messages can be presented in their media. To date, the 
National Campaign has worked with over 57 media partners on messages 
that have reached millions of teens and their parents.

Implications for Welfare Reform Reauthorization

    The National Campaign to Prevent Teen Pregnancy believes that 
preventing teen pregnancy should be a central focus in reauthorizing 
welfare reform. Sustained progress in reducing teen pregnancy could 
contribute significantly to the continued success of welfare reform. 
Welfare caseloads have declined dramatically since 1996, millions of 
low-income parents have moved into the labor force, child poverty has 
declined, teen birth rates have declined, and out-of-wedlock birth 
rates have leveled off. However, this good news could be short-lived if 
every welfare recipient who goes to work and begins moving toward self-
sufficiency is replaced by a pregnant younger sister or daughter who is 
not prepared to support a family.
    Moreover, teen pregnancy prevention is closely tied to the goal of 
reducing out-of-wedlock childbearing and increasing the number of 
children growing up with married parents. Three out of ten out-of-
wedlock births in the U.S. are to teenagers and nearly half of all 
first out-of-wedlock births are to teen mothers. Furthermore, 80 
percent of teen births are out of wedlock. Welfare caseloads are 
disproportionately made up of women who had their first birth as a 
teen. The teen years are frequently a time when unmarried families are 
first formed. Teenagers who have a non-marital birth are less likely to 
get married later and even if teen parents do get married, teen 
marriages are highly unstable and far more likely to fail than 
marriages between older individuals.\15\
---------------------------------------------------------------------------
    \15\ Sawhill, I. (2001). Op Cit.
---------------------------------------------------------------------------
Specific ideas
    1. As a general matter, provide states and communities with 
adequate resources to prevent teen pregnancy, access to good 
information about what works so they can make informed choices about 
the best way to invest their resources, and a clear signal from the 
federal government that teen pregnancy prevention is important and is 
directly linked to other goals of welfare reform. They also need 
flexibility in deciding how best to reduce teen pregnancy, given local 
circumstances. Setting performance goals and expectations is a good 
idea. Rigidly prescribing how to achieve these goals is not. Consistent 
with the devolution philosophy underlying the rest of welfare reform, 
family and community values, rather than federal mandates, should 
prevail, especially on such sensitive issues a teen sexuality.
    2. Strengthen the monitoring of and reporting on state efforts to 
reduce teen pregnancy. States are already required to include their 
goals and strategies for reducing teen pregnancy in their TANF plans 
but this information is not widely available and has received little 
attention within states or at the national level. In order to enhance 
accountability and visibility, we believe there is more that could be 
done by the federal government to shine a light on the portion of state 
TANF plans that address teen pregnancy. Similarly, the federal 
government should more closely monitor states progress in meeting their 
teen pregnancy prevention goals. This would encourage states to 
continue their work on this issue and inspire other states to do more.
    3. Establish a national resource center to collect and disseminate 
information about what works to prevent teen pregnancy. Until very 
recently, little high quality information was available to states and 
communities about the best ways to prevent teen pregnancy and they had 
no way of learning about each other's efforts. A national resource 
center would provide easy access for people to get information about 
the latest research evidence, as well as promising practices. We 
believe the scope of this resource center should be defined broadly to 
include information about programs, as well as strategies on how to 
work through the media to promote responsible messages and content 
related to teenage sexuality. Helpful ideas should also be available 
about engaging parents, schools, and faith communities in teen 
pregnancy prevention.
    4. Maintain or increase present funding levels for the TANF block 
grant in order to preserve resources and flexibility for states to 
expand their teen pregnancy prevention initiatives, while carrying out 
other important functions of TANF. The latest federal data show that 
states are spending less than one percent of TANF funds on pregnancy 
prevention. There are many competing priorities for TANF dollars, and 
these demands are likely to grown in the current economic downturn.
    Additional ideas for welfare reform reauthorization include: make 
preventing teen pregnancy an explicit purpose of the TANF program; 
reward states that make the most progress in reducing teen pregnancy or 
teen births (without increasing abortion); and, retain in the overall 
welfare reform legislation a very strong abstinence message accompanied 
by support for information about and access to contraception. Both 
approaches help to reduce teen pregnancy and both merit support.

    [The attachments are being retained in the Committee 
files.]

                                <F-dash>


    Chairman Herger. Thank you very much, Ms. Brown. And I 
would like to again remind all our witnesses, as well as our 
Members, that we do have 5 minutes. All of your testimony, 
without objection, will be submitted for the record.
    And with that, we would like to hear from Dr. Rebecca 
Maynard, university trustee professor of education and social 
policy, University of Pennsylvania, Philadelphia, Pennsylvania. 
Dr. Maynard.

  STATEMENT OF REBECCA A. MAYNARD, PH.D., UNIVERSITY TRUSTEE 
  CHAIR PROFESSOR, UNIVERSITY OF PENNSYLVANIA, AND DIRECTOR, 
    NATIONAL TITLE V ABSTINENCE EDUCATION PROGRAM EVALUATION

    Dr. Maynard. Thank you, Chairman Herger and Members of the 
Committee for giving me the opportunity to submit testimony on 
this important issue.
    I am both professor of education at the University of 
Pennsylvania, and the director of the National Title V 
Abstinence Education Program Evaluation being conducted by 
Mathematica Policy Research under a contract to the U.S. 
Department of Health and Human Services.
    I am going to talk about three topics. The, first very 
briefly, is the need for scientifically rigorous research to 
improve policies and practice. The second is the ways in which 
the Federal support for abstinence education has changed the 
local conversations and approaches to reducing teen sexual 
activity. And third, I want to talkabout what the National 
Title V Program Evaluation evaluation is going to contribute to our 
knowledge.
    You have heard the evidence of why we need to continue to 
invest in careful research. What I would tell you is that the 
1996 Welfare Reforms have really heightened public awareness 
about the nature and the extent of these problems that you have 
heard about, and it has fostered a number of efforts to address 
them, including the provision of $50 million annually in 
support for the Title V abstinence education programs. And 
while we don't yet have definitive evidence linking this 
specific reform or any other specific reform to the favorable 
trend in the teen birth rate, what we do know is that Title V 
has fostered three major changes at the State and local level 
that I want to talk a little bit about.
    First, Title V has expanded and changed the conversation 
about the role of abstinence education in local communities and 
schools. The most striking evidence of this is the tenfold 
increase in the proportion of high schools in this country that 
are requiring the teaching of abstinence as the sole way to 
prevent pregnancy and sexually transmitted diseases.
    The second is that Title V has fostered the development of 
many new strategies for promoting abstinence and expanding the 
concept of abstinence education. Abstinence programs are no 
longer ``just say no.'' The earliest grass roots abstinence 
education programs tended to be classroom based, short term, 
and emphasized the benefits of abstinence and the negative 
consequences of sex. But many of the current programs, 
including the Best Friends program you heard about here in 
Washington, D.C., and nationwide, take a much broader approach, 
often including extensive mentoring components, including 
educational and cultural enrichments, and teaching about 
healthy friendships and marital relationships--things that many 
of you have been alluding to. We also have a number of 
abstinence-only initiatives that are community wide systemic 
change efforts.
    Third, Title V has been a huge boost to the abstinence-
until-marriage movement. The Federal funds have leveraged at 
least $50 million again in local funds to support more than 700 
abstinence-until-marriage programs nationwide. And, if 
additional funds were available, it is really clear that many 
current programs would grow and that new programs would emerge, 
particularly in communities that have these more intensive, 
youth development focus abstinence programs. There are lines at 
the door, and people are ready to expand and to add new 
programs.
    All of this is happening because Congress identified the 
promotion of abstinence education as an important strategy for 
preventing teen sexual activity and non-marital pregnancies and 
births. And, the evaluation of Title V is going to provide the 
much needed scientific evidence about which of these program 
models are effective, for whom and under what conditions. I 
want to emphasize our focus on, which programs are effective, 
for whom, and under what condition?
    I want to note six features of the study that we are 
conducting that are central to the credibility and the utility 
of the findings we are going to be able to share with you 
beginning in about another year. First, we are measuring 
program impacts using scientifically rigorous experimental 
design methods. This is the only means of insuring with any 
degree of certainty how successful the programs are overall, 
and for key subgroups of youth.
    Second the impact evaluation is examining five quite 
different programmatic strategies geared in part to the needs 
of the communities in which they are operating, so we are 
respecting local autonomy and values.
    Third, we have designed our student surveys to ensure that 
program and control youth apply common definitions when 
answering question about sexual activity. This is really 
important because the abstinence education programs have 
changed how people think about sexual activity.
    We're using interviewers who are independent of the 
programs to collect all of our student data, which is important 
because we need to avoid problems of under reporting of sexual 
activity due to students' linkages with the program staff.
    Fifth, we are following youth for between 18 and 36 months 
after sample enrollment to allow us to observe more of them as 
they reach the age when they are making these critical 
decisions about whether to engage in sex.
    And sixth, we are using large samples in all of our sites 
to protect against the possibility that we would fail to detect 
true program impact simply because we have low statistical 
power.
    We are going to release our first results in 2003 when we 
will have follow-up data for the entire study sample.
    The one final statement, I want to make a plea to Congress 
to continue to support youth risk avoidance and pregnancy 
prevention initiatives, but I also want to encourage you to 
support other scientifically rigorous studies to complement 
what we are learning. We are going to learn something very 
important, but it is a small piece of what we need to know.
    Thank you.
    [The prepared statement of Dr. Maynard follows:]
   Statement of Rebecca A. Maynard, Ph.D., University Trustee Chair 
 Professor, University of Pennsylvania, and Director, National Title V 
Abstinence Education Program Evaluation, and Amy Johnson, Ph.D., Senior 
             Researcher, Mathematica Policy Research, Inc.
    Thank you for giving us the opportunity to submit testimony on this 
important issue and to share some information based on our experiences 
from the national evaluation of Title V abstinence education programs 
being conducted by Mathematica Policy Research, Inc., under contract to 
the U.S. Department of Health and Human Services. We will focus our 
remarks on three main topics. First, we will discuss the need for 
scientifically rigorous research to improve future policies and 
practice aimed at reducing teen sexual activity and its adverse 
consequences, including nonmarital childbearing and sexually 
transmitted diseases (STDs). Second, we will discuss important ways in 
which federal support for abstinence education has changed local 
conversations and approaches to reducing teen sexual activity. Third, 
we will describe what the national evaluation of Title V abstinence 
education programs will contribute to our knowledge base and when we 
will report study findings.
The Need for Investing in Careful Research
    Teen pregnancy and birth rates have declined steadily since the 
early 1990s. However, five years after passage of the Personal 
Responsibility and Work Opportunity Reconciliation Act (PRWORA), teen 
sexual activity and its consequences remain important issues, 
particularly nonmarital and unintended births and sexually transmitted 
diseases. We need to pay close attention to some of the significant 
efforts launched in recent years to combat these problems. We need to 
build on their successes. We also need to learn about and respond to 
those areas where efforts are not achieving their intended goals.

          <bullet> Despite the steady decline in the teen birth rate 
        between 1991 and the present--from a high in 1991 of 62 births 
        per 1,000 females age 15 to 19, to 49 births per 1,000 last 
        year \1\ many concerns persist:
---------------------------------------------------------------------------
    \1\ Child Trends. Facts at A Glance, Washington, DC: Child Trends, 
August 2001. The original data are from National Center for Health 
Statistics, Centers for Disease Control and Prevention, Hyattsville, 
MD.
---------------------------------------------------------------------------
          <bullet> Nearly half of all high school students and more 
        than two-thirds of graduating seniors in this country have had 
        sexual intercourse.\2\
---------------------------------------------------------------------------
    \2\ Centers for Disease Control. ``Youth Risk Behavior 
Surveillance--United States, 1999.'' CDC Mortality and Morbidity Weekly 
Report Summaries, vol. 49, SS05, June 9, 2000 and vol. 47, no. 36, 
September 18, 1998 (www.cdc.gov/mmwr/PDF/SS/SS4905.pdf and www.cdc.gov/
mmwr/PDF/wk/mm4736. pdf, respectively).
---------------------------------------------------------------------------
          <bullet> One in five high school seniors reports having had 
        sex with four or more partners.\2\
          <bullet> More than 40 percent of teens failed to use any 
        protection against STD infections during their last sexual 
        encounter.\2\
          <bullet> An estimated 25 percent of sexually active teens 
        will contract a sexually transmitted disease this year.
          <bullet> Nearly 500,000 babies are born each year to teens, 
        more than 80 percent of whom are not married.\3\
---------------------------------------------------------------------------
    \3\ Child Trends. Facts at A Glance, Washington, DC: Child Trends, 
August 2001.

    The 1996 welfare reforms heightened the public's awareness of the 
nature and extent of problems associated with teen sexual activity, 
teen childbearing, and nonmarital childbearing. The reforms also 
fostered targeted efforts to discourage sex among teenagers, to reduce 
teen pregnancies and births, and to promote stronger family 
---------------------------------------------------------------------------
relationships. Specifically, the reforms did the following:

          <bullet> Required state welfare plans to focus on out-of-
        wedlock and teen childbearing and offered a total of $20 
        million in bonuses to states that were especially successful in 
        reducing their nonmarital birth ratio.
          <bullet> Increased the emphasis on statutory rape laws and 
        required minor parents to live in supervised settings.
          <bullet> Allowed use of federal Temporary Assistance to Needy 
        Families (TANF) funds to support family planning services.
          <bullet> Provided $50 million annually in federal support for 
        Title V abstinence education programs, which is matched by 
        roughly $38 million in state and local funds.

    At this point, we have no definitive evidence linking any of these 
provisions with favorable trends in teen pregnancies and births. 
However, we have abundant evidence that the federal support of 
abstinence education, in particular, has focused attention at the state 
and local level on the problems of teenage sexual activity and 
nonmarital childbearing, and that this focus has led to expansion in 
the number and variety of abstinence education programs. An important 
complement to these policy and program initiatives is the investment by 
the U.S. Department of Health and Human Services in a rigorous research 
study of Title V abstinence education programs. The study will fill a 
small, but very important, portion of the knowledge gap by helping us 
understand how best to design and implement abstinence programs that 
are successful in reducing nonmarital sexual activity and childbearing.
Changes at the Local Level as a Result of Abstinence Education Funding
    The federal government's commitment of $50 million annually to 
support abstinence education through the Title V Block Grant Program 
has had three major impacts. First, it has expanded and changed the 
conversation about the role of abstinence education in local 
communities and schools. Second, it has fostered the development of new 
strategies for promoting abstinence among youth. Third, it has 
increased significantly the number of abstinence education service 
providers and the number of youth they serve.
    One only needs to read the newspapers to be aware of the heightened 
focus, at both the state and the local level, on health, sex education, 
and abstinence education policies. However, the numbers provide more 
concrete evidence of change. In 1988, only 2 percent of school 
districts reported teaching abstinence as the sole way to prevent 
pregnancy and sexually transmitted diseases; by 1999, 23 percent 
reported such policies.\4\ Today, 23 states incorporate contraception 
into their curricula, and 26 states teach abstinence.\5\ In part, this 
increased emphasis on abstinence reflects the fact that, in many 
communities, it is the only strategy for reducing teen pregnancies that 
is consistent with local norms and values. In other cases, abstinence 
education programs are viewed as important complements to other 
existing strategies focused on curbing high rates of sexual activity, 
pregnancies, and nonmarital births.
---------------------------------------------------------------------------
    \4\ Darrroch, J.E., D.J. Landry, and S. Singh. ``Changing Emphases 
in Sexuality Education in the U.S. Public Secondary Schools, 1988-
1999.'' Family Planning Perspectives, vol. 32, no.5, September/October 
2000, pp. 204-211.
    \5\ Wertheimer, R., J. Jager, and K. Moore. ``State Policy 
Initiatives for Reducing Teen and Adult Nonmarital Childbearing: Family 
Planning to Family Caps.'' New Federalism Issues and Options for 
States, Series A, No. A-43. Washington, DC: Urban Institute, November 
2000.
---------------------------------------------------------------------------
    Title V funding has fostered the development of myriad new 
strategies for promoting abstinence and expanded the concept of 
abstinence education. The earliest grassroots abstinence education 
programs tended to be more homogeneous, classroom-based programs 
focusing on the benefits of abstinence and the negative consequences of 
sex outside of marriage. In contrast, many of the current programs--
including Best Friends here in Washington, DC, and ReCapturing the 
Vision in Miami, Florida--take a broader approach, linking abstinence 
and other healthy behavioral choices for young people. The major 
quality distinguishing them from many other youth development 
initiatives in our country is their clear, consistent message that 
abstinence is the healthiest choice and the only way to prevent 
unintended pregnancies and sexually transmitted diseases.
    Contrary to popular opinion, the vast majority of current Title V 
abstinence education programs offer much more than a ``just say no'' 
message. As noted previously, many have extensive youth development and 
mentoring components; they often include educational and cultural 
enrichments; and they frequently incorporate curricula and experiences 
designed to teach about healthy friendships and marital relationships.
    The majority of the Title V abstinence education programs target 
most of their services on identifiable groups of youth. The following 
table illustrates the range of such programs:

  TABLE 1: ILLUSTRATIVE TARGETED TITLE V ABSTINENCE EDUCATION PROGRAMS
------------------------------------------------------------------------
                                  Entry grade/setting/curriculum/other
     Program and location               services/other features
------------------------------------------------------------------------
Teens in Control, Clarksdale,  Grades 5 and 6. School-based. 30
 MS.                            curricula sessions, possibly repeated
                                once. Minor peer mentor component.
                                Extremely poor, rural community.
ReCapturing the Vision,        Grades 6-8 and 9-12. School-based. Daily,
 Miami, FL.                     year-long curriculum. Monthly home
                                visits and referrals to other services;
                                school uniforms. Urban setting; diverse
                                student population.
Heritage Keepers Community     Grade 6 and 7 and grades 9 and 10. School-
 Services, Edgefield, SC.       based. Character clubs added to a five-
                                session abstinence curriculum. 18 or
                                more sessions annually over multiple
                                years. Rural, middle- to lower-middle-
                                class population.
My Choice, My Future,          Grade 8. School-based. 36-session
 Powhatan, VA.                  curriculum. 9th and 11th grade boosters.
                                Lower- to middle-income community.
Families United to Prevent     Grades 4-6. After school. Two hours daily
 Teen Pregnancy, Milwaukee,     throughout the school year for multiple
 WI.                            years. Summer program; parent
                                involvement; peer mentors. Poor, inner-
                                city neighborhoods; mixed race/ethnic
                                groups.
------------------------------------------------------------------------

    Other programs are using Title V monies to increase public 
awareness, shape attitudes, and change behavior throughout the 
community. Many community-wide programs also complement their public 
education and messaging efforts with more targeted services to provide 
particular groups of youth with the skills and values needed to remain 
abstinent. The following are examples of such efforts:

                   TABLE 2: ILLUSTRATIVE TITLE V COMMUNITY-WIDE ABSTINENCE EDUCATION PROGRAMS
----------------------------------------------------------------------------------------------------------------
                                                                  Principal program
                                        Sponsoring agency             components             Target population
----------------------------------------------------------------------------------------------------------------
Cedar Rapids, IA...................  Not-for-profit/ public  Abstinence curriculum for    All county youth;
                                      school district         5th graders; Young Parent    emphasis on middle
                                      coalition.              Network for abstinence       school youth.
                                                              training; community
                                                              resource library; School
                                                              assemblies in middle and
                                                              high schools; workshops
                                                              for parents and educators;
                                                              support groups for
                                                              transition from middle
                                                              school; volunteer teens
                                                              writing and producing
                                                              messages; mentoring and
                                                              adult supervision; Baby
                                                              Think It Over dolls.
South Carolina \1\.................  Heritage Keepers        Abstinence education         Grades 6-10; 11th and
                                      Community Services.     curriculum (450 minutes);    12th grade boosters.
                                                              weekly or biweekly
                                                              character clubs; parent
                                                              training; mentors;
                                                              assemblies; training of
                                                              medical providers.
Toole, UT..........................  Counth health           Abstinence curriculum, with  9-18 year olds;
                                      department.             some Teen Aid et al. in      strongest focus on 10-
                                                              family life classes at       14 year olds.
                                                              middle schools (typically
                                                              2 weeks or so); Love and
                                                              Logic parenting class (2
                                                              hours per week for 10
                                                              weeks); self-esteem ays
                                                              for 5th--8th graders; Baby
                                                              Think It Over dolls; FACT
                                                              student self-esteem
                                                              classes for high-risk
                                                              youth; peer educators;
                                                              school fairs; billboards
                                                              and newsletters; merchang
                                                              involvement; faith-based
                                                              linkages.
Waco, TX...........................  Newly formed community- Abstinence curriculum (6     10-14 year olds, with
                                      based organization.     weeks as part of health      a heavy emphasis on
                                                              class); Aim for Success      8th and 9th graders.
                                                              assemblies; Reality Check
                                                              (``I'm Worth Waiting
                                                              For''); character
                                                              education in elementary
                                                              schools; youth mentors;
                                                              medical provider training;
                                                              faith-based partners;
                                                              resource library; media
                                                              spots.
Fort Bend, TX......................  Newly formed community- Wings youth development for  9-18 year olds, with a
                                      based organization.     girls; ChangeMakers,         heavy focus on middle
                                                              community training; peer     school youth.
                                                              education (STARS);
                                                              GOLDCLUB, social group for
                                                              high school youth; parent
                                                              education programs; parent
                                                              resource center; propellor
                                                              group for boys (under
                                                              development); Aim for
                                                              Success Assemblies; school-
                                                              based abstinence
                                                              curriculum; community
                                                              events (e.g., fairs).
Monroe County, NY..................  County health           Abstinence curriculum;       Youth aged 9-14.
                                      department and New      parent guides; paid TV
                                      York agency             ads, radio spots, and
                                      (advertising).          posters; Kids Advisory
                                                              Panel for media efforts;
                                                              interactive web site for
                                                              parents, youth, and
                                                              community educators.
----------------------------------------------------------------------------------------------------------------

    The $50 million annual federal investment in abstinence education 
through Title V has been a huge boost to the abstinence-until-marriage 
movement. Federal program funds have leveraged at least that much again 
in local matching funds to support more than 700 programs nationwide. 
And, funds for abstinence education through the Special Projects of 
Regional and National Significance (SPRANS) grant program administered 
by the Health Resources and Services Administration recently added 
another $20 million to support 49 additional grantees operating a 
similar range of programs.\6\
---------------------------------------------------------------------------
    \6\ Lawler, Michele. ``Abstinence Education Grant Program, Health 
Resources and Services Administration, U.S. Department of Health and 
Human Services.'' Presentation at the Abstinence Clearinghouse 
International Conference, Miami, FL, July 26, 2001.
---------------------------------------------------------------------------
    If additional funds were available, it is clear that many current 
programs would grow and that new programs would emerge. Particularly in 
communities with the more intensive youth-development programs, demand 
for abstinence programs frequently exceeds current capacity, as 
evidenced by program waiting lists and requests for programs to expand 
to new sites. Many communities with classroom-based programs are 
interested in beginning them earlier and/or running them longer. One of 
the biggest future challenges is knowing which models and delivery 
strategies will work best for a particular community or with a 
particular group of youth--issues that are central to the ongoing 
evaluation of Title V abstinence education programs we are conducting.

What Will the National Evaluation of Title V Abstinence Education 
                    Programs Contribute?

    Congress identified the promotion of abstinence education as an 
important strategy for preventing teen sexual activity, nonmarital 
pregnancies and births, and sexually transmitted diseases. The central 
focus of the Congressionally mandated study of the Title V programs is 
to provide much-needed, scientifically rigorous evidence about which 
program models are effective, for whom, and in what local contexts. The 
study will measure the success of different program models in altering 
youths' attitudes and intentions about nonmarital sex, reducing sexual 
activity among teens, convincing youth who have had sex to become 
abstinent, and lowering exposure to sexually transmitted diseases and 
nonmarital births.
    The Title V program evaluation findings should have much greater 
credibility than findings from previous research, because of critical 
features of the study design and implementation:
    1. We are measuring program impacts using scientifically rigorous, 
experimental design methods. This is the ONLY means of measuring with a 
known degree of certainty how successful the programs are overall and 
for key subgroups of youth. Findings based on any other evaluation 
design could be readily dismissed for their weak study design and the 
potential for ``selection bias.'' This would include results based 
designs that relied on comparisons of pre- and post-program outcomes 
for program youth; comparisons of outcomes for program youth with those 
for youths in the program site who, for some reason, do not participate 
in the program; and comparisons of outcomes for program youth with 
those for youth in another school or district.
    2. The impact evaluation is examining five quite different 
programmatic strategies geared, in part, to the needs of the 
communities in which they are operating. For example, the programs in 
two sites serve mainly youth from single-parent households; these 
programs are intensive and include strong components on relationship 
development and maintenance, and appreciation of the institution of 
marriage. In another site, many youth live in large, multi-generational 
households often isolated from the broader community. The program in 
this community is delivered through the schools and emphasizes both 
basic knowledge development and peer pressure management components. 
Youth in another two sites live in communities that mirror ``middle 
America.'' The program in one of these sites is a low-cost, school-
based intervention, while that in the other site is a more 
comprehensive and intensive youth development initiative. By measuring 
impacts for a range of program models we promote the goal of 
identifying and documenting effective abstinence education strategies 
appropriate to varied local needs and contexts.
    3. We have designed student surveys to ensure that program and 
control youth apply common definitions when answering questions about 
sexual activity and abstinence. Participation in abstinence education 
programs sometimes leads youth to change their definitions of what 
constitutes sexual activity and abstinence. Failure to address such 
program-induced changes in definitions could result in a downward bias 
in the reporting of abstinence by program youth relative to control 
youth and thereby limit our ability to detect true program impacts. It 
is, therefore, essential that we clearly ask about the specific 
behaviors of interest.
    4. We use interviewers who are independent of the programs to 
collect all student survey data for the study. Research shows that 
youth are especially likely to underreport sexual activity and other 
risk-taking behaviors on surveys linked to or administered by program 
staff. Reporting accuracy can be improved through carefully designed 
surveys administered by independent professionals in neutral settings.
    5. We are following youth for between 18 and 36 months after sample 
enrollment. This follow-up permits the study to measure behavior 
changes, not just changes in reported intentions. It also allows us to 
observe more youth as they reach the age when they are at substantial 
risk of engaging in sexual activity.
    6. We have enrolled samples of 400 to 700 youth per site. Large 
sample sizes protect against the possibility that we would fail to 
detect true impacts of the programs, simply because the study lacked 
statistical power. Small samples have a very high probability of 
missing all but very large program impacts.
    7. We are establishing a foundation for longer-term assessment of 
systemic change resulting from community-wide programs. Changing 
community norms and values is a cumulative process that takes time. As 
part of the Title V program evaluation, we are documenting the 
operational strategies of a select group of such programs. However, it 
may take many years to reliably link operational success to changes in 
community norms and youths' behaviors. Fortunately, some of these 
projects have instituted indicator-tracking systems that will support 
their ongoing efforts to gather evidence of cumulative changes in local 
behaviors beyond the period when the national evaluation of Title V 
programs is ongoing.
    We are committed to conducting a scientifically rigorous, 
responsible evaluation that will inform future decisions about 
effective intervention strategies and policies to support and promote 
them. Results based on only part of our study sample are susceptible to 
missing all but very large program impacts. Thus, evidence on the 
short-term effects of the various program strategies in changing norms, 
attitudes, and behaviors will not be available until we have data for 
the full study sample, early in 2003. The final impact findings will be 
available early in 2005. Throughout the study period, we are monitoring 
program operational experiences and the local community context, as 
well as other related research that emerges.
    The Title V program evaluation will generate some very important 
information to guide future policy and program initiatives. It is 
important, however, that there be other similarly rigorous studies to 
fill other critical knowledge gaps about the causes of youths' risk-
taking behaviors, about ways we can promote healthier life choices 
among youth, and about strategies to mitigate the adverse outcomes 
youth encounter.

                                <F-dash>


    Chairman Herger. Thank you very much, Dr. Maynard. And now 
Ms. RoseAnne Bilodeau, Greater New Britain Teenage Pregnancy 
Prevention, Incorporate, New Britain, Connecticut. Ms. 
Bilodeau.

STATEMENT OF ROSEANNE BILODEAU, EXECUTIVE DIRECTOR, GREATER NEW 
     BRITAIN TEEN PREGNANCY PREVENTION, INC., NEW BRITAIN, 
                          CONNECTICUT

    Ms. Bilodeau. Good morning, Mr. Chairman, and honorable 
Committee Members. It is with a deep sense of honor that I 
appear before you today to share our teen pregnancy prevention 
findings from Connecticut's Sixth District, Congresswoman 
Johnson's hometown of New Britain.
    My name is RoseAnne Bilodeau, and I am the founder and 
executive director of Greater New Britain Teen Pregnancy 
Prevention, Incorporated, which is more commonly known as the 
Pathways/Senderos Center.
    We originated 8\1/2\ years ago as a neighborhood-based coed 
teen pregnancy prevention youth and family center. We are an 
independent private, non-for-profit organization. Our mission 
is to eliminate teen pregnancy by addressing its root causes, 
assuring high school graduation and promoting adult self-
sufficiency. We provide long-term comprehensive holistic 
services by creating a parallel family structure with 
neighborhood youth and parents. Our motto is ``diplomas before 
diapers.''
    Our board of directors is comprised mostly of successful 
businessmen, bankers, lawyers and a few other community 
stakeholders, such as the superintendent of the schools, the 
director of Family Planning, local clergy and leadership from 
both the Democrat and Republican parties. Almost 60 percent of 
our board of directors are men.
    Our annual evaluation, conducted by Philliber Research 
Associates, documents that only two of our participants have 
ever created a pregnancy, which 100 percent of our participants 
remain in school, and only 25 percent of our kids have ever 
been involved in a physical fight, only 4 percent have ever 
carried a weapon, and only 8 percent have tried cigarette 
smoking.
    Our program population is 50 youth. They range in age from 
10 to 18 years old, and as Congresswoman Johnson indicated, we 
are one of New Britain's greater poverty-stricken areas. All of 
our children are Latino, most are Puerto Rican, while the 
others come from Peru, Colombia, Mexico, and Panama. For most, 
English is a second language. At least 80 percent of our 
preteens come from families that were started by teen parents. 
Some of the children are being raised by their biological 
parents, while others are raised by single grandmothers or 
mothers who may be married to a stepfather, single or living 
with a boyfriend.
    Our TANF-dependent families were affected by the first wave 
of Connecticut's welfare reform. All of our parents are 
currently employed in low-paying entry-level jobs, many as 
certified nursing assistants. Our families are Members of the 
working poor, people who run out of food frequently while 
trying to make ends meet. At Pathways/Senderos we provide 
clothing and food pantries. We distribute at least a bag of 
groceries a day.
    Our program model and philosophy are based upon the work of 
Dr. Michael Carrera and the Children's Aid Society, which was 
recently identified as being an extremely effective 
intervention by the National Campaign's ``Emerging Answers'' 
report. We believe that by participating in a safe environment 
with a parallel family structure every day after school and 
during the summer, that young vulnerable teens can develop the 
skills and inner fortitude necessary to avoid negative, risk-
taking behaviors, and instead engage in activities that 
encourage academic success, making the right choices, and 
eventually attaining self-sufficient adulthood. We provide a 
pathway of hope.
    Ours is a child-focused family systems intervention which 
involves us with families for years. Our primary service 
components emphasize education, career, vocational exploration, 
community service projects, family life and sex education, arts 
and lifelong sporting activities. We have also started a 
business of our own, titled Barcodes aRe Us, which is a bulk-
mailing service. We train and employ our age-eligible youth who 
maintain at least a C average in school. Our business also 
provides a source of revenue for our program.
    Our board of directors is finalizing a year-long strategic 
planning process which will identify an expansion of our scope 
of services to include additional children from the elementary 
grades. Currently we recruit from the sixth grade. Our intake 
data, since welfare reform, indicates that the children now 
spend less time with their parents and have greater exposure to 
and involvement with risk-taking behaviors than did their peers 
prior to welfare reform. We would like to reach out to these 
younger children who might not be properly supervised when they 
are out of school. We would like to involve children at an 
earlier age with our philosophy of hard work, cooperation, 
making the right choices and team effort.
    Although we currently save the youth who are most likely to 
fall between the cracks, we believe we could be so much more 
successful in moving poverty-stricken children and their 
families forward if we had the resources to serve more children 
at an earlier age. Pathways/Senderos assists vulnerable 
families by providing intensive long-term multi-faceted 
services. Over time we have seen many families slowly overcome 
the barriers created by undeveloped education, limited skill 
training and lack of English language skills. With our daily 
involvement the children flourish and prosper. As they grow in 
this positive manner, the rest of the family follows, including 
parents and extended family.
    Pathways/Senderos is also credited by the local clergy with 
contributing to the stabilization of our highly-transient inner 
city neighborhood. When we first arrived local gangs controlled 
the area and neighborhood teens either joined a gang for 
protection or stayed in their apartments for safety. The police 
cleaned out the gangs and Pathways/Senderos replaced them as an 
option of choice for the neighborhood teens.
    We have created a positive peer group which carries on when 
we are not there on some of the weekends and during school 
hours. Our youngsters bond as a family and strive together to 
become responsible civic-minded self-sufficient citizens. It is 
this long-term holistic approach which not only averts teen 
pregnancy, but does so much more, that has persuaded our inner 
city poverty-stricken children to make the right choices and 
aspire to a life of success.
    Thank you for your time and attention.
    [The prepared statement of Ms. Bilodeau follows:]

Statement of RoseAnne Bilodeau, Executive Director, Greater New 
     Britain Teen Pregnancy Prevention, Inc., New Britain, 
                          Connecticut

    Good morning Mr. Chairman and honorable subcommittee members. It is 
with a deep sense of honor that I appear before you today to share our 
teen pregnancy prevention findings from Connecticut's Sixth District, 
Congresswoman Johnson's home town of New Britain.
    My name is RoseAnne Bilodeau. I am the founder and Executive 
director of Greater New Britain Teen Pregnancy Prevention, Inc., more 
commonly known as the Pathways/Senderos Center.
    We originated eight and one half years ago, as a neighborhood-
based, coed, teen pregnancy prevention youth and family center. We are 
an independent, private, non-profit organization dedicated strictly to 
providing successfully evaluated, long-term, comprehensive, holistic 
prevention services.
    Our Board of Directors is comprised mostly of successful business 
people, lawyers, bankers and a few other key community stakeholders 
such as the Superintendent of Schools, Director of Family Planning, the 
clergy and leadership from both the Democratic and Republican parties.
    Our annual evaluation conducted by Philliber Research Associates of 
Accord, New York, documents that only two of our participants have ever 
created a pregnancy, while 100 percent remain in school; with only 25 
percent have ever been involved in a physical fight; 4 percent have 
ever carried a weapon; and only 8 percent have tried cigarette smoking.
    Our program population is 50 10-18 year olds from one of New 
Britain's poverty-stricken neighborhoods. All of our children are 
Latino, most Puerto Rican, while the others come from Peru, Columbia, 
Mexico and Panama. For most, English is a second language.
    At least 80 percent of our (pre)teens come from families started by 
teen parents. Some of the children are being raised by their biological 
parents, while others are raised by their single grandmothers or 
mothers who may be single, married to a stepfather or living with a 
boyfriend. Our TANF-dependent families were affected by the first wave 
of Connecticut's welfare reform. All are currently employed in low-
paying, entry-level jobs with many working as certified nursing 
assistants. Our families are members of the working poor, people who 
run out of food frequently while trying to make ends meet. At Pathways/
Senderos we also provide food and clothing pantries. We distribute at 
least one bag of groceries a day.
    Our program model and philosophy are based upon the work of Dr. 
Michael Carrera and the New York's Children's Aid Society, which was 
recently identified as being successful by the National Campaign's 
``Emerging Answers'' report. We believe that by participating in a safe 
environment with a parallel family structure every day after school and 
during the summer that young vulnerable people can develop the skills 
and inner fortitude necessary to avoid negative, risk-taking behaviors 
and instead engage in activities that encourage academic success, and 
where they can make the right choices to eventually attain self-
sufficient adulthoods.
    Ours is a child-focused, family systems intervention, which 
involves us with families for years. Our primary service components 
emphasize education, career/vocational exploration, community service 
projects, family life and sex education, arts and life-long sporting 
activities. We have also started a business, Barcodes aRe Us, a bulk-
mailing service, which trains and employs our age-eligible youth who 
maintain at least a ``C'' average in school. Our business also provides 
a source of revenue for us.
    Our Board of Directors is finalizing a year-long strategic planning 
process which will identify an expansion of our scope of services to 
include additional children from the elementary grades. Currently we 
recruit sixth grade students. Since welfare reform, our data indicates 
that the children now spend less time with their parent(s), and have 
greater exposure to and involvement with risk-taking behaviors than did 
their peers prior to welfare reform. We would like to reach out to 
these younger children who may not be properly supervised when out of 
school. We would like to involve children at an earlier age with our 
philosophy of hard work, cooperation, making the right choices and team 
effort.
    Although we currently ``save'' the youth who are most likely to 
fall between the cracks, we believe that we could be so much more 
successful in moving poverty-stricken children and their families 
forward if we had the resources to serve more children at an earlier 
age. Pathways/Senderos assists vulnerable families by providing 
intensive, long term, multi-faceted services. Over time, we have seen 
so many families slowly overcome the barriers created by undeveloped 
education, limited skill training and lack of English language skills. 
With our daily involvement, the children flourish and prosper. As they 
grow in this positive manner, the rest of the family follows, including 
parents and extended family.
    Pathways/Senderos is also credited by the local clergy with 
contributing to the stabilization of our highly-transient, inner-city 
neighborhood. When we first arrived, local gangs controlled the area 
and neighborhood teens either joined a gang for protection or stayed in 
their apartments. The police cleaned out the gangs and Pathways/
Senderos replaced them as the option of choice.
    We have created a positive peer group, which carries on when we are 
not there on some weekends and during school hours. Our youngsters bond 
as a family and strive together to become responsible, civic-minded, 
self-sufficient citizens.

                                <F-dash>


    Chairman Herger. Thank you very much, Ms. Bilodeau. What an 
impressive program, and we thank you for coming and sharing 
that with us.
    And now Dr. Joe S. McIlhaney, Jr., M.D., president, Medical 
Institute for Sexual Health, Austin, Texas. Dr. McIlhaney.

 STATEMENT OF JOE S. McILHANEY, JR., M.D., PRESIDENT, MEDICAL 
           INSTITUTE FOR SEXUAL HEALTH, AUSTIN, TEXAS

    Dr. McIlhaney. Thank you, Chairman Herger and other 
distinguished members of the panel. I am a gynecologist and 
actually am comfortable being on a panel with five wonderful 
women.
    I left a rewarding medical practice in 1995 to spend the 
rest of my medical career helping women and men avoid the 
problems I saw every day in my medical practice, sexually 
transmitted disease (STD), non-marital pregnancy and emotional 
damage of inappropriate sexual behavior.
    You probably know that one-third of pregnancies in America 
are born out-of-wedlock and that those drive much of the 
problems that we see in this country, poverty, child health, 
education, crime, much more that has been mentioned already. I 
have some of those statistics in my written testimony.
    We could go on and on with how dramatically these non-
marital pregnancies and the problems from them impact all of 
America, every element of our society. We must dramatically 
reduce its occurrence.
    In the seventies and eighties the primary efforts were to 
emphasize contraceptive use, but the pregnancy rates continued 
to climb. The first governmental legislation to fund abstinence 
promotion was the Title XX program initiated in the mid 
eighties. There is some suggestion of success of these efforts 
as they matured, in that teen sexual activity began declining 
in 1990. A non-governmental abstinence program was proven to 
work by the ADD Health, National Longitudinal Study on 
Adolescent Health, Study, the biggest study ever done on 
American adolescence. It showed that kids who took pledges of 
abstinence, that those pledges were the biggest influence in 
the lives of those children who were delaying the onset of 
sexual activity. That ADD Health Study also showed that 10 
percent of American boys and 15 percent of American girls in 
their adolescent girls were taking those pledges. The pledges 
were at first ridiculed by the scientific community. No more.
    In addition to these efforts, there are studies 
accumulating of specific abstinence programs which are showing 
surprising success. You have already heard from Members of this 
panel about some of them, and others of them are mentioned in 
our written testimony. As a result of these efforts, teen 
sexual activity has been decreasing since 1990. Today, as you 
know, over 50 percent of students in high schools across the 
country are still virgins, and during this same period of time 
teen birth rates have been declining, as we have heard.
    The chart I put here on out-of-wedlock birth rates from 
1980 to 1999 clearly suggest that abstinence efforts have 
played a major role in this healthy trend. Almost all efforts 
to encourage sexual abstinence, particularly Title XX and Title 
V, have been directed toward teens. And as the chart shows, 
that red chart at the bottom, that it is the group, the teens 
in which out-of-wedlock birth rates have fallen. If these 
decreased birth rates were primarily due to increased 
contraceptive rates, birth rates among unmarried women in their 
twenties should also have fallen because they obviously had at 
least equal access to contraceptives as the teens did. It was 
only the age group in which abstinence efforts had been focused 
that has experienced not only reduced pregnancy rates, but also 
reduced rates of sexual activity.
    [The chart follows:]
    [GRAPHIC] [TIFF OMITTED] T7054.001
    
                                <F-dash>


    It is of great importance to note, however, there is a 
major problem which is often disastrously overlooked in 
discussing the problem of out-of-wedlock pregnancy, and that is 
the epidemic of sexually transmitted disease. When I gave 
testimony before this same Committee in 1996, I highlighted 
those problems. They are still with us. Fifteen point five 
Americans get a new sexually transmitted disease every year. 
The result is that today 70 million Americans are living with a 
sexually transmitted disease. Sixty-five million of those are 
infected with incurable STDs because they are viral. One 
specific example literally tears at our hearts, and that is 
that 50 percent of women having sex, who are between the ages 
of 18 and 22, right now half of them are infected with human 
papillomavirus (HPV), the virus that causes 99 percent of 
cervical cancer, a cancer which is killing between 4,000 and 
5,000 American women a year, more than die of AIDS.
    When I started practicing in 1968 there were only two STDs 
you worried about. Today there are over 25 STDs we worry about, 
and more people are infected today. In those days 1 in 47 teens 
was infected with an STD. Today one in four teens is infected 
with an STD.
    The reason we must include the problem of sexually 
transmitted disease when we talk about out-of-wedlock pregnancy 
is that the contraceptive techniques more reliable for 
preventing pregnancy, DepoProvera and oral contraceptives, 
provide no protection from STD transmission, and this is the 
reason it is so convenient to ignore the STD problem when 
discussing out-of-wedlock pregnancy. To be honest about 
physical problems that can result from out-of-wedlock sexual 
activity, we must always discuss both of these problems.
    The only technique that provides any protection from the 
STDs are condoms. However, a major National Institute of Health 
panel reviewed the world's data on this subject, and this 
scientific panel this year reported that if condoms are used 
100 percent of the time, they will reduce the risk of HIV and 
gonorrhea, gonorrhea in men; they do not reduce the risk of 
HPV, which is the most common STD and causes cancer, and we 
don't know whether they reduce the risk of other STDs or not. 
So this is information that we just must understand.
    And unfortunately, sex is sexist. When people become 
infected with diseases, it is the women that suffer. I am just 
about through. And we all know that it is the women who suffer 
from out-of-wedlock pregnancies. They are the ones, not the 
men, that submit their bodies to the surgical procedure called 
abortion. They are the ones that deliver the babies and then 
often are left with those babies to raise as enormous personal, 
educational and economic sacrifice. Many students of American 
culture are of the opinion that these problems are the most 
damaging on the American culture of all the problems we have, 
and I agree.
    Finally, for the health of individuals in all society, we 
need to emphasize marriage as a core element of society and 
emphasize its importance as the ultimate answer for these 
health problems plaguing our country and other countries, by 
the way, around the world. A major step in accomplishing this 
is TANF reauthorization, and additional TANF funds being 
earmarked for abstinence and marriage efforts, not just limited 
to adolescence either.
    And finally, Title V funds for abstinence education should 
not only be continued but increased. If these steps are not 
taken, there is significant danger that the promising trends 
that we see over here, decreasing sexual activity and 
decreasing teen pregnancy, will reverse. We need a cultural 
transformation regarding sexual activity for the protection of 
all society, and you as leaders can play a huge role in this 
happening.
    Thank you, sir.
    [The prepared statement of Dr. McIlhaney follows:]
Statement of Joe S. McIlhaney, Jr., M.D., President, Medical Institute 
                    for Sexual Health, Austin, Texas
    Thank you, Chairman Herger and other distinguished members of this 
committee. I am a gynecologist who practiced clinical medicine for 
twenty-eight years. I had a rewarding practice of in-vitro 
fertilization, surgery, and healthcare for women. However, I left that 
practice in 1995 to spend the rest of my medical career helping women 
and men avoid the problems I saw every day--problems that physicians 
today are seeing even more often. Those problems are non-marital 
pregnancy, sexually transmitted disease, and the emotional damage of 
inappropriate sexual behavior.
    First, births to unmarried women. There were approximately 4 
million births in the United States in 1999.\1\ Approximately 1/3 of 
those (1,300,000) were out-of-wedlock. Seventy percent of these were to 
women twenty years of age and older, but 50 percent were to mothers who 
were under age 20 when they bore their first child.\2\ These out-of-
wedlock births are often disastrous for the mothers, for the children, 
and often for the fathers--but they are also disastrous for society. 
They affect poverty, child health, education, and crime.
---------------------------------------------------------------------------
    \1\ Ventura SJ, Martin JA, Curtin SC, Menacker F, Hamilton BE. 
Births: Final data for 1999. National vital statistics reports; vol. 
49, no. 1. Hyattsville, Maryland: National Center for Health 
Statistics. 2001.
    \2\ Ventura SJ, Bachrach CA. Non-marital childbearing in the United 
States, 1940-99. National vital statistics reports; vol. 48, no. 16. 
Hyattsville, Maryland: National Center for Health Statistics. 2000.
---------------------------------------------------------------------------
    The specific facts I will now cite come from an insightful new 
book, The Case for Marriage--Why Married People Are Happier, Healthier, 
and Better Off Financially.\3\
---------------------------------------------------------------------------
    \3\ Waite LJ, Gallagher M. The Case for Marriage: Why Married 
People Are Happier, Healthier, and Better Off Financially. New York: 
Doubleday, 2000.
---------------------------------------------------------------------------
    Poverty: In 1996, for example, 11.5 percent of children younger 
than 6 who lived in a married couple family were poor, compared to 
almost 59 percent of those living with a single mother.
    Child health: For college-educated white mothers, being unmarried 
increases the risk that a baby will die by 50 percent.
    Education: Living in a single-parent family approximately doubles 
the risk that a child will become a high school dropout--29 percent vs. 
13 percent.
    Crime: Boys raised in single-parent homes are twice as likely to 
have committed a crime that leads to incarceration by the time they 
reach their early thirties than boys raised in the home of two biologic 
parents.
    I could go on and on to show how dramatically the non-marital 
pregnancy problem has impacted almost every facet of society. We must 
dramatically reduce its occurrence. And we have made some progress with 
teen pregnancy. Prior to the government's first legislation funding 
abstinence education, the Title XX program, teen pregnancy rates were 
skyrocketing. As a result of Title XX funding, by 1990 approximately 
200 abstinence programs had been founded and implemented. Subsequently, 
in the early 1990s not just teen pregnancy rates, but also teen sexual 
activity rates began falling--together. These trends continue for teens 
and are most likely due in large part to abstinence promotion, which 
received a big boost from Title V funds made available through the 
welfare reform legislation of 1996.
    The abstinence pledge movement is alive and well among teens and 
has had a powerful influence in helping them maintain a healthier 
lifestyle. Pledges by teens to remain abstinent have been proved by the 
ADD Health Study to be one of the biggest influences in a young 
person's decision to delay the onset of sexual activity. ADD Health 
also shows that a surprisingly large number of adolescents have taken 
such a pledge--10 percent of boys and 15 percent of girls. This 
movement was begun as the Southern Baptist True Love Waits Campaign in 
1993. It has now spread to both religious and secular environments 
nationwide. Pledges were at first ridiculed by the scientific 
community--no more!
    In addition to these national statistics there are studies 
accumulating of specific abstinence programs which are showing 
surprising success. These are both published and unpublished. The best 
known is Rowberry's study of Best Friends. The most recent has been a 
report from the Monroe County, NY, Department of Health regarding the 
success of its Not Me, Not Now program.\4\ A Title XX program performed 
in rural South Carolina showed dramatic reduction in teen pregnancy in 
the 1980s.\5\ A Cleveland study recently showed a 2/3 drop in the onset 
of sexual activity of virgins and a return to abstinence by some 
sexually experienced students (unpublished). There are others.
---------------------------------------------------------------------------
    \4\ Doniger A, Adams E, Utter C, et al. Impact evaluation of the 
Not Me, Not Now abstinence-oriented, adolescent pregnancy prevention 
communications program, Monroe County, New York. J of Health Comm. 
2001; 6:45-60.
    \5\ Vincent ML, Clearie AF, Schluchter MD. Reducing adolescent 
pregnancy through school and community-based education. JAMA. 
1987;257:3382-3386.
    \6\ Centers for Disease Control and Prevention. CDC Surveillance 
Summaries, June 9, 2000. MMWR 2000;49 (No. SS-5).
    \7\ Mann J, McIlhaney JS, Stine CS. Building Healthy Futures, The 
Medical Institute for Sexual Health, 2000.
---------------------------------------------------------------------------
    Those who are attempting to discredit abstinence promotion efforts 
emphasize the fact that there are only a small number of studies of 
these programs. It is vital to remember two things about these efforts. 
Implementation of abstinence education is still relatively new. 
Additionally, it takes a lot of time, money, and expertise to evaluate 
abstinence promotion programs--money not made available until recently.
    Let's compare this to smoking. A brave Surgeon General in 1964 said 
smoking was harmful and that Americans should not smoke. No study of 
abstinence from smoking would have shown success in those early years. 
Now, thirty-seven years later, we know that adult smoking has dropped 
from 43 percent to 23 percent. We all praise this success. What we need 
to also remember about this is that smoking hardly ever hurts a teen 
while they are a teen--the cancer and emphysema do not usually happen 
for years. Sexual activity, however, often hurts teens while they are 
still teens with disease and/or pregnancy. We need to be as comfortable 
and intentional in urging them to be abstinent from sex as we are in 
urging their abstinence from cigarettes. And we need to be patient and 
unrelenting so efforts can mature.
    There has been some success. Teen sexual activity has been 
decreasing since 1990. Today over 50 percent of students in high 
schools across the country are still virgins. During this same period 
of time teen birth rates have also declined to their lowest level in 
recent memory.
    The chart ``Out of Wedlock Birth Rates, 1980-1999'' clearly 
suggests that abstinence efforts have played a major role in this 
healthy trend. Almost all efforts to encourage sexual abstinence, 
particularly Title XX and Title V, have been directed toward teens and, 
as the chart shows, that is the group in which out-of-wedlock birth 
rates have fallen. If these decreased birth rates were primarily due to 
increased contraceptive use, birth rates among unmarried women in their 
20s should also have fallen because undoubtedly these groups go to the 
same healthcare providers and have equal access to contraceptives. It 
was the only age group on which abstinence efforts have been focused 
that has experienced not only reduced pregnancy rates, but also reduced 
rates of sexual activity.
    This information makes it clear that Congress was wise in including 
Title V funding for abstinence promotion in its 1996 welfare reform 
legislation. The success being shown by studies of abstinence efforts, 
regardless of criticism of the strength of those studies, is the first 
beam of light showing us the way out of the dark tunnel of not only 
teen pregnancy, but also out-of-wedlock pregnancy for all age groups.
    The goals of Title V legislation encourage adolescents to remain 
abstinent until marriage and TANF legislation emphasizes marriage by 
stating in three of its four goals, and I quote:

          ``2. To end the dependence of needy parents on government 
        benefits by promoting job preparation, work, and marriage.
          3. To prevent and reduce the incidence of out-of-wedlock 
        pregnancies and establish numerical goals for preventing and 
        reducing the incidence of these pregnancies.
          4. To encourage the formation and maintenance of two-parent 
        families.''

    These messages from America's political leadership are powerful and 
influential. I believe it is vital that Congress continue to help 
America by reauthorizing TANF and Title V abstinence efforts and also 
funding ongoing evaluation. Efforts to support, strengthen, and promote 
marriage are evolving and efforts to encourage sexual activity in only 
that environment are maturing. Evidence suggests these will result in 
greater health for all. Studies are necessary to encourage continued 
improvement of such efforts and to learn which are most effective for 
different communities.
    It is of great importance to note that there is a major problem 
which is often conveniently and disastrously overlooked in discussions 
about out-of-wedlock pregnancy. That is the epidemic of sexually 
transmitted disease. When I gave testimony before this same committee 
in 1996, I highlighted those problems, and they are still with us.

          <bullet> 15.5 million Americans are infected with a new STD 
        every year \8\
---------------------------------------------------------------------------
    \8\ American Social Health Association. Sexually Transmitted 
Diseases in America: How Many Cases and at What Cost? Menlo Park, CA: 
Kaiser Family Foundation; 1998.
---------------------------------------------------------------------------
          <bullet> It is estimated that over 70 million people are 
        currently infected with STD; 65 million of those are infected 
        with an incurable viral disease.\8\

    Specific examples tear at our hearts.

          1. In a recent study of women receiving routine gynecologic 
        care in New Mexico, 50 percent of sexually active women between 
        the ages of 18 and 22 were infected with human papillomavirus 
        (HPV), the virus that causes 99 percent of all cervical 
        cancer.\9\ Only a tiny fraction will get cancer, but will one 
        of these be your daughter? And, between 4,000 and 5,000 
        American women a year are dying from this disease--more than 
        die of AIDS.
---------------------------------------------------------------------------
    \9\ Peyton CL, Gravitt PE, Hunt WC, Hundley RS, Zhao M, Apple RJ, 
Wheeler CM. Determinants of genital human papillomavirus detection in a 
US population. J Infect Dis. 2001;183:1554-64.
---------------------------------------------------------------------------
          2. One in five Americans 12 years old and older is infected 
        with genital herpes,\10\ a disease from which many suffer 
        painful recurrences and emotional distress.
---------------------------------------------------------------------------
    \10\ Fleming DT, McQuillan GM, Johnson RE, et al. Herpes simplex 
virus type 2 in the United States, 1976 to 1994. N Engl J Med. 
1997;337:1105-1111.
---------------------------------------------------------------------------
          3. Approximately 6 percent of teenaged females attending 
        family planning clinics are infected with chlamydia. Most have 
        no symptoms and yet this infection can cause them to become 
        sterile if untreated.\11\
---------------------------------------------------------------------------
    \11\ Centers for Disease Control and Prevention. Sexually 
Transmitted Disease Surveillance, 2000. Atlanta, GA: U.S. Department of 
Health and Human Services, Centers for Disease Control and Prevention, 
September 2001.

    When I started practice in 1968, there were two major sexually 
transmitted diseases that worried us. Now there are over twenty-five 
such diseases and many more people infected. In the 1960s 1-in-47 
sexually active teens was infected with an STD. Now it is 1-in-4.\12\
---------------------------------------------------------------------------
    \12\ Institute of Medicine. The Hidden Epidemic, Confronting 
Sexually Transmitted Diseases. Washington, D.C.: National Academy 
Press, 1997.
---------------------------------------------------------------------------
    The reason we must include the problem of sexually transmitted 
disease when we talk about out-of-wedlock pregnancy is that the same 
risky behaviors are responsible for both. But the contraceptive 
techniques most reliable for preventing pregnancy, DepoProvera and oral 
contraceptives, provide no protection from STD transmission. So we 
therefore must not focus our efforts on reducing pregnancy alone. We 
must include reducing STD also.
    The obvious question then is ``Don't condoms make sex safe 
enough?'' A major NIH panel considered the world's data about this 
subject. The report was published this year. This scientific panel 
found the following: If used 100 percent of the time, condoms reduce 
the risk of HIV by 85 percent and of gonorrhea for men by 47 percent to 
75 percent. However, for the most common STD (HPV) they provide no 
protection from infection. For the other diseases there is just not 
enough data to say whether protection is provided by condoms or not.
    Unfortunately, sex is sexist. It hurts women far more than it does 
men. I invite you to look at the diseases a moment.

          <bullet> The very common disease, HPV, causes persistent 
        warts, abnormal Pap smears, and cancer in women. Men rarely 
        have more than a tiny, almost undetectable bump.
          <bullet> Herpes is extremely common and can make a woman burn 
        so much she cannot have intercourse. It can also infect her 
        baby during birth resulting in severe damage or even death. It 
        hardly bothers a man.
          <bullet> Chlamydia causes huge numbers of women to become 
        sterile. Most men don't even know they are infected.
          <bullet> Then we all know that it is the women who suffer 
        from non-marital pregnancies. They are the ones--not the men--
        that submit their bodies to the surgical procedure--abortion. 
        It is they who are usually left to give birth to and then raise 
        the children--often at terrible personal educational and 
        economic sacrifice.

    In summary, all this information, in my opinion, provides credible 
scientific evidence showing the wisdom of Congress in passing TANF 
legislation and including its emphasis on two-parent families and 
marriage. This information also provides data showing the wisdom of 
including in Title V legislation funding for teaching adolescents that 
they should reserve sex for marriage. This is not just a moral or 
religious issue. Many aspects of marriage, including its very formation 
and dissolution, are regulated as civil matters by secular government.
    For the health of individuals and of all society we need to 
emphasize marriage as the core issue for society and as the ultimate 
answer for these health problems plaguing our country and other 
countries around the world. A major step in accomplishing this is TANF 
reauthorization with additional TANF funds being earmarked for 
abstinence and marriage efforts which are not limited solely to the 
adolescent age group. In addition, TANF bonus money for decreasing out-
of-wedlock pregnancies should be restricted to use for abstinence and 
marriage promotion, the efforts by which those states obtained the 
money in the first place.
    Finally, Title V funds for abstinence education should not only be 
continued but increased. If these steps are not taken, there is 
significant danger that the promising trends of decreasing sexual 
activity and decreasing teenage pregnancies will reverse. In addition, 
if funds are not made available for promoting marriage and sexual 
abstinence until marriage for single people in their 20s, that group 
will continue to suffer. We need a cultural transformation regarding 
sexual activity for the protection of all of society. You as leaders 
can play a huge role in this happening.

                                <F-dash>


    Chairman Herger. And now to inquire, the gentlelady from 
Connecticut, Mrs. Johnson.
    Mrs. Johnson. Thank you very much, Mr. Chairman. And I 
thank the panel for all of their information. It certainly is 
helpful to be able to have the breadth of view that so many of 
you have provided along with the concrete experiences from the 
rest of you.
    Elayne Bennett, I was interested that your program has so 
many more female participants than male participants, and in 
the long run, I hope that won't be true.
    Mrs. Bennett. But that is because it was designed for 
girls. We only target girls. Girls are our only Members.
    Mrs. Johnson. I think that that is a cultural bias that was 
unfortunate. Males are responsible for sexual behavior; it is 
just as important as----
    Mrs. Bennett. We now have a Best Men program.
    Mrs. Johnson. Well, I do understand that, and I am glad you 
are doing that, but I think this whole idea that women are 
responsible and men don't have to be is terribly destructive in 
our lives, and so I am glad you have a Best Friends. I 
personally think it is better to have the boys and girls 
together, because in the end, relational strength in America in 
the long term of your life depends on being able to talk 
intimately.
    Mrs. Bennett. We did research on this, and we asked them. 
The girls said they preferred to have their own session back in 
1987 when we began at Langley High. And we did some sample 
sessions, and the boys took over, and the girls said nothing, 
and the boys ran the session.
    Mrs. Johnson. Yes. I do appreciate that that is a problem 
and remember that from those kinds of programs when I was that 
age. But I think it is something we have to be challenged by 
rather than comply with.
    But I was wondering, what do you see as the barriers to 
your program participating in an evaluation such as the one Dr. 
Maynard is doing?
    Mrs. Bennett. Well, we have an extensive evaluation, 15 
years worth, and we just actually are publishing our comparison 
study that compares our girls' behavior with the Youth Risk 
Behavior Surveillance study----
    Mrs. Johnson. I appreciate that. I just wonder why you 
can't participate in Dr. Maynard's evaluation because it does 
help us.
    Mrs. Bennett. Okay, I will tell you.
    Mrs. Johnson. It has been of concern to us.
    Mrs. Bennett. Because the study that Mathematica proposed 
wanted to do comparison of girls within the school, their 
sexual activity behavior of girls in the same school. We wanted 
a comparison school study because the Best Friends' philosophy, 
we train all the teachers, all who are mentors in the school. 
We have the principals attend two 2-day training conferences. 
All the materials are in the schools. The whole philosophy is 
reach out to your friend; help make your friend a better 
person. The best kind of friend to have is that person who does 
that.
    The evaluation proposed by Rebecca Maynard--and we worked 
for 2 years on this, and I am very sorry we could not 
participate, actually. My academic board voted against it. I 
was excited about it because I want a definitive study showing 
how effective abstinence is, and how effective, frankly, we 
have been. But we could not allow a comparison of girls within 
the school who have been, you know, the ripple effect, who see 
their friends who want to be in our program. We have a waiting 
list in schools. So what you would be doing is asking girls in 
a Best Friends' school where we have been 5 and 6 and 7 years, 
where all the teachers have been trained, where the sexual 
activity has declined because girls see what is happening with 
the core group of Best Friends' girls. We wanted a matched 
sample.
    Mrs. Johnson. So you didn't want a comparison between the 
girls who were participating in the program and those who were 
on the waiting list basically.
    Mrs. Bennett. Exactly. We wanted a comparison with girls 
who had not had a Best Friends Program in their school so we 
could get the clear dramatic benefit.
    Mrs. Johnson. But they are different bodies of information 
that could have been sought through those different 
comparisons.
    Mrs. Bennett. We were told there was no money to have a 
comparison school survey, and that is what--actually, I wanted 
to do both, the girls within the school and the matched sample, 
the matched school comparison, and we were told there was no 
money to do that and we could not do that. And that was why the 
academic board voted it down.
    Mrs. Johnson. I only have very little time, and I want to 
get to Dr. Maynard, because I think this is an important issue. 
Dr. Maynard.
    Dr. Maynard. Well, I think reasonable people can differ. I 
am very sad that we don't have Best Friends in the evaluation, 
but will say that we have some wonderful programs in the 
evaluation, and we will learn a lot from the evaluation that we 
are doing, and there may be opportunities down the road to do 
other similarly controlled evaluations of other programs.
    Mrs. Johnson. What percentage of all the abstinence 
programs have been evaluated either by you or other sort of 
objective outsiders?
    Dr. Maynard. I would say there are no really strong 
evaluations of abstinence programs that have been done to date, 
I mean where there are large samples, long-term follow-up, 
external data collectors, et cetera. We have only five programs 
in the evaluation that we are doing. They were carefully 
selected because of the strengths of the programs, the 
diversity of the programs, and the diversity of settings. So we 
did as much as we could to build a broad information base from 
the evaluation, given the resource constraints we had. We were 
also constrained by going to those sites where we could do the 
controlled comparison design. We felt strongly that in an area 
as controversial as this, there is absolutely no point in 
spending public dollars on an evaluation that will be 
discredited by those who do not favor the results. That is not 
a good use of public money. So we want to do this at the 
highest standard.
    Mrs. Johnson. Thank you.
    Chairman Herger. Thank you very much for your testimony. 
The gentleman from Maryland, Mr. Cardin, to inquire.
    Mr. Cardin. Thank you, Mr. Chairman. Let me again thank all 
the witnesses. This has certainly been extremely helpful to us.
    Dr. Maynard, we really do look forward to the results of 
your evaluation. The difficulty, as I see it, and it is not 
your fault, is that we are not going to have good information 
before Congress has to act on TANF reauthorization. We need to 
act next year, and your work will not be completed until after 
we have had to make decisions on reauthorization. So I guess I 
would just ask for you to share as much information as you can 
during this process, so that we can have the benefit of your 
work as we move through this process.
    I guess my concern, looking at the different statistics, 
Dr. McIlhaney, I will just make one point about the chart that 
you raise, and that is that the trend line on teenage pregnancy 
started to drop before the Federal funds were available for the 
target programs for abstinence programs. I mention that because 
I am not sure we know why we have been successful. We know 
there is multiple factors, as I indicated in my opening 
statement. I just really want to raise the concern of 
abstinence-only programs I and of itself, because I think it 
does raise certain problems. I said in my opening statement 
that I support abstinence, and I think it is a bipartisan 
strong support in this Congress to support abstinence as the 
first line of attack against teenage pregnancy and for values 
that we believe are important. So I think there is no question 
about it.
    I am concerned that when you isolate, whether through 
funding or through trying to determine how an abstinence 
program in and of itself works, it is not reality. And I think 
the public understands it.
    And, Ms. Brown, I appreciate the work that your 
organization has done, and one of the surveys that recently 
came out--and let me just give this number. When it was asked, 
given three choices, the choice that the overwhelming majority 
of Americans think is the right choice, whether they be 
teenagers or whether they be adults, is that teens should not 
be sexually active. The teens who are should have access to 
birth control or protection. That is where America is. That is 
what most Americans believe, 73 percent of the adult 
population, 56 percent of the teenage population, and the 
teenage population is skewed more to believing sex is OK than 
the adult population.
    I mention that because I think we are denying reality when 
we try to pigeonhole teenagers into a limited program and not 
giving all the information. Abstinence should be combined with 
sex education. Ms. Brown, you point out what we all know now to 
be the case, that sex education doesn't increase sex. It should 
be combined. Abstinence should be combined with constructive 
activities for teenagers, so they don't get in trouble, whether 
it is through sexual activities or through drugs or through 
alcohol or violence, it should be combined with constructive 
activities. Abstinence should be combined with other services 
that are available to teenagers, and that is basically the 
commitment we made to our States in 1996 through TANF, which 
was flexibility. Don't pigeonhole how States have to respond. 
Don't tell them they have to set up a program for a limited 
purpose so that we can express our views. Let the States do 
what they believe is correct in order to accomplish the overall 
objectives. And I guess that is one of my major concerns.
    And the last point, Ms. Brown, that you point out, the 
realities of the situation. Two-thirds of our high school 
seniors have engaged in sexual activities. That is the facts. 
We would all like to see that number lower. We all would like 
to see that number lower. We should work to get that number 
lower. We know there is going to be a large number of teenagers 
who are going to be involved in sexual activities, and to just 
put our head in the sand and say that is not going to happen, I 
think is naive.
    So I guess my concern is that the Congress has expressed a 
goal of reducing teenage pregnancies. That is our goal. We want 
to be successful in doing that. And the best way to do it, is 
to allow the States to be able to move forward with abstinence 
education and contraceptive information and any other tool that 
they can in order to try to reduce teenage births. And I think 
sometimes it is counterproductive that we try to pigeonhole how 
programs have to be developed at the local level to satisfy our 
parochial favorite programs to reduce teenage pregnancy.
    Thank you, Mr. Chairman.
    Chairman Herger. Thank you, Mr. Cardin. Now the gentleman 
from Louisiana, Mr. McCrery to inquire.
    Mr. McCrery. Thank you, Mr. Chairman.
    I don't disagree with what Mr. Cardin has said, and I agree 
with him that reality today is that too many teenagers engage 
in sexual activities, but I think what we would like to do is 
create a different reality, and that is what these programs, 
these abstinence programs are trying to do. In the meantime, I 
don't disagree with you that we have to address what is before 
us, but I think the purpose of these programs is to create a 
different reality.
    And Ms. Grant and Mrs. Bennett, why do you all believe that 
teens should be taught abstinence as the primary way to avoid 
the negative consequences of teen pregnancy. Ms. Grant.
    Ms. Grant. Primarily, when I look at young people in sexual 
activity, a lot of times we quote statistics and we merge a lot 
of things together. But those young people who have not yet 
engaged in sexual activity, we need to bring a message to them 
and support skill building, education, that helps them postpone 
sexual activity for as long as possible, which for me is 
primary prevention. That is primary. Then there is early 
intervention, and it goes on down the line toward treatment.
    And I think earlier in the comments there was a statement 
about how do we determine which kid needs what? I think as a 
nation you bring the primary message first and foremost. There 
are those young people--and they clearly surface--who will need 
more intensive intervention on down that progression and that 
continuum from prevention to intervention. And that then you 
tailor messages to meet those sub-populations. But I think what 
has happened historically, as I looked at this and worked in 
this, is that for those kids who were not yet thinking about 
engaging in sexual activity, who weren't there yet, we didn't 
have anything for those young people. And I think abstinence-
until-marriage education gave a context for young people to 
deal with sexuality education and issues around relationships, 
negotiating relationships, that they didn't have before. So I 
think that is primarily why we need it.
    In the Virginia Health Department we have a continuum. We 
work from abstinence-until-marriage education all the way up to 
our family planning services, and so we have a continuum that 
we look at, and we all work together. We are trying to have a 
comprehensive model that this doesn't become a either/or. These 
dollars for abstinence education did not displace the family 
planning dollars. It did not displace other dollars. It was an 
addition to, and I think it met a void and is meeting a void to 
help us provide a continuum in terms of service delivery.
    Mr. McCrery. Before Mrs. Bennett responds, I just want to 
ask you about, I think you say in your testimony that you don't 
have sufficient data really to give results on abstinence 
education today, but can you give us some impressions that you 
have from watching the program and other data that would lead 
you to some conclusions as to the effectiveness of the program?
    Ms. Grant. Right now what we see in our data, and what I 
have prepared in my written package, is just looking at our 
first-year data, and then moving on to our second-year follow 
up. We started with seventh and eighth graders, so naturally, 
knowing that the number of young people in our data set, in our 
target population, report lower rates of sexual activity, we 
are waiting to see, and hoping to be able to continue our 
longitudinal study as these kids age into solo dating, pairing 
off, what happens in those rates. We are hoping that we can 
keep our transition rates low, but that is yet to be determined 
as we look at this, so I really can't share.
    What we see in short term right now looks good, but that is 
very short term and we are talking about kids who don't engage 
in the sexual activity that much, so that is why I am very 
reserved about that, because we need time. We need time and 
resources to be able to really critically look at this.
    Mr. McCrery. Thank you. Mrs. Bennett, do you want to 
respond to the first question?
    Mrs. Bennett. Well, and I agree with Ms. Grant.
    We have had time and we have had resources at Best Friends. 
We have completed our comparison study that is going to be 
published, as comparing the CDC data, the Youth Risk Behavior 
Survey, which is given here in the D.C. Public Schools. We have 
been in the D.C. Public Schools since 1987. CDC found that 
17.8, nearly 18 percent of seventh grade girls in D.C. are 
sexually active. That doubles to 32.8 percent of eighth grade 
girls, so that is nearly a third of the girls here right down 
the street, who are sexually active in eighth grade. We 
compared those schools, in many cases same schools, but with 
the girls from Best Friends. Four point 2 percent of our 
seventh grade schools--and we began early in fourth or fifth 
like you were talking about--4.2 are sexually active in the 
seventh grade, 5.6 in the eighth grade. So we don't even have 
that doubling. I mean we could expect, if we followed the 
trend, that we would have 8 or 9 percent of our girls sexually 
active by eighth grade. We have 5.6 percent. So we know we are 
on to something that works. We know that with every fiber of 
our being. Our teachers will tell you that. Our parents will 
tell you that.
    We have 1,000 girls here in D.C. Public Schools. We have 
5,000 girls nationwide. And the reason is, it is not just about 
abstinence from sex, you know, that is not the issue. The issue 
is the larger picture. It is about self control. It is about 
saying early on, what kind of life do you want?
    And then we have a tremendous impact on drug and alcohol 
use as well. These two issues can't be separated out from 
sexual activity. If you are drinking at 12 and 13 and 14, you 
are sexually active. We see that. I was just in a huge 
conference in suburban Montgomery County. Girls are drinking. 
They are binge drinking. They are sexually active at seventh 
and eighth and ninth grade, and these are in our most 
prestigious private schools. So this is not, first of all, it's 
very clear to me, this is not an issue only that is pertinent 
to the urban areas, it is not a socioeconomic issue. This is an 
issue that transcends all families, no matter what their 
socioeconomic status. It is about character. It is about what 
we want for our children. It is about how we stand as a Nation, 
what our standards are, and are we going to expect our children 
to strive for some high aspirations. Low aspirations, you get 
low performance. We know that as teachers. And if as adults, if 
we give them our best, if we say, ``This is what we expect,'' 
children respond in kind. And we need to begin at 7 and 8 years 
of age.
    We also know, a thing that I discovered that I did not 
anticipate when I began, is we have reduced sexual abuse by 66 
percent among our girls. Many of our girls, and I am not just 
talking inner city, Montgomery County, out of 25 fifth grade 
girls, 5 had been sexually abused in the fifth grade, and we 
were not even allowed in Montgomery County to discuss sex. We 
came in and talked about friendship. We talked about self 
respect, were not even allowed to use the three-letter word of 
sex. By accident, a survey was given, have you ever been forced 
to have--5 of the 20 girls in a middle class community in 
Montgomery County. So we know there is something else going on 
there, if we can get to our children early.
    Also our little girls, look at the data, watch Brittney 
Spears, look at what is happening, look at the message. I 
chaperon for a seventh grade dance. I have a 12-year-old son. 
The girls are dressing like street walkers. It is cool. That is 
the way they think they should look. When they dress like 
street walkers, what are the boys supposed to think?
    Oral sex is going on at Catholic school dances. We have 
been able--that has dropped, that activity seems to be 
curtailing somewhat, but we have some real issues here. We have 
to decide what we want our children to hear from us.
    Mr. McCrery. Thank you, Mr. Chairman.
    I applaud all of you who are working on this problem, and I 
am glad that you are starting a program for boys because I 
think boys need to be part of the solution as well.
    Chairman Herger. I want to thank each of you. I have been 
very liberal with the time, on both sides, and that is because 
this issue is so, as a parent, as virtually all of us are 
parents here, this is an issue and an area that is of great 
concern to all of us, regardless of which way or combination 
that we address this in our work of reauthorizing this 
legislation next year. We want to come up with the programs 
that are going to be the most effective, however that is.
    With that, there are several who would like to go for a 
second round of questions. So, Mr. Cardin, would you like to 
inquire?
    Mr. Cardin. Thank you, Mr. Chairman.
    Ms. Brown, I just want to get focused on what this 
Committee can do. We have TANF reauthorization next year. It 
provides significant resources to our States. The philosophy 
1996 was to provide most of that in basically a block grant 
type of format with broad national goals, with maximum 
flexibility to States to try to configure how they could 
arrange use of these funds in order to get people off of cash 
assistance, to get people self sufficient, and to reduce 
teenage births, pregnancies.
    I guess your focus is on reducing or preventing teen 
pregnancy. How can we be constructive in TANF reauthorization 
to assist in your efforts?
    Ms. Brown. I am so glad you asked. There is some material 
in my written statement on this, but let me just hit the high 
points. We made several suggestions. First of all, obviously, 
we need to maintain funding for TANF and not allow the net 
resources to decline for any number of reasons, which you all 
understand very well. We need to maintain the flexibility of 
TANF as well. There are, unfortunately in my view, not enough 
TANF dollars going to teen pregnancy prevention. The current 
estimate is only about 1 percent. Those are still precious 
monies in this field so we need to retain the flexibility that 
allows stats to tap into that funding source in ways that suit 
their culture and their citizens.
    We need to get increased information to States and 
communities about community-level programs that work. 
Interestingly, the question we are most often asked at the 
National Campaign is, ``What do I do?'' From the Pittsburgh 
Health Department, from Cloverdale, California, from all over: 
``What do I do?'' As you know, we try mightily to answer that 
question and other credible groups do, too, but we need a much 
larger more organized source to get this information out.
    Of course the second question people always ask is, ``How 
do I pay for what works?'' And I think that is back to the TANF 
question in part.
    We might even want to consider a block grant for teen 
pregnancy prevention within the overall effort. There is some 
justification for that. We can talk more with you about that in 
the future if you would like to.
    We also think that there is merit in asking the Federal 
government to pay more attention to State level efforts to 
prevent teen pregnancy. They are all required to have it in 
their TANF plans, but I have yet to see a real hearing, or a 
high-profile publication saying, ``What are States doing in 
this area? What is working? What are they trying?'' Actually, 
you asked these questions a lot this morning. ``What is going 
on? How do you decide what to do?'' There is a way of getting 
that information under the existing statute, and I think we 
need to do more.
    And then generally in the total body of the law, I think we 
do need to retain a focus on a strong abstinence message, as 
everybody has agreed this morning, but never at the expense of 
family planning and good information about reproduction to 
adolescents and to others, and all within a context of 
flexibility and accountability.
    Mr. Cardin. There are two approaches that we could take 
aimed directly at reducing teen pregnancy, and that is we could 
offer competitive funds to encourage States to come forward 
with innovative programs and try to fund them in that way, or 
we could use a bonus arrangement, which we have used, based 
upon performance of States in accomplishing the goal.
    Do you have preference as to, we have a limited amount of 
dollars, which approach would be a better approach?
    Ms. Brown. Well, there are merits in both approaches. On 
balance, I would probably go for competitive proposals from 
States, not just for innovative programs, although we certainly 
need those, but to build on what we already know. There is, as 
I said earlier, a lot of good news, and we need to take this 
good news and say, ``Fine, we actually have some successful 
programs we can point to.'' This program profiled in 
Connecticut is an example of great success with very hard to 
reach kids. It is quite expensive, of course, but there are 
others for lower-risk kids that are less expensive and could be 
applied to large numbers of youth. So I think, yes, we need 
more innovation, but I really think we need to build on 
successes.
    We also need to find a way to work more with the media. You 
know, I love programs and I love school programs, but if you 
talk to the average teenager and say, ``What is shaping your 
attitudes and views and the social script in your head?'' They 
will often talk an enormous amount about the television shows, 
Internet sites and magazines that they consume in huge 
quantities. So part of this money also has to go, in my view, 
to finding ways to influence popular culture through these 
hugely influential institutions, which are the media, in order 
to complement the efforts of individual community programs.
    We need both. Doing just one without the other, I think, is 
insufficient.
    Mr. Cardin. That is very helpful, particularly on sharing 
of information, and that is one of the things that I think all 
of us would agree we have programs that work. We need to get 
that information out, and we need to evaluate programs a lot 
faster than the current system has been operating. I know it 
started a new direction in 1996, but it is useful if we could 
get information shared in a more expeditious way than we have 
in the past.
    Thank you, Mr. Chairman.
    Chairman Herger. Thank you, Mr. Cardin.
    I have a couple closing questions. Dr. McIlhaney, in your 
testimony, you had some chilling, I believe, comments that 
people simply don't talk about these very serious health 
consequences, whether it be the venereal diseases or others, of 
early sexual activities. Why do you suppose that we don't hear 
more about these issues, and is there some way that we can 
better spread this very important information?
    Dr. McIlhaney. I think it is vital, as I said to include 
the warnings and information and education about the sexually 
transmitted diseases, along with the messages about out-of-
wedlock pregnancy.
    I was just sitting here, I was just listening, and there 
was not a word, as we talked about efforts to reduce teen 
pregnancy, in talking about what at the same time we have the 
problems of STD in those same people who have the pregnancies, 
and the contraceptives just flat don't work, the ones commonly 
used. And I think it is a disaster.
    It is difficult to talk about sexual issue, I think, in our 
society. As a matter of fact, the numbers I gave you, and so 
many more I could give you, have been in the newspapers. They 
just get dropped. And I think it is just absolutely vital that 
we include that information as we talk about teen pregnancy 
every time. And as a matter of fact, I strongly advocate that 
any program that is having success in reducing pregnancy be 
sure they are also testing for STD among their young people, 
and older single people too, because they also are suffering 
these problems.
    I would like to just say one thing about the success of 
programs. If our programs, who emphasize contraceptives, were 
working or had been working, we wouldn't be here talking 
because, because those rates that we see over there would not 
have kept climbing during the 1980s, because it was during the 
1980s that by far the dominant programs were those programs 
that were strongly advocating contraceptive use. And we see 
those pregnancy rates kept climbing. The STD rates did keep 
climbing too. And so obviously, is that mandates that we make 
some changes in what we are doing.
    The one light in this tunnel of darkness of not just teen 
pregnancy, but pregnancy among older people, younger adults, 
the one light is the issue about sexual abstinence, because it 
is beginning to show that there maybe is a way.
    The problem with saying that there are programs that work, 
and I am on the Research Task Force for the National Campaign 
with Doug Kirby, that wrote ``Emerging Answers'', and he and I, 
I keep arguing with him. I say, Doug, the other statistical 
evidence of success, and that is a technical calculation, but 
the actual dramatic drop in pregnancy rates, we are just not 
seeing with the programs that are mixing the messages. Where we 
are really seeing startling results sometimes, and there is not 
enough of it yet, I totally agree with that, are the programs 
that are good abstinence programs that are gradually beginning 
to emerge, that is a new area, but those programs are gradually 
beginning to emerge, and we are seeing some surprising 
statistics with some of them, but I think that all of them must 
start including education about STDs and testing.
    As a matter of fact, Johns Hopkins, a couple of years ago, 
said that every single sexually active adolescent must be 
tested for chlamydia every 6 months. I mean, they are that 
concerned about this problem. Are we doing that in all our 
programs, you know? If we are not, then we are really not 
giving the kind of care we should.
    Chairman Herger. Thank you very much, doctor. And I think 
the point is here, even with the protection, the diseases are 
still being transmitted and I believe that is something that is 
not being talked about enough.
    Dr. McIlhaney. That is right. May I say one more thing, 
sir?
    Chairman Herger. Yes.
    Dr. McIlhaney. Very briefly. I mentioned marriage in my 
testimony, and that is three of the four goals of TANF funding 
mentions marriage strongly. The reason is that the biggest risk 
for a person becoming infected with a sexually transmitted 
disease is how many sexual partners they have had in their 
lifetime. We have good evidence that when people are single and 
sexually active, they almost always continue to have more and 
more sexual partners, which therefore dramatically increases a 
risk of STD.
    The biggest study on sexual practice in America came out of 
the University of Chicago a few years ago, and it showed that 
married rarely, few married people have sex outside of their 
marriage. They usually have sex only with that one partner, 
their marriage partner, which is a huge public and personal 
health message, and that is why marriage I think is so wisely 
including in TANF funding, and also why so many abstinence 
programs, for example, do talk about marriage to you.
    Chairman Herger. Thank you, doctor. Now, I will go to the 
gentlelady from Connecticut, Mrs. Johnson.
    Mrs. Johnson. Thank you, Mr. Chairman.
    I just wanted to get your opinions, as you are sitting here 
as a group, about the importance of the connectivity factor of 
not just talking to kids about abstinence and sexuality and 
sexually transmitted diseases, as important as all those things 
are, but connecting them into doing well in school and why that 
matters and career choices, connecting them into their 
families, and their families into support services and into 
their mothers' aspirations and so on.
    I mean, I appreciate, of course, that the latter is nicer, 
but I mean in terms of affecting the lives of these kids, what 
should we be looking at, because after all, welfare reform is a 
systems issue, and we have an opportunity to have a systems 
focus. And I am asking your advice on how broadly we should try 
to focus our effort to prevent teen pregnancy? We will just 
take in order anyone who wants to comment. Ms. Grant. Keep it 
brief so we can just run down the whole panel, anyone who wants 
to.
    Ms. Grant. I think your earlier statements about 
connectivity really spoke to, really in answers to the question 
I think, we cannot isolate young people or just parents and 
say, ``We will have a program specifically for you,'' that even 
the latest research around kids and risk behaviors and some of 
the PSAs that we are seeing now, talk about that shift that we 
have in society where young people want to hear from their 
parents. They are not asking to hear from their peers on 
critical issues. They want their parents to talk to them, and 
they clearly state they are listening. So I think our efforts, 
you know, we are always behind the ball trying to catch up with 
it, and I think we really need to look at that and bring that 
into the forefront, that then how do we structure strategies 
that encourage that?
    In Virginia, what we are doing through our initiative is we 
are not just targeting young people, we are training medical 
professionals to talk about these issues as kids come into 
clinical settings. We are spending time educating parents 
through radio while they are listening to the traffic report 
and that kind of thing, to try to say, ``Hey, kids want to hear 
from you'', and to tell kids, ``Go talk to your parents about 
this'', and make those connections from a State-wide 
perspective. That is what we are trying to do.
    Mrs. Johnson. Let's keep it brief since we have so many to 
hear from.
    Mrs. Bennett. Goal setting, telling our young people that 
they should have dreams, and how to kind of reach their dreams 
with a plan. Our girls set goals starting in the fifth or sixth 
grade, what they are going to have, what they want to achieve 
academically, what they want in their lives. It is amazing how 
many girls say they want to be married someday, and they want a 
house, and they want a family.
    What we, and you are exactly right, it is not just about 
talking about STDs, it is not just about limiting at-risk 
behavior. It is about the big picture, and we have discovered 
that kids, children, no matter what their background, their own 
home background, they have dreams and goals, and if we can, 
which I think we do a very good job of in Best Friends, we have 
the goal setting activities. We have the individual mentoring. 
We have the community service. And then we have fun, the 
singing and the dancing, fun dancing, fun singing, the jazz 
choir, the jazz dance troupe, all of those kinds of things that 
are fun. Kids want to have fun. Show them how to have fun 
without negative behavior.
    Ms. Brown. I think you are absolutely right, it is this 
larger context that really makes the difference. We often say 
it is not just about body parts, it is about values and 
relationships and feelings and families.
    We have four bodies of information now that shed light on 
this youth development approach. The Adolescent Health Survey--
a Federally funded adolescent health survey--showed that strong 
connections between teenagers and their schools and strong 
connections between teenagers and their families were some of 
the most highly protective factors against adolescent 
pregnancy. That has gotten a lot of press.
    We also now have all the information I summarized for you 
today from ``Emerging Answers'' on youth development programs. 
They get the biggest results in reducing teen pregnancy. Some 
of them don't actually even address sex, but they give these 
kids a lot to say yes to.
    And finally, the National Academy of Sciences released a 
report just last week on community-level programs for youth 
that goes into a large number of databases about all these 
different programs, what risk factors they address and what 
their outcomes are, and it is very consistent, Mrs. Johnson, 
with just the kind of thing you are saying.
    Finally, the most popular publication that the Campaign has 
released to this day--and we are moving 600,000 pieces this 
year--is ``Ten Tips for Parents to Help Their Children Avoid 
Teen Pregnancy.'' It offers very simple advice like: talk to 
your kids; know what they are watching, reading and listening 
to; be clear about your own values; and so on. This pamphlet 
remains to this day the piece of information everybody most 
wants from the National Campaign.
    Dr. Maynard. I would just add to this that while I think 
the evidence on connectivity is really out there, we have had 
40 years of erosion of the American family and communities, I 
think that, for some time to come, we need to be on a dual 
track where we are working to promote connectivity and have 
those more intensive youth development focused programs where 
we can. But, we don't want to leave behind the kids who are 
still living in communities and in families where we may not be 
able to achieve all that we would like on the connectivity 
front.
    Ms. Bilodeau. Ours is a family systems program, and that is 
where our greatest emphasis is, is on building strong families 
and on encouraging children to gain educational skills. As I 
indicated, at least 80 percent of our kids come from families 
that were started by teen parents, and therefore you have 
families that do not necessarily value education, do not have a 
work ethic that combines education as a way of moving forward, 
but rather people who tend to stay in low-paying jobs.
    We believe that the key to teen pregnancy prevention is 
education, and that the better a kid does in school, the more 
likely it is that they are going to stay in school, and the 
greater their reasons are going to be to avert early sexual 
activity and teen pregnancy.
    When we first started our program for the first couple of 
years, at least 10 to 20 percent of incoming sixth graders did 
not know the alphabet. That is where we put our emphasis. Now 
we have an alphabet test as part of the intake process. We 
receive our primary funding from the Connecticut Department of 
Social Services, and so I tell the kids that the State makes us 
do it, that is the only way we can get the money is if they do 
the alphabet for us.
    Recently, in the past couple of years, well, really in the 
past year, we have not seen that happen. We have the 
superintendent of schools on our board, and so that information 
obviously did get passed back to the superintendent of schools. 
But with poverty-stricken children, the children who are most 
apt to become teen parents, they have to have the concrete, 
tangible, every-day support that moves them from the bottom of 
the class--you know schools do tracking, everybody tracks; our 
kids are always tracked with the groups that is least likely to 
succeed. You have to break that mentality for them and for the 
schools and for the whole community, who expects our kids to be 
the gang bangers, the pregnant teens, the drug addicts and the 
drug runners. That is what our neighborhood has always been 
about. We have to break people's perceptions, and not just the 
kids and not just the parents, but the whole community has to 
value those children who are most likely to fall through the 
cracks. And then that is how you create a continuity and a 
bonding, so that those children don't belong just to a family, 
they belong to a larger community, and that they, our kids are 
growing up believing that they too will be the Mayor.
    When we go to visit Nancy's office, I always tell them, 
``Look around because I expect in a few years to see one of you 
here,'' and they look at it that way. Hope for the future, that 
is the key.
    Dr. McIlhaney. It is almost not necessary to add anything, 
but I will. The health, hope and happiness of our society and 
of so many people in this country are really being hurt. I 
totally agree with you, Congresswoman Johnson, that the 
connectivity, the environment that our kids live in, that we 
all live in, really is the vital thing that must be 
transformed, and the central element of that is the family and 
marriage, because that is the core of our culture.
    Unfortunately today, what I think all of us have found is 
that parents often feel disempowered. They don't believe their 
kids will listen to them. They really don't believe they have 
that kind of influence, and we have some statistical 
information that is really helpful, and we use it a lot, I 
think all of us do. The ADD Health Study, the biggest study 
ever done on adolescence showed that of all the risky 
behaviors, drugs, sex, alcohol, running away from home, all of 
them, that the kids that were doing the best were those kids 
who had connectedness with their parents. We need to empower 
parents.
    And my belief, I think probably the belief of all of us, is 
it is going to take leadership, and that is one thing at the 
end of my testimony I said, you as leaders in this country can 
make such an enormous difference. As Rebecca said, the whole 
discussion in this area about sex changed when Congress 
allocated money, and it really started in some sense back in 
the eighties with the Title XX Program.
    So how we all are in this together. We need to consider all 
the risky behaviors because there is good evidence that impact 
one of them. We have to impact all of them, and the one that 
usually gets left out is sex. We need to include that in our 
encouragement and guidance to young people.
    And finally, Elayne mentioned the AAUW, American University 
Women's report that those kids basically all said that no one 
in their whole environment, not their parents, medical people, 
their boyfriends or girlfriends--and these were girls--
encouraged them not to be involved in sexual activity. So we 
have got to start at the top, and come and surround young 
people with a world that supports them in avoiding these 
problems so that they have hope for the future.
    Chairman Herger. Thank you very much. I want to thank each 
of our witnesses for their outstanding testimony. I trust that 
the witnesses would respond to additional questions on these 
issues for the record.
    Again, it has been a very interesting hearing, one that is 
very important not only to the Members of this Committee, but 
certainly to the Nation, to the parents, and the young people 
of this Nation.
    With that, this Subcommittee stands adjourned. Thank you.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to the panel, and 
their responses follow:]

                           Virginia Abstinence Education Initiative
                                           Richmond, Virginia 23219
    1. I understand from your testimony about the evaluations your 
program is undergoing, but I'd like to know more abut the programs 
themselves. Please describe the abstinence education programs in 
Virginia. For example, how do teens come into your programs? Do you 
involve parents of the teens in these programs? How about teens who 
have already had kids--is part of your program preventing subsequent 
births to teens who have already had one or more babies? Is your 
program only about girls, or are boys involved, too? What is the source 
of your funding?

                VIRGINIA ABSTINENCE EDUCATION INITIATIVE

                          Program Descriptions

    <bullet> Reasons of the Heart
          Organization: Alliance for Children & Families (Lynchburg, 
        VA)
          Director: Maureen Duran
          Localities: Fairfax County, Fauquier County, and Loudoun 
        County
          Target Population: 7th graders **
          Description: Utilizes original materials and classic film 
        clips to help youth (in school, after school, detention and 
        probation homes) examine the impact of character on sexual 
        decisionmaking and choosing abstinence until marriage. The 
        Reasonable Reasons to Wait curriculum will be implemented in 
        health classes teaching youth the value of abstaining until 
        marriage.
    <bullet> Individuals Abstaining `til Marriage
          Organization: Alliance for Children & Families of Central 
        Virginia
          Location: Lynchburg, VA
          Director: Joan Foster
          Localities: Pittsylvania County and City of Lynchburg
          Target Population: 7th graders **
          Description: Utilizes the Wait Training! curriculum and peer 
        mentors to promote the abstinence until marriage message in 
        both the school and after school settings. Community based 
        programming will be provided for participants during the 
        summer.
    <bullet> Very, Important, Person (VIP)
          Organization: Horizons Unlimited Ministries, Inc. of Hampton, 
        VA
          Location: Newport News, VA
          Director: June Sullivan
          Localities: Newport News (East End and Denbigh areas)
          Target Population: 7th graders **
          Description: Utilizes the Reasonable Reasons to Wait 
        curriculum to help youth appreciate their ability to abstain 
        from sexual activity until marriage because they have value and 
        can relate to others with integrity and purity.
    <bullet> I Can Abstain Now
          Organization: Sussex Rural Abstinence Project with Social 
        Services Department County of Sussex, VA as lead agency and 
        fiscal agent.
          Location: Sussex, VA
          Director: Melody Walker
          Locality: Sussex County
          Target Population: 7th graders **
          Description: Utilizes the Families United to Prevent Teen 
        Pregnancy and Managing Pressures Before Marriage curricula to 
        teach skills to resist the pressures to become sexually active 
        and remain abstinent until marriage. Peer mentors and adult 
        leaders will be trained and supported in modeling appropriate 
        behaviors for participants. Parent education and a community-
        based resource center are additional components of the program.
    <bullet> My Choice, My Future!
          Organization: Powhatan Partners In Prevention Coalition with 
        Powhatan County Health Department, of Powhatan, VA as the lead 
        agency and fiscal agent.
          Location: Powhatan, VA
          Director: Ginell Ampey-Thornhill
          Locality: Powhatan County
          Target Population: 7th graders **
---------------------------------------------------------------------------
    ** This is the initial point of contact with students. Students 
receive abstinence educational sessions ranging from 12 to 18 weeks in 
duration. All program participants are given a program booster in 
subsequent grades. To date we have students receiving abstinence 
education instruction in 7th through 11th grades.
---------------------------------------------------------------------------
          Description: Utilizes the Reasonable Reasons to Wait and Wait 
        Training! curricula to motivating youth to choose and maintain 
        an abstinent lifestyle. The program will be implemented through 
        the health and physical education classes. This program is part 
        of a Federally funded evaluation.

    Participants in the school-based programs are given consent to 
participate by their parents. The abstinence educational sessions are 
taught during the health education classes. All of the abstinence 
education curricula have been reviewed for compliance with the 
Standards of Learning guidelines established by the Virginia Dept. of 
Education.
    Parental involvement is limited in these programs, but Parent 
Information Nights are offered at the beginning of the school year and 
most of the programs have activities and events that are structured for 
teen and parent attendance.
    Because these programs are primarily school based there are 
students who may be pregnant or parenting in the classes. These 
students continue to participate in the classes and if necessary are 
referred to school staff for additional services. The participants in 
these programs are both male and female.
    The Virginia Abstinence Education Initiative is funding through 
Title V--Abstinence Only dollars. Virginia receives $828,619 in Federal 
funds that is matched with $375,098 General Funds and in-kind dollars 
from abstinence education program providers and added value generated 
by our media campaign. Additional funds are provided through the 
Department of Social Services TANF dollars in the amount of $211,000.
                                                         Gale Grant
                                                           Director

                                <F-dash>

                                            Best Friends Foundation
                                               Washington, DC 20008
                                                   December 6, 2001
Hon. Wally Herger
Chairman
House Committee on Ways and Means
Subcommittee on Human Resources
Washington, D.C. 20515
    Dear Chairman Herger:
    Thank you for the opportunity to provide the subcommittee with 
additional information about the programs of the Best Friends 
Foundation and our efforts to prevent teenage pregnancies.
    As you know, the Best Friends Foundation, a 501(c)(3) organization 
incorporated in the District of Columbia, was founded in 1987 and now 
reaches more than 5,500 girls through its Best Friends program and 
about 500 boys through the recently created Best Men program. The 
programs operate in 23 cities and 14 states, including the Virgin 
Islands. Our message is very simple: Enjoy adolescence by abstaining 
from sexual activity until high school, and illegal drugs, and alcohol.
    While that message may not be new, the method in which it is 
delivered is profoundly different. And we have had great successes.
    Now, let me address the questions you raised in your letter of Nov. 
19:
1. How do youths come into your program? Are other Members of their 
        family involved, such as the young person's parent(s) or 
        siblings?
    Students may enter the Best Friends (girls) or Best Men (boys) 
program beginning in the fifth or sixth grade. Every effort is made to 
take an entire class of students. If that is not possible, a random 
sampling is done. We work to make certain that the Best Friends program 
is representative of the entire student body and there is no 
stereotyping of the group (we have a carefully balanced mix of high 
achievers, middle achievers and at risk students. Once they join the 
program, each girl and boy is invited back to the program at the start 
of the next school year. Indeed, experience has shown that a blend of 
students consisting of high and average achievers, along with those who 
fall below the mark, provides a productive learning environment.
    The support of family is very important to the success of the 
programs. Best Friends/Best Men parents give permission for their child 
to participate. We are happy to report that we have received 100 
percent parent permission. Each school holds a parent information 
meeting at the beginning of the school year, which includes a video 
about the Best Friends/Best Men program. Best Friends/Best Men staff 
are on hand to answer any questions. At the end of each school year, 
families celebrate the commitment of their children at the Family and 
School Recognition Ceremony-about 80-90 percent of the parents attend 
the event. Each Best Friends/Best Men participant acknowledges his/her 
parents with a symbol of gratitude. In 15 years of operation, only two 
parents did not allow their children to participate in the program, and 
no parents ever have removed their children from the program.
2. What are the primary sources of funding for the Best Friends 
        program?
    The Best Friends Foundation operates the Best Friends/Best Men 
program in seven schools in D.C. and two in Maryland, paying for all of 
their instruction and materials, field trips, and the annual Family and 
School recognition ceremony with funds raised from the private sector. 
Our funders include the Bradley Foundation. the Robert Wood Johnson 
Foundation, the Case Foundation, the Kellogg Foundation, the Marriott 
Foundation and American Standard. We also raise funds from our Annual 
Donor Dinner. The cost of providing the Best Friends/Best Men program 
is approximately $250--$600 per student. Additionally, a number of 
schools and school systems around the country have replicated the Best 
Friends/Best Men program, using their own funding. We have established 
a National Training and Technical Assistance Center, which develops the 
curriculum, monitors and evaluates the effectiveness of each program 
and trains educators. We require that our model be followed and that 
all educators providing instruction be trained by the Best Friends 
Foundation. The replication sites' funding sources include local 
education dollars; local and state grants, including money from state 
``Drug Free Schools'' grants; Title V grants and grants from private 
foundations and companies.
    Because the programs take place during the school day, the Best 
Friends/Best Men curriculum is taught by teachers who are, in most 
cases, employed by the school system. Teachers and other school staff 
Members volunteer to serve as mentors to participants.
3. How does your program address peer pressure so that young people 
        reinforce one another to abstain from sex? What do the young 
        people say about this?
    The Best Friends/Best Men program's primary goal is to help 
adolescents gain self-respect, make positive decisions, and support one 
another in postponing sex and in rejecting illegal drug and alcohol 
use. Our program works because participants become part of an intensive 
peer support group based on friendship. We emphasize that friends must 
help each other make good decisions and that friends sometimes must 
intervene in each other's lives. We create a group within a school-
usually 30-40 students-that puts peer pressure on its Members not to 
have sex. In an anonymous survey of Best Friends girls following the 
1999-2000 school year, we found that 30 percent of our fourth- and 
fifth-graders, 36 percent of our sixth-graders, 48 percent of our 
seventh-graders, and 60 percent of our eighth-graders helped a friend 
make a decision about sex. When we first started the Best Friends 
program in 1987, testing the concept with 10th-graders at a Virginia 
high school, more than 73 percent of the students surveyed said they 
would like to belong to a group that supported one another in waiting 
to have sex at least until after high school graduation. More recently, 
one student commented: ``It was hard to say `no' until I became a Best 
Friends girl. I have all these friends in Best Friends that check on me 
and say, `How you doin'?' One time I was going to go with this guy who 
had this great `line,' but they wouldn't let me. I'm glad. He got 
another friend of mine pregnant and left her alone. She's sad. We watch 
out for each other at Best Friends. I can say `no' in seven different 
ways.''
    The program also ``deglamorizes'' the barrage of sexual images that 
come from popular culture. We present the students with an upbeat 
message, one that emphasizes the joys of pre-teen and teenage years 
free from the complications of sexual activity, and we give them 
something to ``yes'' to: good grades, self-respect, and, for those who 
stay in the program through high school, college scholarships. The 
program is designed to reach children in early adolescence, when their 
attitudes toward life are forming and when they need to discuss their 
personal concerns with and receive support from friends and respected 
adults.
    The messages which are taught in the Friendship module include the 
best kind of friend is the one that makes you a better person and 
friends help each other make the right decisions
4. I think we have seen from Dr. McIlhaney's testimony, and most of us 
        know intuitively, that abstinence is the only way to prevent 
        the risk of pregnancy and the spreading of sexually transmitted 
        diseases. Yet, some people claim that the abstinence message 
        puts young people at risk. Is there any evidence of that? What 
        does your experience suggest?
    There is no evidence that teaching-as the Best Friends/Best Men 
program does-that abstinence from sex is the only 100 percent guarantee 
against pregnancy and sexually transmitted diseases is putting young 
people at risk. That claim cannot be made regarding teaching students 
about various contraceptive devices and practices. Recent research 
published by Child Trends data is showing there is a decrease in the 
use of contraception and subsequent sexual activity. There is no 
definitive research on sex-ed programs that focus on contraceptive 
education. There has been a flurry of attempts by the contraception 
advocates attempting to say that abstinence education results in 
participants not using contraception once they have decided to become 
sexually active. This is a flawed study and has been seized upon by 
those who wish to see all abstinence funding eliminated. The 
contraception lobby would do far better to focus their efforts on why, 
after years of participation in their education programs, sexually 
active students are not using contraceptives and why STDs are at 
epidemic proportions. It is important to remember that since the advent 
of sex education classes in schools in the sixties, the number of out-
of-wedlock births in the U.S. rose 450 percent by the early nineties. 
Only since 1995, when there was a concerted push for abstinence 
education, have teenage and out-of-wedlock births started to fall.
    Our curriculum includes a section on AIDS and STDs, giving candid 
information about the most common STDs, the symptoms, treatments, and 
consequences. Young people are not put at risk through an abstinence-
only message but rather through confusing messages that say sex is OK 
as long as you use a condom or birth control.
    The experience of the Best Friends/Best Men program has been that 
young people want to hear the abstinence message. When Emory 
University's Marian Howard asked 1,000 teenage mothers what they wanted 
to learn in sex education classes, 82 percent of them said ``how to say 
`no' without hurting my boyfriend's feelings.'' A recent survey 
conducted by the American Association of University Women Foundation of 
2,000 11- to 17-year-old girls found that the vast majority said that 
sex and how to say ``no'' in emotionally charged relationships was 
their number one concern. And the National Campaign to Prevent Teen 
Pregnancy found that 98 percent of teens said ``it is important for 
teens to be given a strong message from society that they should 
abstain from sex until they are at least out of high school.''
    And we have proof of the success of our program. An independent 
evaluation of data from a Centers for Disease Control survey of D.C. 
public school students and data collected from Best Friends girls 
attending D.C. public schools found that 18.5 percent of the seventh-
graders and nearly 35 percent of the eighth-graders in the CDC survey 
were sexually active compared with 4.2 percent of seventh-graders and 
5.6 percent of eighth-graders in the Best Friends program. 
Additionally, in a spring 2000 survey of Best Friends participants, 92 
percent of the girls said they want to wait until at least high school 
graduation to have sex; 69 percent want to wait until marriage.
    The Best Friends/Best Men program works because its message is 
simple-abstain from sex, drugs, alcohol, and violence-and supported by 
caring adults and fellow students. As Aristotle said: ``The best friend 
to have is the one around whom you are a better person.'' We are 
striving to mold young people into friends who make others better 
people.
    I refer to you once again; to look at the YRBS study which compares 
the Best Friends sexual activity rates to children not in the program. 
I implore that you please call us for accurate information on 
abstinence education. Please understand this is a message that both our 
teenage girls (boys and girls) need to hear. It is very difficult for 
kids who do not want to be sexually active when all the efforts are 
directed to contraception sex ed methodology. Please read Robert Blum 
ADD health survey. It clearly demonstrated that parental disapproval 
for teenagers is a protective factor in the onset of sexual activity. 
This was a valid study and the contraceptive lobby has successfully 
buried this information.
    Thank you again, Mr. Chairman, for giving the Best Friends 
Foundation this opportunity to contribute to the discussion on this 
extremely important topic.
    I am available for meetings or phone conferences at your 
convenience.
            Sincerely,
                                                     Elayne Bennett
                                         Founder, President and CEO

                                <F-dash>

                        National Campaign to Prevent Teen Pregnancy
                                               Washington, DC 20036
                                                  November 29, 2001
Rep. Wally Herger
Chairman, Committee on Ways and Means
Subcommittee on Human Resources
Washington, DC
    Dear Chairman Herger,
    Thank you for the opportunity to testify about teen pregnancy 
prevention before your Subcommittee. We commend the Subcommittee for 
focusing on teen pregnancy which affects so many young people. As I 
mentioned at the hearing, the National Campaign to Prevent Teen 
Pregnancy strongly believes that reducing teen pregnancy is a highly 
effective way to make progress on a number of related social issues: 
child poverty, welfare dependency, out-of-wedlock childbearing, and 
responsible fatherhood.
    In a letter dated November 19, 2001, you asked me to respond to 
several additional questions. Below, please find your questions and my 
responses.
    1. In your testimony, you mentioned that culture and family 
environments of teens can be very powerful in determining their 
behavior. What do you think we can do to affect these influences, 
particularly with respect to the media and popular culture?
    Teen pregnancy is rooted in broad social phenomena, including the 
images portrayed in the entertainment media, the values articulated by 
parents and other adults, and popular teen culture most of all. The 
task of preventing teen pregnancy is often complicated by a culture 
that too often sends young people messages that having sex at an early 
age is just fine, that getting pregnant at a young age is no big deal, 
that contraception is not all that important, that ``everybody is doing 
it,'' and that parents have lost their children to peers and popular 
culture.
    With respect to parents, the primary challenge is to convince them 
that they matter. Over two decades of research confirms that families--
and particularly parents--are an important influence on whether 
teenagers become pregnant or cause a pregnancy. In a variety of ways, 
parental behavior and the nature of parent/child relationships 
influence teens' sexual activity and use of contraception. While 
parents cannot necessarily determine whether their children have sex, 
use contraception, or become pregnant, the quality of their 
relationships with their children can make a real difference.
    A recent National Campaign survey illustrates this challenge. Teens 
cited parents more than any other source as having the most influence 
over their sexual decisionmaking. But, adults believe that peers 
influence teens' sexual decisionmaking more than parents. The 
inescapable conclusion is that many parents do not recognize how 
influential they are in this area or how many opportunities they have 
to shape their children's behavior. Kids report to us time and time 
again that they want to hear from their parents about sex, love, and 
relationships but often do not. Adults need to be clear about their own 
values and communicate them to young people.
    Teen pregnancy prevention is as much about moral and religious 
values as it is about public health. Teens, like adults, make decisions 
about their sexual behavior based in part on their values about what is 
right and wrong, what is proper and what is not. New research from the 
National Campaign makes clear that religious faith is associated with 
delayed sexual activity among some groups of teens. Survey data also 
recently released by the National Campaign indicate that morals, 
values, and/or religious beliefs affects teens decisions about whether 
to have sex more than concern about STDs, fear of pregnancy, or other 
reasons. And research from the nonprofit organization Child Trends 
shows that the primary reason that virgin teen girls say they abstain 
from sex is that having sex would be against their religious or moral 
values.
    Clearly, peers also shape teens' environment. Research and common 
sense show that peer influence can play an important role in the sexual 
behavior of teens. Accordingly, teens need accurate information about 
what their peers are doing (or not doing) because what they think other 
teens are doing has an impact on their behavior. Teens need to 
understand that not everyone is ``doing it,'' and that many teens who 
are sexually active wish they had waited longer.
    Teens who are abstinent should speak about their choice, to the 
extent they are comfortable, so that their peers will not so often 
overestimate the level of sexual activity around them. Teens who are 
careful users of contraception should also speak out so that the use of 
contraception is not so mysterious or surrounded by so much 
misinformation. Teen girls need to tell each other that sex doesn't 
guarantee a loving relationship. Teen boys need to tell each other that 
having sex is no way to prove manhood. Being a father too soon leads to 
major financial burdens, legal risks, and a lifetime of personal 
complexities. Teen parents need to speak to their peers about the 
difficulties that early pregnancy and parenthood have posed for them.
    As noted above, reducing teen pregnancy requires a change in social 
values and popular culture. The entertainment media has a major 
influence on popular culture and, therefore, working with this sector 
is essential. According to a recent study by the Kaiser Family 
Foundation, 99 percent of households in the United States have 
televisions, and two-thirds of kids aged 8 and older have a television 
in their own rooms. This study also reported that young people aged 8-
18 spend an average of 28 hours per week watching television--which is 
twice as much time, over the course of a year, as they spend in school. 
Given the extraordinary amount of time that young people spend 
consuming media, it is clear that we cannot solve the problem of teen 
pregnancy without the help of the media. Conveying responsible messages 
through the entertainment media is both powerful and efficient. By 
reaching millions every minute and shaping popular culture, the media 
must be--and often is--a force for good.
    We should encourage the media to show that sex has consequences. 
Many teens say that although the media shows them a lot about sex, it 
rarely portrays real consequences. For our part, the National Campaign 
suggests that the media show teens doing the right thing--saying ``no'' 
to sex or saying ``no'' even if they've said ``yes'' before. Show teens 
making the case to each other that postponing sexual involvement is 
their best choice for many reasons, including emotional ones. Show 
sexually active teens doing the right thing--using contraception and 
dealing directly with the fears and myths surrounding it. Show parents 
being parental, not passive--talking with their kids about sex, love, 
and values from an early age; setting limits on early dating and on the 
toxic older guy/younger girl combination; providing supervision and 
setting curfews; and addressing the power of peer influence. And we 
suggest the media show adults setting honorable examples in their own 
sexual behavior if for no other reason than because it affects the 
behavior of their children and teenagers.
    How does the National Campaign get its messages before the 
entertainment media? Since our inception, we have been working closely 
with the writers and producers of TV shows, magazines, and websites, 
focusing primarily on influencing the content of entertainment media. 
To encourage media leaders to weave prevention messages into the 
content of their work, we offer specially tailored face-to-face 
briefings to key editors, scriptwriters, and producers about the 
problem of teen pregnancy and its solutions. We discuss with them 
various messages well suited to their shows or magazines, and talk 
about different ways that these messages can be presented in their 
media.
    One final point about the current culture and teen pregnancy. We 
have noted a distinct unwillingness among adults--and in the culture 
generally--to take a clear stand on whether teen pregnancy is or is not 
OK. In recent National Campaign polling fully one-third of adults said 
they do not think that the kids in their communities are getting a 
clear message from the adults in their lives that teen pregnancy is 
wrong. This may be due to a reluctance of adults to take a stand that 
has a values component, it may reflect a popular culture that is 
increasingly tolerant of unwed pregnancy and childbearing, it may be 
that some adults are fearful of offending those teens who are already 
pregnant or parenting or that they might inadvertently stigmatize the 
children of teen mothers, or it may simply be that many parents are 
uncomfortable talking to their children about sex and values.
    But if we can't even simply say that teen pregnancy and parenthood 
is in no one's best interest, how can we be surprised at the high rates 
of teen pregnancy in this country? Fundamentally, teen pregnancy is a 
question of values, standards, social norms, and what a society 
prescribes as the best pathway from childhood to adult life. If we are 
to make continued and lasting progress in reducing teen pregnancy we 
need to offer more straight talk to young people--and conversations 
with them--about the critical need to postpone pregnancy and parenthood 
until adulthood.
    2. A report released by the National Institutes of Health shows 
condoms are not necessarily effective in preventing most sexually 
transmitted diseases. Is your organization sharing this important 
information with teens? Do you believe that should become a key part of 
any family planning curriculum?
    Teens need to know that abstinence is their best choice for 
preventing pregnancy and avoiding sexually transmitted diseases (STDs). 
They also need to be given accurate information about the relative 
effectiveness of various methods of contraception and the National 
Campaign has been at the forefront of communicating both messages. The 
recent report from the National Institutes of Health makes clear what 
many of those concerned about the well being of youth have been saying 
for some time--condoms are not 100 percent effective at preventing 
pregnancy and that the jury is still out about their efficacy in 
preventing many STDs. The clear national consensus--among adults and 
teens alike--is that middle and high school kids, in particular, should 
be given a clear message that abstinence from sexual intercourse is the 
right thing to do because of the numerous important consequences.
    Nonetheless, contraception is still a very important part of 
reducing teen pregnancy. A sexually active teen who does not use 
contraception at all has a 90 percent chance of getting pregnant within 
one year. However, we must be careful to put this remedy into 
perspective. Some teens, like many young adults, overestimate the 
effectiveness of condoms and many have difficulty consistently using 
the array of contraceptive methods currently available. For example, 
among young women aged 15-19 relying on oral contraception as their 
only form of birth control, only about 70 percent took a pill every day 
during a 3-month period. Moreover, nearly one-third of teen girls were 
completely unprotected the last time they had sex, and between 30 and 
38 percent of teens who use contraception are not consistent users.
    Despite the availability of the pill for more than three decades, 
despite the fact that many teens now have access to copious amounts of 
information about contraception from schools, magazine articles, and 
websites, despite the availability of non-prescription methods in 
virtually every drugstore, the vast majority (78 percent) of 
pregnancies among teens are unintended. Improving the degree of access 
that teens have to contraception might improve this statistic, but 
there is no reason to think that this approach alone will be 
sufficient. Increasing access that teens have to contraception is 
important--to be sure, without sustained attention to contraception 
over the past years, teen pregnancy rates today might be even higher--
but, again, this is still only one of many remedies required.
    3. I appreciate your point about ``what works.'' However, the 
prevailing wisdom used to be that 5 million families had to be on 
welfare because they couldn't work. That logic proved to be flawed. As 
Dr. McIlhaney mentioned, the prevailing wisdom also used to be that 
smoking rates would never decline significantly because it was too 
ingrained in our culture. That has certainly changed too. Given the 
limited availability of abstinence education should we try to overturn 
the prevailing wisdom once again by expanding the availability of 
abstinence education?
    As a general matter, the National Campaign strongly agrees with the 
sentiment of this question. That is, abstinence is the first and best 
choice for teens. Our polling data clearly indicate that the majority 
of adults and teens support providing teens with a strong abstinence 
message and research makes clear that abstinence has made a significant 
contribution to declining teen pregnancy and birth rates during the 
1990s. We offer our support for a strong abstinence message for teens, 
however, with three important caveats:

          <bullet> While American adults and teens clearly feel that 
        young people should be given a strong abstinence message, the 
        research on the effectiveness of abstinence programs, is not as 
        clear. As Emerging Answers: Research Findings on Programs to 
        Reduce Teen Pregnancy, a comprehensive research review recently 
        published by the National Campaign makes clear, the jury is 
        still out on the effectiveness of specific programs or 
        curricula for conveying abstinence-only messages to young 
        people. All of this leads us to be cautious about massive 
        public funding of programs that do not yet have clear, 
        scientific evidence of their effectiveness.
          <bullet> It is also true that even when given strong advice 
        to remain abstinent, some young people will not do so: for 
        example, currently 65 percent of high school seniors have had 
        sex. More of these young people can--and should--be encouraged 
        to abstain from sex, but experience suggests that some (perhaps 
        most) will continue to be sexually active. For these young 
        people, the national consensus is that easily available 
        contraception can reduce the chances of pregnancy and STDs. Put 
        another way, American adults and teens clearly feel that 
        abstinence is better than contraception, but using 
        contraception is better than getting pregnant too soon. And, 
        importantly, whatever the level of support for abstinence, it 
        can never come at the expense of support and contraceptive 
        services for sexually active teens.
          <bullet> In the absence of good program evaluation data, and 
        given both the great sensitivity of teen sexuality issues and 
        the great diversity of American culture, the Federal government 
        should not dictate precisely what states and communities should 
        do to promote abstinence. While there is considerable consensus 
        about the importance of preventing teen pregnancy, there is 
        somewhat less consensus about how to go about it and the 
        answers may vary in different communities and for different 
        teens. Setting performance goals and expectations is a good 
        idea. Rigidly prescribing how to achieve these goals is not. 
        Consistent with the devolution philosophy underlying the 1996 
        welfare reform legislation, states and communities require 
        flexibility in designing strategies to reduce teen pregnancy in 
        order to accommodate differing local circumstances. In a 
        country as big and diverse as America, and on an issue as 
        complex and sensitive as teen pregnancy, it is important to 
        allow multiple approaches.
            Sincerely,
                                                     Sarah S. Brown
                                                           Director

                                <F-dash>

                                         University of Pennsylvania
                                   Philadelphia, Pennsylvania 19104
                                                  November 30, 2001
Mr. Wally Herger,
Chairman
Subcommittee on Human Resources
Committee on Ways and Means
House of Representatives
Washington, DC 20515
Via e-mail
    Dear Mr. Herger:
    I appreciate your offering me the opportunity to testify before 
your Committee on November 15, 2001. The following are my responses to 
your requests for clarification and additional information in support 
of my testimony.

  Request 1: Please elaborate on your statement that there need to be 
more evaluations and funding for research on a variety of approaches to 
     deal with the problems of teen pregnancy and STD transmission.

    The national evaluation of Title V abstinence education program is 
the first major effort to gather scientifically rigorous evidence about 
the efficacy of this particular approach to reducing teenage sexual 
activity, exposure to STDs, and pregnancy. While there have been 
studies of a wide range of particular programs directed in whole or 
part at these same goals, the earlier research is of variable quality, 
inconsistent in its coverage of program approaches, and therefore of 
limited usefulness as a guide to designing effective national policies.
    These shortcomings of past research were well documented in the 
recent review of teen pregnancy program evaluation findings by Dr. 
Douglas Kirby for the National Campaign to Prevent Teen Pregnancy. To 
be sure, Kirby's review of the research identifies statistically 
reliable evidence that several intervention strategies, tested in 
particular settings, have reduced teen sexual activity and pregnancy 
rates. However, this review identifies even more instances where 
studies have been unableto find clear evidence that the interventions 
favorably affected the key outcomes and some instances where the 
programs had adverse impacts. The only way to generate the scientific 
knowledge base needed to support smart policy development is to 
systematically assess a range of policy relevant approaches to the 
problems under varied implementation settings and using scientifically 
rigorous study designs.

Request 2: Please elaborate on your statement: ``We have no definitive 
 evidence linking any of the TANF teen pregnancy and nonmarital birth 
    prevention provisions with favorable trends in teen pregnancy.''

    The decline in teen birth rates and the leveling off of nonmarital 
birth rates during the nineties could be related to those particular 
policy changes directed specifically at addressing teen pregnancy and 
nonmarital births. However, at the same time that these particular 
policy changes were being made and the favorable trends emerging, other 
potentially important factors were also shifting. Concurrent with the 
decline in the teen birth rate, increasing numbers of states were 
experimenting with other welfare reform elements now central to TANF 
and its broader focus on responsible behavior--the institution of time 
limits, the strengthening of child support enforcement, the stepping up 
of work requirements and support, and the institution of family caps. 
The 1990s also was a period of strong economic growth and changing 
demographics among the teenage population. These myriad other changes 
could also have had important effects on teen pregnancy trends. At this 
point, there have been too many simultaneously changing factors to 
establish definitive causal links between the teen pregnancy aspects of 
welfare policy change and the trends in teen and nonmarital birth 
rates, or to predict the relative contribution of particular policy 
changes.

 Request 3: Are the abstinence programs you have observed mandatory or 
voluntary programs? Are family planning curricula typically offered on 
a voluntary or mandatory basis? What are the implications of the manner 
      in which these programs are offered for your study findings?

    Based on the observations my colleagues at Mathematica Policy 
Research, Inc., and I have been making, I would say that both 
abstinence programs and programs offering family planning curricula to 
youth operate in one of two ways. Where services are provided through 
community groups or as an extra-curricula activity within the school 
setting, participation is usually entirely voluntary and generally the 
parent must provide active consent. In contrast, in cases where the 
programs are offered as a part of the core curricula within the school 
setting, they generally use a passive consent process. For example, 
parents will be notified about the program/class and informed about its 
content and they will be given the opportunity to request that their 
child not participate. However, in some cases, schools do require 
active parental consent for students to participate in any type of 
health or sex education curriculum.
    The implication of this pattern of service delivery for our study 
is simply that we need to be careful to document the nature of both the 
abstinence programs we are studying and the counterfactual services 
youths would be receiving if the Federally supported programs were not 
available to them. This information provides the context for 
interpreting the study findings and judging the extent to and 
circumstances under which they can be generalized.

Request 4: Please provide more specifics regarding your statement that 
 ``demand for abstinence programs frequently exceeds current capacity, 
  as evidenced by program waiting lists and requests for programs to 
  expand to new sites.'' Is there a demand by young people to become 
        involved in these programs? Are the programs voluntary?

    Our experience suggests that abstinence education programs embedded 
within well-run broader youth development and/or service programs, such 
as mentoring programs, activity clubs, or after school programs, tend 
to be very popular among youth and their parents. Such programs often 
have limited capacity and as a result have waiting lists.
    Some of the more dynamic, school-based programs also are in high 
demand by school administrators. For example, principals in Miami, 
Florida, have expressed a wish that ReCapturing the Vision could serve 
more than the 20 to 30 girls per school it presently serves and the 
program director has been asked to bring the program into more schools, 
both within the district and throughout the state. This program is 
among those where we have clear evidence that, not only are school 
administrators eager to expand services, but that there are many more 
youths who would participate in the program voluntarily if they were 
offered the option.
    Many schools where curriculum is offered in only one or two grade 
levels have expressed interest in extending the curriculum to lower 
and/or to older grade levels. School-based curricula programs tend to 
be voluntary on the part of parents, not students. However, our 
observation is that middle school youths generally are quite receptive 
to the programs. The response of older youths to purely curriculum-
based programs is more mixed.

 Request 5: Do you agree with Dr. McIlhaney's argument that it is too 
    early to have concrete evidence about the success of abstinence 
  education programs, but that ``as was the case with the effects of 
      smoking cessation initiatives, the data will come in time?''

    It would be great if we had definitive evidence about the 
effectiveness of the Title V abstinence education programs now. 
However, Title V is delivering services largely to middle school 
youths, and these services are geared to preventing behaviors 
throughout the teenage years and even into young adulthood. For this 
reason, it simply is not possible to know at this time how effective 
these programs ultimately will prove to be. We need to wait and see how 
successful they are in getting youths to abstain from sexual activity 
as they move well into their teen years. The national Title V 
evaluation being conducted by Mathematica Policy Research, Inc., under 
contract to the U.S. Department of Health and Human Services will 
provide strong evidence on this issue by 2005, when its final report is 
due.
    I hope these responses are helpful to you. Please let me know if I 
can be of further assistance.
            Sincerely,
                                                 Rebecca A. Maynard
                                 University trustee Chair Professor

                                <F-dash>

                                Medical Institute for Sexual Health
                                           Austin, Texas 78716-2306
                                                  November 28, 2001
Hon. Wally Herger,
Chairman
House of Representatives
Committee on Ways and Means
Subcommittee on Human Resources
Washington, DC 20515
Attn: Ryan Work
Sent by e-mail
    Dear Rep. Herger:
    Thank you very much for your letter of November 19, 2001, and for 
your kind words.
    We are pleased to provide for the record the following answers to 
the questions posed in your letter.

 1. Do you have any recommendations about areas in the welfare reform 
 law we might improve to further our efforts to prevent teen pregnancy 
 and delay sexual activity among young people? What more can or should 
                                 we do?

    A. While three of the four declared purposes of TANF relate to 
promoting marriage, preventing and reducing the incidence of out-of-
wedlock pregnancies, and encouraging the formation and maintenance of 
two-parent families, only a very small percentage of TANF funds have 
been spent to date for these purposes. We recommend that a specified 
percentage of TANF funding be designated for these issues, not just for 
teens, but also for other affected groups which fall within the purview 
of the enumerated goals of TANF. Furthermore, since the data, as 
discussed in greater detail in my testimony dated November 15, 2001 
submitted to this Committee, clearly shows that abstinence outside of 
marriage is the healthiest behavior, and the only approach which 
adequately confronts both the pregnancy and disease issues, we 
recommend that at least half of the funding allocated for these three 
purposes be reserved for furtherance of abstinence outside marriage as 
the desired normative behavior. We are not advocating that sums 
presently being funded for other worthy causes, if needed, be 
diminished, but only that some significant TANF funding be designated 
for these three purposes.
    B. As to Title V funding, strong evidence supports the conclusion 
that at least some of the programs being funded by the $50,000,000.00 
per year allocation are beginning to realize very positive results. To 
discontinue this program now, prior to the extensive evaluation 
presently underway being completed, would not only severely hamper, if 
not destroy, these programs, but might also negate the meaning and 
usefulness of the pending evaluation. Clearly, these programs need to 
be renewed, and, if available, additional spending made available for 
abstinence programs through Title V, SPRANS, or other sources, so that 
parity with other type programs is achieved. There were a number of 
programs which were approved under both Title V and SPRANS, but which 
did not receive requested funding due to the shortage of available 
funds.
    C. Since, as noted, abstinence is the only totally effective manner 
to deal with both out-of-wedlock and disease issues, and constitutes 
the only truly healthy behavior in this area, efforts should be made to 
emphasize abstinence outside of marriage as the desired choice and 
normative behavior for all legislation dealing with sexual behavior and 
its effects, including health legislation.

   2. We often hear about the link between teen sexual activity and 
pregnancy and therefore welfare receipt. But clearly, there are serious 
   health consequences even if teens don't become pregnant. Can you 
 comment on some of the costs to individuals and society of that--both 
in terms of the obvious personal costs to teens and the tangible costs 
like increased Medicaid and other health care spending? Only abstinence 
 can effectively and completely address these sorts of issues, correct?

    We agree that only abstinence can effectively and completely 
address these sorts of issues.
    The total costs to individuals and society, other than those 
directly related to out-of-wedlock pregnancies, of teen and other out-
of-wedlock sexual activity, although difficult to accurately determine 
or even estimate, are of enormous proportion. These expenditures fall 
into several categories which include the following:
            A. Direct medical and related costs
    A 1997 report of the Institute of Medicine's Committee on 
Prevention and Control of Sexually Transmitted Diseases, entitled The 
Hidden Epidemic, Confronting Sexually Transmitted Diseases, states, in 
the Introduction to its Summary;
    ``Of the top ten most frequently reported diseases in 1995 in the 
United States, five are sexually transmitted diseases (STDs) (CC 
1996c). With approximately 12 million new cases of STDs occurring 
annually (CDC, DSTD/HIVP, 1993), rates of curable STDs in the United 
States are the highest in the developed world. In 1995, STDs accounting 
for 87 percent of all cases reported among the top ten most frequently 
reported diseases in the United States (CDC, 1996c). Despite the 
tremendous health and economic burden of STDs, the scope and impact of 
the STD epidemic are under-appreciated and the STD epidemic largely 
hidden from public discourse. Public awareness and knowledge regarding 
STDs are dangerously low but there has not been a comprehensive 
national public education campaign to address this deficiency. The 
disproportionate impact of STDs on women has not been widely 
recognized. Adolescents and young adults are at greatest risk of 
acquiring an STD, but STD prevention efforts for adolescents remain 
unfocused and controversial in the United States.''
    As to the economic consequences of STDs, the report states, at page 
7,
    ``The costs of a few STDs have been estimated . . . but no 
comprehensive, current analysis of the direct and indirect costs of 
STDs is available. . . . the Committee estimates that the total costs 
for a selected group of major STDs and related syndromes, excluding HIV 
infection, were approximately $10 billion in 1994. This rough, 
conservative estimate does not capture the economic consequences of 
several other common and costly STDs and associated syndromes such as 
vaginal bacteriosis and trichomoniasis. The estimated annual cost of 
sexually transmitted HIV infection in 1994 was approximately $6.7 
billion. Including these costs raises the overall cost of STDs in the 
United States to nearly $17 billion in 1994. These cost estimates 
underscore the enormous burden of STDs on the U.S. economy. (emphasis 
added).
    In a report dated December, 1998 prepared for the Kaiser Family 
Foundation by the American Social Health Association, entitled, 
``Sexually Transmitted Diseases in America: How Many Cases and at What 
Cost?, the panel calculated that the ``actual number of new cases of 
STDs is approximately 15 million annually,'' and that this could be as 
high as 20 million new cases per year. This report confirmed the very 
high cost of STDs. An unpublished study by our office reaches the same 
conclusion.
            B. Other costs
    As noted, there are many costs, monetary or other, in addition to 
those related to pregnancies, which can be traced to or at least 
associated with sexual activity outside marriage. These include:
    1. Loss of work time and productivity due to having an STD.
    2. Psychological and emotional damage and stress, including suicide 
and other self-inflicted damage. For example, in a study entitled 
Premature Sexual Activity as an Indicator of Psychological Risk 
published in the February 1991 issue of the journal Pediatrics, non-
virgin girls in the teen group evaluated were 6.3 times more likely to 
have attempted suicide (31.9 percent compared to 6.9 percent).
    3. Involvement in other risky behavior--For example, non-virgin 
boys and girls were more than six times as likely to have used alcohol, 
were 3.8 (boys) to 7.2 (girls) times more likely to have smoked 
cigarettes, and 4.8 (boys) and 10.4 (girls) times more likely to have 
used marijuana. Premature Sexual Activity as an Indicator of 
Psychological Risk, supra, p. 144.
    4. Damaged relationships caused by one partner (married or 
otherwise) having an STD. ``Sexually Transmitted Diseases in America: 
How Many Cases and at What Cost?, supra, p. 23.
    5. Pre-term labor.
    6. Infertility. Between 30 and 40 percent of couples who require in 
vitro fertilization because of the woman's infertility are required to 
do so because of a prior STD infection. The cost of this procedure, 
both monetarily and emotionally, is very high.
    7. Miscellaneous others. As noted in ``Sexually Transmitted 
Diseases in America: How Many Cases and at What Cost?, supra, p. 23.
    ``In addition to the economic impact of STDs, the panel noted that 
STDs have a high human cost in terms of pain, suffering and grief. 
Complications of chlamydia and gonorrhea can lead to chronic pain, 
infertility and tubal pregnancies, which can affect a woman's health 
and well-being throughout her lifetime. The harmful impact of STDs on 
infants leads to long-term emotional suffering and stress for families 
which cannot be captured in dollar terms. Unlike other diseases, STDs 
often cause stigma and feelings of shame for patients diagnosed with 
these infections.'' (emphasis added)
    Thank you for including us among those testifying on this important 
issue, and the opportunity to respond to the inquiries in your letter. 
Please do not hesitate to let us know if we can be of further service.
            Sincerely,
                                        Joe S. McIlhaney, Jr., M.D.
                                                          President

                                <F-dash>


    [Submissions for the record follow:]

Statement of Melanie Howell, President, Abstinence Educators' Network, 
                           Inc., Mason, Ohio
    Thank you Honorable Chairman Herger and other distinguished members 
of this committee to allow me to express my request for continued 
funding of premarital abstinence education. I am president of 
Abstinence Educators' Network, the only state-wide premarital 
abstinence education network in Ohio. Our non-profit agency has 
received Title V funding for 4\1/2\ years and this July received a 
SPRANS implementation grant to expand efforts into more of the 
underserved areas of Ohio.
    I am a nurse, and since 1989, have worked in the trenches teaching 
premarital abstinence education to parents, teens, teachers and other 
professionals. I know first hand the value, importance, and results of 
premarital abstinence education for the teens and communities in our 
state. And, I know first hand the importance of state and federal 
funding. Without government funding our organization would not be 
reaching 10,000 people per year with the health and societal benefits 
of abstinence and the necessary character development and refusal 
skills to be successful with a premarital abstinent lifestyle.
    More and more communities now desire the highest standard of sexual 
health for their children. The approach is well received and makes good 
sense to parents, teachers, and students. Every day, we hear comments 
that they are tired of the old message and the mixed message approach. 
Clear guidance is sought after in these difficult times.
    Ohio's 29 Title V agencies have worked hard in the trenches over 
the last four years to educate many more Ohioans about the importance 
of such topics as: character development, healthy relationships, love 
vs. infatuation, successful refusal skills, the importance of marriage 
and family, the limitations and failure rates of contraceptives/condoms 
for teens, and the short and long term devastation of over 25 Sexually 
Transmitted Diseases.
    We are thankful that three new SPRANS Ohio grantees can now reach 
more who desire this approach for their children and students. Many of 
these communities we have had to turn away in the past.
    The need for abstinence dollars is obvious to anyone who works in 
the field. It is what the common people are asking for. In some ways, 
it reminds me of the war in Afghanistan. The common people are looking 
for truth and liberation. Title V dollars are the army's foot soldiers, 
who go in the caves and trenches to clean things up. The SPRANS dollars 
are the heavy artillery, the big guns, to work the broad approach from 
the top. Both work together to form the best strategy for increasing 
the numbers of students to abstain from sexual activity. Both methods 
of funding are needed desperately.
    Please continue to move forward, not backward, for our children. 
Continue to provide more funding for premarital abstinence education. 
Its saves the lives of children and families.
    Thank you.
                                 ______
                                 
  THE AGENCY'S FOURTH YEAR ``TITLE V FOURTH YEAR EVALUATION SUMMARY''
           By Dr. Raja Tanas, Whitworth College, Spokane, WA
    This report is based on the fourth-year data generated from the 
multi-faceted programs that Abstinence Educators' Network of Ohio 
offered to students, peers, adult mentors, parents, social workers and 
other professionals. The underlying objective of these programs was to 
present information and give support to the development of skills 
directed toward helping junior high and senior high school students 
abstain from teen sex and develop healthy lifestyles.
    Results reported in this study came from six sets of data. The 
primary data set was obtained from 1505 students enrolled in grades 
seven through twelve at nine schools in the State of Ohio during the 
2000-2001 school year. The one-group pretest-posttest experimental 
design was used to evaluate the impact of Lakita Garth's presentations 
on promoting abstinence among teens. The other five sets of data were 
obtained from other students, student peers, social workers, other 
professionals, and parents who participated in mentoring, training 
workshops and seminars designed to support teens in their decisions to 
abstain from sex until marriage.
    Similar to results reported in previous reports, Lakita Garth's 
rallies continued to produce statistically significant impact on 
students' attitudes and behavioral intentions supporting abstinence. 
The pretest-posttest analysis using the t-test statistical technique 
for independent samples yielded results showing that the rallies moved 
the students toward a greater degree of agreement on each of the eight 
variables targeted by the program. While this year's study replicated 
the results of last year's study, one notices a greater impact on the 
latter four items than was found in previous years. Specifically, after 
attending Lakita Garth's presentations, students were more likely to 
agree that:

          <bullet> they understood the advantages of abstinence (92 
        percent)
          <bullet> sexual urges are always controllable (64 percent)
          <bullet> it was possible for them to say no to sex (80 
        percent)
          <bullet> it was important for teens to stop having sex (70 
        percent)
          <bullet> having sex before marriage was against their 
        personal standards and values (56 percent)
          <bullet> they were currently practicing sexual abstinence (66 
        percent)
          <bullet> they intended to save sex from now on and until 
        marriage (56 percent)
          <bullet> they would like to have more support to say no to 
        sex (57 percent)

    Participants in the other workshops and seminars equally found 
their programs useful and effective in terms of providing information 
and material; hands on training; effectiveness of presenters and 
effectiveness of teaching methods; and relevancy of the material to the 
stated objectives. The large majority of participants in each program 
expressed their greatest degree of satisfaction with the organization 
and administration of a respective program.
    Many open-ended comments also reflected strong support to the 
various facets of the programs and expressed their appreciation to AEN 
for helping them develop new understanding of issues relative to teen 
sex. It is no exaggeration to conclude that this year's results were 
exceptional given the larger size of the student samples; the variety 
of programs, activities, objectives, and locations; and the diversity 
of audiences that AEN served during the academic year 2000-2001.

                                <F-dash>

                                          Alan Guttmacher Institute
                                           New York, New York 10005
                                                  November 29, 2001
The Honorable Wally Herger
Chairman, Human Resources Subcommittee
House Ways and Means Committee
Room B-317, Rayburn House Office Building
Washington, DC 20515
    Dear Chairman Herger:
    The Alan Guttmacher Institute (AGI) applauds you for convening a 
hearing on November 15 before the Human Resources Subcommittee designed 
to shed light on the problem of teenage pregnancy. As you noted at the 
hearing, accurately diagnosing why teen pregnancy rates are declining 
in this country is extremely important to our ability to make further 
progress in this area, particularly as legislators begin work on 
welfare reauthorization.
    AGI researchers in 1999 first set out to determine the extent to 
which increased abstinence from sexual activity among teenagers and/or 
other factors, such as changes in contraceptive behavior among sexually 
experienced teenagers, contributed to recent declines in teenage 
pregnancy. Due to the controversy inherent in the subject matter and 
the various ways in which different people have examined and 
interpreted the trends, AGI researchers went to extraordinary lengths 
to make sure that their approach and methodology were the most 
appropriate ones given existing data, and that their conclusions were 
ones that they--and the Institute--could fully stand behind. This 
included participation at a consensus meeting convened by the National 
Institute of Child Health and Human Development to examine measurement 
issues regarding sexual activity and contraceptive use of teenagers, 
which involved researchers from AGI, the National Center for Health 
Statistics, Urban Institute, Child Trends and the National Campaign to 
Prevent Teenage Pregnancy. AGI's methodology for measuring factors 
potentially contributing to pregnancy rate declines--sexual experience 
and contraceptive use levels--follows the consensus of this group.
    AGI's findings appeared in our publication ``Why Is Teenage 
Pregnancy Declining? The Roles of Abstinence, Sexual Activity and 
Contraceptive Use,'' \1\ which I have attached as an exhibit for your 
review. Our analysis was based on calculations using the following data 
sets:
---------------------------------------------------------------------------
    \1\ Darroch JE and Sing S, Why Is Teenage Pregnancy Declining? The 
Roles of Abstenence, Sexual Activity and Contraceptive Use, Occasional 
Report, New York: The Alan Guttmacher Institute, 1999, No. 1.

          <bullet> Pregnancy rates--released by AGI in April 1999 in 
        ``Teenage Pregnancy: Overall Trends and State-by-State 
        Information''--are based on birth rates from the National 
        Center for Health Statistics and abortion data from periodic 
        AGI Abortion Provider Surveys. Information on the proportions 
        of young women who have had sexual intercourse are from the 
        National Center for Health Statistics' 1988 and 1995 National 
        Surveys of Family Growth (NSFG).
          <bullet> Information on sexual activity and contraceptive use 
        is from 1988 and 1995 NSFG.
          <bullet> Overall contraceptive failure rates are based on 
        NSFG information on contraceptive use and from first-year 
        failure rates calculated from the 1995 NSFG and the 1994-1995 
        AGI Abortion Patient Survey.\2\
---------------------------------------------------------------------------
    \2\ http://www.agi-usa.org/pubs/journals/3104669.html.

    AGI's analyses showed that the teen pregnancy rate dropped 
significantly--from 111.4 to 101.1 per 1,000 women aged 15-19--between 
1988 and 1995, a decline of 9 percent.\3\ National survey data indicate 
that during that time period there was a decline--or at least a 
leveling off--in the proportion of teenagers who have ever had sexual 
intercourse. The proportion of women aged 15-19 who report that they 
have ever had sexual intercourse decreased 2 percent between 1988 and 
1995.\4\ Analysis showed that about 25 percent of the decline in the 
overall U.S. teen pregnancy rate was attributable to this increased 
abstinence.
---------------------------------------------------------------------------
    \3\ Darroch JE and Singh S, op. cit. (see reference 1), pages 8-9 
and Table 1.
    \4\ The percentage of 15-19 year old women who say they have ever 
had sexual intercourse was 51.3 percent in 1995 and 52.6 percent in 
1988. Ibid.
---------------------------------------------------------------------------
    Of greater magnitude, AGI's analysis of the available data found 
that approximately 75 percent of the decline in teen pregnancy between 
1988 and 1995 was attributed to declines in pregnancy rates among 
sexually experienced teenagers. Indeed, the drop in pregnancy rates 
among sexually experienced teens has been marked--7 percent between 
1988 and 1995.\5\
---------------------------------------------------------------------------
    \5\ In 1988, the pregnancy rate among sexually experienced 15-19 
year olds was 211.8 per 1,000; in 1995, it was 197.1 per 1,000. Ibid, 
page 8.
---------------------------------------------------------------------------
    Declining pregnancy rates among sexually experienced teens must be 
attributable to one or more of the following three factors:

          1) less frequent sexual activity;
          2) an overall increase in contraceptive use (that is, an 
        increase in the proportion of sexually experienced teens using 
        a contraceptive); and/or
          3) improved (in other words, more effective) contraceptive 
        use.

    Government data do not bear out a decrease in levels of sexual 
activity among sexually experienced teens.\6\ And, there is evidence 
that only a slightly larger proportion of sexually active teens were 
using contraceptives.\7\ More significantly, however, by 1995 teens 
using contraceptives were choosing more effective methods. Most 
notably, there has been a substantial shift among sexually active teens 
toward the use of highly effective, long-acting contraceptive methods--
the contraceptive injectable (Depo Provera) and the contraceptive 
implant (Norplant). These methods only hit the U.S. market in the early 
1990s, but by 1995, over one in ten (13 percent) sexually active teen 
women at risk of unintended pregnancy was using one of them.\8\ Because 
these long-acting methods are so effective and so easy to use, they 
made a big dent in the teenage pregnancy rate.
---------------------------------------------------------------------------
    \6\ A somewhat lower proportion of sexually experienced young women 
reported having had intercourse in the three months prior to the 
National Survey of Family Growth in 1995 than in 1988 (79 percent vs. 
81 percent); however, over the entire prior year, sexually experienced 
young women reported having had intercourse during the same average 
number of months in both the 1988 and the 1995 NSFG (8.6 months). Ibid, 
page 10.
    \7\ The proportion of sexually experienced teens reported currently 
using a contraceptive--using one within the last month--was 80 percent 
in 1995, compared with 78 percent in 1998. Ibid, page 10.
    \8\ Ibid, page 11.
---------------------------------------------------------------------------
    Use of Depo Provera and Norplant may have played a particularly 
large role in reducing second pregnancies among teen mothers. Data 
released by NCHS showed a dramatic 21 percent decline between 1991 and 
1996 in the proportion of teen mothers giving birth a second time.\9\ 
During a corresponding time period, the proportion of teen mothers 
using long-acting methods rose to one-quarter.\10\
---------------------------------------------------------------------------
    \9\ Ventura SJ, Mathews TJ and Curtin SC, Declines in teenage birth 
rates, 1991-1997: National and state patterns, National Vital 
Statistics Reports,1998, Vol. 47, No. 12.
    \10\ Using data from the 1995 National Survey of Family Growth, 
NCHS researchers estimate that about one-fourth of teens who are 
mothers are using Depo Provera or Norplant. NCHS, Unpublished 
tabulations.
---------------------------------------------------------------------------
    A recent analysis conducted by the National Campaign to Prevent 
Teen Pregnancy found that 40-60 percent of the decline in teenage 
pregnancy rates between 1990 and 1995 was probably due to fewer teens 
having sex and 60-40 percent to lower pregnancy rates among sexually 
experienced teens. (Looking at the years 1988-1995, the Campaign found 
that 20-50 percent of the drop resulted from lower rates of sexual 
experience and 50-80 percent from decreased pregnancy rates among 
sexually experienced teens.) \11\ This analysis, however, contains 
certain methodological flaws that hamper the reliability of its 
findings. First, it places on equal footing data gathered in 1990 
through telephone surveys with data collected in 1988 and 1995 through 
in-person interviews, making it impossible to determine whether 
differences between 1990 and 1988 or 1995 are due to an actual change 
in behavior or the changes in survey methodology. Second, it uses 
arbitrary and inconsistent measures of respondents' age in 1988 and 
1995 (rather than the consistent point in time of when respondents were 
interviewed), which produces biases in different directions in 1988 and 
1995, and thus overstates changes in sexual activity. And third, it 
measures sexual experience to include those young women who have had 
sex before menarche, which is inappropriate for measuring teen 
pregnancy since these women, by definition, are not at risk for 
pregnancy. When this analysis is adjusted such that it is based on 
comparable survey methodology and quality over time (1988 and 1995 
NSFGs), unbiased measures of age (at the time respondents were 
interviewed), and appropriate measures of sexual experience (ever had 
sexual intercourse after menarche)--the most scientifically consistent 
and rigorous approach--it yields a conclusion similar to AGI's findings 
in Why is Teenage Pregnancy Declining?
---------------------------------------------------------------------------
    \11\ Flanigan, C, What's behind the good news: The decline in teen 
pregnancy rate during the 1990s, Washington, DC: The National Campaign 
to Prevent Teen Pregnancy, 2001.
---------------------------------------------------------------------------
    In summary, AGI's analysis found that approximately one-quarter of 
the decline in teen pregnancy rates is due to increased abstinence; 
about three-quarters is due to more successful pregnancy prevention 
efforts among teens who are sexually active. Many questions still 
remain around why teen contraceptive use has improved, why more teens 
are remaining abstinent, and whether these trends have continued since 
the mid-1990s. But the bottom line is that both phenomena are making a 
difference in combating teen pregnancy. This strongly suggests that 
even as abstinence is being promoted to our nation's young people, 
accurate and reliable information about contraceptives, as well as 
access to contraceptives for those teens who are sexually active--half 
of all U.S. teens--is also vitally important to reducing teen 
pregnancies, fully eight in 10 of which are unintended. Again, we 
applaud your effort to devote attention to the critical issue of 
teenage pregnancy, and strongly urge you to take this information into 
account as you and members of your subcommittee move toward welfare 
reauthorization next year.
            Sincerely,
                                       Jacqueline E. Darroch, Ph.D.
                                              Senior Vice President
                                        Vice President for Research

                                <F-dash>


                                   Center for Law and Social Policy
                                               Washington, DC 20005
                                                  November 29, 2001
The Honorable Wally Herger
Chairman, Human Resources Subcommittee
House Ways and Means Committee
Room B-317, Rayburn House Office Building
Washington, DC 20515
    Dear Chairman Herger:
    The Center for Law and Social Policy (CLASP) appreciates the 
opportunity to submit this statement for the record of the public 
hearing on Teen Pregnancy Prevention that was held on Thursday, 
November 15, 2001.
    CLASP is grateful that you held a hearing on the topic of teen 
pregnancy prevention in preparation for reauthorization of the 
Temporary Assistance for Needy Families program in 2002. The importance 
of the relationship of teen childbearing to poverty cannot be 
overstated, yet, too often it is not given the attention it deserves. 
Also up for reauthorization in 2002 is the separate abstinence 
education program enacted in 1996, which received the most attention by 
the witnesses who testified on November 15.
    In this brief submission, CLASP will focus on the abstinence 
education program. We have written and will continue to publish updated 
materials on the full range of issues related to reauthorization and 
teen pregnancy/reproductive health including such topics as: TANF 
spending on teen pregnancy prevention, TANF spending on teen parent 
services, the TANF teen parent living arrangement and education 
requirements, the out-of-wedlock bonus, teen marriage, TANF teen 
parents with disabilities, and ``family cap'' policies. Our materials 
are all available free of charge on our web site: http://
www.clasp.org/.
    The 1996 federal abstinence education program is often 
misunderstood. In part this is because abstinence education can mean 
different things to different people. For some, abstinence education 
means information that asserts one should abstain from sex at every age 
unless one is married; for others, abstinence education means programs 
that promote abstinence as the only sure way to avoid pregnancy and 
sexually transmitted illnesses and that when one stops abstaining it is 
important to know how to contracept. Many are unaware that the statute 
defines a program with the former approach, the most restrictive 
approach--sometimes called abstinence-unless-married education.
    The law's definition of a fundable program has eight points, 
including that the program teach that ``sexual activity outside the 
context of marriage is likely to have harmful psychological and 
physical effects'' [Attachment A provides the full text of the law]. 
The program operates through the Maternal and Child Health (MCH) block 
grant and provides $50 million in federal funds each year to support 
abstinence programs that preclude education about contraception; a 
state match of $3 for every $4 federal dollars is required.
    The law was enacted without any research base suggesting that a 
restrictive abstinence approach works at reducing teen pregnancy and 
births. There still is none. As noted in a recent review of evaluations 
of abstinence programs published by the National Campaign to Prevent 
Teen Pregnancy, ``there do not currently exist any abstinence-only 
programs with reasonably strong evidence that they actually delay the 
initiation of sex or reduce its frequency.'' The author used strict 
criteria in determining what studies of sexuality education programs to 
include in his review of evaluations; only three such abstinence-only 
studies met the criteria.\1\
---------------------------------------------------------------------------
    \1\ ``The review examined the evidence available regarding studies 
that met the following criteria: met the scientific standards requisite 
for inclusion in professional journals or publications; published in 
1980 or later; analyzed data collected from U.S. adolescents, most of 
whom were 19 or younger; used a sample size of at least 100; measured 
the relationship between the antecedents and one or more of the 
following sexual behaviors: initiation of sex, frequency of sexual 
intercourse, number of sexual partners, use of condoms, use of any type 
of contraception, pregnancy, or childbearing. (Studies that measured 
only out-of-wedlock pregnancy or childbearing were not included.)'' 
Douglas Kirby, Emerging Answers: Research Findings on Programs to 
Reduce Teen Pregnancy, (Washington, DC: National Campaign to Prevent 
Teen Pregnancy, 2001), p. 35.
---------------------------------------------------------------------------
    Unfortunately, the federally funded evaluation of abstinence-
unless-married programs funded through the 1996 law will not be 
finalized until 2003; thus, the 2002 reauthorization process will not 
be able to benefit from any insights offered by the evaluation. While 
the evaluation should help us learn more about some of the impacts of 
the programs it will, nevertheless, not answer the question that needs 
to be asked. That central question is ``How does a program of 
abstinence-unless-married education compare to an abstinence program 
that also provides contraceptive education?''
    There is good reason to compare different types of approaches to 
abstinence: available research raises concerns about an abstinence 
education approach that does not provide contraceptive education. At 
the same time, there is a bit of encouraging news that some abstinence 
strategies may help delay the onset of sexual activity, particularly 
among the youngest adolescents. But the abstinence-unless-married 
approach can backfire when aimed at older teens.

          <bullet> A comparison of in-school youths who took a 
        ``virginity pledge'' and those who did not found that some 
        virginity pledgers were at greater risk when they first engaged 
        in sexual intercourse. The pledge--to abstain from sex until 
        marriage--did delay first intercourse on average by nearly 18 
        months. However, pledging had no effect among teens who were 18 
        or older and also contributed to health risks for those who 
        became sexually active.\2\
---------------------------------------------------------------------------
    \2\ The highlighted Kirby report above did not include these 
community-based Virginity Pledge efforts.
---------------------------------------------------------------------------
          According to researchers Peter Bearman and Hannah Brueckner, 
        who tracked those pledgers who had intercourse during the study 
        period, ``the estimated odds for contraceptive use for pledgers 
        are about one-third lower than for others.'' The researchers 
        noted that ``pledgers are less likely to be prepared for an 
        experience that they have promised to forego.'' They also found 
        that ``pledging does not work for adolescents at all ages'' and 
        that the efficacy of the pledge in some schools depended on its 
        being uncommon: ``Once the pledge becomes normative, it ceases 
        to have an effect.'' Thus ``policy makers should recognize that 
        the pledge works because not everyone is pledging.'' \3\
---------------------------------------------------------------------------
    \3\ Peter Bearman and Hannah Brueckner, ``Virginity Pledges and the 
Transition to First Intercourse'', Pregnancy Prevention for Youth: An 
Interdisciplinary Newsletter, Vol. 3, No. 2, (June 2000); also, 
``Virginity Pledges as they Affect the Transition to First 
Intercourse'', American Journal of Sociology, Vol. 106, No. 4, (2001).
---------------------------------------------------------------------------
          <bullet> Another study compared an ``abstinence'' program 
        with a ``safer sex'' program that involved 659 African-American 
        middle-school adolescents and found that, among those who 
        already were sexually active when the courses began, 
        participants in the ``safer sex'' program reported less-
        frequent sexual intercourse and less-frequent unprotected sex 
        one year after the program. Further, when the abstinence group 
        was compared with a control group, it reported less sexual 
        activity at three months following the intervention, but this 
        distinction evaporated over time.\4\
---------------------------------------------------------------------------
    \4\ ``The abstinence intervention acknowledged that condoms can 
reduce risks but emphasized abstinence to eliminate the risk of 
pregnancy and STDs, including HIV. It was designed to . . . strengthen 
behavioral beliefs supporting abstinence. . . . The safer-sex 
intervention indicated that abstinence is the best choice but 
emphasized the importance of using condoms to reduce the risk of 
pregnancy and STDS, including HIV, if participants were to have sex. It 
was designed to . . . increase skills and self-efficacy regarding [the] 
ability to use condoms.'' John B. Jemmott III, Loretta Sweet Jemmott, 
and Geoffrey T. Fong, ``Abstinence and Safer Sex HIV Risk-Reduction 
Interventions for African American Adolescents, A Randomized Controlled 
Trial'', Journal of the American Medical Association, Vol. 279, (May 
20, 1998).
---------------------------------------------------------------------------
          <bullet> A study conducted by Edward J. Saunders and 
        colleagues at the University of Iowa School of Social Work 
        compared survey responses from participants in a comprehensive 
        sex-education program that promoted abstinence but allowed 
        contraceptive information with survey responses from 
        participants in an abstinence-unless-married program. The 
        authors found that the former program was more successful in 
        imparting knowledge about aids and other stds. In addition, 
        while the authors suggested that program comparisons should be 
        viewed cautiously because of differences in the age of the 
        participants, the length of the programs, and a range of other 
        variables, they noted that the program that offered 
        contraceptive information also appeared to be more successful 
        than the abstinence-unless-married program in ``promoting 
        communication between parents and youth about sex.'' \5\
---------------------------------------------------------------------------
    \5\ Edward J Saunders, et al., ``Evaluation of Abstinence-Only 
Education: Year One Report'', University of Iowa School of Social Work, 
(October 1999).

    Further, evaluations of programs that combine abstinence education 
with contraceptive information find that they can help delay the onset 
of intercourse without a concomitant concern about health risks, and 
that they also reduce the frequency of intercourse and the number of 
partners.\6\ If there are stronger approaches that further delay the 
onset of intercourse by the too-young, those lessons should be adapted 
by programs that combine abstinence education with contraceptive 
information--in that way such programs will cause no health harm.
---------------------------------------------------------------------------
    \6\ Douglas Kirby, Emerging Answers: Research Findings on Programs 
to Reduce Teen Pregnancy, (Washington, DC: National Campaign to Prevent 
Teen Pregnancy, 2001); Douglas Kirby, No Easy Answers: Research 
Findings on Programs to Reduce Pregnancy, (Washington, DC: National 
Campaign to Prevent Teen Pregnancy, March 1997).
---------------------------------------------------------------------------
    Even in the absence of evidence that abstinence-unless-married 
education reduces the risk of teen pregnancy and birth, and in spite of 
the new research that the reduction in sexual activity is accompanied 
by an increase in the health risk for some, funding for this approach 
has expanded beyond the $50 million per year authorized in the 1996 
welfare law. As of fiscal year 2002, at least $533 million will have 
been earmarked in federal and state funds since 1996. Two other federal 
sources, the Adolescent Family Life Act (AFLA) and Special Projects of 
Regional and National Significance-Community-Based Abstinence Education 
(SPRANS-CBAE) program, have made more money available. Under the SPRANS 
grants, MCH can by-pass states and award grants directly to local 
projects; grantees, however, may not provide contraceptive education, 
even with separate funds. The House has increased its funds for SPRANS-
CBAE from $20 to $40 million (efforts to increase it to $73 million 
failed); the Senate Appropriations committee would provide $30 million. 
Any differences will be resolved shortly in Conference.
    Proponents of increased funding for SPRANS-CBAE argue that funding 
``parity'' is needed between abstinence-unless-married education and 
family planning. This comparison, however, contrasts expenditures for 
education against costs for medical services. Thus, this is a 
comparison of ``apples'' and ``oranges'' and creates even greater 
misunderstanding in the public debate.
    The public supports abstinence education but wants contraceptive 
education along with it. Virtually all of the parents of 7-12th graders 
(97 percent) want their child's sexuality education program to cover 
abstinence, according to a national study in 2000 by the Kaiser Family 
Foundation.\7\ Notably, these parents also want lessons on how to use 
condoms (85 percent) and on general birth control topics (90 
percent).\8\ State and local surveys also have found strong support for 
information about both abstinence and birth control.
---------------------------------------------------------------------------
    \7\ ``Sex Education in America: A View from Inside the Nation's 
Classrooms'', A Series of National Surveys of Students, Parents, 
Teachers, and Principals, Kaiser Family Foundation Website, (September 
26, 2000), (Accessed November 6, 2001), Available online: http://
www.kff.org/content/2000/3048/ Chartpack.pdf.
    \8\ Ibid.
---------------------------------------------------------------------------
    The Subcommittee on Human Resources hearing on teen pregnancy 
revealed bi-partisan support for a more flexible approach to the 
available federal abstinence education funds. Not only were a number of 
attending Democratic members of the Subcommittee concerned that the 
law's approach to abstinence education is too restrictive, so too was 
Congresswoman Nancy Johnson (R-CN). This bi-partisan call for increased 
flexibility as an issue for reauthorization is encouraging and 
appropriate.
    The Center for Law and Social Policy recommends further attention 
to abstinence-only education funding during reauthorization and a 
closer examination of how the research points to the importance of 
greater flexibility in spending available funds.
            Sincerely,
                                                Jodie Levin-Epstein
                                              Senior Policy Analyst
                                 ______
                                 

                              Attachment A

               SEPARATE PROGRAM FOR ABSTINENCE EDUCATION

    ``SEC. 510. (a) For the purpose described in subsection (b), the 
Secretary shall, for fiscal year 1998 and each subsequent fiscal year, 
allot to each State which has transmitted an application for the fiscal 
year under section 505(a) an amount equal to the product of--
    ``(1) the amount appropriated in subsection (d) for the fiscal 
year; and
    ``(2) the percentage determined for the State under section 
502(c)(1)(B)(ii).
    ``(b)(1) The purpose of an allotment under subsection (a) to a 
State is to enable the State to provide abstinence education, and at 
the option of the State, where appropriate, mentoring, counseling, and 
adult supervision to promote abstinence from sexual activity, with a 
focus on those groups which are most likely to bear children out-of-
wedlock.
    ``(2) For purposes of this section, the term `abstinence education' 
means an educational or motivational program which--
    ``(A) has as its exclusive purpose, teaching the social, 
psychological, and health gains to be realized by abstaining from 
sexual activity;
    ``(B) teaches abstinence from sexual activity outside marriage as 
the expected standard for all school age children;
    ``(C) teaches that abstinence from sexual activity is the only 
certain way to avoid out-of-wedlock pregnancy, sexually transmitted 
diseases, and other associated health problems;
    ``(D) teaches that a mutually faithful monogamous relationship in 
context of marriage is the expected standard of human sexual activity;
    ``(E) teaches that sexual activity outside of the context of 
marriage is likely to have harmful psychological and physical effects;
    ``(F) teaches that bearing children out-of-wedlock is likely to 
have harmful consequences for the child, the child's parents, and 
society;
    ``(G) teaches young people how to reject sexual advances and how 
alcohol and drug use increases vulnerability to sexual advances; and
    ``(H) teaches the importance of attaining self-sufficiency before 
engaging in sexual activity.
    ``(c)(1) Sections 503, 507, and 508 apply to allotments under 
subsection (a) to the same extent and in the same manner as such 
sections apply to allotments under section 502(c).
    ``(2) Sections 505 and 506 apply to allotments under subsection (a) 
to the extent determined by the Secretary to be appropriate.
    ``(d) For the purpose of allotments under subsection (a), there is 
appropriated, out of any money in the Treasury not otherwise 
appropriated, an additional $50,000,000 for each of the fiscal years 
1998 through 2002. The appropriation under the preceding sentence for a 
fiscal year is made on October 1 of the fiscal year.''.

                                <F-dash>


 Statement of Onalee McGraw, Director, Educational Guidance Institute, 
                         Front Royal, Virginia
Evaluation of the effectiveness of Title V Programs must be consistent 
        with all of the A-H elements of Title V (Personal 
        Responsibility and Work Opportunity Reconciliation Act of 1996 
        P.L. 104-193)
    Title V mandated a model for teaching about sexuality that 
represented a major departure from the long established safer sex/risk 
reduction approaches. Evaluation of Title V programs should be fully 
consistent with the norm building, values formation core of the A-H 
elements of Title V-not only in the programs themselves, but in the 
methods of evaluation that are used.
    The methodological assumption relied on by both the National Title 
V Evaluation and state Title V evaluation efforts in various states, 
e.g. Virginia, was grafted on to the abstinence-until-marriage model 
from evaluation theories utilized for evaluating risk reduction and 
HIV/AIDS prevention interventions. The theory of evaluation is that (1) 
adolescents' sexual activity can be adequately and accurately measured 
by their self-reported answers to survey questions and (2) statistical 
analysis of these survey responses from subjects in intervention and 
control (``no treatment'') groups can be utilized to answer the 
question of whether or not the intervention programs thus measured are 
effective in reducing the onset of sexual activity.
    This methodology is not appropriate, however, for the norm-based, 
values teaching, character education oriented goals and objectives of 
the abstinence-until-marriage programs supported by Title V. This 
positivist methodology will fail to establish a credible baseline of 
sexual behavior change in the intervention and control/no treatment 
groups. The question of whether such survey questions are ethically and 
developmentally appropriate is a perennial issue in school settings. 
School districts and parents are rightly opposed to their students 
being asked intrusive questions about their sexual behavior.
    Many of us in the abstinence education community desire a new 
direction in evaluation, one that has an evaluation theory base and 
methodology that is philosophically compatible with the mandated A-H 
elements. Under the principle of ``do no harm'' no participant in 
either an intervention or a so called ``control'' group should be 
exposed to invasive questions about their own personal sexual 
histories.
    Existing methods of evaluating Title V programs through group 
survey methods of measuring sexual behavior change involve serious 
empirical and developmental problems.
    (1) Empirically the establishment of the baseline is problematic 
because our culture currently has subcultures of pre-teens and teens 
engaging in oral sex play that they do not consider to be sexual. The 
methodology of measuring sexual behavior change with group surveys will 
fail to adequately establish a participant sexual behavior baseline for 
determining whether programs reduce the onset of sexual activity.
    Survey questions asking students if, when and how many times they 
have had sexual intercourse will be answered ``no'' by students who 
have not had sexual intercourse and who are not engaging in oral sex 
play, and ``no'' by students who have not had sexual intercourse but 
who have been engaging in oral sex play. In 1999, the national media 
reported that subcultures of teens were engaging in behaviors they did 
not consider to be sexual.\1\ For example, girls who reported engaging 
in oral sex 50 or 60 times related in clinical settings that they were 
``virgins and were going to wait to have intercourse until they meet 
the man they will marry.'' \2\ The meanings of the words ``having sex'' 
or ``sexual activity'' have changed so that many respondents would 
rightly answer ``no'' to the question, ``have you had sexual 
intercourse?'' Leaders in the abstinence education community cautioned 
supporters of the group survey methodology that survey questions 
concerning ``sexual activity'' and ``sexual intercourse'' would not 
produce empirically valid measurement, but these concerns were not 
heeded when there was still an opportunity to address them.
---------------------------------------------------------------------------
    \1\ The Washington Post, July 8, 1999, Talk Magazine, February, 
2000.
    \2\ Mona Charen, ``Sexual play as a preteen pastime,'' Washington 
Times, April 13, 2000.
---------------------------------------------------------------------------
    Another empirical problem is the contamination of the comparison 
groups when the program evaluated is norm-based and value-laden. Many 
of the same educational elements implemented in the intervention groups 
are likely to be present in the comparison groups because more teachers 
in the present cultural climate affirm the abstinence message; teachers 
have a strong influence over learners in the values they impart.
    (2) Developmentally, this positivist methodology fails to 
adequately account for the emotional, social and moral domains of human 
development that together fully integrate human sexuality.
    Because human beings are whole persons, self-report responses to 
survey questions about sexual behavior provide a flawed and incomplete 
picture of each subject's genuine and holistic state of mind and heart. 
Jerome Kagan, one of the nation's leading social scientists in the 
field of human development, has said that the methods of social science 
observation in studying human behavior will always be greatly limited 
by the mode of observation chosen by the particular social scientist. 
Contrary to the position taken by supporters of the group survey 
methodology, operational principles of social science observation vary 
greatly; they are not universally applied to all types of subject 
matter. As Kagan, in the Nature of the Child observes, any given mode 
of observation of human subjects can reveal only a portion of events 
observed.\3\ That is, the responses given by adolescents to survey 
questions about their sexual behavior provide only a ``snapshot in 
time'' of what the respondent is truly experiencing and how he or she 
has actually behaved.
---------------------------------------------------------------------------
    \3\ Jerome Kagan, The Nature of the Child, Basic Books, 1994, p. 
18.
---------------------------------------------------------------------------

Principles of Whole Person Development Require Respect for Every Human 
                        Subject in K-12 Settings

    The same developmental and age-appropriate assumptions that guide 
abstinence-until-marriage model programming must apply to the survey 
instruments that evaluate the effectiveness of these programs. The five 
principles of age appropriate practice outlined below affirm the whole 
person reality and integrity of human subjects in K-12 group evaluation 
settings.
Principle #1: Human sexuality is strongly intertwined with social and 
        moral values
    The authors of Sex in America: A Definitive Survey, describe the 
erroneous concept of human sexuality that has dominated our culture for 
so long as ``the belief that the individual is the sole actor on the 
sexual stage'' The authors found instead that ``sexual behavior is 
shaped by our social surroundings. We behave the way we do, we even 
desire what we do, under the strong influence of the particular social 
groups we belong to.'' \4\ The theory of behavior change that guides 
the research base of the HIV/AIDS prevention establishment (and 
inappropriately grafted onto Title V evaluation) is the very same 
notion discredited by the Sex in America research. A review of HIV/AIDS 
prevention research literature consistently reveals that the underlying 
theoretical presupposition is to assist the individual conceived as 
``the sole actor on the sexual stage'' to make autonomous and rational 
decisions about sexual behavior.
---------------------------------------------------------------------------
    \4\ Robert T. Michael, John H. Gagnon, Edward O. Laumann, and Gina 
Kolata, Sex in America: A Definitive Survey, Little Brown and Co., 
1994, p. 16.
---------------------------------------------------------------------------
    In light of the differences over proper methodology that shape the 
Title V Evaluation debate, it is useful to review the methodology that 
was followed by the researchers that produced Sex in America. Adult 
subjects were interviewed by highly trained interviewers in their 
homes. The Sex in America methodology recognized the whole person 
nature of the subjects in these one-on-one interviews. By contrast, the 
method used in state and national Title V evaluation efforts has been 
to place in front of the adolescent respondent a hard copy survey or 
computer program and to assume that the students will be able to 
``report'' objectively and accurately on the subjective state of their 
minds and hearts with regard to their sexuality.
Principle #2: Ethics in evaluation require treating respondents as 
        whole persons
    The group survey method using self-report for explicit sexual 
behavior questions places great reliance on confidentiality and 
parental consent to frame its ethical requirements. The problem with 
self-report in the survey method is that the emotional dispositions of 
the person from whom the information is sought cannot be known. Because 
of this unpredictable element of emotional response, especially when 
the topic is sex, the aggregate results of respondents' self report are 
likely to be ``inconclusive.'' By and large, adolescent respondents are 
incapable of addressing their sexuality in the cognitive domain by 
separating out through an act of the will (upon assurances of 
confidentiality), the emotional, social and moral aspects that make 
them whole persons.
    The abstinence-until-marriage model's theoretical foundations, 
learning theory, and principles for evaluation rely on a view of the 
human person seen as a whole, not just in the part of the ``self'' that 
involves sexual behavior. The complex interconnections of the moral, 
emotional social and cognitive domains are at any moment in time an 
unknowable result of the survey's psychological impact on not only the 
mind, but the heart of the learner. As opposed to being a ``sole actor 
on the sexual stage,'' each person has an inner core--a personal 
dignity that must not be invaded except in a setting preceded by 
personal or parental consent, as in one-on-one counseling or in a 
therapeutic setting with licensed helping professionals.
Principle #3: Surveys containing personal questions about respondents' 
        sexuality are by that very fact psychologically invasive
    The fact that the survey carries a ``guarantee'' by its 
administrators of confidentiality is certainly an ethical imperative, 
but it is not the only ethical imperative that must be followed. 
Ethical considerations related to respecting research subjects as whole 
persons are paramount because the survey instrument is not only a tool 
for gathering data about sexual behavior, but it is also an 
intervention that is educational and therapeutic in its potential 
impact on the respondent. The survey that asks about sexual behavior is 
therapeutic in that it reaches into the respondents' personal inner 
core and alters it. It is educational in that it sends a message about 
sexuality under the authority of the survey administrators. Such 
interventions, whether educational or therapeutic in their impact, may 
be harmful in some cases to the healthy emotional, moral and social 
development of the adolescent.
Principle #4: The survey not only questions, it also teaches
    A prominent educator in the abstinence movement has pointed out 
that any survey that purports to measure sexual behavior change teaches 
adolescents at the same time that it questions them. When the subject 
is sex, school officials and parents have an instinctive sense of 
boundaries being crossed. The survey teaches and asks questions about 
personal sexual behavior to the adolescent in a value free context, and 
in so doing sends a message that contradicts the norm building essence 
of A-H in Title V. This is especially true for the respondents in the 
``no treatment'' comparison groups.
Principle #5: The same ``whole person'' principles of age-
        appropriateness apply to surveys as well as programs
    A common assumption made by many persons committed to the 
methodology of survey measurement of sexual behavior change is that the 
content of the intervention and the instrument by which the 
intervention is being evaluated exist on two totally separate tracks. 
In fact, principles of sexual development apply to human subjects when 
they are survey-takers just as they apply to these same whole persons 
when they are in the classroom. The survey is a teaching instrument as 
well as a research vehicle, and as such, must be subject to the same 
principles of adolescent development and age-appropriateness that guide 
the intervention being evaluated.
    The intellectual error plaguing the National Title V Evaluation and 
state evaluations is the concept that the programs that teach A-H and 
the survey research conducted to determine Title V program 
effectiveness exist in two separate realms. The assumption is that the 
program has educational purposes and potential impact that is social, 
psychological and cognitive, but the survey that is utilized as an 
evaluation tool has merely cognitive impact as an instrument for 
gathering data. The assumption that the subjects of the evaluation can, 
in a dualistic fashion, separate their cognitive selves from the rest 
of their whole personhood, is rooted in the empiricist/positivist 
school of behavioral research that is inappropriate for norm-driven 
programs that teach ``abstinence until marriage as the expected 
standard for all school age children''

    A Case Study Showing Emotional Harm to a Vulnerable 12-Year-Old 
                 Participant in a State Title V Survey

    By an unexpected set of circumstances, there is a documented case 
of serious emotional harm that was done to a twelve year-old boy who 
experienced a negative reaction as a result of participating in a state 
level Title V survey that asked him questions about his personal sexual 
behavior. This case is known to the officials in the state where the 
incident occurred. Given the cloak of confidentiality in the evaluation 
process, few events like the case described below are likely to be 
reported outside the small circle of any state or national evaluation 
effort. If such adverse emotional impacts are encountered, most school 
officials, parents and teachers would have no knowledge of the event 
(unless it was reported to them by students).
    In 2000, a state sponsored Title V evaluation survey was being 
administered in a cafeteria school setting to a number of students. The 
incident grew out of the emotional response of a 12 year-old boy who 
wrote the ``F'' word in letters so large on his survey booklet that it 
caught the eye of the survey administrator who was passing near his 
desk. The survey administrator was familiar with the school's policy 
against writing obscenities, and took the boy to the principal's 
office. The boy apologized to the survey administrator for his actions, 
but stated that many of the other students felt the same way. The 
principal made a decision to suspend the boy for 5 days from school. 
The boy was in a home without a father and apparently grew upset when 
he had to put down in the survey that his father was not in the home in 
which he lived. Already in an agitated state, the boy reacted strongly 
to the questions about his personal sexual life, and wrote the 
offending word in big letters across the page of the survey.
Human beings develop sexually as whole persons
    If we review again the findings of Sex in America, the response of 
this 12-year-old boy is not that surprising. This young person, who is 
now 13 or 14 years old, is a whole person who longs, as any young 
person would, for his father. If he were, as the HIV/AIDS prevention 
theorists and their predecessor, Alfred Kinsey, believe, a ``sole actor 
on the sexual stage,'' the question of whether his father was in the 
home or not should not have upset him so much. But whole persons have a 
sense of who they are and who they are is deeply shaped by the family 
structures in which they grow to maturity. This survey violated a young 
boy's personal core where he was exceedingly vulnerable.
    As whole persons, human beings think, feel and act simultaneously 
as both agent and object. The methodology of measuring sexual behavior 
change by self-reported student responses assumes that adolescents can, 
with reasonable ease and assurances of confidentiality, transform 
themselves into objective, self-therapists who through their cognitive 
domain examine their sexuality in an objective manner. The Sex in 
America findings confirmed that moral norms were key to how the adults 
in their study formed their views of sexuality and their concepts of 
who they were (Sex in America, p. 240). If we live as whole persons 
with our sexual attitudes and behavior, how can we assume that 
adolescents in their nature and sexual development are able to 
compartmentalize their sexuality and turn themselves into a subject for 
their own self study?
    Albert Bandura, Stanford Professor and Former President of the 
American Psychological Association, in his major book, Self-Efficacy: 
The Exercise of Control, has this to say about the integrated nature of 
our subjective and objective consciousness as human beings. Bandura 
says that, ``The duality of self as agent and self as object pervades 
much of the theorizing in the field of personality.'' We might also say 
that viewing the self in the dualistic framework of agent and object 
underlies the theoretical structure that pervades safer-sex/ HIV/AIDS 
research and the same intellectual error supports evaluating Title V 
through the use of surveys asking questions about sexual behavior. 
Bandura comments as follows:
    ``Social cognitive theory rejects the dualistic view of self. . . . 
It is one and the same person who does the strategic thinking about how 
to manage the environment and later evaluates the adequacy of his or 
her knowledge, thinking skills, capabilities, and action strategies. 
The shift in perspective does not transform the person from an agent to 
an object, as the dualist view of the self would lead one to believe.'' 
(Self-Efficacy: The Exercise of Control, p. 5.)

                               CONCLUSION

Under The Ethical Principle of ``Do No Harm'' No Group Surveys in K-12 
    Settings Should Include Personal Questions About Sexual Behavior

    The concept that most survey-takers will go along with the survey 
is not sufficient justification for this method The typical survey 
asking questions about sexual behavior relies on the fact that most 
students will probably conform to the expectations of the survey 
administrators. Their emotions will prompt them to go along because the 
survey administrators have authority over them. But under the ethical 
principle of ``do no harm'' the concept that most survey-takers will go 
along with the survey is not sufficient justification for this method. 
The intrusive questions can do emotional harm to young people from any 
walk of life but, as shown in the case study above, the emotional harm 
can be serious when it affects young people who are already vulnerable 
and who may not have involved parents to opt them out of intrusive 
surveys. The vulnerable minority of students who are at risk in our 
society are the most prone to risk taking in terms of drugs, sex and 
alcohol, are clearly also the most vulnerable to questions that invade 
their personal core.
    The evaluation of Title V should be rooted in the abstinence-until-
marriage model's own distinctive theory base that supports programs 
that teach the norm that abstaining from sex until marriage is the 
accepted standard for all school age children.'' The fact that both 
risk reduction and abstinence-until-marriage programs have similar 
goals of pregnancy prevention and STD reduction does not mean that they 
are rooted in the same theory of sexual behavior change. Using Albert 
Bandura's social cognitive theory as the foundation, a credible 
alternative approach can be utilized to evaluate Title V programs. This 
new direction should not depend on measuring sexual behavior change by 
asking pre-teens or teens invasive questions about their personal 
sexual behavior. These questions invade respondents' personal inner 
core and can therefore cause harm to some adolescents' emotional 
development. Under the principle of ``do no harm'' no adolescent should 
be placed at risk.

                                <F-dash>


                                                      Friends First
                                      Longmont, Colorado 80502-0356
                                                  November 28, 2001
Ways and Means Committee
    To Whom It May Concern:
    I am writing you in support of the Title V abstinence education 
funding. As a former ``Safe Sex'' educator in Boulder Valley School 
District, I have observed first hand the damage that occurs by 
misleading adolescents to believe that sex outside of marriage is free 
from consequences. I will always regret teaching that philosophy to 
teens, but at the time I had no other choices or options.
    Thanks to Title V, teachers and school districts now have choices 
to consider in sexuality education. Since starting FRIENDS FIRST in 
1993, I have seen incredible improvements with the type of sexuality 
education offered to schools, families, and communities. I strongly 
encourage you to reauthorize the good work that Title V has begun. We 
need to offer communities this choice too. I am attaching some letters 
of support for abstinence until marriage education that we have done 
over the last five years.
            Sincerely,
                                                        Lisa A. Rue
                                          Certified Health Educator
                                                      President/CEO
    [Attachments are being retained in the Committee files.]

                                <F-dash>


       Statement of Bob and Peggy Green, Cape Canaveral, Florida
    We support this measure one hundred per cent as a way to teach our 
children that the God given gift of sex should be preserved for the 
marriage bed and that it is a healthy thing to remain chaste until 
marriage. Giving condoms which cannot prevent all STDs is not the 
answer. Thank you.

                                <F-dash>


     Statement of Leslee J. Unruh, President and Founder, National 
          Abstinence Clearinghouse, Sioux Falls, South Dakota
Background
    As President and Founder of the National Abstinence Clearinghouse, 
I have an innate understanding of the problem of unwedded pregnancy--
especially teen pregnancy--and the best, safest way to prevent 
premarital pregnancies. I have been working with both sexually active 
and virginal teens for over 17 years, convincing them that sex is best 
when saved for marriage. They can decide not to have sex, no matter 
what decisions they have made in the past.
    I became interested in abstinence-until-marriage education after my 
husband and I founded the Alpha Center, a crisis pregnancy center, and 
The Omega Maternity Home, a home for pregnant girls and new moms, 
located in Sioux Falls, South Dakota. Through counseling clients and 
helping the mothers rebuild their lives, I came to realize that I was 
only treating the symptoms not the problem.
    The real problem is not premarital pregnancy. The problem is 
premarital sex. Premarital pregnancy is a symptom of premarital sex. 
Admittedly, there are problems solely associated with premarital 
pregnancy and birth; for example mothers who have children outside of 
marriage are much more likely to live in poverty. However, there are 
also problems associated with promiscuity. The current worldwide HIV/
AIDS pandemic and sexually transmitted disease (STD) pandemics have 
been caused by rampant sex outside of marriage. Premarital sex has also 
been linked to higher divorce rates,\1\ teen depression and teen 
suicide.\2\
---------------------------------------------------------------------------
    \1\ Joan R. Kahn and Kathryn A. London, ``Premarital Sex and the 
Risk of Divorce,'' Journal of Marriage and the Family 53 (1991): 845-
855.
    \2\ ``The Troubled Journey: A Profile of American Youth'' Search 
Institute, 1993. p. 8.
---------------------------------------------------------------------------
    My call to work in abstinence-until-marriage education was further 
strengthened while my son, Chase, was in 3rd grade. When he brought 
home a textbook from his science class, I took the opportunity to 
review the material he was being taught. The information in the text 
and the pictures were far beyond what I as a parent and abstinence 
educator deemed appropriate for his age and development level. The 
graphics would have been considered pornography had they been in a 
magazine. These pornographic pictures were being used to teach my son 
about sex! In addition, the lessons supported the idea that everyone 
was having sex and there were no consequences if the female was on 
birth control. When children are given this lesson, it is no wonder 
that they become sexually active before they are married.
    I lobbied state legislators in South Dakota and surrounding states 
to teach abstinence until marriage instead of comprehensive (condom) 
sex education. I began to speak to teens at churches and schools on 
taking charge of their lives. In my talks, I gave them a positive 
message that they do not have to become sexually active. For those who 
are already sexually active, I encourage them to make a change and to 
become secondary virgins. Studies have shown that most sexually active 
teens wish they had waited to have sex.\3\ I give the non-virgins a 
message of hope for the future. For those who were raped or sexually 
abused, I tell them that even if they had experienced these terrible 
abuses, there is hope and they do not have to turn to sex to experience 
love. Simple evaluation forms passed out after each of my presentations 
showed that many who had been sexually active are choosing secondary 
virginity, and those who are still virgins choose to remain so until 
marriage. These evaluations are not longitudinal studies, but a review 
of the 1997 teen pregnancy rates revealed that the four states where 
our abstinence program had been presented had four of the five lowest 
teen pregnancy rates in the nation.\4\
---------------------------------------------------------------------------
    \3\ ``Not Just Another Thing To Do: Teens Talk About Sex, Regret, 
and the Influence of Their Parents'' National Campaign to Prevent Teen 
Pregnancy. June 30, 2000.
    \4\ ``National and State-Specific Pregnancy Rates Among 
Adolescents--United States, 1995-1997'' CDC MMWR Weekly, July 14, 2000/
49 (27);605-611.
---------------------------------------------------------------------------
    In 1993, I began to network with abstinence speakers around the 
country through the Alliance of Chastity Educators (ACE). The goal of 
ACE was to exchange and coordinate abstinence-related ideas, projects 
and resources. As abstinence speakers, the other ACE members and I were 
bombarded by requests for trusted abstinence resources. It was obvious 
to all of us that a central location was needed where abstinence-until-
marriage materials could be easily evaluated, accessed and requests 
processed. The ACE members all felt that we must be united in this 
effort because the need for abstinence-until-marriage education was too 
great for anyone to meet alone. I accepted leadership of the project, 
and the Abstinence Clearinghouse became officially operational in 1997.
    The Abstinence Clearinghouse is the central location where 
materials and trainings are offered to effectively convey the 
abstinence-until-marriage message. The mission of the Abstinence 
Clearinghouse is to promote the appreciation for and practice of sexual 
abstinence (purity) until marriage through distribution of age 
appropriate, factual and medically-accurate materials. The 
Clearinghouse has a National Advisory Council, consisting of more than 
forty nationally known abstinence educators and supporters. In 
addition, the Clearinghouse and the Medical Abstinence Council is 
comprised of approximately 75 health professionals from across the 
country who are dedicated to not promoting or prescribing 
contraceptives to unmarried teens. We also have the Teen Abstinence 
Advocates who are committed to remaining sexually pure until marriage 
and an International Advisory Council consisting of individuals and 
organizations from across the globe working to promote abstinence in 
their own countries and communities.
Abstinence Defined
    There has been much debate as to what the definition of abstinence 
is. The members of the abstinence-until-marriage movement are not 
confused about the definition of abstinence. In fact, to end any 
confusion there may have been, the Abstinence Clearinghouse collected 
hundreds of definitions of abstinence. A panel of leaders in the 
abstinence-until-marriage field then decided on a definition. The 
abstinence-until-marriage definition of ``abstinence'' is as follows:

          ``The commitment to not engage in any sexual activity prior 
        to marriage. This includes intercourse, oral sex, anal sex, 
        mutual masturbation and any genital contact or other contact 
        that is sexually arousing.'' \5\
---------------------------------------------------------------------------
    \5\ Abstinence Survival Kit. Abstinence Clearinghouse, 2000. p. 13.

    The true abstinence-until-marriage educators are not confused about 
what abstinence means. Those who claim there is confusion probably 
support so-called ``abstinence-based,'' ``abstinence-plus,'' 
``abstinence-focused'' or other non-abstinence-until-marriage programs. 
Programs using these terms often include information about non-coital 
sexual behavior, contraception, safe sex and risk reduction while also 
mentioning not having sex as another option to avoid pregnancy and STD. 
These programs give a mixed message and confuse adolescents about what 
the best and expected behavior is.
Mixed Messages
    As a leader in the national abstinence-until-marriage movement, I 
always warn people to look out for ``wolves in sheep's clothing.'' 
These are programs which use the word ``abstinence'' in the title but 
are really comprehensive sex education. They may also be programs that 
support abstinence, but do not teach the children when it is socially 
acceptable to be sexually active. True abstinence-until-marriage 
programs follow the Title V A-H definition and teach adolescents that 
sex is only healthy and socially acceptable in a committed marriage.
    Programs that teach anything else give a fuzzy, mixed message. 
Programs that give the ``abstinence until an adolescent is ready'' 
message do not work. Every 16-year-old girl who thinks she is in love 
is ``ready.'' When programs explain that it is best to wait until an 
adolescent is out of high school, students become pregnant outside of 
marriage during their early twenties. The greatest number of premarital 
pregnancies is currently in the 20- to 24-year-old age group, not the 
15- to 19-year-old group.
    Other programs say abstinence is best, but if you are going to do 
it anyway, here is how to ``protect'' yourself. What this mixed message 
actually does is lower the standard of expected behavior. This message 
gives permission for adolescents to have sex.
Are Condoms Protection?
    A National Institute of Health study released July 2001, reviewed 
condom studies to determine the effectiveness of condoms against eight 
STDs--HIV, genital herpes, syphillis, gonorrhea, human papilloma virus 
(HPV), chlamydia, trichomonas and chancroid. The scientific panel found 
that condoms are 87 percent effective in preventing HIV transmission, 
and 40-76 percent effective against gonorrhea transmission from women 
to men, but only when they are used perfectly, during every sexual 
encounter. For every other STD there is no evidence that condoms slow 
transmission rates.\6\
---------------------------------------------------------------------------
    \6\ ``Workshop Summary: Scientific Evidence on Condom Effectiveness 
for Sexually Transmitted Disease (STD) Prevention'' National Institute 
of Allergy and Infectious Diseases, National Institutes of Health and 
Human Services. July 20, 2001.
---------------------------------------------------------------------------
    HPV can cause genital warts. Some strains cause no external 
symptoms; with these strains, the carriers may never know they have it 
and spread the disease. The strains that have no symptoms cause 90 
percent or more cervical cancer cases. Approximately 15,000 women are 
diagnosed with cervical cancer each year and 5,000 die. (Only 3,500 
women in the United States die from HIV/AIDS each year.) HPV has also 
been linked to cancer of the penis. It is estimated that 20 million 
people have HPV, and 5.5 million more will contract the disease this 
year. There is no cure for HPV. The disease is spread by skin-to-skin 
contact anywhere from mid thigh to mid stomach. Condoms can not cover 
all that area, but a wet suit will stop the spread of HPV.
    Condoms also can not stop the body from releasing oxytocin during 
sexual arousal. Oxytocin is a powerful hormone that creates permanent 
chemical bonds linking the person to their sex partner. Oxytocin allows 
men to vividly recall and mentally picture minute details of the sexual 
experience. In women, it creates an unbreakable linkage and emotional 
bond to their partner. Oxytocin explains why women will fight each 
other on national talk shows to keep a boyfriend who is currently 
sleeping with other women. It also explains why he is able to sit back, 
grin and enjoy his memories while they fight. Condoms do not stop 
oxytocin bonding.
    Teens who are given condoms have a 20 percent pregnancy rate in 
their first year of sexual activity. There is no evidence that they 
will slow the spread of most STDs. Condoms cannot protect the heart 
against heartache or stop teen depression and suicide linked to 
teenaged sexual activity.\7\ If premarital sex causes all of these 
problems and condoms do not stop many teens from becoming pregnant or 
contracting diseases, why are we giving condoms away with ``safer'' sex 
lessons? Why not tell the medically-accurate, factual truth that 
abstinence until marriage is the best and premarital sex, even with 
condoms is unhealthy?
---------------------------------------------------------------------------
    \7\ ``The Troubled Journey: A Profile of American Youth'' Search 
Institute, 1993. p. 8.
---------------------------------------------------------------------------
The Eighty Percent Contraception, Twenty Percent Abstinence Lie
    The good news is that abstinence-until-marriage education does work 
and it is being taught in more schools each year. According to the Alan 
Guttmacher Institute, 35 percent of schools teach abstinence-until-
marriage programs.\8\ The children and adolescents in these programs 
are not given destructive mixed messages or comprehensive sex 
education, but are taught the skills necessary to remain pure until 
marriage. Abstinence-until-marriage education was first given federal 
money in the early 1990s. The introduction of abstinence funds and 
abstinence education in schools coincided with the dramatic decreases 
in the teen pregnancy and abortion rates. Some groups claim that the 
decline of adolescent pregnancy and abortion was due 80 percent to 
better contraceptive use and only 20 percent to abstinence. These 
groups can not cite a source for these findings, as no factual, 
scientific study was ever published. Instead, it appears as though the 
numbers were made up and circulated on a ``talking points'' memo. A 
study was done that supported abstinence as the sole cause of the 
decline.
---------------------------------------------------------------------------
    \8\ ``Can More Be Done? Teenage Sexual and Reproductive Behavior in 
Developed Countries, Executive Summary'' The Alan Guttmacher Institute. 
November 2001.
---------------------------------------------------------------------------
    The Consortium of State Physicians Resource Council commissioned 
the study, ``Declines in Adolescent Pregnancy, Birth and Abortion Rates 
in the 1990s: What factors Are Responsible?''. The group of 11 
practicing physicians reviewed studies on types and frequency of 
contraceptive use by adolescents, sexual behaviors of adolescents and 
adolescent pregnancy, abortion and birth rates. The papers they 
reviewed came from a multitude of sources; a total of 45 articles were 
cited from organizations and journals such as the CDC, JAMA and Family 
Planning Perspectives.
    The physicians concluded that ``the evidence points to sexual 
abstinence, not increased contraceptive use, as the primary reason for 
the decline in teenage pregnancy and birth rates throughout the 
1990s.''\9\ Furthermore the authors found that there is a correlation 
between increased condom use and higher out-of-wedlock pregnancy. 
According to the studies they reviewed, abstinence-until-marriage 
programs have a greater success at producing abstinence behavior than 
do comprehensive sex education and mixed message programs.\9\
---------------------------------------------------------------------------
    \9\ ``Declines in Adolescent Pregnancy, Birth and Abortion Rates in 
the 1990s: What factors Are Responsible?'' The Consortium of State 
Physicians Resource Council, January 1999.
---------------------------------------------------------------------------
Conclusion: Solve the Problem: Don't Feed It
    Abstinence-until-marriage is the only 100 percent effective 
protection we can give our children and adolescents against premarital 
pregnancy and STDs. Let us not give them condoms and other 
contraceptives, which lead to unplanned pregnancy, HIV, HPV, 
heartbreak, depression and even future divorce. Let us give them a 
strong, clear message that abstinence and sexual purity is what is not 
only expected of them, but will also keep them healthy and happy. Let 
us give them abstinence-until-marriage education. 
[GRAPHIC] [TIFF OMITTED] T7054.004

                                <F-dash>

                     National Organization on Adolescent Pregnancy,
                                           Parenting and Prevention
                                               Washington, DC 20037
                                                  November 28, 2001
    House Ways and Means Subcommittee on Human Resources:
    The National Organization on Adolescent Pregnancy, Parenting and 
Prevention (NOAPPP) is a national membership nonprofit organization, 
with over 20,000 constituents and members from all fifty states who 
work in the field of adolescent pregnancy, parenting and prevention. 
Our members are educators, health professionals, administrators, and 
youth workers offering services to youth, parents and communities. 
Services are offered in schools, churches, neighborhood centers, 
hospitals, health facilities, and public institutions.
    Our agency and our membership are dedicated to preventing teen 
pregnancy, and to providing the best possible services for those 
teenagers who become pregnant and who are parenting. Our goals are to 
increase positive health and education outcomes for all youth so they 
can reach their full potential, including those who are pregnant and 
parenting, and their children.
    NOAPPP's Board of Directors has recently adopted two national 
policy statements that relate to Welfare Reform and Reauthorization and 
specifically address the following:

          1) the high correlation between childhood abuse, 
        interpersonal violence and teenage pregnancy, and
          2) comprehensive sexuality education and abstinence 
        education.

    Based on our experience with our constituents representing over 
twenty years of work in the field of adolescent pregnancy, parenting 
and prevention, NOAPPP strongly recommends that both policy statements 
be considered as TANF reauthorization is being reviewed.
    Thank you for the opportunity to respond.
            Sincerely,
                                                 Mary Martha Wilson
                                          Acting Executive Director
                                 ______
                                 

  Policy Statement on Interpersonal Violence and Adolescent Pregnancy

    Below is the policy statement of the National Organization on 
Adolescent Pregnancy, Parenting and Prevention, Inc. (NOAPPP) on 
interpersonal violence and adolescent pregnancy. The first section 
provides broad recommendations applying to a number of different 
fields. The third page has recommendations dealing solely with welfare 
legislation. These recommendations emanate from NOAPPP's value 
statements which, along with definitions, are described on page four.

                               The Policy

    Interpersonal violence and adolescent pregnancy are intricately 
intertwined. While no national data are available on all aspects of the 
relationships between these two factors, evidence available from state 
and other data suggest that:

          <bullet> Many adolescents are currently in violent or 
        coercive intimate relationships. This is particularly the case 
        for adolescents who become pregnant.\1\
---------------------------------------------------------------------------
    \1\ Evidence from a variety of samples suggests that no fewer than 
a quarter of adolescent mothers experience some form of interpersonal 
violence in the year surrounding their pregnancy, with some studies 
reporting rates of 50 to 80 percent (Leiderman S., Almo C., 
Interpersonal Violence and Adolescent Pregnancy. CAPD/NOAPPP, 2001).
---------------------------------------------------------------------------
          <bullet> Many women who become pregnant as adolescents were 
        violated or abused as children.\2\
---------------------------------------------------------------------------
    \2\ For example, a study in the state of Washington suggests that 
up to 66 percent of pregnant teens report histories of abuse (Boyer D., 
Fine D., ``Sexual Abuse as a Factor in Adolescent Pregnancy and Child 
Maltreatment,'' Family Planning Perspectives, Vol. 24: 4-11, 19, 1992).

    Due to the link between interpersonal violence and adolescent 
pregnancy, NOAPPP makes the following recommendations.
    1. NOAPPP recommends widespread efforts to inform, educate, and 
train practitioners and policymakers about the nature, extent and 
consequences of interpersonal violence and its links to adolescent 
pregnancy.
    2. NOAPPP recommends that community-wide supports and resources be 
made available that incorporate links among the full range of relevant 
fields (e.g., health, education, violence and violence prevention, law 
enforcement and criminal justice, mental health, and child and youth 
development). All supports need to be trauma-sensitive and provide non-
stigmatizing opportunities for adolescents who have experienced or are 
experiencing interpersonal violence to identify themselves and seek 
support.
    3. NOAPPP recommends trauma-sensitive comprehensive sexuality 
education that:

          <bullet> Includes information on the prevalence of 
        interpersonal violence in this country, and the different forms 
        that violence can take in relationships;
          <bullet> Includes a component on how to deal with coercive 
        behavior; and
          <bullet> Refrains from shame--and fear-based approaches as 
        well as abstinence-only-until-marriage for they run the risk of 
        re-traumatizing victims of violence.

    4. NOAPPP recommends that abstinence-only-until-marriage as the 
sole strategy for adolescent pregnancy prevention is inappropriate for 
a number of reasons including the high levels of coercion and violence 
in the lives of adolescents. Since teens' ability to choose abstinence 
is often compromised, it is imperative that we give adolescents all of 
the information and skills they may need to prevent pregnancy and 
sexually transmitted infections.
    5. NOAPPP recommends caution about promoting marriage among 
adolescents because of the prevalence of interpersonal violence in the 
lives of pregnant and parenting adolescents.
    6. NOAPPP recommends that supports for adolescents who have 
experienced interpersonal violence should balance strategies that build 
on and reinforce their strengths and resiliency with strategies focused 
on acknowledging and recovering from trauma and victimization.
    7. NOAPPP recommends resources to reduce or eliminate interpersonal 
violence in the lives of children and adolescents should be targeted to 
both men and women. Further, we believe it is important to acknowledge 
differences between the ways men and women experience violence in 
targeted programming and practice.
    8. NOAPPP recommends that changes be made in subsidized housing 
programs and domestic and homeless shelters to ensure that adolescents 
and their children can be placed in safe, stable and supportive 
housing. Pregnant and parenting adolescents who experience 
interpersonal violence need safe places to live, both in the short term 
when they are in crisis and for the longer term as they parent their 
children.
    9. NOAPPP recommends that practitioners have access to relevant 
best practices and receive training to identify typical consequences, 
behaviors, and attitudes stemming from violence and abuse and link 
adolescents with appropriate supports, programs, or treatment. They 
will also need to have access to secondary trauma support to prevent 
compassion fatigue.

       Policy Recommendations Related to Welfare Reauthorization

    1. NOAPPP recommends that the bonuses awarded to states that show 
the greatest reductions in the rates of out-of-wedlock births should be 
eliminated. This is consistent with our recommendation for caution when 
promoting marriage among adolescents. Rather, we recommend these 
resources be redirected to reducing rates of adolescent pregnancy 
through researched-based pregnancy prevention programs, including 
comprehensive sexuality education.
    2. NOAPPP recommends that youth workers, eligibility workers, and 
others who influence or inform teens about TANF regulations should 
understand fully, publicize, and implement existing exemptions to the 
minor parent living arrangement provisions in TANF. Further, NOAPPP 
recommends transitional determinations of eligibility to give teens 
time and opportunities to disclose information about interpersonal 
violence in their lives. Safe housing must be provided that allows 
parents and children to stay together (unless the minor parent is the 
perpetrator of the violence).
    3. NOAPPP recommends that each state and program review its 
regulations and practices with respect to paternity establishment, to 
make sure they are not putting adolescents at increased risk for 
interpersonal violence.
    4. NOAPPP recommends that states affirmatively identify pregnant 
and parenting adolescents who have been victims of interpersonal 
violence and may have difficulty meeting the applicable work, school, 
or living arrangement requirements. For these adolescents, states need 
to provide a qualified program that:

          <bullet> Re-establishes housing, income, transportation and 
        other supports;
          <bullet> Reinforces skills needed for school success that may 
        have been disrupted by interpersonal violence; and
          <bullet> Begins a process of healing and recovery.

           NOAPPP's Related Value Statements and Definitions

    NOAPPP's Board of Directors has adopted a set of seven value 
statements, which articulate the core philosophical beliefs of the 
organization. These value statements serve to inform the policies and 
practices of the organization. Four of these seven statements have 
particular relevance to the issues of interpersonal violence and 
adolescent pregnancy. These four statements are as follows:

          <bullet> We believe that effective adolescent pregnancy, 
        prevention and parenting programs are comprehensive, utilize 
        research-based strategies, demonstrate an understanding and 
        respect for the rights and capabilities of adolescents, and 
        include a range of stakeholders in the decision-making, 
        implementation and evaluation processes. We further believe 
        that identification and evaluation of innovative strategies and 
        promising approaches will serve the field.
          <bullet> We believe that all children deserve to grow up in 
        safe, nurturing environments that promote their healthy 
        development. We further recognize the responsibility to address 
        the multiple needs of children of young parents. We believe 
        that individuals and organizations in the field must have 
        access to the most current information on research, best 
        practices, and fiscal resources, as well as professional growth 
        opportunities.
          <bullet> We believe that the involvement of families, 
        communities, practitioners, schools, religious institutions and 
        local, state, regional and national coalitions and networks is 
        essential in addressing the issues of adolescent pregnancy, 
        prevention and parenting.

    Interpersonal violence (also called relationship or intimate 
partner violence): while there is no standard definition, interpersonal 
violence is usually defined as violent acts between individuals 
including throwing an object at someone, pushing, slapping, kicking, 
hitting, beating up, threatening with a weapon and using a weapon. 
Interpersonal violence may also include sexual assault, sexual abuse, 
stalking, psychological abuse, enforced social isolation, intimidation 
and the deprivation of key resources such as food, clothing, money, 
transportation or health care.\3\
---------------------------------------------------------------------------
    \3\ Technical Bulletin: Domestic Violence, No. 209, American 
College of Obstetricians and Gynecologists.
---------------------------------------------------------------------------
    Compassion fatigue: for a practitioner, cumulative feelings of 
being overwhelmed, exhausted and/or unable or unwilling to continue 
one's efforts to assist victims of maltreatment. Compassion fatigue is 
particularly likely to occur when a practitioner cannot access the 
resources to help everyone with whom he or she works, and/or when the 
root causes of the maltreatment persist.
    Secondary trauma: trauma experienced by a practitioner (or other 
person) trying to support or treat an abuse victim. Secondary trauma 
can be the result of repeated exposure to overwhelmingly painful or 
graphic information (especially in high volumes) and/or from 
resurfacing of one's own past abuse or trauma as a consequence of 
working with others.
    Trauma-sensitive: a condition of heightened awareness about the 
nature, extent and consequences of violence or abuse reflected in, for 
example, practitioner choices about how to work with young people, 
curricula offered, incentives and sanctions built into eligibility 
requirements and guidelines for programming, practitioner training, and 
legislative and other policies affecting young people.

         Policy Statement on Comprehensive Sexuality Education

    Below is the policy statement of the National Organization on 
Adolescent Pregnancy, Parenting and Prevention, Inc. (NOAPPP) on 
comprehensive sexuality education. The first section provides broad 
recommendations. The second section provides NOAPPP's value statements 
that are related to the issues of comprehensive sexuality education, 
and hence this policy statement. Definitions are provided at the end.

                               The Policy

    With reference to NOAPPP's values, and based on currently available 
evidence of the effectiveness of various strategies:
    1. NOAPPP recommends and encourages the teaching of developmentally 
and age-appropriate comprehensive sexuality education, as it holds the 
greatest hope for reducing the risk of sexually transmitted infections 
(STIs) and unintended pregnancy among adolescents.

          <bullet> NOAPPP believes the teaching of abstinence is an 
        integral part of comprehensive sexuality education.
          <bullet> NOAPPP supports comprehensive sexuality education 
        because it is research and evidenced-based, religiously 
        neutral, and free of fear-based and shame-based strategies.

    2. NOAPPP recommends ongoing training and professional development 
opportunities for those involved in teaching sexuality education 
because we believe comprehensive sexuality education should be taught 
by trained, qualified instructors.
    3. NOAPPP encourages open communication between parents and teens 
on the issues addressed by comprehensive sexuality education.
    4. NOAPPP recommends that all children and youth have access to 
information and clinical services that meet their age, developmental 
and reproductive health needs. This is especially important for 
sexually active adolescents and teen parents, for whom secondary 
prevention is critical.
    5. NOAPPP recommends that all adolescent pregnancy prevention 
programs require high quality quantitative and qualitative evaluation 
that is mandatory, not voluntary, and adequately funded at not less 
than 10 percent of the project's total budget.
    6. NOAPPP is concerned that many adolescents believe they are 
abstinent even though they are participating in sexual behaviors which 
could lead to STIs, HIV and pregnancy. For this reason, we encourage 
the adoption of a common definition of abstinence which includes 
refraining from the full range of sexual activity that can lead to 
pregnancy, STIs or HIV transmission.
    We encourage members and affiliates to use this policy to inform 
the development of state, local and/or institutional policies and 
standards.

           NOAPPP's Related Value Statements and Definitions

    The NOAPPP Board of Directors has adopted a set of seven value 
statements which articulate the core philosophical beliefs of the 
organization. These value statements serve to inform the policies and 
practices of the organization. Five of these seven statements have 
particular relevance to the issues of Comprehensive Sexuality 
Education.
    These five statements are as follows:

          <bullet> We believe youth can make responsible decisions 
        about sexuality, pregnancy and parenting, as well as be 
        effective parents when they have complete, accurate, culturally 
        relevant, age-, gender-, and-developmentally-appropriate 
        information, skills, resources and support.
          <bullet> We believe that effective adolescent pregnancy 
        prevention, pregnancy programs and parenting programs are 
        comprehensive, utilize research-based strategies, demonstrate 
        an understanding and respect for the rights and capabilities of 
        adolescents, and include a range of stakeholders in the 
        decision-making, implementation and evaluation processes. We 
        further believe that identification and evaluation of 
        innovative strategies and promising approaches will serve the 
        field.
          <bullet> We believe that both male and female partners are 
        equally responsible for preventing early pregnancy, as well as 
        supporting, nurturing and parenting their children.
          <bullet> We believe that individuals and organizations in the 
        field must have access to the most current information on 
        research, best practices, and fiscal resources, as well as, 
        professional growth opportunities.
          <bullet> We believe that the involvement of families, 
        communities, practitioners, schools, religious institutions and 
        local, state, regional and national coalitions and networks is 
        essential in addressing the issues of adolescent pregnancy, 
        prevention and parenting.

    Comprehensive Sexuality Education: developmentally appropriate 
sexuality education which provides complete, positive, accurate 
information on human sexuality throughout a person's lifespan, 
including, but not limited to: anatomy, human reproduction, intimate 
sexual behaviors, healthy relationships, sexual risk reduction and 
pregnancy prevention strategies (including abstinence and 
contraception), gender roles and stereotypes.
    Evidence-based: information that is supported by research, 
recognized as accurate and objective by leading medical, psychological, 
psychiatric, and public health organizations and agencies, and, where 
relevant, published in peer-reviewed journals.
    Abstinence: not engaging in any activity that puts one at risk for 
sexually transmitted infections or pregnancy.
    Religiously neutral: respecting all religious traditions while not 
preferring or promoting any one over another.
    Fear-based strategies: educational/motivational strategies that use 
misinformation and exaggeration or present `worst case scenarios' as 
the norm, for the purpose of scaring people from engaging in any 
activity that might put one at risk for sexually transmitted infections 
or pregnancy.
    Shame-based strategies: educational/motivational strategies that 
have the effect of shaming people for personal choices made relative to 
sexual conduct and behaviors or the consequences of one's choices.
    Approved by the NOAPPP Board of Directors, June 2, 2001.

                                <F-dash>


                                                   New Mexico GRADS
                                          Roswell, New Mexico 88203
                                                  November 29, 2002
    To whom it may concern:
    I realize there are many aspects to the re-authorization of TANF, 
but I would like to address two issues that I am familiar with. I am 
the pregnancy prevention coordinator for a teen parent program in New 
Mexico that utilizes TANF funds to recruit teen parents who have 
dropped out of school. We provide child care and services to ensure 
that these teen parents graduate from High school. Our teen parents 
have a much lower repeat pregnancy rate and a much higher graduation 
rate than the national average for teen parents. We feel that the TANF 
funds have been well utilized for these important goals, and encourage 
re-authorization for these funds. I have reviewed TANF changes proposed 
by Rep. Patsy Mink, and feel many changes will be beneficial EXCEPT for 
the cut in incentives for pregnancy prevention.
    Although non-federally funded abstinence programs began in some New 
Mexico schools in 1989, The Title V program of 1996 has proven to be an 
astonishing success in helping to reduce teen birth rates. After nearly 
3 decades, (all through which the safe sex message prevailed) new 
statistics from the National Center for Health Statistics show a 22 
percent decrease in teen birth rates from 1991 to 2000! We are on the 
right track and making significant progress in reducing the economic, 
physical and emotional burdens of teen pregnancy. Please ensure that 
these Title V funds continue this success.
            Thank You,
                                                     Kathy Van Pelt
                                   Pregnancy Prevention Coordinator

                                <F-dash>


    Statement of Pennsylvania Coalition to Prevent Teen Pregnancy, 
                        Harrisburg, Pennsylvania

            Supporting Documentation for Position Statements

   I. Parents/guardians are the primary sexuality educators of their 
                               children.

          <bullet> Strong parent/child relationships that promote open 
        communication about sexuality help prevent teen pregnancy.
          <bullet> Parents should be supported in obtaining the skills 
        and knowledge necessary to provide their children with clear, 
        accurate and developmentally appropriate information. They 
        should be encouraged to engage in an ongoing dialog with their 
        children to provide the information, skills and values they 
        need to grow into happy, healthy and sexually responsible 
        adults.
          <bullet> Children want their parents to talk with them about 
        values, relationships and sexuality.
Resources
    Effects of a Parent-Child Communications Intervention on Young 
Adolescents' Risk for Early Onset of Sexual Intercourse by Susan M. 
Blake, Linda Simkin, Rebeccca Ledsky, Cheryl Perkins and Joseph M. 
Calabrese.
    Talking with Kids About Tough Issues, Children Now and the Kaiser 
Family Foundation
    Talking with Kids About Sex and Relationships, Children Now and the 
Kaiser Family Foundation
    Shop Talk, Volume 5, Issue 24, Parent-Teen Communication and the 
Initiation of Sexual Intercourse, SIECUS
    Ten Tips for Parents, National Campaign to Prevent Teen Pregnancy
II. Young people deserve comprehensive and accurate information about 
        sexuality and reproductive health.
    Sexuality education is a lifelong process of acquiring information 
and forming attitudes, beliefs, and values about identity, 
relationships and intimacy. It encompasses sexual development, 
reproductive health, interpersonal relationships, affection, intimacy, 
body image and gender roles. Sexuality education addresses the 
biological, sociocultural, psychological, and spiritual dimensions of 
sexuality from the cognitive, affective and behavioral domain including 
the skills to communicate effectively and make responsible decisions. 
Sexuality education seeks to assist children in understanding a 
positive view of sexuality, provide them with information and skills 
about taking care of their sexual health and help them acquire skills 
to make decisions now and in the future.

          <bullet> Sexuality education does not increase teen sexual 
        activity.
          <bullet> More than eight out of every 10 Americans believe 
        that, in addition to abstinence education, young people should 
        be given information about protecting themselves from unplanned 
        pregnancies and STI's.
          <bullet> Programs should begin early and encompass the entire 
        educational experience of the child.
          <bullet> Education should include information on both 
        abstinence and contraception that is medically accurate.
          <bullet> The most effective sexuality education programs will 
        increase a teen's capacity and motivation to prevent pregnancy.
          <bullet> Research indicates that effective curricula have the 
        following characteristics:
                  <bullet> Clearly focus on reducing one or more sexual 
                behaviors that lead to unintended pregnancy or HIV/STI 
                infections
                  <bullet> Behavioral goals, teaching methods, and 
                materials were appropriate to the age, sexual 
                experience, and culture of the students
                  <bullet> Are base upon theoretical approaches that 
                have been demonstrated to be effective in influencing 
                other health related risky behaviors
                  <bullet> Last a sufficient length of time to complete 
                important activities adequately
                  <bullet> Employ a variety of teaching methods 
                designed to involve the participants had have them 
                personalize the information
                  <bullet> Provide basic, accurate information about 
                the risks of unprotected intercourse and methods of 
                avoiding unprotected intercourse
                  <bullet> Include activities that address social 
                pressures on sexual behaviors
                  <bullet> Provide modeling and practice of 
                communication, negotiation, and refusal skills
                  <bullet> Select teachers or peers who believe in the 
                program they are implementing and then provided 
                training for those individuals.
Resources
    Effective, Comprehensive Sexuality Education by Anna Hoffman--
Advocates for Youth
    Guidelines for Comprehensive Sexuality Education, National 
Guidelines Task Force
    Abstinence Based vs. Abstinence Only Sexuality Education, New 
Mexico Teen Pregnancy Coalition
    Support for Comprehensive Sexuality Education Reaches Highest 
Level, Advocates for Youth & SIECUS
    Abstinence Plus, Editorial, Philadelphia Inquirer, January 7, 2001
    Sexuality Education: Our Current Status, and an Agenda for 2010 by 
Susan Wilson, Family Planning Perspectives
    Sex Education: Politicians, Parents, Teachers and Teens, The 
Guttmacher Report on Public Policy
    Changing Emphases in Sexuality Education in U.S. Public Secondary 
Schools, 1988-1999 by Jacqueline E. Darroch, David J. Landry and 
Susheela Singh, Family Planning Perspectives
    9 of 10 Minnesotans Support Sexuality Education in Schools, Press 
Release, MOAPPP
    Tune In--New Mexico Attitudes on Sex Education, New Mexico Teen 
Pregnancy Coalition
    Teach Abstinence: Not IF, But HOW!, Family Life Matters, review of 
conference by Network for Family Life Education
    No Easy Answers by Douglas Kirby, Ph.D.
    Consensus Statement on Adolescent Sexual Health, National 
Commission on Adolescent Sexual Health
    Fact Sheet: The Next Best Thing: Encouraging Contraceptive Use 
Among Sexually Active Teens, National Campaign to Prevent Teen 
Pregnancy
    Teenage Sexual and Reproductive Behavior in the United States, 
Kaiser Family Foundation
    Myth or Fact? 1998 Kaiser Family Foundation Survey of Americans' 
Knowledge on Teen Sexual Activity and Pregnancy
    Abstinence Only Education: Why First Amendment Supporters Should 
Oppose It, National Coalition Against Censorship
III. Policy and program development addressing teen pregnancy 
        prevention should be based on current research and proven 
        strategies.
    The experiences of developing countries, the experience of the 
United States during the mid-1950's to the mid-1970's, and the results 
from a small number of evaluations of youth development programs all 
suggest that programs that focus upon education, employment, and life 
options for young people may markedly reduce adolescent pregnancy 
rates. Pregnancy prevention initiatives must have multiple effective 
components that address both adolescent sexual behavior as well as the 
other contributors to teen pregnancy including poverty, lack of 
opportunity, family dysfunction, as well as social disorganization.

          <bullet> Having a scientific basis for an approach shifts the 
        focus from opinions about the best way to prevent teen 
        pregnancy or about the consequences of taking a particular 
        action toward the firmer ground of facts and validated 
        experiences
          <bullet> We support gathering information about youth 
        behavior from the youth themselves with instruments such as the 
        Center for Disease Control's Youth Risk Behavior Survey
          <bullet> Research has shown that teens need a wide variety of 
        preventive strategies to choose healthy options to avoid 
        pregnancy
          <bullet> Research indicates that evaluated programs that have 
        been found effective have common characteristics:
                  <bullet> Information about abstinence and 
                contraception
                  <bullet> Theoretical basis that emphasizes skill 
                building
                  <bullet> Focus on active learning through 
                experiential activities
                  <bullet> Acknowledgment of social and media influence 
                on behavior
                  <bullet> Age appropriate information and activities
                  <bullet> Developmentally appropriate information and 
                activities
                  <bullet> Culturally appropriate messages
                  <bullet> Exploration of personal values and feelings
                  <bullet> Training for those implementing programs
          <bullet> We can learn from other industrialized nations who 
        have been more successful in preventing pregnancies, abortions 
        and births among teens.
Resources
    No Easy Answers by Douglas Kirby, Ph.D.
    Effective Comprehensive Sexuality Education, by Anna Hoffman, 
Advocates for Youth
    Solutions: Getting Real About Teen Pregnancy, Communications 
Sciences Group
    Start Early, Stay Late: Linking Youth Development and Teen 
Pregnancy Prevention, National Campaign to Prevent Teen Pregnancy
    Fact Sheet: The Next Best Thing: Encouraging Contraceptive Use 
Among Sexually Active Teens, National Campaign to Prevent Teen 
Pregnancy
    Teens on Sex: What They Say About the Media as an Information 
Source
    Adolescent Sexual Health in Europe and the U.S.--Why the 
Difference? By Sue Alford and Ammie Feijoo, Advocates for Youth
    Campaign Prospectus: Enlisting the Help of the Media to Reduce Teen 
Pregnancy, National Campaign to Prevent Teen Pregnancy
    Can the Mass Media be Healthy Sex Educators? By Jane D. Brown and 
Sarah N. Keller
IV. Young people should have access to safe and confidential sexual and 
        reproductive health care.
          <bullet> Our first priority should always be to encourage 
        teens to delay sexual activity. However, no matter how much 
        encouragement we give to youth to say ``no'', many will still 
        become sexually active
          <bullet> We support the Pennsylvania law that ensures 
        confidentiality to teens seeking pregnancy testing, 
        contraceptive services and diagnosis and treatment of STI's
          <bullet> Between 85-95 percent of sexually active adolescent 
        females who use no birth control method become pregnant within 
        one year of initiating intercourse.
Resources
    Adolescent Access to Confidential Health Services by John 
Loxterman, J.D., Advocates for Youth
    Family Planning/Population Reporter, Vol. 6 No. 4
    Family Planning and Adolescent Services, Family Health Council of 
Central Pennsylvania
    Issues in Brief: Minors and the Right to Consent to Health Care, 
Alan Guttmacher Institute
    Contraception Counts: Pennsylvania Information, Alan Guttmacher 
Institute
    State Policies in Brief: Minors' Access to Contraceptive Services, 
Alan Guttmacher Institute
    Serving Minors: Legal Guidance for Family Planning Providers by 
Susan Frietsche, M. Robin Maddox
    Fact Sheet: The Next Best Thing: Encouraging Contraceptive Use 
Among Sexually Active Teens, National Campaign to Prevent Teen 
Pregnancy
    The States in 1999: Actions on Major Reproductive Health Related 
Issues by Adam Sonfield, Anjali Dalal and Elizabeth Nash
V. The promotion of a culture that recognizes sexuality as normal and 
        promotes respect and responsibility will lead to a reduction in 
        negative consequences of sexual behaviors.
          <bullet> Recognize that all persons are sexual and that 
        sexuality is a natural, healthy part of living
          <bullet> Model healthy sexual attitudes and behaviors
          <bullet> Take responsibility for our actions
          <bullet> Demonstrate respect and tolerance for others
          <bullet> Teach that sexual relationships should never be 
        coerced or exploitive
          <bullet> Reject stereotypes about the sexuality of diverse 
        populations
          <bullet> Promote the rights of all people to accurate 
        sexuality information
          <bullet> Promote the development of healthy, non-sexual 
        relationships.
Resources
    Adolescent Sexual Health in Europe and the U.S.--Why the 
Difference? By Sue Alford and Ammie Feijoo, Advocates for Youth
    Talking with Kids About Sex and Relationships, Children Now and the 
Kaiser Family Foundation
    How to Talk To Your Kids About Anything, Children Now and the 
Kaiser Family Foundation
    Ten Tips for Parents, National Campaign to Prevent Teen Pregnancy
    Consensus Statement on Adolescent Sexual Health, National 
Commission on Adolescent Sexual Health
    Reconceptualizing Adolescent Sexual Behavior: Beyond Did They or 
Didn't They? By Daniel J. Whitaker, Kim S. Miller and Leslie F. Clark
VI. Pregnant and parenting teens should have access to quality health 
        care, education, and support services, with the main goal of 
        promoting health and preventing repeat teen pregnancies.
    All new parents are tested both financially and emotionally when 
their first child is born. For teen parents, the stresses are 
proportionately greater because they have not had the time to become 
fully independent adults. Teenage parents often experience inequity in 
education and encounter discrimination when they seek housing and jobs. 
Teenagers with children face a greater risk of not completing high 
school or finding the resources to pursue a college degree. More often 
than not, these young adults must nurture their children while living 
in poverty or on the edge of poverty.

          <bullet> Repeat births to teenagers carry high individual and 
        societal costs
          <bullet> One-third of pregnant teens receive inadequate 
        prenatal care; babies born to young mothers are more likely to 
        be low birth weight, to have childhood health problems and to 
        be hospitalized than are those born to older mothers
          <bullet> In 1997, 1 of every 6 (17 percent) adolescents had 
        no health coverage
          <bullet> 50 percent of adolescents who have a baby become 
        pregnant again within two years of the baby's birth
          <bullet> In 1996, 22 percent of all births to 15-19 year old 
        women in the U.S. were repeat births
          <bullet> Households begun by teens account for 44 percent of 
        the welfare caseload and over half of all welfare expenditures 
        go to families started by a teen birth
          <bullet> The federal government spends approximately $38 
        billion a year to families that began with a teen birth and 
        invests only $138 million a year in preventing teen pregnancy
          <bullet> Repeat childbearing is common in all race and ethnic 
        groups
Resources
    Why Invest in Teen Parents, Alliance for Young Families
    Sex and America's Teenagers, Alan Guttmacher Institute
    Facts prepared by Dr. Marianne E. Felice, UMASS, for Campaign for 
our Children, Inc.
    Centers for Disease Control Fact Book 2000-2001
    Births and Deaths in the United Sates, S. J. Ventura, K. D. Peters, 
J. A. Martin & J. D. Maurer, National Center for Health Statistics
    Teen Pregnancy and Parenting Issues in Pennsylvania by Anastasia 
Snyder
    Cost Study, Advocates for Youth

                                <F-dash>


Statement of Kathleen M. Sullivan, Director, Project Reality, Glenview, 
                                Illinois
    Project Reality, a 501(c)(3) not-for-profit organization, though 
not funded by any federal agency, is one of the largest abstinence 
education providers in the country. The attached annual Illinois 
Project Schools Report illustrates how we served 52,000 students in 350 
schools in Illinois during the 2000-2001 school year. Our programs are 
a remarkably cost-effective approach to teaching abstinence until 
marriage as the healthiest lifestyle choice for adolescents, thus not 
only addressing the teen out-of-wedlock pregnancy problem but the 
emotional and medical problems associated with adolescent sexual 
activity.
    Our successful experience in Illinois over the last 16 years is now 
beginning to be replicated in many other states as a result of the 
funding provided by Title V block grants through The Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996 (P.L. 
104-193). Reauthorization of this provision, and a substantial increase 
in the appropriation for it, would be THE most cost effective approach 
to ensuring the emotional and physical health of our young people 
across the nation.

                                <F-dash>


            Statement of Project Reality, Glenview, Illinois

               Illinois Project Schools Report 2000-2001

    Project Reality, a 501(c)(3) not-for-profit organization, has been 
a pioneer in the national field of adolescent health education, 
developing, teaching and evaluating abstinence-centered programs in the 
public schools since 1985. Project Reality has administered three 
divisions for more than a decade under a grant funded by the State of 
Illinois Department of Human Services. Two divisions have sites 
throughout the state. The third is concentrated in the City of Chicago. 
In addition to abstinence curricula and related materials, in-service 
teacher training seminars are provided for all participating schools, 
as well as a variety of motivational speakers for school assemblies.
    During the 2000-2001 school year, Project Reality conducted five 
REALITY CHECK rallies in four high schools in the Chicago area and 32 
school assemblies and presentations throughout the state. These 
inspiring and educating events reached 16,535 teens and 225 parents 
with an exciting reinforcement of the instructional program we provide 
in their schools.
    In May 2001, Project Reality published and introduced an exciting 
and innovative new abstinence text A. C. Green's GAME PLAN Abstinence 
Program developed in conjunction with NBA ``Ironman'' A. C. Green.
    The three divisions and a brief description are as follows:
Middle School Division, Statewide, Grades 6-10
    Eight-unit series with strong medical emphasis. Values-based, 
abstinence-focused curricula that gives teens the information and 
training they need to discover for themselves that abstinence until 
marriage is the ``best choice'' and helps them reduce at-risk sexual 
behavior. Includes student workbooks and teacher manuals.
                    In 2000-2001, served 32,480 students in 217 schools
Senior High School Division, Statewide, Grades 10-12
    A 15-unit program emphasizing the abstinence concept as the 
healthiest way of living. By stressing the composite approach of saying 
``No'' to pre-marital sexual activity, drugs and alcohol, young people 
learn that maturity is learning how to think of others rather than self 
and to set long-range goals instead of indulging in immediate pleasure. 
Includes both a student workbook and a parent/teacher manual.
                      In 2000-2001, served 4,335 students in 33 schools
Chicago Division (Southwest Parents Committee), Grades 7-11
    A two-part series presented by a seven-member team whose 
credentials include medical, educational and bilingual training. The 
presentations explain the emotional as well as physical benefits for 
adolescents who choose abstinence until marriage as ``the healthiest 
lifestyle.'' Each session includes lively discussions, role-playing, 
and question and answer periods. Separate presentations for parents are 
provided.
     In 2000-2001, served 11,064 students and 961 parents in 99 schools

                                <F-dash>


Statement of REACH (Responsibility Education for Abstinence, Character 
                        & Health), Arcanum, Ohio
    I am writing in support of the reauthorization of federal funding 
for abstinence education under Title V of the Welfare Reform Act. I 
write primarily as a concerned parent of two (soon to be 3) teenagers. 
I want to protect our children from the heartache, regret, and physical 
consequences of premarital sexual activity. As parents, we want to 
inform and inspire our children to commit to sexual abstinence until 
marriage and avoid risk behaviors in general.
    That too, is the guiding principle for the organization I direct. 
R.E.A.C.H. is a non-profit organization founded by a group of concerned 
parents and professionals. We are also current recipients of Title V 
Abstinence Education Funding in Ohio. Our purpose is two-fold--to help 
parents, schools, and the community in promoting:
    1) Character Education in children through education and the 
practical application of such basic principles as honesty, self-
discipline, patience and respect for self and others. Strong character 
is the foundation for ethical and wise behavior. Our society has 
changed--even since we were young. Too often, self-sacrifice has been 
replaced by self-absorption, patience for immediate gratification, 
honesty for deception. We are experiencing a crisis of character in our 
nation, which is showing itself in a variety of irresponsible acts 
(violence, inappropriate sex, drug/alcohol abuse, etc). It is our 
character that determines our behavior. It's who we are when no one is 
looking. Character is the internal motivation demonstrated by our 
outward conduct. Character education says ``You do not have the right 
to do wrong''. It places personal responsibility and self control 
within the definition of freedom. It teaches and reinforces universal 
core ethical virtues within the context of family and community.
    2) Character-Based Abstinence Until Marriage Education as the only 
safe and wise choice--physically, emotionally and socially. With the 
incidence of sexually transmitted diseases among teens reaching 
epidemic proportion, contraceptive education is NOT a medically safe 
solution to the problem. We must challenge youth to the higher standard 
of risk elimination (abstinence), not merely risk reduction 
(contraceptive education). R.E.A.CH is committed to help teens choose 
the healthy choice of character-based pre-marital abstinence. With the 
onslaught of messages from our sex-saturated society, youth often 
believe the lie that ``everybody's doing it'', when in actuality, 
everybody is NOT doing it. Recent research shows that teens want to 
hear a clear message of abstinence from parents and adults. Abstinence-
until-marriage education gives youth the skills, knowledge, and 
motivation to say ``no'' to risky behavior, guilt, STDs and instant 
gratification and ``yes'' to future goals, self-control, self respect, 
and faithfulness within marriage.
    REACH is in the midst of its third year of program services to 
Ohio. Funded under Title V, with the Darke County Educational Service 
Center as our fiscal agent, we serve both Darke & Preble Counties in 
Ohio. The community collaboration has increased each year as citizens, 
schools, and agencies recognize the value of character-based abstinence 
education. Until funding under Title V was approved, the rural counties 
we serve did not receive any comprehensive abstinence education. Today, 
however, we provide valuable services to every school in these two 
counties. REACH seeks to saturate both counties with the motivational 
and educational components of character and abstinence until marriage 
education, involving those sectors of society that exert the greatest 
influence over youth's lives: parents, schools, churches, peers, health 
care providers, and the media. Utilizing both knowledge and ideas of 
traditional and grassroots innovations, the goal remains to reduce 
sexual activity, pregnancy and birth rates among unmarried teens. This 
past year (2000-01), REACH served 21,465 students and adults.
    As is true of all risk behaviors, premarital sexual activity is a 
symptom of a much deeper concern involving the character choices of 
that individual. Learning and internalizing the character strengths of 
self-control greatly decrease the onset of sexual activity. Primary and 
secondary risk prevention focus on skills and character asset building. 
Schools teach character based abstinence education in an age 
appropriate manner. Grades K-6 focus on foundational character 
education, with grades 7-12 building on character foundations for 
abstinence education. Character education, coupled with the social, 
psychological, economic and medical benefits for choosing premarital 
abstinence, help teens avoid risk behavior in favor of self sufficiency 
and the attainment of life goals. The choice of renewed virginity is 
discussed and offered as a valid choice for those who are already 
sexually active. Stress is given to the fact that, while we can't 
change what happened yesterday, we can decide what we do tomorrow. 
Additionally, abstinence commitment cards are used as an integral part 
of the REACH program. Studies confirm that those teens who make a 
pledge to abstinence until marriage--are much more likely to wait 
before becoming sexually active.
    Professional training seminars give teachers, social workers, 
medical professionals, community youth advisors, peer leaders and 
parents workable strategies for steering youth toward a new or renewed 
commitment for abstinence.
    Parent proficiency is a vital component of all REACH services. We 
focus on providing parenting information related to character training 
and abstinence education for parents to use with their own children. 
Media awareness sets the stage for requests for services and for 
raising the awareness of the need for parent involvement in developing 
assets in youth.
    Each component is statistically evaluated using pre/post testing, 
exit surveys, and process evaluations. Special effort is made to 
appraise the success in reaching those members of the community who 
most need the character based abstinence message. Analysis of teen 
birth rates and STD rates are be used to measure project success. Since 
REACH began service provision, birth rates have decreased in the 
counties we serve.
    Abstinence funding under Title V has made the difference in the 
quality of the message and the content of the teaching in our schools. 
In addition to the process results measured in terms of increased 
exposure to character-based abstinence content, children and youth in 
Darke and Preble counties in Ohio are sharing measurable changes in 
attitudes and reported behavior. We hired an independent team to 
evaluate the success of the REACH program for character based 
abstinence education. Consider these results:

          <bullet> 50 percent of students surveyed made new abstinence 
        until marriage pledges as a result of REACH services.
          <bullet> The percentage of students seeing lots of benefits 
        to waiting for sex until marriage increased significantly, 
        girls feeling more strongly than boys in pre/post testing (54.5 
        percent to 62 percent) (p. 01)
          <bullet> The percentage of students disagreeing that sex is 
        okay if the partners agreed increased significantly, girls 
        being influenced more than boys, and younger students believing 
        more strongly in abstinence (55.7 percent to 63.8 percent 
        girls)
          <bullet> Both males and females said they will wait for 
        marriage to have sex, girls and younger students believing more 
        strongly
          <bullet> The majority of students stated positive reactions 
        to the REACH program (56 percent rated excellent or good) (58 
        percent claimed it helped in their commitment to abstinence)
          <bullet> Parents in our service area almost universally 
        support the ``abstinence until marriage'' practice for their 
        children (phone survey--90 percent)
          <bullet> Responses to motivational speakers supporting 
        abstinence until marriage was overwhelmingly positive. Over 
        sixty (60) percent stated commitment for abstinence, forty-five 
        (45) percent indicated that as a result of REACH services, they 
        were going to make positive changes in their personal lives, 
        and over thirty (30) percent said they would start respecting 
        those they date. Once again, females and younger students 
        responded more positively.

    The charts that follow visually demonstrate the positive results of 
abstinence until marriage education: 
[GRAPHIC] [TIFF OMITTED] T7054.003


                        A COMPARISON OF STRATEGIES FOR ADDRESSING TEENAGE SEXUAL ACTIVITY
----------------------------------------------------------------------------------------------------------------
                                                Risk elimination                      Risk reduction
----------------------------------------------------------------------------------------------------------------
Common name..........................  ``Abstinence Until Marriage''....  ``Safer Sex''.
 
Success indicator....................  Reserve sexual activity for        Increase usage of condoms.
                                        marriage.
 
Effectiveness in the reduction of out  100 percent effectiveness (no      Up to 24 percent of teens relying on
 of wedlock pregnancy/birth.            sexual activity=no pregnancy).     condoms become pregnant in the first
                                        ``Abstinence and decreased         year of use.\2\
                                        sexual activity among sexually    Furthermore, ``out of wedlock
                                        active adolescents are primarily   birthrate among sexually experienced
                                        responsible for he decline         and sexually active female teens has
                                        during the 1990's in adolescent    increased since 1988, despite a
                                        pregnancy, birth and abortion      significant increase in condom use by
                                        rates.'' \1\.                      this cohort''.\3\
 
Effectiveness in the prevention of     If two virgins marry each other    Condom usage provides no risk
 STDs (sexually transmitted diseases).  and remain faithful, no STDs       elimination for any sexually
                                        will be transmitted.\4\.           transmitted disease. There is,
                                                                           however, an 85 percent risk reduction
                                                                           for HIV, as well as some risk
                                                                           reduction for gonorrhea for men. This
                                                                           effectiveness however is only noted
                                                                           when condoms are used correctly and
                                                                           consistently--100 percent of the
                                                                           time. There is no condom protection
                                                                           for the sexual transmission of HPV,
                                                                           one of the most common STDs and the
                                                                           cause of 99 percent of cervical
                                                                           cancer, a cancer causing the death of
                                                                           almost 5000 American women a year
                                                                           (more women than die of AIDS). No
                                                                           effectiveness has been demonstrated
                                                                           in the effectiveness of condoms
                                                                           against five other STDs (chlamydia;
                                                                           syphilis, chancroid, trichomoniasis,
                                                                           genital herpes).\5\
 
Effectiveness in the delay of onset    Those who made a pledge for        Earlier sexual debut translates into
 of sexual activity before marriage.    abstinence delayed sex 1 to 2      more lifetime sexual partners and a
                                        years longer than their            consequential increased risk of
                                        peers.\6\ Teens who personally     acquiring an STD Students in Sweden
                                        commit to abstinence until         (a country held as a model for
                                        marriage delay sex significantly   comprehensive sex education) are
                                        compared to those who don't.\7\.   beginning sexual activity at earlier
                                                                           and earlier ages, even though
                                                                           contraceptives are easily accessible
                                                                           to all.. Although these findings
                                                                           can't necessarily be generalized, the
                                                                           results are noteworthy.\8\
 
Funding for each strategy............  $50 million per yr for 5 years     $700 million per year.\10\
                                        \9\.
----------------------------------------------------------------------------------------------------------------
\1\ ``The Declines in Adolescent Pregnancy, Birth and Abortion Rates in the 1990s: What Factors Are
  Responsible'', Consortium of State Physicians Resource Councils, January 1999.    \2\ Fu H, Darroch JE, Haas T
  and N Ranjit N. ``Contraceptive Failure Rates: New Estimates from the 1995 National Survey of Family Growth''
  Family Planning Perspectives, 1999, 31 (2):56-63.    \3\ ``The Declines in Adolescent Pregnancy, Birth and
  Abortion Rates in the 1990s: What Factors Are Responsible'', Consortium of State Physicians Resource Councils,
  January 1999.    \4\ C. Everett Koop, MD, former US Surgeon General: ``When you have sex with someone, you are
  having sex with everyone they have had sex with for the last ten years, and everyone they and their partners
  have had sex with for the last ten years.''    \5\ (National Institutes of Health report: ``Scientific
  Evidence on Condom Effectiveness for STD Prevention'', June 12,13, 2000).    \6\ Beerman, P., Bruckner, H..
  ''Promising the Future: Virginity Pledges as they affect the Transition toFirst Intercourse'' American Journal
  of Sociology, Jan. 2001.    \7\ National Institutes of Health News Release, ``Virginity Pledge Helps Teens
  Delay Sexual Activity'' January 4, 2001.    \8\ Forsberg, Margareta, ``Adolescent Sexuality in Sweden--A
  research review 2000'', Swedish National Institute of Public Health).    \9\ Section 510 of Title V,
  Abstinence Education Funding of the Welfare Reform Act of 1996.    \10\ Scott Evertz.

                                <F-dash>

    Abstinence education raises the bar of expectations for young 
people by challenging them to choose abstinence until marriage, while 
other programs only focus on pregnancy prevention and reducing the teen 
birth rate. Far from being a `just say no' model, abstinence education 
focuses on the whole person--physically, emotionally, socially--
encouraging them to set future goals and make good decisions related to 
all life choices, not the least of which is a commitment to abstinence. 
A choice for abstinence is really about saying, ``yes'' to the rest of 
your life. Any successful society relies on the very strengths that are 
built in abstinence education, for life achievements are gained by 
exchanging self gratification for consideration of others; instant 
satisfaction for self control. Strengthening and developing character 
is an integral component, since responsibility, respect, and self worth 
are all tied to the choice of premarital abstinence. Abstinence 
education teaches resistance skills, resiliency strengths and asset 
building techniques. It encourages and equips parents to take an active 
role in teaching their children the value of abstinence, since the 
abstinence paradigm believes that parents should be the primary sex 
educators of their children. The wisest usage of taxpayer money 
includes abstinence education. Abstinence education only costs about 
$25 per person. Each teen who chooses abstinence rather than sexual 
activity will save taxpayers much more than that 25-dollar investment. 
Every teen who doesn't get pregnant--because they choose abstinence, 
saves taxpayers a minimum of $14,000 each year. Each teen that doesn't 
get an STD because they choose abstinence saves taxpayers a minimum of 
$400 in basic STD treatment each year. That's quite a return on 
investment! $25 investment for a savings of about $15,000 per student!
    Beyond a strictly financial savings, however, don't we want to 
encourage our next generation to choose the best future for themselves, 
and their children? Study after study agrees that children born within 
marriage stand a better chance for future success and parents who are 
married are more financially secure--allowing them to build a good nest 
for their babies--and reducing the burden on taxpayers for financial 
support.
    For too long, we adults have not believed that teens have the self 
control and character strength to wait on sex. We have encouraged 
behavior that is not safe, adding, ``make sure you use a condom.'' 
Abstinence education raises the bar of expectations for our youth. 
Abstinence education says, ``You have value; you have potential; you 
have the capacity to make the healthiest decisions for your life--
saving sex for marriage'' and then we provide the skills and 
encouragement to do just that.
    Abstinence Education isn't ``just say no'' education. It's so much 
more comprehensive and positive than that. It helps children develop 
character so they have the inner strength and drive to make good 
choices, not only in the area of sexual activity, but in many life 
decisions. Abstinence Education is effective. Consider sample comments 
we received after being in schools in Darke & Preble Counties: ``Before 
(you came), I was thinking of committing suicide . . . but after 
(wards), I realized that I have a whole life ahead of me,'' and 
another, ``You were an inspiration. You made me think twice about my 
future decisions. I'm glad you came'' and yet another, ``I thought 
about sex and doing it, but now I'm going to save myself'', and 
finally, ``I found it the most impacting presentation I've seen since I 
began attending school''.
    For the many reasons stated above, I encourage you to continue 
funding for abstinence education. Compared to the numerous federal 
dollars going toward family planning, the funding for abstinence 
education is negligible. In the interest of health for our children, I 
encourage funding reauthorization for abstinence education at an amount 
that reaches parity with family planning dollars. If you desire any 
additional information about the success of abstinence education in our 
state, I would be happy to supply it.
    Please help us impact the next generation for health, and success 
by funding abstinence education, Thank you.
      

                                <F-dash>


      Statement of William (Bill) Wood, Charlotte, North Carolina
    In my spare time, I volunteer to help families and children in the 
State of North Carolina and around the country. I am a principal 
custodian of a 10 year-old girl and this statement does not necessarily 
represent the views, or the opinions of any other group or individual 
other than me.
Forward
    For the first time in American History, we stand at the edge of a 
cliff, facing the almost certain possibility of falling off the edge if 
we do not act swiftly, decidedly, and with certainty. This precarious 
position is not from outside terrorist attacks, though certainly the 
infamy of the horrible atrocity of September 11th will never be 
forgotten; this precarious position is one where we stand directly at 
the crossroads of creating the self-sustained internal destruction of 
our country by the rising tide of illegitimacy, now exceeding ONE-THIRD 
of all child births \1\ coupled with the directly related problem of 
divorces affecting 50 percent of marriages.
---------------------------------------------------------------------------
    \1\ National Center for Health Statistics, 1999.
---------------------------------------------------------------------------
    It is imperative that our legislators and all Federal and State 
elected representatives take swift, decisive, and certain actions to 
shore up marriage, and to immediately stem the tide of divorce. 
Otherwise, just as the Titanic sunk to the bottom of the ocean with a 
relatively small breach in its hull, so America faces the very real 
possibility of becoming a footnote to a once great Nation in future 
history books.
    This paper is for the millions of voiceless children represented by 
this issue who are not able to offer their own testimony. It is not 
meant to be more child centered propaganda by special interests 
claiming to represent children. Yet these special interests somehow 
routinely miss the mountains and volumes of social studies data proving 
that their ``deadbeat'' special interest policies joined with 
``deadbeat'' government actions are the direct cause of the suffering 
of those children. Both the unwed teen mothers, and the children of 
those mothers alike suffer from these ``deadbeat'' special interests.
Introduction--Roots must be identified
    I am particularly partial to a quote by American Author Henry David 
Thoreau (1817-1862), where he says;

          There are a thousand hacking at the branches of evil to one 
        who is striking at the root.

    We can easily spend a lifetime ``hacking at the branches'' of 
illegitimacy, but until we begin to ``strik[e] at the root,'' the 
problem will persist and will continue to grow worse. Getting close to 
``the root'' requires that we look at what illegitimacy is in order to 
understand how to change it.

          illegitimacy--The state or condition of a child born outside 
        a lawful marriage.--Also termed bastardy.\2\
---------------------------------------------------------------------------
    \2\ Black's Law Dictionary. Abridged Seventh Edition, pg 598. West 
Group (2000)

    Illegitimacy by its very definition and meaning is narrowly defined 
as a condition of childbirth outside of marriage. Therefore, any 
discussion, program, and issue that is intended to deal with 
illegitimacy must address marriage (and conversely divorce) or it does 
not deal with the roots of illegitimacy. For some special interests, 
the subjects of marriage and divorce are particularly charged with a 
tremendous amount of acrimony and hatred for anyone daring to suggest 
that marriage must be promoted and divorce must be curtailed.
The Tide on Teen Pregnancy--our modern mess
    Single motherhood, once lauded by the feminist icon ``Murphy 
Brown,'' has thoroughly produced its cultural ``poisoned fruit'' 
(Candace Bergen and the feminists attacked then Vice President Dan 
Quayle for his support of the traditional family.\3\ Though Dan 
Quayle's support of the traditional family was derided, his warning was 
quite prophetic in hindsight. Recently this issue was revisited by The 
Wall Street Journal;
---------------------------------------------------------------------------
    \3\ June 1992, Vice President Dan Quayle criticized the TV show 
Murphy Brown for promoting single motherhood. Chaos ensued and he was 
incessantly ridiculed by Hollywood and the media. Candace Bergen wins 
an Emmy for her portrayal of Murphy Brown and begins another career 
giving commencement speeches on University campuses. [Author 
commentary] With the complete absorption of feminist, anti-family, 
anti-father philosophy so deeply entrenched in Hollywood, the media, 
and gaining a stranglehold over the courts, is it any wonder that 
families are being destroyed, children are suffering, and our culture 
is decaying?

        [I]n the years since Mr. Quayle first raised the issue in his 
        ``Murphy Brown'' speech, the number of single-mother families 
        has grown by 25 percent, to 7.5 million. And though there has 
        been some good news--teen pregnancies have leveled off, as has 
        the African-American illegitimacy rate--the levels remain quite 
        high.
        Indeed, by almost any measure (the likelihood of teenage 
        pregnancy, of going to prison, of dropping out of school, of 
        taking drugs) the risks escalate dramatically for those who 
        grow up without a biological father in the home.
        National Center for Health Statistics reports that today nearly 
        seven out of 10 African-American children are illegitimate--
        with the rates for Hispanics and non-Hispanic whites having 
        risen, respectively, to 42 percent and 22 percent. Clearly this 
        problem crosses racial barriers.\4\
---------------------------------------------------------------------------
    \4\ The Dad Deficit. Dan Quayle was still right. June 15, 2001. The 
Wall Street Journal.

    Putting those numbers in human terms, we are approaching 7 out of 
10 African-American children being born outside of marriage, just over 
2 out of 5 Hispanics, and just over 1 out of 5 Caucasians. The raw 
numbers and huge percentage of illegitimate births is frightening. For 
---------------------------------------------------------------------------
example, according the a recent Washington Times article;

        A record 1.3 million babies were born out of wedlock in 1999, 
        marking the first time that a full one-third of all U.S. births 
        were to unwed mothers, the federal government said yesterday.
        The greatest failure of welfare reform is that the governors 
        have grievously neglected the issue of marriage[,]. . . adding 
        that only four governors, including President Bush during his 
        the governorship of Texas, have promoted marriage in any way.
        The sole reason that welfare exists is the collapse of 
        marriage--it is a huge national tragedy that this country 
        spends $1,000 subsidizing single parenthood for every $1 it 
        spends trying to promote marriage and prevent illegitimacy.\5\
---------------------------------------------------------------------------
    \5\ Unwed mothers set a record for births by Cheryl Wetzstein. The 
Washington Times. April 18, 2001.

    With Illegitimacy rates around 70 percent in the African-American 
community, where is the outrage, the demands, and the demonstrations by 
the Black Caucus or its leaders? If they will not represent the 
African-American Community then who will? What of the Hispanic 
leadership? The consequences of continued silence on these issues is 
frightening and devastating for their constituency.
What Social Science tells us about some of the causes of Illegitimacy
    White teenage girls in 1988, without fathers at home, were 72 
percent more likely than their father-present peers to become single 
mothers, while there was a 100 percent increase for black teenage 
girls,\6\ other studies also reported up to a 600 percent increase in 
teenage illegitimate births.\7\ In contrast, more involved fathers 
protect girls from engaging in first sex, lower the risk of using 
illicit substances, and also reduce the risk of violent behavior.'' \8\ 
This protection ``from engaging in first sex,'' or promoting 
abstinence, is the most certain way to reduce teenage pregnancy. 
Father-absence in teenage boys creates a 77 percent \9\ to 100 percent 
\10\ increase in the overall likelihood of fathering an illegitimate 
child and therefore, as the research has shown, perpetuating the 
father-absence cycle for another generation (or generations to come). 
Father-absence causes difficulty for girls in building a stable family 
in adulthood.\11\ Teenage girls run a 92 percent greater risk of 
continuing the divorce cycle.\12\ Fast forward to 1999 data and 71 
percent of pregnant teenagers lack a father.\13\
---------------------------------------------------------------------------
    \6\ S. McLanahan. Demography 25, Feb. 1988, p. 1-16.
    \7\ Y. Matsuhashi et al. (1988). J Adolescent Health Care 10, 409-
412.
    \8\ K. Harris et al. Paternal involvement with adolescents in 
intact families: The influence of fathers over the life course, 
presented at the annual meeting of the Am. Sociol. Assoc., New York, 
N.Y., August 16-20, 1996; Univ. of North Carolina at Chapel Hill, 
Chapel Hill, N.C., 27516, p. 28.
    \9\ W. Marsiglio Family Planning Perspective 19 Nov/Dec, 1987, 240-
251.
    \10\ B. Christensen. The Family in America. Vol 3, no. 4 [April 
1989], p.3.
    \11\ S McLanahan, L Bumpass. (July, 1988). Am J Sociol, 4, 130-152.
    \12\ Warren Farrell presentation at NCMC conference, 1992
    \13\ U.S. Dept. of Health & Human Services press release, Friday, 
March 26, 1999
---------------------------------------------------------------------------
    How can the tide of illegitimacy be stemmed without addressing 
underlying issues such as ``[d]aughters in single mother homes hav[ing] 
more negative attitudes toward men in general and their fathers in 
particular.'' \14\ Or, ``girls whose parents divorce may grow up 
without the day to day experience of interacting with a man who is 
attentive, caring and loving. The continuous sense of being valued and 
loved as a female seems an especially key element in the development of 
the conviction that one is indeed femininely lovable. Without this 
regular source of nourishment, a girl's sense of being valued as a 
female does not seem to thrive.'' \15\ And another study ``suggest[s] 
that father loss through divorce is associated with diminished self-
concepts in children . . . at least for this sample of children from 
the midwestern United States.'' \16\
---------------------------------------------------------------------------
    \14\ Brody and Forehand, Journal of Applied Psychology, 1990
    \15\ Kalter, American Journal of Orthopsychiatry, 1987
    \16\ Children's Self Concepts: Are They Affected by Parental 
Divorce and Remarriage Thomas S. Parish, Journal of Social Behavior and 
Personality, 1987
---------------------------------------------------------------------------
    The trend of illegitimacy requires the presence of a father in the 
daily lives of children. It is not just ``participation'' of a father 
in the lives of children. It is primarily the ``presence'' of a father:

          ``The decline of fatherhood is a major force behind many of 
        the most disturbing problems that plague America: crime and 
        juvenile delinquency; premature sexuality and out-of-wedlock 
        births to teenagers; deteriorating educational achievement; 
        depression, substance abuse, and alienation among adolescents; 
        and the growing number of women and children in poverty . . .
          Fathers are the first and most important men in the lives of 
        girls. They provide role models, accustoming their daughters to 
        male-female relationships. Engaged and responsive fathers play 
        with their daughters and guide them into challenging 
        activities. They protect them, providing them with a sense of 
        physical and emotional security. Girls with adequate fathering 
        are more able, as they grow older, to develop constructive 
        heterosexual relationships based on trust and intimacy. . . 
          Why does living without a father pose such hazards for 
        children? Two explanations are usually given: The children 
        receive less supervision and protection from men mothers bring 
        home, and they are also more emotionally deprived, which leaves 
        them vulnerable to sexual abusers . . . Even a diligent absent 
        father can't supervise or protect his children the way a live-
        in father can. Nor is he likely to have the kind of 
        relationship with his daughter that is usually needed to give 
        her a foundation of emotional security and a model for 
        nonsexual relationships with men . . . \17\
---------------------------------------------------------------------------
    \17\ D. Popenoe. ``Life without father.'' In: C. Daniels, ed. Lost 
fathers: The Politics of Fatherlessness in America. (New York: St. 
Martin's Press, 1998).
---------------------------------------------------------------------------
          ``Fathers who actively engage in joint activities and 
        interaction with adolescents promote their educational and 
        economic achievement and fathers who maintain a close stable 
        emotional bond with adolescents over time protect adolescents 
        from engaging in delinquent behaviors.'' \18\
---------------------------------------------------------------------------
    \18\ H. Biller, Paternal Deprivation: Family, School, Sexuality, 
and Society (Lexington, Mass.: D.C. Heath, 1974), p.114.

    Additional information about the impact of father involvement shows 
they ``play a significant role in terms of adolescent functioning'' 
\19\ ``teach them values,'' \20\ and ``[enhance] their career 
development, moral development, and sex role identification.'' \21\ 
``The continuing involvement of divorced fathers in families where 
mothers maintain physical custody has become recognized as an important 
mediating factor in the adjustment and well-being of children of 
divorce'' \22\ and ``frequent contact with the father is associated 
with positive adjustment of the children.'' \23\ ``[A fathers] 
involvement with children diminishes some of the negative consequences 
of living with a single mother''.\24\
---------------------------------------------------------------------------
    \19\ Thomas and Forehand, American Journal of Othopsychiatry, 1994
    \20\ Seltzer, Journal of Marriage and the Family, 1991
    \21\ Dudley, Family Relations, 1991
    \22\ Ahrons, and Miller, American Journal of Orthopsychiatry, 1993
    \23\ Ibid. Ahrons and Miller
    \24\ Seltzer, Shaeffer & Charing, Journal of Marriage & the Family, 
1989
---------------------------------------------------------------------------
    Jonetta Rose Barras, a Washington D.C. columnist, in her recent 
book,\25\ describes the lasting impact of fatherlessness on her and 
other women.
---------------------------------------------------------------------------
    \25\Jonetta Rose Barras. Whatever Happened to Daddy's Little Girl?: 
The Impact of Fatherlessness on Black Women. One World Ballantine 
(2000). As noted by the author of ``http:// wheres-daddy.com/
index.html'' ``Where's Daddy? The Mythologies behind Custody-Access-
Support.''

          ``Promiscuous fatherless women are desperately seeking love. 
        Or we are terrified that if we give love, it will not be 
        returned. So we pull away from it, refusing to permit it to 
        enter our houses, our beds, or our hearts. To fill the void 
        that our fathers created, we only make the hole larger and 
        deeper.
          ``If it is true that a father helps to develop his daughter's 
        confidence in herself and in her femininity; that he helps her 
        to shape her style and understanding of male-female bonding; 
        and that he introduces her to the external world, plotting 
        navigational courses for her success, then surely it is an 
        indisputable conclusion that the absence of these lessons can 
        produce a severely wounded and disabled woman.''
What about blended or ``re-constituted'' families?
    While not a substantial portion of the problem, increases of child 
sexual abuse is certainly a contributing factor.\26\ Child abuse occurs 
most frequently within stepfamilies, and, in fact, most sexual abuse 
occurs in stepfamilies.\27\ Sexual abuse of girls by their stepfathers 
can be at a minimum six or seven times higher,\28\ and may be up to 40 
times \29\ that of sexual abuse by biological fathers in intact 
families. There seems to be little substitute for the presence of a 
caring biological father. Children living with a mother and stepfather 
fared poorly on most indicators.\30\ When it comes to the risk of abuse 
with unrelated males, Barbara Dafoe Whitehead explains:
---------------------------------------------------------------------------
    \26\ A Sedlak (August 30, 1991). ``Supplementary Analyses of Data 
on the National Incidence of Child Abuse and Neglect'' (Rockville, Md.: 
Westat) table 6-2, p. 6-5. see also, Gomes-Schwartz, Horowitz, and 
Cardarelli, Child Sexual Abuse Victims and their Treatment, 1988 (69 
percent of victims of child sexual abuse came from homes where the 
biological father was absent)
    \27\ David M. Fergusson, Michael T. Lynskey, and L. John Horwood, 
(1996). ``Childhood Sexual Abuse and Psychiatric Disorders in Young 
Adulthood: I. Prevalence of Sexual Abuse and Factors Associated with 
Sexual Abuse,'' Journal of the American Academy of Child and Adolescent 
Psychiatry, Vol. 34, pp. 1355-1364.
    \28\ Diana E. H. Russell, (1984). ``The Prevalence and Seriousness 
of Incestuous Abuse: Stepfathers vs. Biological Fathers,'' Child Abuse 
and Neglect, Vol. 8, pp. 15-22.
    \29\ See Wilson and Daly, ``The Risk of Maltreatment of Children 
Living with Stepparents,'' p. 228.
    \30\ National Center for Health Statistics, June 1991.

        ``Stepfathers also pose a sexual risk to children, especially 
        stepdaughters. They are more likely than biological fathers to 
        commit acts of sexual abuse, and are less likely to protect 
        daughters from other male predators. According to a Canadian 
        study, children in stepfamilies are forty times as likely to 
        suffer physical or sexual abuse as children in intact 
        families.'' \31\
---------------------------------------------------------------------------
    \31\ M Daly, M Wilson. Homicide (N.Y.: Aldine de Gruyter, 1988), 
p.89.

    It is worth noting that stepfathers cannot make up for the lack of 
---------------------------------------------------------------------------
a biological father. In fact, Maggie Gallagher notes:

        ``Children in stepfamilies do no better on average than 
        children in single-parent homes . . .Failing to understand the 
        erotic relations that are at the heart of family life, they 
        [sociologists] failed to predict what, sadly and surprisingly, 
        later research strongly suggested: Remarriage is not only not 
        necessarily a cure; it is often one of the risks children of 
        divorce face.'' \32\
---------------------------------------------------------------------------
    \32\ M. Gallagher, (1996). The abolition of Marriage: How We 
Destroy Lasting Love. DC., Regnery Pub, Chapter 6.
---------------------------------------------------------------------------
    Between the years of 1975 and 1990, welfare incentives and feminist 
marriage hatred served to severely damage the foundations of American 
families. During this period, as entrenched feminist experiments 
denigrating marriage and fatherhood have excluded fathers from their 
children's lives, we find the marriage rate falling and the divorce 
rate rising. SAT scores had even fallen to all-time lows while teen 
births and the crime rate exploded. The divorce rate, teen birth rate, 
and the crime rate each doubled between 1975 and 1990. SAT scores fell 
in 1975 and then dipped below 900 for the first time in 1980. They have 
remained at that low level.\33\
---------------------------------------------------------------------------
    \33\ Index of Leading Indicators, Washington Times, 1994
---------------------------------------------------------------------------
    Congress recently passed a program calling it a ``Fatherhood'' 
program, giving 150 Million dollars for the central focus and purpose 
of turning fatherhood into a paycheck. In reading the Testimony by 
Robert Rector of the Heritage Foundation,\34\ it would appear that lip 
service was paid to the issue of fatherhood, but apparently a father-
child relationship is completely useless. The only ``counting'' done in 
the ``Fathers Count Act'' is the counting of the amount of money that 
can be extracted from men. This in spite of the studies showing 
``[r]eceipt of child support does not appear to make a significant 
difference'' and ``the presence of a step-parent does not significantly 
improve a child's situation.'' \35\ Or what about, 90 percent of 
fathers with joint custody pay the ordered child support. 79.1 percent 
of fathers with visitation rights pay the ordered child support. 44.5 
percent of fathers with no visitation rights pay the ordered child 
support.\36\ One must wonder, why the focus on increasing child support 
compliance when it is not the crisis that illegitimacy and 
fatherlessness is. It is both fascinating and bewildering that this 
appears to be the Congressional view of Fatherhood. What is funded in 
the ``Fathers Count Act'' to create father-child involvement? Who is 
the real deadbeat? Why is Congress so enmeshed in its support of anti-
marriage, anti-father special interests, and government programs that 
uselessly expend BILLIONS of taxpayer dollars \37\ each year that no 
one wants to ``rock the boat?''
---------------------------------------------------------------------------
    \34\ THE FATHERS COUNT ACT OF 1999. Testimony by Robert Rector of 
the Heritage Foundation before the Ways and Means committee. October 5, 
1999. available online at; http:// www.heritage.org/library/testimony/
test100599 . html
    \35\ K. Harris. Reuters. Fathers' Care Benefits Children. N.Y., 
August 25, 1998.
    \36\ Census Bureau report. Series P-23, No. 173
    \37\ The Office of Child Support Enforcement expends taxpayer funds 
of nearly 5 BILLION dollars per year to continue a government run 
system that is essentially a ``mess'' based on garbage data, draconian, 
and arguably unconstitutional tactics as elaborated in previous 
testimony that I have submitted. Serial No. 106-107--H.R. 1488, The 
``Hyde-Woolsey'' Child Support Bill, March 16, 2000, beginning on Page 
94. Can be viewed online at; http://frwebgate.access.gpo.gov/cgi-bin/
getdoc.cgi?dbname=106__house__hearings&docid=f:71291.pdf
---------------------------------------------------------------------------
For more extensive information on the issue of the current 
        fatherlessness problem, please see my recently submitted 
        Congressional Testimony on the US House of Representatives web 
        site, Serial Number 107-38, June 28, 2001, regarding Fatherhood 
        proposals;
http://waysandmeans.house.gov/humres/107cong/6-28-01/record/
        chillegalfound.htm.
Also, please see the companion legal brief raising Constitutional 
        issues related to fatherlessness that was submitted for the 
        record in this same hearing, but ended up excluded from the 
        official printed record at;
http://personal.clt.bellsouth.net/woodb01/Custody/
        Equal__custody__statement__ of__william__wood.htm
Excerpts from California Governor Wilson's Focus On Fathers Summit 
        (1995), sheds some light on the issues:
    Wade Horn, National Fatherhood Initiative: Our 3 decade experiment 
with fatherlessness has failed. 23 million children will be sleeping in 
fatherless homes tonight. The divorce rate tripled between 1960 and 
1980. 40 out of 100 families divorce now compared to 16 out of 100 in 
1960. Illegitimacy has followed a geometric progression from 10.7 
percent in 1970 to 33 percent today. 40 percent of children in 
fatherless homes have not seen their fathers for more than 1 year. 58 
percent have never been in their fathers homes. 75 percent of single 
parent families live in poverty versus 20 percent of 2-parent families. 
Single-parent households produce: 60 percent of repeat rapists, 72 
percent of murderers and 70 percent of long-term imprisoned. This is 
not an attack on mother-headed households. Fathers just do things 
differently and this can't be replaced with AFDC, Welfare, etc. Divorce 
has severe consequences on children. We must change the way we look at 
it. We are running out of time because soon the majority of children 
will be raised in single-parent families. The issue is father contact, 
not money.
    In reviewing this commentary by the current Secretary of the Health 
and Human Services Organization, is it any wonder that anti-marriage, 
anti-family, and anti-father factions were so adamantly opposed to his 
appointment? In the face of all of the social studies data 
demonstrating the complete and utter destruction of children, families, 
and our future (our Constitutional ``posterity''); Who was the 
opposition to his appointment really supporting?'' When will someone 
actually speak for the children; the teenage mothers and their 
offspring, rather than supporting such culturally corrosive, completely 
failed, anti-father/anti-marriage programs and interests? Who is the 
real ``deadbeat'' here?

        Hogan Hillings: We must promote father presence. Fatherlessness 
        is a problem which feeds itself--a fatherless child grows up 
        without a male role model and then has difficulty being a 
        father to his own children. Fatherlessness is not a passing 
        fancy that will go away. Human costs are larger than the dollar 
        costs and the dollar costs are enormous. [Look at the] enormous 
        size of the welfare and prison budgets.

                1. Teen pregnancy must be stigmatized through education 
                and responsible media.
                2. Families must be strengthened because families are 
                the best environment for children.
                3. Policies must be developed to encourage and permit 
                parenting by fathers.
                4. Strengthen laws holding parents responsible for 
                children's actions.
                5. Develop male role models for the children of mother-
                headed households.

    From the same summit, in the section ``Causes and Cures for 
Fatherless Children'' reveals an interesting view of our current 
``divorce-promotion'' system (we call it ``no-fault'');

        Several public policies have been criticized by father's rights 
        lobbyists as harming the crucial father-child relationship. 
        Some public policies that exacerbate fatherlessness and 
        abnormal childhood development are:
                1. The use of so called ``no-fault'' divorce laws. This 
                has made divorce easy and typically results in children 
                having less time with their fathers.\38\ Marvin 
                Mitchelson, a famous lawyer who specializes in man and 
                woman relations, has been quoted as saying ``The 
                (present) easy grounds (for divorce) and no-fault 
                system of divorce (in some states) mean that anyone can 
                go to court and get a divorce with very little 
                effort.'' . . . Some states still don't have no-fault 
                laws, and those that do might consider repealing them 
                for the childrens' sake.
---------------------------------------------------------------------------
    \38\ 67 to 75 percent of all divorces are initiated by the female 
partner: 74 to 80 percent of unilateral (non-mutual) divorces--Maggie 
Gallagher, The Abolition of Marriage: How We Destroy Lasting Love, 
Washington, DC: Regnery, 1996, who cites Frank F. Furstenberg, Jr. and 
Andrew J. Cherlin, Divided Families: What Happens to Children When 
Parents Part, Harvard University Press, 1991, p. 22. Ilene Wolcott and 
Jody Hughes, ``Towards Understanding the Reasons for Divorce,'' 
Melbourne: Australian Institute of Family Studies, Working Paper No. 
20, June 1999, as quoted in The Australian, 5 July 1999. Beuhler, 
``Whose Decision Was It?'' Journal of Marriage and the Family, Vol. 48, 
pp 587--595, 1987. Braver & O'Connell, Divorced Dads, Tarcher Putnam, 
1998, p. 34. Lynn Gigy & Joan Kelly, ``Reasons for Divorce: 
Perspectives of Divorcing Men and Women,'' Journal of Divorce and 
Remarriage, Vol. 18, 1992. Braver, Whitley, Ng, ``Who Divorced Whom? 
Methodological and Theoretical Issues,'' Journal of Divorce and 
Remarriage, Vol. 20, 1993.
---------------------------------------------------------------------------
                2. Awarding sole physical custody of children after 
                divorce to one parent instead of joint physical 
                custody. Several states have tried to make joint 
                custody the default, and some states, like Washington, 
                even permit joint custody over one parent's objection. 
                Joint physical custody helps children get the fathering 
                they need to develop normally.\39\
---------------------------------------------------------------------------
    \39\ Please see my previously submitted legal brief on the 
Constitutional issues related to this. It was submitted for the June 
28, 2001 Fatherhood proposal hearings but was excluded from the printed 
record. It can be seen online here; http://personal.clt.bellsouth.net/
woodb01/Custody/Equal__custody__statement__of__william__wood.htm
---------------------------------------------------------------------------
                3. The non-enforcement of visitation agreements. This 
                permits bitter ex-spouses to deny children visits with 
                their fathers. Encouragingly, Arizona, Colorado and 
                Illinois have passed laws that enforce visitation.
                4. The immunity enjoyed by bitter divorcing spouses who 
                file contrived restraining orders to separate children 
                from their fathers. For example, a Massachusetts 
                ``2090A'' restraining order prohibits children from 
                having reasonable visitation and adequate fathering, 
                and this is routinely justified by unproven 
                allegations. California has recently passed a law, SB 
                558, which will hopefully allow more fathering in that 
                state. It makes false convictions of child abuse a 
                justification for change of custody.
                5. The practice of putting children in day-care when 
                divorced fathers are willing to care for them. Some 
                states, like Virginia and California, have introduced 
                legislation dubbed ``Mrs. Doubtfire'' bills that 
                encourage children to be cared for by their fathers 
                instead of sending them to day care facilities.
Conclusion
    We are at a fork in the road in American History, we have been 
attacked from outside by terrorist forces bent on destroying our 
country, our culture, and our way of life. Yet inside, special 
interests who routinely use intentionally deceptive child-centered 
propaganda are causing little lives to be destroyed and are 
destabilizing our culture and our nation for generations to come. Only 
History will tell which forces, those external, or from within our own 
shores, will have more devastating or far-reaching consequences. Will 
we win the culture war that has been quietly escalating for decades 
with children and families as their ultimate casualties?
    We can no longer afford to tolerate the special interest advocates 
of culturally corrosive and child destroying ideologies, promoting 
their anti-marriage, anti-father, ``promiscuous free-for-all''. No 
longer can we turn a ``blind-eye'' to single-parenthood, and engage in 
``Hollywood-esque'' ridicule of those who would see the tragedy of 
single-parenthood for what it is.\40\ Nor can we turn a blind-eye to 
the continuing carnage of generation after generation of failed welfare 
policies, failed ``no-fault'' divorce \41\ experiments, and the social 
studies data showing the causal links to the destruction of children. 
Our Constitution and the oaths that all elected officials take mandate 
that we must take a hard look at these issues, and make hard decisions 
for the ``posterity'' of our Nation. That posterity is our children and 
their children for generations to come. What examples and life-lessons 
will they pass on?
---------------------------------------------------------------------------
    \40\ See earlier notes on Dan Quayle and the ``Murphy Brown'' 
incident.
    \41\ In fact, if one seriously considers the idea of ``no-fault'' 
it is a complete logical fallacy as practiced. ``No-fault'' simply 
means that the individual who is willing to shred the marriage contract 
bears absolutely no consequences for its destruction, or the attendant 
negative consequences for all of the parties. ``No-fault'' is an 
absolute guarantee that the ``fault'' will be transferred to the party 
who does not desire or seek the destruction of the social contract of 
marriage. Because in ``no-fault'' the non-moving, non-divorcing party 
who often is TRULY NOT AT FAULT is crushed by the state divorce machine 
that guarantees the divorcing party in the action that they will 
receive that divorce with the full force and weight of the state 
divorce machinery in the courts.
---------------------------------------------------------------------------
    This Congress must also consider very seriously its place in 
History. Every administration and every Congress holds some place in 
the History books. Looking back some 50, 100, or more years from now, 
what will be the historical judgment and verdict of this Congress? With 
so great a resource of detailed social studies data available 
universally pointing to signs that we are taking our children in the 
wrong direction, what will you do? How will you stand up and support 
your constituent's children, and their children? How will the history 
books show your grandchildren you dealt with this hidden internal 
crisis?
Recommendations (several of them extracted from, or adapted from 
        Governor Wilson's Focus on Father's Summit)
    1. Make supporting marriage--not just marriage neutrality--the 
goal. Healthy marriages benefit the whole community. Conversely, when 
marriages fail, huge personal and public costs are generated. If we can 
help more marriages to succeed, it would be foolish and wrong-headed to 
settle for policies that are merely neutral about marriage. There is no 
neutrality with a state ensuring the end of the marriage contract 
through a ``no-fault'' fiction when one party objects to the end of a 
marriage.
    2. Respect the special status of marriage. Do not extend the 
benefits of marriage to couples who could marry, but choose not to. 
Offering the social and legal benefits of marriage to cohabiting 
couples unfairly and unwisely weakens the special option of marriage.
    3. Reconnect marriage and childbearing. Do not discourage married 
couples from having children as they choose, and encourage young men 
and women to wait to have children until they have made good marriages, 
not just until they have high school diplomas or turn twenty-one.
    4. Do not discourage marital interdependence by penalizing unpaid 
work in homes and communities. Couples should be free to divide up 
labor however they choose without pressure from policies that 
discriminate against at-home parenting and other activities that serve 
civil society.
    5. Promote both the ideal of marital permanence and the aspiration 
couples today have for more satisfying marriage relationships.
    Require a portion of the TANF funds to be used to promote marriages 
and father involvement.\42\ Award special ``bonus grants'' of TANF 
funds to foster marriage promotion ideas such as when, in 1999, then 
Texas Governor George W. Bush signed a bill increasing the marriage 
licensing fee by $5.00 to create a premarital education manual for 
distribution to all marrying couples and to fund new premarital and 
marital education research. In addition, then Governor Bush's bill 
directed county clerks to keep a register of premarital educators for 
supply to potential spouses and outlines suggested course content for 
premarital education.
---------------------------------------------------------------------------
    \42\ 5 Wm. & Mary J. Women & L. 1 (1998)--HOW JUDGES USE THE 
PRIMARY CARETAKER STANDARD TO MAKE A CUSTODY DETERMINATION. Page 37. 
``Compared with those [children] raised in intact two-parent families, 
adults who experienced a parental divorce had lower psychological well-
being, more behavioral problems, less education, lower job status, a 
lower standard of living, lower marital satisfaction, a heightened risk 
of divorce, a heightened risk of being a single parent, and poorer 
physical health.'' (as cited from Paul R. Amato, Life-span Adjustment 
of Children to Their Parents' Divorce, in 4 The Future of Children page 
146. (1994))
---------------------------------------------------------------------------
    Find ways to encourage states to enact pro-marriage and anti-
divorce programs. In 1998 and 1999, governors in three states--
Louisiana, Utah, and North Carolina--signed marriage proclamations, 
recognizing the importance of marriage to the public good. Sign a 
Federal Marriage proclamation and a Congressional Resolution 
recognizing the importance of marriage.
    Reward those states that are successful in reducing divorce and 
encouraging marriage with additional TANF Fund block grants or other 
incentives. To successfully stem the tide of family instability could 
save the taxpayers untold BILLIONS AND BILLIONS of dollars in chemical 
dependency programs, welfare programs, child support collection 
programs, prison and jail construction, courthouse construction (and 
their additional staffing), and other assorted costs in productivity 
and generational dependency.
    Federal and State governments have an obligation of promoting ``a 
more perfect union . . . establish[ing] justice . . . insur[ing] 
domestic tranquility . . . promot[ing] the general welfare . . . and 
secur[ing] the blessings of liberty to ourselves and our 
posterity''.\43\ What better way to make good on this Constitutional 
principle for our children and grandchildren than to strengthen and 
promote marriage and family while reducing divorce.
---------------------------------------------------------------------------
    \43\ As excerpted from the preamble of the US Constitution. This 
preamble sets these principles forth as the GUIDING PRINCIPLES FOR ALL 
CONSTITUTIONAL INTERPRETATION.
---------------------------------------------------------------------------

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
